<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR 2000</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
 DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED
                      AGENCIES APPROPRIATIONS FOR 2000

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS
                              FIRST SESSION
                                ________

  SUBCOMMITTEE ON THE DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, 
                    EDUCATION, AND RELATED AGENCIES

                 JOHN EDWARD PORTER, Illinois, Chairman
 C. W. BILL YOUNG, Florida            DAVID R. OBEY, Wisconsin
 HENRY BONILLA, Texas                 STENY H. HOYER, Maryland
 ERNEST J. ISTOOK, Jr., Oklahoma      NANCY PELOSI, California
 DAN MILLER, Florida                  NITA M. LOWEY, New York
 JAY DICKEY, Arkansas                 ROSA L. DeLAURO, Connecticut
 ROGER F. WICKER, Mississippi         JESSE L. JACKSON, Jr., Illinois
 ANNE M. NORTHUP, Kentucky
 RANDY ``DUKE'' CUNNINGHAM, 
California                          

 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
  S. Anthony McCann, Robert L. Knisely, Carol Murphy, Susan Ross Firth,
                and Francine Salvador, Subcommittee Staff
                                ________
                                 PART 5

                         DEPARTMENT OF EDUCATION
                                                                   Page
 Secretary of Education...........................................    1
 Elementary and Secondary Education, Bilingual Education..........  131
 Howard University................................................  205
 Special Institutions for Persons with Disabilities...............  251
     American Printing House for the Blind
     Gallaudet University
     National Technical Institute for the Deaf
 Special Education and Rehabilitative Services....................  327
 Vocational and Adult Education...................................  371
 Educational Research and Improvement.............................  423
 Postsecondary Education..........................................  475
                                ________
         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 56-783                     WASHINGTON : 1999


                        COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                    DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California               JOHN P. MURTHA, Pennsylvania
 JOHN EDWARD PORTER, Illinois          NORMAN D. DICKS, Washington
 HAROLD ROGERS, Kentucky               MARTIN OLAV SABO, Minnesota
 JOE SKEEN, New Mexico                 JULIAN C. DIXON, California
 FRANK R. WOLF, Virginia               STENY H. HOYER, Maryland
 TOM DeLAY, Texas                      ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                    MARCY KAPTUR, Ohio
 RON PACKARD, California               NANCY PELOSI, California
 SONNY CALLAHAN, Alabama               PETER J. VISCLOSKY, Indiana
 JAMES T. WALSH, New York              NITA M. LOWEY, New York
 CHARLES H. TAYLOR, North Carolina     JOSE E. SERRANO, New York
 DAVID L. HOBSON, Ohio                 ROSA L. DeLAURO, Connecticut
 ERNEST J. ISTOOK, Jr., Oklahoma       JAMES P. MORAN, Virginia
 HENRY BONILLA, Texas                  JOHN W. OLVER, Massachusetts
 JOE KNOLLENBERG, Michigan             ED PASTOR, Arizona
 DAN MILLER, Florida                   CARRIE P. MEEK, Florida
 JAY DICKEY, Arkansas                  DAVID E. PRICE, North Carolina
 JACK KINGSTON, Georgia                CHET EDWARDS, Texas
 RODNEY P. FRELINGHUYSEN, New Jersey   ROBERT E. ``BUD'' CRAMER, Jr.,
 ROGER F. WICKER, Mississippi            Alabama
 MICHAEL P. FORBES, New York           JAMES E. CLYBURN, South Carolina
 GEORGE R. NETHERCUTT, Jr.,            MAURICE D. HINCHEY, New York
Washington                             LUCILLE ROYBAL-ALLARD, California
 RANDY ``DUKE'' CUNNINGHAM,            SAM FARR, California
California                             JESSE L. JACKSON, Jr., Illinois
 TODD TIAHRT, Kansas                   CAROLYN C. KILPATRICK, Michigan
 ZACH WAMP, Tennessee                  ALLEN BOYD, Florida
 TOM LATHAM, Iowa
 ANNE M. NORTHUP, Kentucky
 ROBERT B. ADERHOLT, Alabama
 JO ANN EMERSON, Missouri
 JOHN E. SUNUNU, New Hampshire
 KAY GRANGER, Texas
 JOHN E. PETERSON, Pennsylvania     
                                    

                 James W. Dyer, Clerk and Staff Director

                                  (ii)




DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 2000

                              ----------                              

                                            Tuesday, March 9, 1999.

                        DEPARTMENT OF EDUCATION

                               WITNESSES

RICHARD W. RILEY, SECRETARY OF EDUCATION
THOMAS P. SKELLY, DIRECTOR, BUDGET SERVICE

                       Introduction of Witnesses

    Mr. Wicker. The hearing will come to order. Our chairman, 
John Porter, is stuck in traffic, and I know how he feels 
because I was stuck in traffic earlier this morning. But he has 
called in and asked us to get started. I think other members of 
the subcommittee will be coming as their schedules permit.
    But we are delighted today to have our Secretary of 
Education, Richard W. Riley, as our witness. Secretary Riley, I 
understand you are joined by some other fine employees of your 
department. If you will introduce them and then proceed in your 
own fashion.
    Secretary Riley. Thank you, sir. I have Mr. Tom Skelly with 
me, who is director of Budget Services and has been a loyal 
employee of the Department for many years and I couldn't do 
without him. And I guess it proves that we Southerners can 
handle the snow better than those from Illinois.

                           Opening Statement

    I am pleased to be here and discuss the President's fiscal 
year 2000 budget request for the Department of Education. I 
have a longer statement, Mr. Chairman, that I would submit and 
give a shorter statement here, if that is satisfactory.
    I want to begin by thanking the members of this 
subcommittee for your support of education over the years. I 
think together we are making the investments that need to be 
made to prepare all Americans for the challenges of the new 
millennium, which of course is just around the corner, and let 
me give you a few examples of some good things that I think are 
happening and have happened.


                 comprehensive school reform initiative


    First I will cite the program that is close to the 
subcommittee, the Comprehensive School Reform Initiative, known 
in Illinois as the Porter-Obey bill, in Wisconsin as the Obey-
Porter bill. I have enthusiastically supported this important 
initiative to help schools adopt models of proven reforms, 
things that have been shown to work.
    The President's budget calls for an increase of $30 million 
for this program, bringing it to $175 million, and this would 
allow us to provide new grants to approximately 560 additional 
schools, and to continue to support 2,700 schools already using 
the Porter-Obey funds.
    This initiative, I think, is a good example of how Federal 
resources can help support local schools' improvement efforts. 
Sometimes the hardest money for schools to find is the money 
that is needed to build and to sustain long-term change. Many 
schools find it difficult to find these resources in their base 
budgets, so every Porter-Obey dollar, I think, is a precious 
dollar, and is well spent.


                               goals 2000


    Another Federal initiative that provides very important 
dollars for sound reform is Goals 2000. With the help of Goals 
2000, 48 States now have developed and are continuing to 
develop challenging State standards, two others have encouraged 
rigorous locally developed standards as a result of their State 
governmental operations. So really all 50 States now are 
working on standards in one degree or another.
    A recent GAO report found that State officials described 
Goals 2000 as a significant factor in promoting their education 
reform efforts. I think that is a very supportive statement 
that is important. We are requesting $491 million for Goals 
2000 to support improvements in 14,000 schools.


                        improving reading skills


    Improving reading is another good key goal for this 
administration. Over 20,000 college students in the Federal 
Work-Study program are tutoring youngsters in reading under the 
President's ``America Reads'' challenge. Their work, along with 
improvements that we have made in Title I, will build on 
progress that we are making in reading.


                          naep reading scores


    Reading scores suffered a significant decline between '92 
and '94, but the latest National Assessment of Educational 
Progress, (NAEP) test, found that scores are on the upswing 
again and significantly so. Reading scores for grades 4, 8 and 
12 rose between '94 and '98, the first time that all three 
grades showed improvement in the history of NAEP. The 
additional $26 million that we are asking for the Reading 
Excellence Act will help us keep moving in the right direction.


                          access to computers


    The Federal Government is also playing a key role in 
helping all children to have access to computers in all 
schools. Eighty-nine percent of the schools are connected to 
the Internet but only 51 percent of all classrooms. E-rate 
discounts are critical to reaching our goal of connecting every 
classroom, but we are on the road to doing that.


                   technology literacy challenge fund


    Federal resources account for some 25 to 30 percent of all 
the money spent on educational technology in our schools. We 
will make sure that America keeps the technological edge that 
has helped our economy grow, and that is why $450 million for 
the Technology Literacy Challenge Fund, an increase of $25 
million, is so important to our Nation's future.


                   increasing higher education access


    In Higher Education, the new Hope and Lifetime Learning tax 
credits will give 12.7 million students and their families $7.5 
billion to pay for college expenses in the year 2000. These tax 
credits, along with our request for a $125 increase in the 
maximum Pell Grant and a $64 million increase for the Work-
Study program, will open the doors of college wider than ever 
before.


                           gear up initiative


    We also seek to double the funding for the exciting new 
GEAR UP initiative. At $240 million, GEAR UP would provide 
mentoring, tutoring and career counseling to about 381,000 
disadvantaged students in almost 970 high-poverty middle 
schools.

         Strengthening Accountability and ESEA Reauthorization

    But this budget is about more than money. As President 
Clinton has stated, strengthening accountability will be a key 
focus of our efforts this year, particularly in this year's 
reauthorization of the Elementary and Secondary Education Act. 
The President's budget backs this effort with increases in two 
areas:
    First, to help end social promotion and keep children safe 
and learning, we are asking for $600 million for after-school 
and summer programs. Social promotion doesn't work, but simply 
retaining children doesn't work either.

                21st Century Community Learning Centers

    We must help children to make the grade and it is the 
system's responsibility to do that. After-school learning 
opportunities can help children to catch up academically. Our 
proposal for 21st Century Community Learining Centers, which 
triples last year's request, will expand learning opportunities 
for 1.1 million students.

                   Title I Accountability Provisions

    Second, under our ESEA reauthorization request, the request 
for Title I grants contains $200 million to turn around low-
performing schools. Contrary to some press reports, it is not 
an attempt to expand Federal control. We simply want to press 
for implementation of Title I accountability provisions that 
Congress established during the last ESEA reauthorization.

                            Charter Schools

    We are also calling for $130 million for public charter 
schools, an increase of $30 million to support up to 2,200 
schools. There was one charter school in America when President 
Clinton took office. Public charter schools give parents choice 
with accountability without bleeding public schools of vital 
funds.

                      Class Size Reduction program

    Better teaching is another major emphasis in this budget. 
Our 2000 budget contains the second installment of our class 
size reduction initiative to recruit and prepare 100,000 good, 
new teachers in order to help reduce class size in grades one 
to three by the year 2005 to a nationwide average of 18 
students. The request includes $1.4 billion to hire 38,000 more 
teachers in the second year of the seven-year program.
    The House will soon vote on the Ed-Flex bill, which we 
support, but we also support strongly the amendment offered by 
Representatives Clay and Wu to fully fund the teacher 
initiative, the class size reduction initiative, so that we can 
put the full complement of 100,000 teachers in classrooms over 
the next six years.

          School construction and modernization tax incentive

    Even though it is not part of our discretionary request, I 
want to highlight here the School Construction and 
Modernization tax incentive. Teaching and learning suffer in 
schools that are in disrepair, that are overcrowded, that are 
so old that they cannot accommodate new technology. The 
President's proposal would support almost $25 billion in 
interest-free bonds to repair, build, modernize 6,000 schools' 
classrooms.

               Increasing the pool of qualified teachers

    The budget also includes $115 million, an increase of $40 
million, to help, among other things, reduce shortages of 
qualified teachers in high-poverty school districts. A $25 
million increase for Bilingual Education Professional 
Development will help address the shortage of good bilingual 
and English-as-a-second-language teachers. And the $10 million 
American Indian Teacher Corps program would recruit and train 
1,000 new Indian teachers over the next five years to work in 
Native American communities. For Troops to Teachers, $18 
million is requested. This program is designed to help 
qualified people, like retired military and mid-career 
professionals, to go into teaching, by providing a rigorous, 
alternative route for certification for teaching.

                       safe and drug-free schools

    In the critically important area of school safety, our $439 
million request for Safe and Drug-Free Schools would target 
larger grants to school districts with the worst problems by 
requiring States to distribute 30 percent of their allocations 
as competitive grants. We also propose $50 million, an increase 
of $15 million, to pay for 1,300 antidrug coordinators for 
6,500 middle schools.

                            Adult education

    And, finally, the President's budget includes significant 
increases for programs to help adult Americans master literacy 
and other basic skills. The Adult Education State Grants, for 
example, would increase by $103 million, or 28 percent, to 
expand programs to help immigrant and limited English 
proficient adults learn English.

                  ``The victory is in the classroom''

    In closing, last November, John Stanford, the brilliant 
superintendent of schools in Seattle, died. John was a very 
positive person and had a major influence on Seattle, bringing 
people together. I have never seen one school leader have such 
a strong effect on a community, and the improvement in the 
schools was in line with his ability to do that.
    John had a saying and that was this: ``The victory is in 
the classroom.'' I think we all recognize the need for high 
standards, for technology, for better reading, for research-
based reform, for after-school programs and other improvements. 
Now we must make sure that all of these are implemented in 
every classroom, in every school.
    We have got standards very well set on the State level and 
they are moving in the direction of the classroom. But our job 
really, I think, is to help States and school districts get 
standards in the classroom with prepared teachers and so forth. 
This budget will bring us closer to that goal. I will be very 
pleased, sir, to respond to questions.
    [The statement of Richard W. Riley follows:]
    Offset Folios 10 to 16 Insert here

<SKIP PAGES = 007>

                          Public School choice

    Mr. Wicker. Thank you very much for your fine testimony, 
Mr. Secretary.
    Let me begin by asking you about a letter that I wrote to 
you on January 22, 1999, a letter in response to the 
President's State of the Union address wherein he discussed 
education, and the President had this to say: ``We must empower 
parents with more information and more choices. In too many 
communities it is easier to get information on the quality of 
the local restaurants than on the quality of the local schools. 
Every school district should issue report cards on every 
school.''
    And I would interject here that there is very little value 
in getting information to the parents about the quality of the 
school if there is no other school for those parents to send 
their children.
    The President goes on to say, ``And parents should have 
more choice in selecting their public schools.''
    Now on January 22, I wrote to you and told you how pleased 
I was that the President was endorsing public school choice, 
and I stated that I would appreciate your sharing with me the 
details of the President's plan which you will be charged with 
implementing. I have not yet received a response from you on 
that letter. I just wondered if you could flesh out what the 
President's proposal will be in this regard.
    Secretary Riley. All right, sir. I am not familiar with the 
lack of a response, but I will see that you get a response very 
soon.
    First of all, on the report card idea, I think I differ 
with you somewhat when you state that it doesn't help a parent 
who has a child in a school unless they have a large array of 
schools to choose from. As you know, as the President said, we 
strongly support public school choice, which you indicate you 
appreciate. But if you have a child in a school and you get 
information about that school, I think it empowers parents then 
to go to the principal, to go to the school board, to go to the 
teacher and ask questions and give ideas and opinions.
    The idea of having public school choice I think is good. We 
of course propose an increase in the charter school program and 
also magnet schools, and schools within schools, all of the 
different options for public school choice. But I do think that 
report cards, which are ideas that we gleaned from the States, 
and the school districts, are good. Those States that are 
working well have that kind of reporting back to parents and 
that works.

                        Private School Vouchers

    As you well know, I am opposed to private school vouchers 
and I think we differ on that issue. I am very much in favor of 
quality private schools as an option, but I don't think that 
Federal dollars should be spent through parents to finance the 
choice for private schools. But I am very much in favor of 
public school choice and I believe parent involvement and 
parent empowerment are important.

                          Public School Choice

    Mr. Wicker. Well, let me just say that this question is 
certainly, as you understand, not about private school 
vouchers; that is a discussion for another day. I think you and 
I both strongly support public education. I have done so as a 
State legislator, you as a Governor, and then here in 
Washington, D.C. also.
    But is there something in the President's proposal for 
public school choice beyond public charter schools, which you 
mentioned in your testimony, and magnet schools? I wonder how 
much thought or how much research your Department has given, 
Mr. Secretary, to the idea of choice between existing public 
schools, even choice between school districts.
    We had some testimony in the V.A.-HUD Subcommittee from the 
National Science Foundation the other day about how our math 
and science scores are at the bottom worldwide in the United 
States, and yet our colleges and universities in the United 
States are second to none. As a matter of fact, people from all 
over the world want to come to the United States to go to 
college, and I would submit to you, Mr. Secretary, that is 
because we have so much competition among our colleges and 
universities. They wake up every morning realizing they have to 
compete for students.
    Somehow we have not been able to establish the sort of 
competition which has worked in every sector, every aspect of 
American society; we haven't been able to do that between 
public schools. In a school district where there is a poor 
public school, and I think you and I both acknowledge there are 
a lot of those, the parents have the choice of moving. They can 
move, but some parents don't have that choice because they are 
locked into that particular poor school district.
    It just seems to me if we could establish some sort of 
system, if the Department of Education could encourage a system 
where a parent who is willing to drive his kid over to the next 
school district can do so, that would go a long way toward 
making these school districts do the same thing that our 
colleges do, and that is compete for students. I wonder what 
your thoughts are on that.

                 ESEA Reauthorization and School Choice

    Secretary Riley. I don't disagree with the tone of your 
question. In our reauthorization of the Elementary and 
Secondary Education Act which we will be submitting soon, we 
are looking at some ways to encourage choice within the public 
school system, but of course that is a State and local matter 
primarily, and we can't go too far in it and shouldn't.

           Important Choice Within Schools--Course Selection

    I would say one thing that I think is important, though. We 
hear a lot of talk about choice, and I think it is a good 
option for people to have within the public system, but the 
important choice that probably shows up more in terms of the 
success of students is the choice of classes that students take 
in schools, especially high school and so forth where they can 
make a choice. Of course we have the GEAR UP program, which is 
designed to help connect up the higher education system with 
the middle school, and TRIO, and other efforts, all designed to 
connect up to the strong higher education system, in order to 
provide college preparation and awareness activities, advice, 
help, counseling and mentoring to kids in middle school and 
high school.
    But it is right within the walls of the student's school 
that serious choices are made. How many science courses is a 
kid going to take to get ready for college? There is a choice 
of taking trigonometry or calculus and so forth, or algebra in 
the eighth grade. Those kinds of choices, I would submit to 
you, Mr. Chairman, also are very, very significant, along with 
a choice of another school. Those students who choose to take 
those difficult courses end up in large percentages going to 
college. Such choices factor a lot more so than a choice of a 
different school.
    Mr. Wicker. Thank you, Mr. Secretary.

                   Idea Reauthorization--Regulations

    We have a number of members who want to ask questions. Let 
me just ask you a quick question before I recognize Mr. Obey, 
and that is with regard to the Individuals With Disabilities 
Education Act which was reauthorized in June of 1997. I 
understand the Department was supposed to have regulations in 
December to implement that act, and also some further 
information for us the first of this month with regard to the 
effect of this act on school discipline. When can we expect to 
have those reports from your department?
    Secretary Riley. They will be out this week.
    Mr. Wicker. Great.
    Secretary Riley. I will say this. We have had them ready 
for some time. There has been some interacting at the request 
of certain Members of Congress, and governors, so it has been 
held up a couple of weeks but they will be out this week.
    Mr. Wicker. All right. Thank you very much, Mr. Secretary.
    Members of the subcommittee, Chairman Porter has suggested 
we operate under the 8-minute rule this morning, so I am 
pleased to recognize our ranking member, Mr. David Obey of 
Wisconsin.
    Mr. Obey. Thank you, Mr. Chairman. Mr. Secretary, I 
apologize for being late. I was in another discussion on the 
wonderful issue of Kosovo which is going to be plaguing us for 
a good long time, I am afraid.
    I am not quite sure what I want to do here with you this 
morning. There are a lot of questions I would like to ask, but 
before I ask questions, I would simply like to get on the 
record some facts, because Will Rogers said once, ``One of the 
things that plagues us the most are the things we know that 
ain't so.'' And there are a lot of things that some people in 
this town seem to know that ain't so, and I want to walk 
through some of them.

                     Decline in Department Staffing

    For instance, I saw my old friend Lamar Alexander on 
television on Sunday, and he was bemoaning what had happened to 
the size of the Department of Education since he had been 
Secretary, and suggested that it had gone up by hundreds of 
employees and said, you know, that is what happens when the 
Democrats run things. I would like to lay out for you my 
understanding of what has happened, and then you correct me if 
I am wrong.
    My understanding is that the Department of Education has 
dropped in staffing from 1980 to 1999, from 7,528 FTEs to 4,694 
FTEs in 1999, and eliminated 64 programs; that when Mr. 
Alexander was Secretary in '91 and '92, the annual average FTEs 
at the Department actually increased during his tenure from an 
average of 4,596 FTEs in 1990, the year before his tenure, to 
4,630 FTEs in '91 and 4,859 in '92, an increase of 263 or 5.7 
percent. My understanding further is that staffing at the 
Department has declined by 165 FTEs, from 4,859 to 4,694, since 
the last year of Mr. Alexander's tenure.
    Now, if I am wrong, it wouldn't be the first time, but I 
would like to know whether I am wrong or not.
    Secretary Riley. I think, Congressman, that you are right. 
Those numbers, I don't know the specific numbers, but generally 
they are right. I was thinking around 7,600 in 1980 and down 
below 5,000 now, and that is consistent with your numbers.
    Mr. Obey. That suggests, since Mr. Alexander said that the 
centerpiece of his campaign was going to be to improve 
education, I think that he ought to start by rechecking his own 
basic mathematics background before he starts lecturing other 
people about how well other students are performing in math or 
science, or any other subject, for that matter.
    Secondly, our old friend Mo Udall died a couple weeks ago, 
and somebody said at his funeral service or at his memorial 
service, they cited Mo's quote that I am mangling here, but 
they said that Mo had uttered a prayer of, ``Lord, please let 
the words that I utter be gentle and sweet because I may have 
to eat them.''

                     FY 1995 Education Rescissions

    And I must say I am amused. I read in the Post this morning 
about a meeting taking place in Pennsylvania and the 
Republicans, with Mr. Santorum leading the pack, were in the 
words of that article, trying to reclaim the education issue. I 
wish both parties would reclaim the education issue because 
that is the best way you can get things done for kids, so I am 
happy if they want to get on board.
    But I believe that deeds count as much as the words that 
our friend Mo Udall was talking about. I simply want to remind 
folks that the same party that says that it wants to reclaim 
leadership on education in fact came to power in 1995 calling 
for a $1.6 billion rescission in the Department of Education 
programs. After President Clinton vetoed those reductions, the 
final rescissions were reduced to $677 million. That is almost 
a billion dollar difference.

            Education Funding Proposed Cuts and Restorations

    I want to remind people that the fiscal '96 Labor-HHS-
Education House-passed Bill, that Bill contained $3.6 billion 
in education cuts in the House-passed bill which the Democrats 
did not support. After successful negotiations with the White 
House, 90 percent of those cuts were restored because of the 
administration's efforts and ours.
    In fiscal '97, education funding was cut by $500 million by 
the committee, including $275 million in cuts for teacher 
training. In conference those cuts were not only reversed but 
we increased assistance to schools and to students overall by 
$3.5 billion. That action restored education, the way I 
calculate it in real terms, to the funding levels approved in 
the last Democratic Congress.
    In fiscal '98, God bless us all, we had a bipartisan year 
and things happened pretty well and the results were pretty 
good.
    Last year the House couldn't even pass a bill for this 
subcommittee because it was so mired in controversy. The House-
reported bill contained a billion dollars in cuts below the 
President's request for priority programs, including Title I. 
After negotiations at the White House, the final bill increased 
funding for the Department of Education by $3.5 billion or 12 
percent.
    So if the meeting in Pennsylvania yesterday involves a real 
reversal of heart on the part of our Republican friends, I very 
much welcome it, but I do think that we need to keep the track 
record in mind.

            Federal Programs Erroneously Tagged as Education

    The third thing I want to do is to simply take note of the 
fact that we constantly hear this baloney about how there are 
760 Federal education programs, and my understanding is as 
follows, and correct me again if I am wrong.
    My understanding is that fewer than one-third of the 
programs, of the supposed education programs that are listed, 
are actually administered by the Department of Education. Two-
thirds are in other agencies, and many of those programs have 
nothing whatsoever to do with education.
    They involve, for instance, construction projects in NOAA. 
They include the military academies, which I thought were 
created to defend the country, not to provide free education. 
They include air traffic controller training, FBI advanced 
police training. There are a number of Defense Department 
programs which are conducted to disseminate information.
    Of the 760 programs cited, 60 were medical research grant 
programs, which is a quaint way of defining education. I didn't 
know that grant programs at NIH are education programs. Twelve 
are nutrition programs. Of the 305 programs identified as DOE 
programs, 122 of them are unauthorized, unfunded, or simply not 
programs at all.

               Number of Department of Education Programs

    The Department of Education, as I understand it, currently 
has about 175 programs; and through fiscal '99 the Department 
of Education has proposed to eliminate, phase out or 
consolidate 118 education programs. Of those 118 programs, 
Congress has terminated 35 and added 29 others, for a total of 
64 programs terminated.
    Mr. Secretary, I will insert some other more fulsome 
information for the record but I wanted to get that on the 
record, and now if you want to comment on anything I have said, 
please proceed.
    Secretary Riley. Thank you so much, Congressman. I agree 
with you that all offices ought to be working to try for more 
partnership and less partisanship. I would certainly try to 
participate in that effort.

        Misleading Use of ``760'' As Total of Education Programs

    The 760 Federal programs regarding education is a number 
that has been thrown around a lot, and I really do think it is 
misleading. It has very little merit, and to use that to hold 
back on something that would help school children out there, I 
think, is no way we should go in terms of developing public 
policy.
    I think you described it well. I have a long list of part 
of the 760 programs: the Colorado River Basin, salinity control 
programs in agriculture, Appalachian access roads under the 
Appalachian Regional Council, agriculture programs in Commerce, 
university coal research and energy, cancer biology research at 
HHS, and just on and on and on. Those are not school programs. 
And you know as far as education is concerned we have nothing--
--
    Mr. Obey. What it smells like to me, Mr. Secretary, is some 
junior staffer somewhere said let's figure out how we can total 
up anything that in any way could possibly count as providing 
information to anybody, let's call it education for the purpose 
of embarrassing the people who are running education programs 
as much as possible, and that whoever put that together had a 
goal not to enlighten people but simply to try to confuse the 
situation and discredit the efforts of people to strengthen the 
education programs that we are supporting.
    Secretary Riley. I agree with you that using that number 
has no useful purpose, and it is very confusing and it is very 
harmful to those of us who are trying to improve the schools. 
It is very misleading.

           EDUCATION PROGRAM CONSOLIDATIONS AND ELIMINATIONS

    The effort we have made, and which all of us need to 
continue to make, is to eliminate unnecessary programs, to 
consolidate programs.
    As you know, we did that with adult ed and IDEA and a 
number of other programs. We have consolidated an awful lot of 
programs. We have eliminated, according to my number here, some 
76 programs, and we will continue to try to do that.
    In the ESEA reauthorization, one big consolidation we are 
recommending is to take Goals 2000, which is outside of ESEA, 
and roll it in with Eisenhower and with Title VI and have a 
major program dealing--Mr. Chairman, before you arrived I was 
talking about trying to get standards into the classroom with 
teacher quality or whatever--to have a major program, through 
the grouping together of these three programs, to try to get 
standards into the classroom.
    That is again a consolidation, something we are constantly 
working on, and every year we have recommended a certain number 
of decreases of programs and so forth.

                      Chairman's Opening Comments

    Mr. Porter. Mr. Secretary, let me apologize to you for 
being late. Let me welcome you this morning. It took me an hour 
and a half to come in from Northern Virginia this morning, and 
I want you to know how much I hate the fact that this Chicagoan 
got here later than a South Carolinian.
    Mr. Wicker. Also a Mississippian.
    Mrs. Lowey. And a New Yorker.
    Mr. Obey. Would the chairman yield on that? I was just 
thinking as I was driving in here this morning, crossing the 
bridge in this little light snow we have, the problem with 
traffic in this town is that Washington drivers drive in snow 
the way Minnesotans surf.
    Mr. Porter. You are exactly right.
    Secretary Riley. For some reason Washington drivers will do 
the same in rain. I don't know why that is either.
    Mr. Porter. It sounded, without knowing, that it might have 
gotten a little bit partisan here, so we are going to back off 
from that.
    Mr. Bonilla has no chance of getting back for the remainder 
of the hearing and has requested just 20 seconds so I am going 
to yield to him.
    Mr. Bonilla. I just want to take a minute to welcome you 
this morning. I can't stick around for my turn to ask 
questions, but I want to let you know I have some I will submit 
for the record. They will cover two areas, the direct student 
loan program and voluntary flexibility agreements, so I would 
just appreciate a prompt response and we will be in touch.
    Secretary Riley. You submit those, Congressman, and we will 
give you a prompt response.
    Mr. Bonilla. I appreciate that, Mr. Secretary.
    Secretary Riley. Thank you, sir.
    Mr. Porter. Thank you, Mr. Bonilla.
    Mrs. Lowey.
    Mrs. Lowey. Thank you, Mr. Chairman. Once again I want to 
welcome our outstanding Secretary to the committee. We look 
forward to working with you, and I am hoping we will have great 
success in passing the strong agenda of the President in this 
fiscal year.

                      SCHOOL CONSTRUCTION PROGRAM

    I am particularly interested, as you know, I have been for 
many years, in the school construction program. I am delighted 
that you and the President have been putting forth this program 
again, and I am particularly pleased that you are linking it 
with smaller class size. We know if we create smaller classes, 
we have to put these kids someplace, so I think it really does 
go together.

                   TECHNOLOGY LITERACY CHALLENGE FUND

    I was also pleased that included in your statement was a 
reference to technology and the request for $450 million for 
the Technology Literacy Challenge Fund, which is an increase of 
$25 million to pay for the hardware. I have to tell you, you 
were with me at that school on the Lower East Side where the 
school infrastructure couldn't even hold the wiring to attach 
the computers, and if you recall, they had wires coming out of 
the windows and vandals had cut the wires overnight. So we have 
an obligation to deal with this.
    There is a $112 billion problem nationwide, and I think it 
is so important to emphasize again that we need local control. 
The Federal Government is paying the interest, its tax credits. 
If we can be a partner in building prisons, in building 
highways, and I voted for that huge infrastructure bill last 
year, then it is beyond me why this has become such a partisan 
issue. I don't understand it, and I hope we can reach across 
the aisle and make sure we pass this school modernization bill 
that Congressman Rangel and I and others will be introducing 
very shortly.
    Frankly, in New York, I have been in Buffalo and Albany in 
Queens, in Brooklyn, all around the State, people are talking 
about the need for school modernization. In some cases it is 
modernizing the current school. In other cases the kids are 
still in school in trailers.
    So this is a priority for me. I know it is a priority for 
the administration, and I would love to hear your perspective 
on the urgency of this and what you have seen, because you have 
traveled all around the country. I have traveled around New 
York, but you have traveled all around the country and you know 
the extent of the problem, and I would appreciate your 
comments.

                   SCHOOL CONSTRUCTION AND CLASS SIZE

    Secretary Riley. Thank you very much. These things fit 
together, as you point out. The reduction of class size is very 
important. I mean, the research shows that it is, everybody 
understands that, parents know that, teachers know, everybody 
knows. The enrollment increase is real. The antiquated 
buildings out there, they are real. The need for technology, 
that is real.
    All of these things come together, then, and if we then as 
a Nation are going to address these issues, then we need to get 
about it so we will never have a school in the condition of the 
school you and I went to in the city. That is a tragedy. 
Whatever it takes, all of us ought to be doing something about 
that.
    The civil engineers did an analysis of infrastructure needs 
in this country. They looked at roads and they looked at 
bridges and they looked at all of the infrastructure in the 
country, and they had a list of some 15 or so things. The only 
F on the list was for schools. And here we talk about how this 
is our priority in this country; this is an education era.
    I think that the proposal for a program of Federal 
subsidies for school construction bonds that the President has 
put out there, and also Mr. Rangel's proposal coupled with it, 
there is some $25 billion worth of school bonds. The Federal 
Government would not pick a school and decide whether to 
renovate a school, or build a school. All that is decided at 
the State and local level. It would simply help them with the 
financing. It would be paying in substance through tax credits 
all of the interest on the bonds, which is a very significant 
amount. It adds up to about 50 percent of the cost of 
construction over a 15-year period.
    The program, modeled after the Qualified Zone Academy 
Bonds, would start then a major national emphasis on school 
construction and renovation all across this country, and what a 
wonderful way to go into the new millennium. Kids and everyone 
would see their schools being worked on. As you say, instead of 
prisons, instead of roads or whatever, they would see their 
schools being improved. This would make a great statement in 
this country, in this era: Schools are important. They are 
important in your community, wherever you live. So I think it 
is a very, very important part of reaching high standards, of 
saying to young people that you are important, your education 
is important.
    The technology part is enormous. I was in a small school in 
New Jersey, an old part of the town similar to where we went, 
but this was an elementary school, a school 125 years old. On 
the ground floor there were about 15 African-American little 
kids lined up to get their asthma shots. The school was humid 
and musty and dark. How do you ask these kids to reach high 
standards? The cafeteria was wet with leaky roofs, and the 
principal was worrying about how to get people to move into 
other areas to eat, when they should have time to worry about 
leadership and teachers and so forth. So I think school 
construction, the modernization of schools is a very, very 
important priority for this country, and I hope we can see that 
funding through this year.
    Mrs. Lowey. I thank you, Mr. Secretary.
    Before I go on to the next issue, I also want to say as a 
supporter of both, this is the United States of America. We can 
build those highways. We can build those bridges. We can build 
those prisons; hopefully we will need fewer. But investment in 
education, we should be able to do it. We should be able to do 
all these things, and eliminate some of the wasteful and 
fraudulent programs that don't work.

                         AFTER--SCHOOL PROGRAMS

    Another area that I have been very pleased to champion is 
the after-school programs, and I was pleased that this 
committee has been able to increase the funding from $1 million 
to over $200 million. I am optimistic that we can support the 
administration's request this year for $600 million.
    For those of us who know our family and other families who 
struggle with child care, and know that the average family has 
both parents going to work, not only are the after-school 
programs critical for child care but to provide the extra 
tutoring, academic support, music, art. It seems to me that 
child care programs that are run in other areas can all work 
together if we have comprehensive schools and if we have these 
after-school programs.
    So I am a big supporter of your 21st Century Schools 
proposal and 21st Century Learning Centers. I would love you to 
share with the committee some of the strong academic programs 
that you have seen in these schools. I understand the RFPs that 
went out for the after-school programs in the last session were 
around the block, the lines were so long. So could you share 
that with us?
    Secretary Riley. Well, one thing that is very interesting 
is that the Mott Foundation, which is a private foundation, 
came in and provided support for having these workshops for 
people who were going to bid on these competitive grants, for 
after-school programs. That makes so much sense, to come in and 
talk about what we are talking about, how you set these 
programs up, how you bring in other parts of the community.
    The expectations for the participation in these workshops 
might have been 200 and 1,000 would show up. It is amazing how 
the interest was out there, and then the applications were way 
over what we could come anywhere close to funding--funding 
supported, I think, something like 10 percent of the 
applications. So then of course we are requesting the increase, 
as you pointed out, to $600 million.
    The crime aspect, youth crime, is one thing we need to 
worry about in terms of values with young people. The afternoon 
is when, of course, the statistics show that youth crime takes 
place in large numbers. These after-school programs deal with 
that issue. They deal with academics.
    They are doing away with social promotion. I hasten to say 
we are not talking about retaining students--we are talking 
about teaching them the skills necessary to pass. To do that, 
giving them extra work in the afternoon, academics connected 
with engaging learning through the arts and supervised 
athletics and whatever that particular community has in their 
after-school program, I think it is very, very important. I 
don't think there could be a stronger idea for us to support 
than strong after-school programs, and you can use that money, 
by the way, according to your plan, for summer schools also.
    Mrs. Lowey. Thank you, Mr. Secretary.

          PRIVATE FOUNDATION FUNDING FOR AFTER-SCHOOL PROGRAMS

    Thank you, Mr. Chairman. Mr. Chairman, I just wanted to say 
one other thing. In addition to Mott, the Soros Foundation has 
invested several billions of dollars, and I met with them and 
they will match three to one--well, three from us, one from 
them--providing funding to school districts.
    Secretary Riley. They are a tremendous help.
    Mrs. Lowey. There are a lot of foundations that are very 
much involved in this program. I thank you, Mr. Chairman.
    Mr. Porter. I might say to the gentlelady that I think 25, 
30 years from now most of this funding will be done privately 
and not through government. There is going to be so much 
private money available that they are going to address a lot of 
the problems of our country through private foundations, maybe 
with a small partnering from the government. The ratios may be 
reversed by that time.
    Mrs. Lowey. Let's hope that the economy stays strong and 
all these people that are doing so well are going to have the 
funds to keep investing, but it is nice to know that government 
is there, because frankly I feel our public schools should be 
open both before and after school.
    Mr. Porter. Well, it still will be government direction. 
There will be a lot of private funding.
    Thank you, Mrs. Lowey.
    Mr. Miller.
    Mr. Miller. Good morning, Mr. Secretary. It is nice to see 
you. This is your sixth year. To have the stability, there has 
got to be something that is positive about that. Secretary 
Shalala was here, and it was the same idea.

                   Census and the Student Population

    I am going to leave shortly because I am going to go to a 
school here in the District on the census issue. I am Chairman 
of the census committee here in the Congress, which is 
something that you don't have to deal with.
    Mr. Riley. You don't want me to comment on that.
    Mr. Miller. No, we have a lot of differences on that issue, 
and I think the direction that we are going, to a two-number 
census, is a disaster. But one thing we do agree on is 
something called Census in the School Program. And it was 
originally proposed to include 20 percent of the schools, and 
we are going to increase it to 40 percent and hopefully more, 
especially targeted to the hardest-to-count areas. Children are 
one of the most uncounted segments of the census.
    Director Ken Prewitt of the Census will be at the Marie 
Reed Learning Center on 18th Street here in town. I don't know 
if you are familiar with it, but I am going over there shortly. 
And I don't think the Department of Education is involved in 
this program, because I think the Bureau of the Census is 
working directly with school systems. It is a good program, an 
effort not only to improve the census, but it is really a great 
effort in civics lessons dealing with the census, a 
constitutional requirement.

                            Forward Funding

    Let me first ask a question. I have been confused by 
everybody's request in the budget this year from the 
administration because of the game we, both sides, are playing 
on the issue of the spending caps. And the numbers become 
unreal, whether it is in every appropriation department I have 
been involved in, it is confusing. And your numbers are really 
confusing, and I think probably there are some forward funding 
issues. And Mr. Skelly is maybe going to have to answer some of 
these.
    Usually there is a cover page to kind of simplify it. Is 
there a lot of forward funding that is kind of not showing up 
there directly?
    Mr. Skelly. We have quite a bit of forward funding in the 
Department of Education. We have advance funding now in two 
areas in the budget. One is Title I, where we have about $6.1 
billion that was included in the 1999 appropriation also.
    Mr. Miller. So that doesn't show up in this year's request?
    Mr. Skelly. Well, we do the same thing for Title I in 2000 
as we did in 1999, so it looks like the same amount of advance 
funding. The increase in advance funding is in Special 
Education where we would provide $1.925 billion for fiscal year 
2001 in the 2000 appropriations bill.

                 Total Available Discretionary Funding

    Mr. Miller. Do you have the dollar amounts that are 
actually going to be spendable money for this fiscal year to 
compare with the previous year? I am sure you have those. I am 
confused trying to get the numbers out of the report.
    Mr. Skelly. We have those numbers.
    Mr. Miller. How much is that increasing? Is there a simple 
sheet that shows increase over the past few years without the 
games being played? It is not all of your fault this game 
playing, I have to admit.
    Mr. Skelly. Thank you.
    Secretary Riley. Why don't you just provide that.
    Mr. Skelly. We can provide that.
    Mr. Miller. That would be very helpful.
    [The information follows:]

                 Total Available Discretionary Funding

    The Department of Education's budget has two large programs 
in the FY2000 request--Title I and Special Education Grants to 
States--in which some of the appropriation is forward funded 
and some is advance funded. The forward-funded amounts will be 
available to the States on July 1. The advance-funded amounts 
will be available only three months later, on October 1, the 
first day of the following fiscal year. The two amounts are 
requested with the intent that they would be used together by 
the States for one school year. Title I funds have been 
appropriated in this manner since FY 1996. Funds for Special 
Education Grants to States are requested this way for the first 
time in FY2000.
    To present a clear picture of the total discretionary 
amounts actually available in one year to carry out our 
programs, we have prepared our funding tables showing the total 
appropriation, including both forward- and advance-funded 
amounts. The advance funded amounts are included even though 
they are not technically counted as new budget authority until 
the following fiscal year.
    The Department of Education discretionary totals and 
changes for each of the last several years are as follows:

                        [In billions of dollars]
------------------------------------------------------------------------
                                                            Change from
             Fiscal year               Appropriation \1\   previous year
------------------------------------------------------------------------
1996.................................             $23.0   ..............
1997.................................              26.9            +$3.6
1998.................................              29.9             +3.3
1999.................................              32.3             +2.4
2000 Request.........................              34.7             +1.2
------------------------------------------------------------------------
\1\ Amounts are rounded.

                                ED-FLEX

    Mr. Miller. The Governors were in town recently, and the 
message I kept reading in the newspapers with the Governor, and 
certainly from your background as the former Governor of South 
Carolina, is that they want more flexibility, and I got the 
sense even from the Democratic Governors in a bipartisan way 
that there was a real concern that there was too much 
government regulation. And unlike the success that we have had 
with welfare, where we have given States more power, we are 
moving in the opposite direction with the issue of education.
    What is the message that you are telling the Governors, and 
what is it that they are telling you? They are concerned and 
they want more flexibility rather than more requirements; is 
that not the message?
    Secretary Riley. I think that is the message, and certainly 
that was one of the reasons that I was involved with coming up 
with the concept of ED-FLEX. And as you know, we have 
eliminated an awful lot of our regulations in the Elementary 
and Secondary Act, and for K through 12 programs we have 
eliminated two-thirds of the regulations that we inherited, and 
we put in the waiver process. And as Secretary, I have given 
some 350-plus waivers on Federal spending to accommodate 
Governors and local school districts.
    What Mark Hatfield and others and I worked out then was a 
demonstration project for six States in which the State 
education department would be able to give those waivers under 
certain restrictions without them coming to Washington. You 
can't do that for civil rights and safety and those kinds of 
things, and for IDEA, but you can do it on Title I and certain 
other areas.
    And it is an accommodation for flexibility. And we tried it 
then in six more States, so it has been done in 12 States as a 
demonstration. So the President then told the Governors a year 
ago, not this recent meeting, that we then would recommend 
expanding it to all 50 States, which we have. Of course, it is 
now being debated, and I think that is a very good idea. Again, 
I have the authority to do that now, but it is an accommodation 
for flexibility.

                        Budget Request for Idea

    Mr. Miller. How much of an increase do we have in IDEA--the 
Individuals with Disabilities Education Act?
    Secretary Riley. How much of an increase in IDEA? One 
hundred sixty-five----
    Mr. Skelly. $116 million.
    Mr. Miller. Out of a total budget of what for IDEA?
    Mr. Skelly. Approximately $5.3 billion.
    Mr. Miller. So $5.3 billion, but you are only asking for a 
$100 million increase?
    Secretary Riley. $116 million.
    Mr. Miller. That is not a very large increase for $5.3 
billion, especially with the goal--and I think the Governors 
brought this up--of going to 40 percent, the original goal.
    Secretary Riley. We have had, I would mention, and of 
course Members of Congress have strongly supported, increases 
in IDEA of 85 percent over the last 3 years. So it has had 
significant increases over the last 3 years.
    Mr. Miller. So you think we have increased it too much?
    Secretary Riley. No, no, I surely don't think that. If we 
didn't have the caps, we would have an increase in there 
ourselves.
    Mr. Miller. This is not even an inflationary increase, is 
it?
    Secretary Riley. Well, it is $116 million that is specially 
designated for prevention kinds of programs. I would point out 
that after having significant increases, we have the $116 
million in there for particular purposes. And we think 
proposals like class size, reading, school construction, which 
deal with the whole school, but especially help disabled 
children, we think those things are very important priorities--
--
    Mr. Miller. So the $116 million is very targeted. So you 
are saying there is no real increase in money for IDEA----
    Secretary Riley. Well----
    Mr. Miller [continuing]. Except in the targeted areas?
    Secretary Riley. For the large State grants program, there 
is no increase.
    Mr. Miller. So, they are going to get the same money? Well, 
that is not very good. IDEA is something I know you support.
    Secretary Riley. I sure do. And as I say----
    Mr. Miller. It is more important.
    Secretary Riley [continuing]. If there is a possibility of 
relaxing the caps this year, and if they do----
    Mr. Miller. But your priority is new programs rather than 
helping the IDEA program.
    Secretary Riley. I think the programs for which the $116 
million is requested are very sound. And I think anybody who 
looks at disabled children would agree. These increases are for 
children 0 to 2, children 3 to 5, and children 5 to 9, to try 
to deal with the prevention and intervention of learning 
difficulties--serious difficulties.
    Mr. Miller. This is that smoke and mirrors problem, and I 
know it is a caps problem, but we have seen it in HHS and other 
departments, and the Commerce Department and others. So it is a 
real frustration to see something so popular, and I know you 
support and the administration supports IDEA, getting no 
increase. This is what makes this whole appropriation process 
this year so strange. Thank you, Mr. Secretary.
    Secretary Riley. You understand I would strongly support an 
increase if during the process this year the caps are relieved.
    Mr. Miller. But your priorities are against IDEA.
    Secretary Riley. We've had an eighty-five percent increase 
over 3 years, and with $116 million this year, and a strong 
emphasis on reducing class size and reading for those early 
years, and school construction, we think that is a very strong 
pro-disabled-children recommendation.
    Mr. Miller. On behalf of the IDEA program, it is 
disappointing.
    Mr. Porter. Thank you, Mr. Miller.
    Ms. Pelosi.
    Ms. Pelosi. Thank you, Mr. Chairman.
    Mr. Chairman, I want to begin by joining you in welcoming 
the Secretary. And I want to add my personnel commendation to 
you for your leadership, Mr. Secretary. I think every child in 
America is very fortunate that you are the Secretary, and this 
administration--it is a real tribute to this administration 
that you have been willing to serve, have served well and long 
in that position.
    Secretary Riley. Thank you.

                  School Construction and Overcrowding

    Ms. Pelosi. I know the experience that you had as Governor 
and the priority that you gave to education and the success 
that you had in your own State will benefit every child in 
America.
    These children, you know, they are very smart. I was 
listening to what you were saying earlier about the message we 
want to send about education, and the children are very smart. 
They can see through the baloney. If we tell them that 
education is important, that it will enrich their lives and 
prepare them for the workplace, and that the most important 
thing they have to do now is be good students, yet we send them 
a contrary message about how we value education by sending them 
to schools that are overcrowded, environmentally unsound, and 
technologically inadequate, then they get a different message. 
Students might ask, ``If this is so important, why don't you 
value it, too? I think the cooperation we would get from 
children would be much different if they knew--if our actions 
matched our words on the importance of education.
    And to that end, and in that regard, I want to again 
commend you for the Clinton administration proposal, which I 
think takes us to the place that we want to be where children 
can learn, teachers can teach, and parents can participate.
    I want to commend my colleague, Congresswoman Lowey, for 
her leadership on the school construction, because I think that 
is the central issue. As you said, class size is the important 
issue, and that has implications. It implies that we must have 
school construction. We have to have more classrooms. But you 
spelled that out very clearly.

                 California Class-Size Reduction Waiver

    In that regard I have a question about California. I 
understand when the Department allocates fiscal year 1999 class 
size reduction funds in July, it is estimated that California 
will receive $129 million, and San Francisco Unified School 
District will receive $1.6 million.
    As you know, Mr. Secretary, California has successfully 
reduced its class size in grades K through 3, and currently the 
State average class size for K through 3 is roughly 19 
students. Given this success, many local agencies have already 
reduced the average class size beneath 20 students and would 
like to use these Federal funds to reduce middle school class 
size, and Governor Davis has requested a waiver from section 
307(c)(2) of fiscal year 1999 of our bill to grant the local 
education agencies this flexibility. Can you tell us the 
prospects for this request?
    Secretary Riley. I think that is a very interesting issue. 
I was in California, as you know, and gave my State of American 
Education speech in Long Beach, and I met with Governor Davis 
and some of his key people about this issue. And I am really 
pleased to see that education is a real priority of his, and he 
is trying to move in some good directions.
    Then I subsequently received from Delaine Eastin the 
Superintendent of Education for the State, a request for a 
waiver, which was hand-delivered to me by the Governor when he 
was here at the Governors' meeting, and the request is very 
sensible and very reasonable.
    The request is this: that we have brought class size--it 
was up in the range in California of like 28, and they have 
made a major move and they have brought it down to between 19 
and 20, which was, as you know, for California enormous. And it 
had tremendous impact on the need for teachers, for quality 
teachers, especially in reading in those early years. It had 
tremendous impact on class space and other issues.
    And what they have said to me is that to then bring class 
size down from 19 or 20 down to 18 will just be exacerbating 
things. It is going to take them a couple of years to put 
together, and that is very, very reasonable and understandable. 
So I strongly support the waiver. We are working it through the 
system, and I hope that it would work out.
    The goal that we are trying to get down to is no more than 
18 per class in grades 1, 2, and 3. But, what the waiver would 
say, as I understand it, is that they want a couple of more 
years to do it, to get things straightened out.
    And in the meantime they are putting in an exit exam, and 
kids in the 10th grade will start taking that, and that exam is 
going to be very difficult and really is a form of 
accountability, and it is tough. We did it in South Carolina, 
and it worked.
    I would say this: I strongly support the Governor's effort 
in that. And then he wants to use some of these funds for class 
size money in the 8th and 9th grade to get these kids in 
classes ready for the exam. That makes good sense and is good 
policymaking, and we think that the law allows that kind of 
flexibility if you are moving down to a class size of 18 or 
less within the 7 years. So I think it makes very good sense, 
and I am going to do everything I can to see that it is 
approved. It is going through the process.

         ADULT EDUCATION--ENGLISH AS A SECOND LANGUAGE PROGRAM

    Ms. Pelosi. That is music to my ears. Thank you very much, 
Mr. Secretary.
    Mr. Secretary, as you know, we are blessed in California 
with a large minority population, and particularly I wanted to 
ask about the Department's work to address the needs of 
immigrants and non-English-speaker targeted programs and how 
you are targeting resources to assist adults, children, and 
strengthen the institutions serving these populations. If you 
could, describe your efforts and say something about the 
Hispanic Institute as well.
    Secretary Riley. Well, the effort in adult ed this year, I 
think, is significant. And part of that $70 million of the $190 
million increase, which is a significant increase in that 
area--that portion of it goes for an ESL program for the 
purpose of helping adults learn English, for immigrant adults 
to learn English. And it is amazing to us everywhere you offer 
those quality programs for learning English, the lines are 
long. The people are trying their best to get in there. So we 
think that request makes a whole lot of sense, and we hope that 
will certainly pass the process.

                   EMPLOYMENT OF WOMEN AND MINORITIES

    Ms. Pelosi. I appreciate your saying that. We talked 
about--could you take us to another area? What has the 
Department done to employ more qualified women and minorities, 
what has worked, and what does the department need to do? I 
understand your department is above average in employing 
minorities, and I want to know what you are doing in terms of 
your own employment there, in your agency, general outreach to 
teachers, and opportunities for minorities in the teaching 
profession.
    Secretary Riley. Well, I think it is very clear that our 
department is graded very well by those who observe how we are 
doing at putting minorities, women, into key positions. And I 
am very sensitive to that. I think I have got the best staff in 
the government, and I think I have the staff that looks more 
like America than any of the rest of them, and I am very proud 
of that. And I think everyone has observed that, so I am very 
pleased with that.

                       TRIO AND GEAR UP PROGRAMS

    Then in terms of what happens out in the schools, of 
course, we are very supportive of things like the TRIO 
programs, things like GEAR UP. Those are, of course, we think, 
very important programs that deal largely with poor minority 
kids. So we are very supportive of all of those efforts to try 
to close the gap between white and black kids, white and 
Hispanic kids and so forth. And we take a lot of time and 
effort to do that, and I have got some numbers to indicate that 
those gaps are reducing, and we are very pleased at that.
    Ms. Pelosi. Thank you, Mr. Chairman.
    Mr. Secretary, you certainly get high marks for what you 
do. I am very worried about that F for infrastructure for 
children's schools, and hopefully by the time we see you next 
year we will be moving away from that grade.
    Thank you, Mr. Chairman.
    Mr. Porter. Thank you, Ms. Pelosi.
    Mr. Secretary, by the way, I have the best staff in 
government. You can have the best staff in the executive 
branch.
    Mr. Dickey.
    Mr. Dickey. Good morning, Mr. Secretary. I have got some 
particularly brilliant questions to ask, and the Chairman never 
gives me my full 8 minutes, so I don't want to allot words for 
your answers, but----
    Secretary Riley. Brilliant questions and short answers.
    Mr. Dickey. Is there any polling that you do in your 
Department, polling to find out what the sentiment is in 
America?
    Mr. Skelly. I don't believe, Mr. Dickey, that we have any 
polling that we support. Occasionally, we do focus groups, I 
think, on small issues about how people--how folks would react 
to a student aid application form. For example, does it have 
too many lines on it, or is it too hard to read? We don't do 
polling on issues.
    Mr. Dickey. Nothing on vouchers or choice?
    Mr. Skelly. Not that I am aware of.

                     DISCIPLINING DISABLED STUDENTS

    Mr. Dickey. The greatest problem that I hear from teachers 
is discipline, and I don't guess we can get into discipline, 
but the second problem is with the disabled students, and I 
think Mr. Miller has covered that quite well, but I am just 
concerned. I wonder if you understand, Mr. Secretary, that this 
is a problem with the teachers in a growing and growing 
percentage of the time.
    Secretary Riley. Are you talking about discipline related 
to the disabled children?
    Mr. Dickey. Yes, yes.
    Secretary Riley. Yes, I do, and I hear comments and 
questions about that frequently. As I indicated earlier, we 
will have our regulations out by the end of this week, and we 
have worked very hard to get input on those. We had draft 
regulations that went out some time ago. In response, we got 
over 6,000 comments. A number of them dealt with the issue of 
discipline, and we have tried to respond to those.
    I would say this in a short answer, but that is a very 
difficult issue, and you really have to balance the discipline 
issue with the importance of education for children. And if you 
have a problem that is related to the disability, you really 
fall on the side of the disability. If you have a problem that 
is not related to the disability, and sometimes it is hard to 
tell, then of course you should, in my judgment, fall on the 
side of discipline. But those are very difficult issues. They 
differ from child to child, and we are very sensitive to that 
and deal with it all the time.
    Mr. Dickey. That answer almost was too long.
    Secretary Riley. It is a difficult question.teachers I talk 
to say, who in the world is going to stand up and say we don't 
want to teach the disabled? But the ones that talk to me, and 
most do not want me to quote them in any way, say that the rest 
of the folks in the class are the ones who are not getting the 
proper treatment. And now we are going to put nurses in our 
classrooms with the disabled. I am just concerned. I don't know 
who is going to be able to stand up and speak against this 
because no one wants children, disabled or otherwise, to be 
left out, and I think that is one of the problems that we have.
    Secretary Riley. I think so, too. I think one of the things 
that we can be proudest of in this country in education is what 
we have done with disabled students. And if you looked back 
just a few years, 20 years, 10 years, and look at the millions 
of students now who are really getting an education, who are 
contributing, who are living normal lives, taxpayers, families, 
and so forth, I think we can all be very, very proud of that. 
And it is complicated. And it costs money.
    Mr. Dickey. It is emotionally complicated, too. Do you 
recognize that?
    Secretary Riley. It is. It is. But it is very, very 
important. And I think, as you say, everybody understands that, 
and I think you have to start with that. And it is difficult. 
And then you have to use some common sense on things. The case 
you mentioned, I would be happy to discuss that, but shortness 
of time----

                       TRIO AND GEAR UP PROGRAMS

    Mr. Dickey. I want to go on to TRIO, if you don't mind. I 
am through listening about that.
    Secretary Riley. Good. If you are through listening, I will 
quit talking.
    Mr. Dickey. I hope you know I am not being disrespectful. 
The overlap of programs is what is causing some concern in my 
mind and in other persons' minds. We have some programs that 
start and stop, and another program that comes, and some with 
an overlap. In that respect I want to talk about the TRIO 
program, which is very, very important to me and to the people 
in my district, and I think to the Nation, because it is giving 
people who don't have--ordinarily don't have opportunities a 
reason to hope, to do better, and to strive forward.
    Now, we have the GEAR UP program, which you will probably 
say is not overlapping with TRIO, but I think it is because 
TRIO has in its Upward Bound--no, the Educational Talent Search 
Program, it aims at children aged from 11 years old. Now, can 
you explain to me why you think there is not an overlap in 
those two programs?
    Secretary Riley. The GEAR UP program is designed to 
increase college readiness and awareness. Middle schools and 
children in real poor middle schools connect up with higher 
education institutions to help them with mentoring, tutoring, 
advising on what courses to take, how to pay for college, and 
so forth.
    Mr. Dickey. Didn't you just describe what TRIO does, too?
    Secretary Riley. TRIO does that in a small area of the 
program; 96 percent of TRIO's money goes to high school and 
college kids, 4 percent to middle school. GEAR UP is really a 
middle school-college connection.
    I strongly support TRIO. We have a recommendation for an 
increase of $30 million, I think, but this is a whole school 
concept. TRIO is for individual students. This is middle 
school. TRIO is predominantly high school and college, and it 
follows kids on into college. It is a strong program, and I 
strongly support it.
    But, I don't think there is an overlap. I think there is a 
real need for connecting up these colleges with these middle 
schools.

               FEDERAL SHARE OF EDUCATING THE HANDICAPPED

    Mr. Dickey. Let me say this quickly. If there is an 
overlap, and I think there is, but you are in a better 
position, I am just going to contend that until I am shown 
differently, but if there is an overlap, taking that money that 
is set up for GEAR UP and putting it in IDEA would help a lot 
as far as what the existing problems are. Our statute or our 
authorization and appropriation specified 40 percent of the 
costs would come from the Federal Government, and isn't it 
correct that in IDEA we are only expending 10 percent of that?
    Secretary Riley. That is right. The authorization is 40 
percent.

                       EMPHASIS ON ACCOUNTABILITY

    Mr. Dickey. Let me go to the next question. Let me ask you 
this. You mentioned the fact that if we removed the caps, that 
we would then be able to fund IDEA and other programs. Do you 
think--and this may be a question that you think is simplistic, 
but do you think that if we increase the caps and give more 
money to education that we will have a better educational 
program?
    Secretary Riley. Yes.
    Mr. Dickey. Is it possible, and have you seen it where less 
money has meant more efficiency?
    Secretary Riley. Well, I think if you would notice our 
priorities as we are looking at the reauthorization of the 
Elementary and Secondary Act, which, of course, is a big block 
of the K through 12 programs, that our big emphasis is on 
accountability, and that is not more money. It is 
accountability.
    And, of course, it takes money to support that somewhat, 
but money in and of itself is not the answer. Money alone, for 
example, for a low-performing school year after year after year 
is not helping students. So we favor using Federal dollars, in 
schools with Title I and whatever, coupled with accountability, 
and that is the emphasis, one of the chief emphases, in our 
reauthorization of ESEA.
    Mr. Porter. Thank you Mr. Dickey.
    Mr. Dickey. See, I told you.
    Mr. Porter. Actually, you asked a question after the bell 
rang, so you owe about a half a minute.
    Ms. DeLauro.
    Ms. DeLauro. Thank you, Mr. Chairman.
    Mr. Secretary, thank you so much. Thank you. You have been 
consistent and unswerving in your dedication and commitment to 
educating our young people and creating for them real 
opportunity. And I might add you didn't come to this in the 
last several years. This has been a lifetime commitment for 
you, and I would just say that also, don't misunderstand, you 
stood tall here, especially in light of what some folks here 
would do in terms of narrowing that education opportunity for 
the majority of the students of this country, so we owe you a 
great debt of gratitude.

                     teacher training in technology

    I know we share this view about the future and the computer 
and our youngsters being able to navigate the Internet. 
Computers are for our kids today what textbooks were to my 
generation, and our kids have to know how to use them.
    Now, we have had conversation about the access, and we are 
trying to work towards that in a whole variety of ways. My view 
is having the computers is useless if we do not have teachers 
who can teach our kids how to use this new technology and 
effectively use computer technology. I just visited Hamden, 
Connecticut, Hamden High School, which has probably something 
like 1,200 students, and they have about 700 computers, so it 
is a pretty darned good ratio in this school. I visited with 
the teacher who trains herself on new technology. She shares 
that training with other teachers. They do not have access to 
development programs that give them steady training in 
technology.
    Can you talk a little bit about two things: How the 
President's budget addresses this issue of computer technology, 
and if you would just care to step further--because I read your 
speech in Long Beach--and talk about quality teachers and 
education training in this area and how we, in fact, both in 
technology and other areas of teacher training provide for 
quality teachers for our kids today.
    Secretary Riley. Well, I thank you very much. As you know, 
my primary emphasis now is to try to get standards into the 
classroom. That works when you have all the forces working 
towards teaching the child in the fifth grade the standards for 
fifth grade science, so that they know that. You need to have 
all the curriculum, and the teacher preparation, and the 
technology, and the school building and all of those forces, 
parent involvement, working to be sure that child knows that 
level of science when they leave the fifth grade, or when they 
leave the kindergarten or whatever grade in school.
    And that puts you back strongly into teacher quality and 
into teachers being able to teach with technology. As you know, 
we have this $75 million Teacher Training in Techology program 
that was passed for 1999, and it will start up very soon. We 
expect to award grants by August of this year, and that is in 
the process now at OMB. That program is to do more than just 
teach teachers to be computer-literate. It is to help teachers 
be able to teach with technology and for students to learn with 
technology.

                  technology literacy challenge grants

    We also have our Technology Literacy Challenge Grants which 
then can be used for any of the four purposes that are set out 
there, and teacher professional development is one of those 
things. So I think that is absolutely critical.

                      school internet connections

    As you know, the E-Rate and other things--we are so pleased 
we have up to 89 percent of the schools connected to the 
Internet, and that is so important; and then 51 percent of the 
classrooms are connected. And if we keep the E-Rate going and 
increase it to where it is supposed to be, and it was reduced, 
if we got it to where it is supposed to be, we can get that 51 
percent way on up there in just a year. Then the E-Rate is used 
to pay discounts on the use of the Internet. All of that is 
very critical, and I am very pleased at where we are. But we 
cannot stop. We cannot look back. Teacher quality then is a 
very important part of that.

             teacher training, standards and accountability

    I addressed, as you know, a proposal for licensing and 
compensation, which is purely a State and local matter, but I 
was trying to engage the country in a conversation that would 
make sense and would make teaching more professional, and if it 
is more professional, then you have to have higher standards, 
and then you have to have higher compensation, and if we don't 
do both of those things, we are going to be very dreadfully 
short of quality teachers over this next century that we want 
to be the American century. I think that is one of the most 
important things we have got to do for the coming century, and 
if we are going to have teachers be real professionals, then 
those things, I think, are necessary for us to talk about in 
this country, and that is what I introduced.
    Ms. DeLauro. I was very pleased to read it, and as you laid 
it out, that we need to open up that kind of dialogue, because 
I think it is about standards. It is about accountability. It 
is about how we can measure where we are going in the future. 
And I think not only parents, but communities today want to 
know. I think that they are willing to spend the money that we 
need for education, but they are not willing to spend in the 
absence of understanding that these are quality environments, 
that there is learning going on, and that, as I see it, when we 
take a look at reducing class size, when we look at 
modernizing, when we look at teacher training, it is not 
individual, it is not just pieces, it all hangs together in 
terms of allowing for a better teaching environment, allowing 
for us to really raise the standards that we have in order to 
make sure that we have a population and a new generation of 
youngsters who are truly educated.
    Secretary Riley. I think you are exactly right. And nothing 
could be more important than quality teachers. And you know, we 
took a study of teachers and a survey of teachers on certain 
subjects, and they indicated that in some of these new areas 
like technology, like teaching to standards, like teaching to a 
diverse student body or to children who are limited-English 
proficient, only a small percentage of them felt that they were 
comfortable in those changing circumstances, and they literally 
were crying out for more effective and better professional 
development.
    That is what teachers want, and that is what parents and 
students want. So I think anything we can do to help with that 
is important. And this proposal that we have in the Elementary 
and Secondary Act to combine Goals 2000, Eisenhower, and Title 
VI will lean strongly in that area to provide teachers with 
professional development so they can be better teachers. We are 
also going to have an enormous retirement of teachers, as you 
know, as the baby boom teachers reach retirement age, and we 
need to think seriously about that.
    Ms. DeLauro. Thank you, Mr. Secretary. I guess that is it.
    Thank you, Mr. Chairman.
    Mr. Porter. Thank you, Ms. DeLauro.
    Mr. Cunningham.
    Mr. Cunningham. Thank you, Mr. Chairman.
    Secretary Riley, old friend, you have been a friend 
throughout these years. I do think you are tainted a little bit 
because of the administration on some of your views, but we 
have arm-wrestled over the years even in the authorization 
committee.

                  ap exam subsidies for poor children

    I would like to thank you first for--I had a bill that 
provided subsidies for poor children to take the AP test, and 
you and the administration supported the increase in that, 
where otherwise a lot of children wouldn't even be able to take 
the AP test, and I want to thank you.

                       computer donation program

    Also the President signed a bill that I had, it was the 
21st century bill which allows private industry to donate 
computers to school systems. The problem is a lot of people 
were donating computers, but they were ending up in the back 
room, and nobody can use them, and they can't upgrade them, and 
the teachers don't have the time or capability to do that. And 
so they are using a nonprofit company to coordinate upgrading 
the computers. We are in 23 States right now. We let prison and 
military labor upgrade those computers so you get a benefit 
there. The company gets a tax break from it, and then the 
school receives that computer all ready to go. It is a win for 
the business, it is a win for the prison system, it is a win 
for the schools. And the President signed that, and the 
Congress before, and it is coming up in the next Congress. I 
would like your support or at least like you to take a look at 
that again. We think it is very good program.
    Secretary Riley. I certainly will, sir.
    Mr. Cunningham. Thank you, Mr. Chairman.
    Will Rogers was quoted here, but I would like to quote 
somebody else. He is a very famous individual, called Yogi 
Berra, and he said, ``The future ain't what it used to be.'' 
And what I am referring to is that 40 years of Democrat 
control, and you look where we are in education today. We are 
20th in math and science. California is 50th. Even the 
Department of Education said in Title I, and especially in Head 
Start, which I support Head Start, but there is no cognitive 
gain in many of the areas that have Head Start programs.
    We take a look at the 760 programs that were talked about. 
All of those require tax dollars, Mr. Secretary. And if you 
look at those, those were produced not by some staffer. They 
were listed by GAO and President Clinton's Office of 
Management, and they listed those 760 programs. I just happen 
to have the roll here, it is 35 feet long, of all of those 
programs. And you look at every tax dollar that they take, and 
when you only get 48 cents out of every dollar back down to the 
classroom, then we think that is a crime.

             school construction and davis-bacon provisions

    Someone said that we are narrowing education. We are trying 
to expand it. A good example is one I have from my work on the 
D.C. committee. We closed schools here in Washington because of 
roofs and construction, and I had a bill that just waived 
Davis-Bacon just for school construction. It forced a choice: 
Are you for the children, or are you for the unions? And of 
course that was defeated because the Democrats wanted to 
support their unions, and we have some Republicans in the 
Northeast that are tied to the unions. If they don't support 
them, they are going to get blasted by millions of dollars.
    Question: In the 90-10 Taxpayer Relief Act we had a 
provision that gave tax relief for construction of schools by 
private contractors. The President vetoed that.
    Will you support in school construction waiving Davis-Bacon 
just for school construction and let the schools keep the 
savings, which is up to 35 percent, and let the schools retain 
that, but yet cut Davis-Bacon?
    Secretary Riley. Well, of course, the Davis-Bacon issue is 
another issue in another area, and the construction bill is in 
another committee.
    Mr. Cunningham. But, Mr. Secretary, with due respect, it 
still applies when you use Federal dollars for construction; it 
has to fall under Davis-Bacon. Basically it is a yes or no. 
Would you support cutting Davis-Bacon and letting the schools 
keep those dollars?
    Secretary Riley. Well, I will put it this way: I support 
the construction bill, and it is up to the Ways and Means 
Committee, of course, to define that bill. And the Davis-Bacon 
Act, while it is applied generally to appropriation matters, 
there is some question about it applying to tax bills. This is 
a tax bill, and I think there is some question about that, and 
I think they are working through that now to decide.
    Mr. Cunningham. Would you support it if it saved money for 
schools?
    Secretary Riley. Would I support--
    Mr. Cunningham. Waiving Davis-Bacon, if it gave extra money 
to the schools.
    Secretary Riley. Well, I don't think that is a fair 
question. People who are for Davis-Bacon would argue that the 
quality of the work is consistent with Davis-Bacon.
    Mr. Cunningham. Mr. Secretary, 95 percent of construction 
in this United States of America is nonunion, and are you 
telling me that the buildings are not good?

                               impact aid

    Let me go to the next question. Education impact aid. The 
President has zeroed it for military children living off-base. 
It is very important to California because education impact aid 
affects military families and Native Americans, and the 
President has zeroed that each year. The money that we put into 
education impact aid, the Department has delayed the spending 
of that money. I would like some indication--you can provide 
it--on when we can expect to see that.

                           special education

    In special education, you have got a burning light in San 
Diego. His name is Alan Bersin. He is a good friend. He is 
trying to clean up that school system. His number one problem 
when I met with him is special education. You have got these 
cottage organizations established by trial lawyers that are 
destroying the school system there. Every day there is a child 
born to a family with special needs, and they don't know what 
to do, and yet the lawyers are getting these individuals and 
going in.
    I saw where there was a Supreme Court case that directed 
the school to pay for a full-time nurse, at a cost of thousands 
of extra dollars. And with the guidelines, how do I know about 
them? My sister-in-law is Carolyn Nunes, director of special 
education in San Diego City Schools. My wife is the director of 
administration in Encinitas schools. And it is causing undue 
harm. And what I would ask is not just release these 
guidelines, but enforce them, because you are having special 
education teachers having to go into the courtroom and get 
blasted by these lawyers. They are not lawyers. They want to 
teach, and they want to help children, but without these 
guidelines and without the enforcement, we are losing a lot of 
our special education teachers, and the extra dollars that are 
being ripped out of the schools because of these lawyers is a 
crime.
    Secretary Riley. Well, Congressman, you have asked a half a 
dozen questions or observations. Let me respond to a couple of 
them.

                           Impact aid Budget

    First of all, I know the Chairman shares my interest in 
impact aid. We did not zero that out for ``a'' children, which 
is the primary responsibility of the Federal Government. 
Children of members of the uniformed services living on Federal 
property, children who live on Indian lands, children of 
Federal employees who both live and work on Federal property, 
and children of foreign military officers living on Federal 
property are ``a'' children. We, in fact, increased that some 6 
percent.
    Mr. Cunningham. But most of them live off base because 
there is not enough military housing, Mr. Secretary.
    Secretary Riley. Well, the ``a'' children, we perceive to 
be our first responsibility. And we think the money for ``b'' 
children should be shifted to ``a'' children over a period of 
years. And of course with this is a consistent feeling of 
ours----
    Mr. Cunningham. But those children that live off base still 
impact that school for military families and Native Americans, 
and the schools are having to pay for that, and when you zero 
that out, it makes it tough, and we have both, Native Americans 
and military.
    Secretary Riley. And I agree with you there is some impact, 
but of course they have a house, and they are paying property 
tax on the house.
    Mr. Cunningham. No, sir, most of them don't. That is the 
problem. The military family may well pay their taxes in 
another State. If I was in the military in Illinois, I might 
not pay all of my State taxes and Federal taxes in the State of 
Illinois.
    Secretary Riley. But you pay property taxes where the 
property is. If they own a house off base, some of them are 
paying property taxes.
    Mr. Cunningham. Most of the families are renting because 
they are on food stamps and they can't afford to do it.
    Secretary Riley. The owner is paying property taxes.
    Let me say this about where we have come in education, and 
you and I have had some interesting conversations, and I know 
your wife is on our side on some of these pro-education things. 
She is a teacher. But what I would say is this, and I 
appreciate your concern, and I do think you are concerned----
    Mr. Cunningham. I am on your side in some of this, too.

              National Assessment of Educational Progress

    Secretary Riley. If you look at some of these recent NAEP 
test scores, for example, reading, nothing could be more basic 
than reading, and in 1994 reading scores were down, and all of 
us were very concerned about that. Over a 4-year period with 
standards coming in and with all the States, the Governors, 
everybody else emphasizing education, and especially reading, 
the test scores for 1998 are up in every test level, 4th grade, 
8th grade and 12th grade.
    Mr. Cunningham. Mr. Secretary, we Republicans took the 
Majority in 1994.
    Secretary Riley. The education measures that we forced upon 
you in 1994 are making the difference.
    I would say this, whatever it is, and I think there is lots 
of credit to be put out there in a lot of ways, and in all 
seriousness, I do think all of us have been involved in it, and 
it is making a difference, Congressman. That is the main point 
I wanted to make. It is making a difference, almost a half-
grade level increase in those 4 years in those 3 grade levels, 
in reading, and I think that is very important.

                    Bipartisan Support for Education

    Mr. Cunningham. The only reason I took this tack, Mr. 
Secretary, is that there are some on the other side that want 
to take back the Majority. And every time we meet, they jab and 
jab and say that Republicans don't care about education. I 
don't think there is a single Democrat, liberal or moderate, 
that doesn't care about education. And I don't think there is a 
single Republican that doesn't deeply care about education. Our 
focus is getting rid of mostly the bureaucracy and those things 
that inhibit getting the dollars down to our classrooms where 
our teachers, parents and community can make those decisions, 
and instead of the bureaucrats back here, and that is where our 
main difference lies.

             Administrative Costs of Department's Programs

    Secretary Riley. Let me make just a brief response to that 
because of something else that we have discussed before. Our 
administrative costs for K through 12 programs here in 
Washington is like one-half of 1 percent.
    Mr. Porter. Thank you, Mr. Cunningham.
    Mr. Secretary, one of your predecessors is announcing 
today, and another one flirted with it, and education is, of 
course, the number one priority issue in the country. I wonder 
if you have your Presidential campaign on track.
    Secretary Riley. I don't think I am doing too good with the 
gentleman over here, so I am reconsidering.

                    Bipartisan Support for Education

    Mr. Porter. Well, Mr. Secretary, I have a tremendous 
respect for you. You have done a marvelous job as our Secretary 
of Education. You have brought to the office experience as 
Governor of one of our States, and yet I want to pick up on 
something that Mr. Miller raised.
    Mr. Miller raised the whole question of the budget itself 
and what you bring before our subcommittee. And I just want to 
say that what Mr. Cunningham said is exactly right. We all care 
very deeply about this subject, and the difficulty is that it 
is made partisan.

                      Politics Versus Good Policy

    It seems to me that it is fine for the President to make 
the proposals that he makes in his State of the Union Address, 
and it is fine to make them in the budget as well for new 
programs to address needs.
    The difficulty is that when they are presented here, we all 
know that the funds are not unlimited; that we have some 
opportunity perhaps to address needs that have not been 
addressed before, but probably not nine new programs. And the 
difficulty is that you testify and we listen, and we ask 
questions and you answer, and we listen, and there is never any 
real bipartisan engagement on these matters until we get down 
to the end of this process and it is being negotiated at the 
White House. And I think there is a real problem in terms of 
trying to really address these matters on a bipartisan basis 
and trying to find common ground and not simply work through 
who has the greatest political leverage at the particular time 
to get done what they want to get done. And I decry that. I 
think that it is a real problem. Politics often gets in the way 
of good policy, and I think this is one of the places where it 
does.

                          Performance Measures

    Let me make a comment on the performance measures in your 
budget, Mr. Secretary. While there is some way to go, the 
Department has made very commendable progress. Tables with 
performance measures are provided for many of the Department's 
programs, and some numerical goals are also provided. While 
your Department has made good progress, I think we would both 
agree more is needed. I hope we can continue to work together 
to refine this process into a management tool that will be 
useful both to the Department and to the Congress.

                            Operating Plans

    I must also comment, however, on the fact that the 
operating plan, due to the committee 30 days before the passage 
of the fiscal year 1999 bill, did not arrive until early 
February, and the FIPSE and FIE portions are missing. I hope, 
Mr. Secretary, that you will give your personal attention to 
the completion of this plan and to assure that next year a 
timely and complete plan is submitted to the committee.
    Secretary Riley. Thank you, and I will do that, Mr. 
Chairman.

              Computer Learning Programs--``I Can Learn''

    Mr. Porter. Mr. Secretary, about 3 weeks ago, I think it 
was, the former Chairman of our full Committee came in here 
with a special hearing to present to our subcommittee a program 
called ``I Can Learn.'' This is not an Internet program, but it 
is a computer program for learning. Do you know about this 
program by any chance? ``I Can Learn''?
    Secretary Riley. Is that the Louisiana program--yes, it is 
a computer program. I have been informed of it, and it was 
funded, as I recall.
    Mr. Porter. It to us was, I think, very, very impressive. 
Kids who were from the inner city, from the poorest 
neighborhoods of New Orleans, were taught with computers in the 
classroom, and many of them had worked through all the high 
school programs of algebra, geometry, trigonometry. One student 
had completed the program by the time she was beginning her 
sophomore year in high school, and was then enrolled in the 
Stanford University program and was going on to doing calculus 
and differential equations and much higher mathematics.
    It seemed to us on the basis of the evidence that was 
presented that this program was able to teach kids math using 
computers in a much more effective way than we had seen other 
approaches do.
    And so I wonder what you think about computer program 
learning. We talk about hooking up to the Internet. That is a 
source of information and perhaps learning also, but this is a 
computer program learning where the teachers are trained to 
monitor the progress of the student as he or she works his or 
her way through the program. Does this work? Is this good 
evidence? Is this something we should really be actively 
pursuing?
    Secretary Riley. Well, Mr. Chairman, we have lots of 
software programs out there, really hundreds of them, and of 
course we hear various positive or negative things about them 
from time to time. And I met with these people with ``I Can 
Learn'' in New Orleans or wherever, with Congressman 
Livingston, and they have some impressive information.
    Some children, I think, can learn well in this way; others 
cannot. But as we move more into the technology world, 
certainly with teachers who are schooled in how to teach with 
technology and with better software, I think it is going to 
make a big difference.

                  Computer Program Learning Evaluation

    Mr. Porter. Do we have any evaluation going on of computer 
program learning?
    Mr. Skelly. We have a number of studies of all of our 
programs, and we are proposing some continued work in our 
Office of Educational Research Improvement on software 
development.
    Secretary Riley. Mr. Chairman, I am reminded we have a 
commission that was established under the reauthorization of 
the Higher Education Act, and it is developing itself to 
examine just that, and that is a good point.

                      Comprehensive School Reform

    Mr. Porter. Mr. Secretary, comprehensive school reform, how 
are we doing with that program?
    Secretary Riley. Well, I spoke of that in my opening 
statement, when you were in the snow. I spoke of it in very 
positive terms and the fact that we have recommended an 
increase in the program. It is also research-based. Any of the 
reforms that are pressed for under that program have been 
proven to have worked. And we are very strong supporters of it, 
and we are expanding it and think it makes an awful lot of 
sense, and I thank you and Mr. Obey for--in a bipartisan way--
putting that out there. And it is working. It is making a 
difference.
    Mr. Porter. Thank you, Mr. Secretary.
    Mr. Jackson.
    Mr. Jackson. Thank you very much, Mr. Chairman.
    Before I begin, Mr. Secretary, I want to just make one 
observation. The Chairman of this committee from Illinois and 
myself, also from Illinois, agree on at least one thing, and 
that is we want Congressman Cunningham to pay taxes in 
Illinois. I want him to pay more.
    Mr. Cunningham. When I was in the military, I did.
    Mr. Jackson. Secretary Riley, I want to commend you on the 
outstanding job that you have been doing as Secretary of 
Education, and as a personal aside, when I was first offered 
the opportunity to enter into public service, Secretary Riley 
at the Department of Education offered me my first opportunity 
to serve in the administration in the Department of Education 
for which I am extremely grateful. Only fate would have it that 
3 years later I would run for Congress and win myself and have 
the opportunity to come and try and make sure you have enough 
money for many of your requests.
    One of my----
    Secretary Riley. I know you were a young man, but I also 
remember having the opportunity to give one of the eulogies at 
your grandfather's funeral.
    Mr. Jackson. Yes, you did.

                       Department Budget Request

    One of my core beliefs and goals and ideas that I have been 
advocating for several years now is that we must work together 
to form a more perfect Union by ensuring that no American is 
left behind. And I am pleased to see that recently so many 
other policymakers have taken it upon themselves to stress this 
idea, and from what I have seen, your budget, Mr. Secretary, 
works to achieve this goal.
    I know your commitment to quality education for all is 
sincere, and I am extremely pleased to see that the Department 
of Education's report on Title I attempts to accomplish some of 
that sincerity.
    Secondly, I am happy to see that your budget includes an 
increase for bilingual and secondary education, and also you 
are including some funds for vocational and adult education.

                      Title I National Assessment

    Mr. Secretary, my first question, there are several schools 
in my district that benefit from Title I. Eighty-nine percent, 
according to the CEO of Chicago Public Schools, Paul Vallas, of 
the students in Chicago public schools live in poverty. 
Citywide, the Chicago Public Schools received $1.64 million 
last fiscal year and has been hailed a model of success. The 
Department of Education's final report, ``Promising Results 
Continuing Challenges, Findings from National Assessment of 
Title I,'' shows some very promising results on Title I. Can 
you generally comment on the report's findings and highlight 
some specific continuing challenges of Title I?
    Secretary Riley. Well, thank you very much. The evaluation 
was very positive about Title I, and that has not always been 
the case. And I feel like I was very pleased with the results--
it wasn't 100 percent positive, but it was basically positive. 
One of the problems it pointed out was the large number of 
teacher aides that are funded, and teacher aides can be a 
wonderful part of the mix, but we, of course, have urged and 
support not having teacher aides teach, but have them be aides 
and let the teacher teach.
    The evaluation also, Congressman, was very supportive of 
our move in the reauthorization of the Elementary and Secondary 
Act, and that is the strong emphasis on accountability; the 
strong emphasis on teacher quality; doing away with social 
promotion, as you know, which is happening in Chicago; the 
elimination of nonperforming schools, which is also happening 
there. The Title I evaluation indicated that many of those 
things was the right way to go and supported them.

                     Title I Funds For High School

    Mr. Jackson. Mr. Secretary, I have a school in my district, 
by the way, outside of the city of Chicago. I have about 30 
municipalities out of the city of Chicago that are also in my 
district. I have a school in my district, Bloom Township High 
School, where David Broder was a former graduate. There are 
about 3,000 students at this school, and the class day begins 
at 8:30 in the morning and ends by 2. In part by local 
referendum, they cannot pass an increase as much as a quarter--
25 cents--a day per family in Chicago Heights, Illinois, for 
the purpose of keeping a school open longer. They only have 
five core courses that they teach at the high school now, and 
no multilingual studies are offered, in part because they 
cannot pass a referendum. And yet 3,500 students will graduate 
from this school this year because of the funding formula that 
is associated with that school.
    I am wondering, do you see this as a Title I-applicable 
situation? And are there other remedies that can be sought 
through the Education Department to help alleviate the pressure 
that a school system like that one is facing?
    Secretary Riley. Well, the thing about education, which is 
fascinating as you go from district to district, is that you 
see all of these different situations and circumstances. High 
schools, of course, can receive Title I funds, but they have to 
be poor, they have to have a large number of students who are 
poor. As you know, there is a threshold of 50 percent or poorer 
for a schoolwide program.
    So there can be some help if that high school has a large 
percentage of poor students. Those decisions, of course, are 
basically local decisions as to whether they want the Title I 
money to go to an elementary school, middle school, and that is 
where most Title I funds go, as you know.
    So it can be of help. It is more difficult probably in high 
school than it is in other schools.

                          Vocational Education

    Mr. Jackson. Finally, temporary assistance for needy 
families, TANF, is forcing more people to go off welfare. I am 
concerned that forcing these people who need to find a job 
without the necessary job training creates a vicious cycle. I 
am wondering whether or not you can explain the Department's 
modest increase in vocational education for fiscal year 2000 in 
light of the President's initiatives to move people from 
welfare to the workplace.

                          Budget Spending Caps

    Secretary Riley. Well, that is a good point. The only 
answer I can have is the same answer I had for some of the 
other questions here, and that is, the caps that were on us 
were very serious and very stringent, and it really put us in a 
position of really choosing certain areas where we could have 
some modest increases.
    I will point out over the last three years in the 
Department we have had over a 10 percent increase a year, and 
that has been significant and it has been generous. I think it 
has been well spent. This year was a year that we concentrated 
more on construction, class size, after-school programs, those 
special education interests, and accountability to try to make 
sure those dollars that we are going after are being spent in a 
good way.
    Mr. Jackson. Thank you very much, Mr. Secretary.
    Thank you, Mr. Chairman.
    Mr. Porter. Thank you, Mr. Jackson.
    Mrs. Northup.
    Mrs. Northup. Yes, thank you.

                     National Programs--Local Needs

    Thank you, Mr. Secretary. I do think many of the issues you 
raise regarding education and how kids can learn better are the 
issues that are wrestled with in every State, every local 
community and actually every school. What are the unique needs, 
talents that we have? How do we match them up so that we better 
help every child live up to their potential and achieve?
    My concern is in the one-size-fits-all type of application 
of your proposals. I even agree that money is part of the 
solution to resolve some of the challenges we face, but I 
believe that the money is needed in different ways in different 
places, that some States have taken different approaches. They 
have already invested--some in technology, some in class size, 
some in curriculum--and what they need is the freedom to use 
their resources or the resources that they are provided with 
filling in the gaps that aren't currently filled in, instead of 
us adding more responsibilities to them that sort of back them 
into a corner and tie their hands from using the resources how 
they believe they can make the biggest difference.

               Class Size Reduction Matching Requirement

    I even noticed that the new 100,000 teacher proposal will 
in the future require the local district to put up a 35 percent 
match for any Federal monies they receive. So if they are 
pressed in other areas, say technology, they might have to 
further dry up the funds in those precious areas in order to 
meet the Federal requirements to access the teachers.

           National Programs--State Needs and Accountability

    Secretary Riley. Well, I think you are so right that the 
big job is making it all fit, and as you pointed out, I think 
all of us want to get the right purpose and want to achieve the 
same vein and the question is of how. You raise a very real 
issue and that is, when you have Federal national programs in 
education, how much then do you do in terms of flexibility or 
regulation and so forth? That is a very legitimate issue and 
one that is worthy of talking about in all of these different 
areas.
    My general feeling of that is that if we have an 
educational program on the Federal level, that it should be 
driven by State needs, things that States are doing that are 
working in the States. It should have a major national purpose. 
That purpose then should be a target for the funds, and then 
there should be accountability so that we can measure whether 
or not they are accomplishing that purpose, moving towards it. 
In the middle of that have lots of flexibility.
    So I agree, you know, with a lot of what you say, but my 
recommendation of the way to do it is through some strong 
accountability, and it is complicated to talk about more 
flexibility and more accountability, the two hardest to work 
out.
    Mrs. Northup. It is pretty difficult to hold States 
accountable when you actually are going to say ``to take 
advantage of our programs, you are going to have to shrink what 
you spend in other areas,'' and maybe those are more critical 
than the way you want them to spend the money. I would like to 
specifically ask you a couple of questions.

                    NAEP Scores--Kentucky's Progress

    Are you aware of Kentucky's progress in the NAEPs scores, 
particularly in the younger grades?
    Secretary Riley. Absolutely. Your superintendent was with 
us when we announced the scores, and I have followed Kentucky 
very closely, as you know, because they have been a State that 
has been way out in terms of reform.

            Addressing Local Needs and Class Size Reduction

    Mrs. Northup. And we have spent a great deal of money. One 
thing we did not do, Mr. Secretary, is shrink the size of our 
classes.
    Secretary Riley. Well, the effort I think is to have 
smaller classes in those early grades, though.
    Mrs. Northup. Actually, our goal is to infuse schools with 
the money and to allow them to spend it where the need most 
exists. In fact, if you have a high number of at-risk children, 
either children with disabilities or children from backgrounds 
where they are most likely not to succeed, we have tremendously 
increased the number of teachers in those schools and yet, we 
have allowed other classes or for schools that maybe have less 
need there to bolster their resources in different ways. But 
what you would do is hold all schools, whether they are at risk 
or not, to a standard of how many kids per classroom, and in a 
sense dry up the resources where we are having the most 
success.
    Secretary Riley. Well, as I indicated in the question about 
California, if the effort is to reduce the number of students 
in the classroom, within that we think there is lots of room 
for flexibility.

               California--Class Size and Reading Scores

    Mrs. Northup. Let me go to California then. What year did 
California begin to reduce their class size?
    Secretary Riley. It was a couple years ago.
    Mrs. Northup. I thought it was in the early '90's, '90, 
'89, '91.
    Secretary Riley. Mid-90's, I am told, several years.
    Mrs. Northup. I think the early 90's. In fact, their scores 
went down. They went down from 202 to 197. Then they put in a 
new reading program, changed their curriculum, invested in that 
kind of an investment and now they are back up to 202. In fact, 
many people credit the fact that they reduced their class size 
instead of attacking curriculum for the reason that their 
scores went down in the first four years of those tests.
    Secretary Riley. Well, and you can find other States that 
have different scores.

              NIH Teacher Preparation Training in Reading

    Mrs. Northup. Exactly, and that is exactly my point. I 
couldn't agree with you more that some students would be well 
served if we lowered class sizes. Are you aware of the NIH 
program in several of the elementary schools here in 
Washington, D.C. to teach children how to read differently, 
that has dramatically increased their reading scores?
    Secretary Riley. I have heard something about it. I don't 
know the details about it, but I have been to a lot of schools 
and seen a lot of reading things taking place and then children 
learn how to read differently. There of course is a recent 
study that is very impressive about reading, and it says that 
yes, children have to have phonics and decoding and sounding 
words. They also have to understand the meaning of sentences 
and all of that. So all of that is important. It is not just 
one approach.

           Flexibility in Use of Federal Funds at Local Level

    Mrs. Northup. Exactly, and I am not questioning how we 
teach children to read. I am just talking about the investment 
that NIH has made in teaching last year, I mean in training and 
preparing teachers in kindergarten and first grade how to teach 
children to read. Now second grade is included. There were 
scores that were mostly around the 20th percentile. They were 
in the most desperate schools. One of those classes now has 
children in the 95th percentile. All of them have dramatically 
improved.
    My point is that they did not lower class size. And so what 
I am not saying is that we shouldn't lower class size, and I am 
certainly not saying we shouldn't invest in our schools. What I 
am saying is that the needs differ from school to school, class 
to class, and that the Federal money should not be constrained 
so that it can't be used where it makes the most difference.
    Secretary Riley. I understand your position. We were 
talking about Reid Lyons' program, which is a very good 
program, and we meet with him frequently and are following that 
very closely. It is a very good program.

               Class Size Reduction Matching Requirement

    I will mention one other thing on the matching program, 
matching dollars that you mentioned. That just picks up on the 
second year. In the first year the $1.2 billion would not have 
matching dollars, but only the increase would be matching 
dollars.
    Mrs. Northup. Thank you, Mr. Chairman.
    Mr. Porter. Thank you, Mrs. Northup.
    Mr. Istook.
    Mr. Istook. Thank you, Mr. Chairman. Let me endorse the 
remarks made by Mrs. Northup. I don't think the Federal 
Government ought to be telling people that just because, 
whether it be class size reduction or some other program might 
be needed in some areas, that doesn't mean that we need to 
spend the money to mandate it everywhere, because in doing so 
we deprive people of the funds they may need for whatever their 
local approaches and success stories may be.

              National Tests in Reading, Math and Science

    I noticed, Mr. Secretary, you mentioned improvement on 
national reading scores, and I certainly join with you in being 
glad that that improvement occurs. I know you're able to make 
that statement because, as your testimony reflects, there are 
tests of students on a national basis that enable us to know 
how they are doing on reading. We know there are studies on a 
national basis that enable them to evaluate, for example, math 
and science, because I have the publications from your office 
that report on that.
    So I was glad that your testimony mentioned that we do have 
national tests already. I hope the next time that the President 
or someone else says, ``Oh, let's spend all these millions of 
dollars on creating national tests,'' you can say, ``Wait a 
minute, Mr. President, don't reinvent the wheel. We have those 
things already.'' Let's use the money instead some place where 
it is needed or give it back to the taxpayers, rather than 
spending extra money just to duplicate programs that are 
already being conducted in so many areas.

                       Impact Aid Budget Proposal

    I think that perhaps, too, Mr. Secretary, if you weren't 
trying to impose restrictions on class sizes or imposing 
restrictions on federally controlled national testing, maybe 
then you wouldn't have a proposal in your budget such as you do 
regarding Impact Aid, and I am very concerned with--and this is 
a statement from some of the material that you have provided 
the district.
    You say for this portion of Impact Aid, I know you want to 
continue it for those who are children of Federal employees who 
both live and work on Federal property, but you say that you 
want an elimination of payments for heavily impacted districts, 
and I am reading from your material, because the formulas fail 
to target funds to districts with large proportions of 
federally connected children and limited fiscal capacity.
    But Mr. Secretary, when you want to continue funding Impact 
Aid for those who are children of parents who both live and 
work on Federal property, you don't apply that standard of 
whether it is a district with a large proportion of federally 
connected children. You don't apply that standard of whether it 
is a district with limited fiscal capacity.
    And personally having been educated in a school district 
that had a large number of people that worked on Federal 
property but did not live on Federal property, I know very well 
that even though you have the residential property tax base 
that is assisting that district, you do not have the business 
or the industrial property tax base that is flowing into that. 
And basically you are saying that the Federal Government should 
not be compensating a district, even though it is depriving it 
of the business and industrial tax base for parents who work on 
Federal property, and you want to eliminate that.
    I totally disagree with you. I think that funding Impact 
Aid and fully funding Impact Aid under the current basic 
arrangements, including those whose parents work on Federal 
property, is a much better use of our tax money than some of 
the other proposals in the administration's budget. So I would 
certainly join with the other Members who have asked you to 
take these things into account as far as what the Federal 
Government will be pressing for.

             Federal Direct Student Loans--Loan Statements

    I wanted to ask you about the direct loan program also, Mr. 
Secretary, for college loans. Being a parent, four of my kids 
have graduated from public school and the fifth is a senior. I 
have four in college right now. It will be five this fall. 
Believe me, I know about student loans, and one of the ones 
those involves is a direct loan.
    Can you tell me whether there is a reason, when all these 
what would be hundreds of thousands, millions of parents that 
receive the direct loan statements, why the statements that are 
sent to parents, the monthly statements and so forth of 
payments don't have a date on them? You don't have an issuance 
date when you send it to them. They don't show on the 
statements the date that you are crediting the payments that 
were received. They don't show how you have distributed those 
payments between principal and interest. That is kind of 
Finance 101 if you are getting a statement from a bank or a 
credit card company. Can you tell me why the direct loan 
program in all these mailings to people with college loans 
doesn't provide just that basic fundamental information when 
you send out the statements?
    Secretary Riley. I do not know, and that is the first time 
I have heard that complaint, and I will check into that and 
see. I will respond to you. If there is a reason, I will tell 
you, and if there isn't, we will correct it.
    Mr. Istook. I would appreciate that. I know you use 
computer programs, as you should, in generating those. As 
someone who is always trying to reconcile the difference 
between what the statement may show as the balance due or the 
balance owed and what my records show, that is the basic 
information that you need to avoid confusion later on. So I 
appreciate your looking into those things.
    Secretary Riley. I will check into that. The defaults are 
way down, so we feel like our people generally are doing a 
pretty good job of that, and we have come down from like 22 
percent to down to under 10 percent of defaults. It saves 
probably well over a billion dollars a year to the Federal 
Government.

                   federal funds for internet access

    Mr. Istook. Terrific. I also wanted to ask about the final 
area you mentioned, efforts to upgrade computer facilities in 
different schools. We all know that Internet access is a big 
part of that, many efforts going on, multiple programs which 
that involves.
    But I know, too, and I think someone else was touching on 
this in some of the questions, there is great concern as 
increased Internet access is made available through public 
schools and through other public facilities like libraries, as 
well, with what we are doing to make sure that we are not 
bringing in harmful influences.
    For example, right now there is a lot of talk about the 
Academy Awards. Somebody goes to a search engine, they type in 
the name of an actress, trying to look up something in relation 
to that. You do that, you are going to bring back a lot of hits 
from the search engine that you click on that doesn't just take 
you to a movie site. It takes you to a site with nude pictures 
maybe of actresses and other people, and so forth and so on. 
This is one example of the common difficulty with those things.

                internet filtering/cyber patrol systems

    So my question is, how do you propose to deal with that or 
would you support, for example, the approach that many of us 
have gone with, of saying that publicly funded computers to 
which minors have access ought to try to make use of the 
filtering software that is widely available when they are using 
Internet access?
    Secretary Riley. Well, I think the President has made it 
clear from time to time that he favors a V-chip, ways for 
parents to----
    Mr. Istook. This is not television, the V-chip. This is 
computers, like cyber patrol and so forth.
    Secretary Riley. It is a similar situation but it is a lot 
more complicated when you get to the Internet and computers. I 
think the sentiment of what the President feels is shown in the 
V-chip issue.
    I don't know of any pending thing as far as schools are 
concerned. Of course you have to be very careful about several 
things. You have to be careful of course about freedom of 
speech in terms of their research----
    Mr. Istook. Let me ask you this. Are you saying the 
Department is not doing anything, then, to make sure in 
providing Internet access we are not bringing in these 
undesirable influences? If your concern is as you are 
expressing it, your solution therefore is don't do anything?
    Secretary Riley. I don't know of anything offhand that we 
are doing, if you are talking about enforcing some kind of 
blockage of information.
    Mr. Istook. Anything to make sure that this does not bring 
in undesirable or pornographic influences?
    Secretary Riley. Well, we talk a lot about values and 
whatever for teachers and principals and so forth, and of 
course it would be very important for them to have policies in 
their own school to supervise and deal with their children. I 
don't know that a Federal law or regulation could deal with 
that, Congressman.
    Mr. Istook. Could you require that they make some effort, 
and then they make the local decision on what is the 
appropriate manner in which to make the effort?

              parents' and teachers' guide to the internet

    Secretary Riley. We have a parents' guide to the Internet 
that has some advice and counsel to parents, and of course to 
teachers, but I think that is probably the extent that we have 
felt that we could go.
    Mr. Istook. I would appreciate getting a copy of that. I 
look forward to working with you on this issue, because I think 
as we are trying to open up the access for good and for proper 
reasons, we want to make sure that we don't bring in very 
damaging influences as well. I think that we have the 
responsibility, in making Internet access widely available, to 
do something to prevent unsavory influences from coming to our 
children through the computers and public schools, and I thank 
you for some efforts hopefully to work on that.
    Thank you very much, Mr. Chairman.

                            Closing Remarks

    Mr. Porter. Thank you, Mr. Secretary. We have imposed on 
your time and we are over our time. We very much appreciate 
your appearance this morning and your answering all of our 
questions.
    I apologize not only for being late this morning, I 
apologize to your Assistant Secretaries in advance that we have 
a very accelerated hearing schedule necessitated by the fact 
that we must get ourselves ready to mark up early this year, 
and unfortunately we are going to have to do things in a time 
frame that I think is very compact and in fact too compact. So 
I apologize for that, but that is all we can do. Thank you very 
much, Mr. Secretary.
    Secretary Riley. Thank you.
    Mr. Porter. We stand in recess until 1:30 p.m.
    [The following questions were submitted to be answered for 
the record:]
    Offset Folios 97 to 177 Insert here

<SKIP PAGES = 081>

                                            Tuesday, March 9, 1999.

    ELEMENTARY AND SECONDARY EDUCATION AND BILINGUAL AND IMMIGRANT 
                               EDUCATION

                               WITNESSES

JUDITH JOHNSON, ACTING ASSISTANT SECRETARY FOR ELEMENTARY AND SECONDARY 
    EDUCATION
DELIA POMPA, DIRECTOR, OFFICE OF BILINGUAL EDUCATION AND MINORITY 
    LANGUAGES AFFAIRS
THOMAS P. SKELLY, DIRECTOR, BUDGET SERVICE
THOMAS M. CORWIN, DIRECTOR, ELEMENTARY, SECONDARY, AND VOCATIONAL 
    ANALYSIS DIVISION, BUDGET SERVICE

                       Introduction of Witnesses

    Mr. Dickey [presiding]. The hearing will come to order. 
Appearing before the subcommittee this afternoon we have Judith 
Johnson, Acting Assistant Secretary for Elementary and 
Secondary Education. Ms. Johnson, if you would introduce the 
panel members accompanying you and then proceed with your 
opening statement.

                  Opening Statement by Judith Johnson

    Ms. Johnson. Thank you, Mr. Chairman. With me is Delia 
Pompa, Director of the Office of Bilingual Education and 
Minority Languages Affairs. To my immediate right is Thomas 
Corwin from the Elementary, Secondary and Vocational Analysis 
Division of the Budget Service, and also Thomas Skelly, 
Director of the Budget Service.
    My testimony is framed in part by experiences during my 30 
years as a guidance counselor, classroom teacher, building 
administrator, and an assistant superintendent of schools. I 
have worked in both urban and suburban school districts.
    The fiscal year 2000 budget for the Office of Elementary 
and Secondary Education is $13.5 billion, an increase of $218 
million over last year. In addition, our President is asking 
for $25 billion and essentially an interest-free bond authority 
to build and renovate schools through the Tax Code. This 
Federal investment is intended to continue to support the 
efforts at the State and local level, to improve student 
achievement, and to support teachers across America as they 
educate our children.
    Since you received my written testimony, I would not like 
to read it, but rather to briefly highlight how our specific 
budget proposals reflect a comprehensive vision for supporting 
the improvement of education in collaboration with States and 
local school districts. To do that I am going to touch on 
several broad themes.

                       standards in the classroom

    The first one is standards in the classroom. Working 
together, State and Federal Governments have done much to 
develop a standards-based reform agenda for public education, 
and Goals 2000 legislation has been a crucial element in this 
process.
    A 1998 GAO study notes that many State officials credit 
Goals 2000 as being a significant factor in promoting their 
educational reform efforts. As a recipient of Goals 2000 at the 
local level, I can testify to the importance of those dollars 
in supporting standards-based reform in local districts.
    States, local districts, and the Department of Education 
are working together to make challenging standards a reality in 
every classroom in our country. To continue these efforts, we 
are requesting $461 million for Goals 2000, to provide some 
5,000 school districts with continuing assistance to help all 
children reach high standards.

                         equity and excellence

    The next broad theme is equity and excellence. As we raise 
standards, we must ensure that no child is left behind. Helping 
educationally disadvantaged children through Title I has been a 
national priority since 1965. The 1994 restructuring of Title I 
targeted additional funds to high-poverty schools, focused on 
high expectations and high standards, encouraged more 
schoolwide reform, and is beginning to yield promising, very 
promising, results.
    Between 1992 and 1996, the National Assessment of 
Educational Progress, or NAEP, reading and math scores improved 
significantly for our students attending low-poverty schools 
and improved significantly for our students attending high-
poverty schools. The recently released NAEP reading results 
tell us that we are on the right track. Reading scores are up 
for the first time in three important grades, 4, 8, and 12.
    To continue to build upon our recent success, we are 
requesting $8 billion in the fiscal year 2000 budget for Title 
I. While average reading scores are up nationwide, many 
students, far too many, still score below the basic level on 
the NAEP reading test. To improve achievement and to continue 
the success, we are also requesting $286 million for the 
Reading Excellence Program. These monies will increase literacy 
nationwide through after-school reading programs, and ongoing 
professional development for teachers in reading and parental 
literacy training.
    The Department also proposes increasing our Migrant 
Education Program to $389 million. Because their lives are so 
mobile, migrant children are among the most economically and 
educationally disadvantaged children in this country. The new 
funds will be used----
    Mr. Dickey. Say it again.
    Ms. Johnson. Because their lives are so mobile, migrant 
children are among the most educationally and economically 
disadvantaged in our country. The new funds will be used to 
create special learning environments, and especially, among 
many tools, increasing the use of technology. And similarly, we 
seek increases for Indian education, neglected and delinquent 
children, and homeless children. Each of these programs falls 
within the vision of leaving no child behind.

                     flexibility and accountability

    In the area of flexibility and accountability, our budget 
request also includes $200 million in new funds to help 
accelerate the current pace of turning around low-performing 
schools. According to our 1998 Title I performance reports, 
7,000 schools in over 1,000 school districts have been 
identified by their States as schools and districts in need of 
improvement. I would be happy to expand upon that during the 
question period.

                     teacher quality and class size

    Let's get at teacher quality and class size, another major 
theme. The beginning years of school are the first chance we 
have to educate our children and to prepare them for success. 
Recent studies conducted in Wisconsin and Tennessee demonstrate 
that students who attend smaller classes in the early grades, 
particularly students from diverse populations, make far more 
rapid educational progress than their peers enrolled in large 
classes.
    During my tenure as a district administrator in the city of 
White Plains, I worked diligently to reduce class size for 
these very same reasons, and in the first year of our efforts 
in White Plains, reading scores began to improve even as the 
student populations became more diverse.
    Our fiscal year 2000 budget includes a $1.4 billion 
investment on the Class Size Reduction Initiative a 7-year 
effort to allow us to hire 100,000 new teachers. Now, 100,000 
new teachers is only part of the story or part of the equation. 
My experience has told me that a quality teaching force is the 
single most essential element in an effective school. Teachers 
need to continuously update their skills in response to 
changing environments and student needs.
    In a recent study by the National Center for Education 
Statistics, or NCES, only 38 percent of our teachers indicated 
they felt very prepared to implement content and performance 
standards, major elements of the reform agenda across our 
country. To help teachers acquire the tools they need to teach 
high standards, we are requesting $335 million for the 
Eisenhower Professional Development Program to continue to 
promote high-quality teacher training, especially in the areas 
of math and science.

                     teacher training in technology

    Teachers who are trained in technology can help to raise 
student achievement. A 1996 study by the Educational Testing 
Service found that eighth-graders whose teachers received 
professional development in using technology as an 
instructional tool achieved NAEP test scores a third of a grade 
level higher than those students taught by untrained teachers.
    As I left my district, I left behind a multimillion-dollar 
instructional technology program that focused very specifically 
not on technology as a piece of hardware, but technology as an 
instructional tool to raise the level of achievement and to 
raise the level of standards in our school system. So I have 
some personal experience with the value, potential and promise 
of instructional technology.
    Our budget includes a $450 million request for the 
Technology Literacy Challenge Fund, which supports both 
professional development and the continuing purchase of 
computer hookups and hardware. Due in large part to this 
program, over 89 percent of our schools now have access to the 
Internet, up from 35 percent in 1994. According to NCES, the 
digital divide between high- and low-poverty schools has been 
reduced to 7 percent, a two-thirds decrease since 1994. We 
must, however, now place our emphasis on preparing the teachers 
to use this technology and to use it well.

                          school-based reform

    The next theme that frames the budget is school-based 
reform. While we support quality professional development and 
smaller class sizes, we must also continue to encourage the 
restructuring of schools that continue to fail our children. 
Schools that implement research-based comprehensive school 
reforms are better able to raise achievement among low-
performing students.
    To encourage more schools to undertake these effective 
improvements, we are requesting $175 million for the 
Comprehensive School Reform Demonstration Program. This program 
is off to a very promising start in its first year, focusing 
greater attention around the country on what works in raising 
student achievement. Hundreds of schools have already been 
selected by their States to implement coherent schoolwide 
improvements, aligned to standards in assessments, but more 
specifically aligned to the needs of the school community.
    In order for students to achieve their full potential, I 
will quote what I know parents will say is their first concern. 
They want to know that their children are in safe environments, 
and they feel that is the essential element that they need to 
feel comfortable when they leave a school building. Following 
quickly behind is knowing their child has access to a quality 
teacher.
    Our 2000 budget request includes a total of $591 million 
for safe and drug-free schools. Nationwide efforts to reduce 
drug use appear to be making progress. Furthermore, the overall 
school crime rate for students ages 12 to 18 has fallen since 
1993. However, there is still much work to be done.

                           parent involvement

    The last thing I would focus on is parental involvement. 
Parental involvement is a critical theme that runs through many 
of the Department's proposals. As a child's first teacher, 
parents play a crucial role in shaping their children's 
enthusiasm for learning. We are requesting $30 million for 
parental assistance programs which fund parent centers serving 
all 50 States to promote greater parental involvement in 
schools and child-rearing.
    We are also requesting an increase in Even Start funding. 
This program integrates early childhood education, adult 
literacy, and parent education for low-income families. 
According to our performance indicators, in 1995, 50 percent of 
the students whose families participate in an Even Start 
program demonstrated moderate to large gains in student 
achievement.
    Mr. Chairman, taken together, the budget proposals reflect 
a comprehensive vision for supporting the efforts at the State 
and local level to improve the quality of student achievement 
in our schools.
    Mr. Dickey. Thank you, Ms. Johnson.
    [The information follows:]
    Offset Folios 188 to 197 Insert here

<SKIP PAGES = 010>

    Mr. Dickey. Ms.--wait a minute. I'll try it. Ms. Delia--
that is not close--Pompa.
    Ms. Pompa. Delia Pompa, that is very close. Thank you.
    Mr. Dickey. Delia Pompa.

                    Opening Statement by Delia Pompa

    Ms. Pompa. Thank you very much, Mr. Chairman----
    Mr. Dickey. We welcome your comments.
    Ms. Pompa [continuing]. And members of the subcommittee. I 
am pleased to testify before you today on the fiscal year 2000 
budget request for bilingual and immigrant education. My 
written statement, which I would like to submit for the record, 
outlines in detail the particulars of our request. I would like 
to take a slightly different tack with my oral testimony.

                   thirtieth anniversary of title vii

    Members of the subcommittee may be unaware that this year 
represents the 30th anniversary of the Title VII program. To 
mark this important milestone, I would like to pose and answer 
three very simple questions with some complex answers: How has 
the population changed, where does the money go, and does the 
program work?

                          demographic changes

    Thirty years ago when the Title VII program began, limited-
English-proficient students were heavily concentrated in a few 
Southwestern States and a few Northeastern cities. Today there 
is still a widespread perception that only Texas or California 
or New York classrooms serve limited English proficient--LEP--
students, but that is no longer the case. Dalton, Georgia, the 
self-proclaimed carpet capital of the world, is not well known 
as the destination for immigrants in the United States, and yet 
today in some schools in Dalton, two-thirds to three-quarters 
of students are Hispanic, many of whom are limited English 
proficient, and most from families that have come to work in 
the area's carpet mills and nearby chicken processing plants. 
In response to the challenge of educating the area's new 
Spanish-speaking students, civic leaders, led by Dalton lawyer 
Erwin Mitchell, created the Georgia Project.

                   dalton, georgia's georgia project

    Reverend Daniel Stack, a Roman Catholic priest in Dalton 
and a member of the Georgia Project Committee, stated the 
following in a recent Washington Post article: ``The leadership 
of the town early on had enough sense to recognize this 
population was awfully good for the economy.'' Georgia Project 
founder Mitchell explained the project in these terms: 
``Ultimately the aim of our school system is to make it 
possible for every student, be they native English or Spanish 
speakers, to become bilingual by the time of graduation.''
    Dalton, Georgia, represents one kind of demographic change 
going on around the country and highlights both the challenges 
and opportunities that an influx of limited English proficient 
or LEP families and students can present to a community. Those 
who call what is going on in Dalton ``new'' would only be half 
right. The kinds of changes prompted by the project in Dalton 
are certainly innovative and exciting, but what is happening in 
Dalton is also in a sense as old as the American Republic. For 
as long as there has been an America, our communities have 
accepted and have been renewed by newcomers who bring change, 
new life, and new opportunity to our schools, economy, and 
culture.

            increase in limited english proficient students

    That is why the Title VII program is more relevant today 
than it was when it was created 30 years ago. Alabama, Alaska, 
Florida, Idaho, Nebraska, Nevada, North Carolina, Oregon, South 
Carolina, and Tennessee all have something surprising in 
common. In each of those States, the number of LEP students has 
doubled in the last 4 years. Nationwide the number of LEP 
students increased 60 percent between 1990 and 1997, bringing 
the total to 3.4 million LEP students, representing over 150 
different language groups in this country.

                         distribution of funds

    Let me now go to my second question. Where does the money 
for Title VII go? It goes to Illinois and Wisconsin and 
Oklahoma and California and 41 other States and territories. 
The program funds 634 projects and, if the Congress grants our 
request for $10 million in additional funding for bilingual 
education instructional services, could fund an additional 125 
projects in fiscal year 2000.

                        grants for new districts

    As in Dalton, the most challenging moment for a school 
district is when large numbers of LEP students first arrive. 
This is when school leaders must confront how they will educate 
the new families and students. For this reason, in fiscal year 
2000, the Department plans to emphasize two types of 
instructional services grants that often benefit school 
districts that have experienced a recent influx of LEP students 
and who have little prior experience in serving LEP students. 
Those grants are the Program Development and Implementation 
Grant and the Program Enhancement Grants.

                      shortage of trained teachers

    The biggest problem any school district with significant 
numbers of LEP students will face is a shortage of teachers 
trained to teach students to speak English and help them learn 
their academic subjects. The shortage has been made more acute 
as school districts turn to reducing class size as a way of 
improving student achievement. As I mentioned in last year's 
testimony, the California Department of Education reported that 
they faced a shortage of over 21,000 bilingual or English as a 
Second Language teachers.
    The Title VII program is perhaps the most consistent source 
of new bilingual and ESL teachers. The professional development 
component of our program directly supports training of over 
4,000 teachers per year to help them teach English and help 
students achieve to high standards. And, if Congress grants our 
request for $25 million more for bilingual education 
professional development, we will help train 2,000 teachers 
more annually.

                         instructional methods

    A perennial question, sort of a subset of where does the 
money go, is ``what kind of programs do Title VII funds 
support?'' Are they only bilingual, as is popularly understood, 
those programs that require students to be taught in two 
languages? Are they English immersion programs that focus 
heavily on teaching students English before they learn anything 
else?
    Thanks largely to the last reauthorization of the Title VII 
programs, these questions, I believe, are almost irrelevant. 
Our grants focus on the students they serve and the quality of 
service, not on instructional approach. Today most Title VII 
grantees choose instructional approaches that blend 
instructional methods, blurring old understandings of bilingual 
or English immersion. Especially with school districts faced 
with a new diverse influx of LEP students, these distinctions 
are unimportant. They just want something that works, something 
that can help teach students who come to school not speaking 
English.
    Our typical systemwide comprehensive project, if I can 
generalize for a moment, serves children who are Spanish, 
Southeast Asian, Chinese, and American Indian language 
backgrounds. Because of the number of languages in a typical 
project, approaches to learning English are threefold. Schools 
employ two-way bilingual education techniques that might 
combine English speaking and non-English-speaking students in a 
classroom that uses two languages. They might employ 
transitional bilingual education techniques that transition 
students from their native language into English. Or, they 
might employ English immersion techniques that focus heavily on 
early exposure to English. Besides English proficiency, the 
typical project might also focus on professional development, 
family education, educational technology and the academic 
areas. The goal is always to help children learn to high 
academic standards.

                           local flexibility

    My point here is that the schools, our grantees, make the 
decisions about how to address the particular needs of the 
particular mix of LEP students they have, and that leads me to 
the third question I posed at the beginning of my testimony: 
Does the program work?

                        title vii effectiveness

    The quick answer is yes, because we hold each and every one 
of our projects accountable by requiring them to report 
detailed evaluations on project outcomes as required by the 
program statute. I am pleased to report that the first analysis 
of our grantees' biennial evaluations was completed in 
September 1998. The analysis culled information from diverse 
approaches to testing student achievement and performed what is 
called a meta-analysis to ensure that results from different 
assessment instruments are meaningfully compared. A summary of 
the results is as follows:
    In 91 percent of projects measuring oral proficiency or 
language proficiency and 82 percent of projects measuring 
written language proficiency, at least three-quarters of the 
students showed gains in English language proficiency. In 62 
percent of projects measuring language arts achievement, and 63 
percent of projects measuring math achievement, and in 62 
percent measuring reading achievement, at least three-quarters 
of the students showed gains in these content areas. Thus 
students in Title VII are learning English and language and 
math.
    The authors of the meta-analysis conclude the following: 
The results for these reports were fairly impressive, 
especially given that this is the first biennial report 
expected for these projects.

                              Evaluations

    Our office now has in place a series of evaluations of our 
programs, both required and inspired by the Government 
Performance and Results Act, that are due in coming years. I 
plan to share results with the subcommittee as they become 
available.
    I should state that our request for bilingual education 
support services is critical to continuing our evaluation work. 
Of course, focus on a typical program necessarily obscures the 
unique activities of individual projects or schools. Each is so 
different. For example, the Los Angeles Unified School District 
Korean/English Program at Cahuenga Elementary helps both Korean 
limited-English-proficient and native English-speaking students 
learn two languages. Over 4 years, the Korean speakers in the 
program increased their English reading scores by 11 normal 
curve equivalents, or NCEs, and their math scores by 19 NCEs.

                        Normal Curve Equivalents

    Mr. Dickey. Explain that standard.
    Ms. Pompa. I am not the one to explain it. May I ask 
someone on my staff to explain it who can do a better job?
    Mr. Dickey. That is a political way of doing it, but go 
ahead.
    Ms. Pompa. May I ask someone to come up?
    Mr. Corwin. It is a statistical test. Basically one normal 
curve equivalent is the expectation that you would--
    Mr. Dickey. How do you measure it? Is someone there to 
listen? Is someone there to test orally?
    Mr. Corwin. Yes.
    Ms. Pompa. If I might try, it takes a normal curve of 
results on a test and splits it--makes equivalent breaks in it 
so that 19--if you were looking at a test, 19 normal curve 
equivalents would be 19 of those standard units statistically 
that the students gained.
    Mr. Dickey. From testing.
    Ms. Pompa. From testing.
    Mr. Dickey.  Are they testing in English or testing in, 
say, Korean, as you just mentioned?
    Ms. Pompa. Both. We have English scores, and we have math 
scores in the native language and in English.
    Mr. Dickey.  Could you just go back to what you said? Maybe 
I would understand it better.
    Ms. Pompa. Over the 4 years, the Korean speakers in the 
program increased their English reading scores, that is testing 
in English reading, by 11 normal curve equivalents and their 
math scores by 19 normal curve equivalents.
    Mr. Dickey. Thank you.
    Ms. Pompa. As a comparison, the native English speakers in 
the program improved their English reading scores by 14 normal 
curve equivalents.

                        Other Exemplary Projects

    Three more programs I want to talk about. The St. Louis, 
Missouri, School District project serves middle and high school 
students in 19 schools throughout the district. In fact, 
students in the program who come from language backgrounds as 
diverse as Bosnia, Vietnamese, Arabic, and Somalian showed 
greater gains on standardized tests than their native English-
speaking peers and were more likely to remain in school.
    At James Madison High School in Brooklyn, New York, there 
are 25 different languages spoken by 740 LEP students, most 
within 3 years of their immigration to the United States. 
School staff work to structure bilingual curriculum for math, 
biology, and chemistry with a technological focus. 94.9 percent 
of the students in the bilingual program regularly attended 
school compared to 81.6 percent throughout the rest of the high 
school. There is no dropout rate. It is zero for students in 
the program compared to a 5.8 percent dropout rate for the 
school. The students all agree that learning and working with 
the computer has helped them learn English and science better.
    And finally, the Mountain View School District in 
California has utilized their Title VII grant to implement two-
way bilingual programs, a combination of 50 percent limited-
English-proficient students with 50 percent non-limited-
English-proficient students. Over 650 students are served in 
this program in the elementary and middle school. The district 
reports that after 2 years, limited-English-proficient students 
make statistically significant gains in oral English, overall 
English development and in math.
    I would be happy to discuss these results with you and any 
other questions you might have. Thank you for your time.
    Mr. Dickey.  Thank you for your testimony, Ms. Pompa.
    [The information follows:]
    Offset Folios 209 to 211 insert here

<SKIP PAGES = 003>

    Mr. Dickey. Mrs. Lowey, would you care to ask questions?

               Students' Progress Toward State Standards

    Mrs. Lowey. I would be honored. Thank you very much.
    First I want to extend a very special welcome to my 
constituent from White Plains, Judith Johnson, who did such an 
outstanding job in White Plains, and we are very proud of you. 
And I know that all your talents are being used, but we miss 
you, so it is a pleasure to see you again.
    Ms. Johnson. Thank you very much.
    Mrs. Lowey. And thank you for your important presentation.
    Ms. Johnson, I wanted to begin with talking about Title I 
evaluation. The week's release of the national assessment of 
Title I underscores the results we can get when we seek more 
challenging academic standards for Title I students and offer 
the resources necessary to achieve these standards. Based upon 
what we learned in the report, can you give us more information 
about States that are assessing their progress and meeting 
standards, and where are the pitfalls in trying to measure 
improvements in student performance? We thank you.
    Ms. Johnson. Let me start by giving you an assessment of 
where the States are. All of the States are making progress. 
Very few of them report having in place final assessments or 
final testing systems, although all of the States have what we 
call interim or temporary assessment systems, and many of them 
make the headlines. We learned a lot about what is going on in 
Virginia. We learned a lot about what is going on in New York.
    I would stress that the timeline for all States to have 
assessment systems in place is the year 2000/2001, which is 
just about upon us. It is our expectation they will all need 
help to get there, and, in fact, we are providing additional 
support to States that request it to help them meet that time 
line.
    The rigor of having all students meet high standards has 
been a challenging one for States and local school districts. 
In the past, prior to 1994, it was far too easy for States to 
have two sets of tests, lower basic skills tests for Title I 
students, and challenging, rigorous tests for all other 
students. So this historic change requires that tremendous 
resources be brought into the school. It requires teachers 
being trained. It requires teachers understanding how to 
implement standards into the classroom, and it requires 
providing ongoing professional development for both teachers 
and principals if they are going to bring to life the intent 
and purpose of the Title I law. Even so, we fully expect to see 
all of the States reaching the final assessment stage in the 
year 2000/2001.
    We have something called content standards for what 
students should know and be able to do. When I say ``we,'' that 
is the State and local initiative, not a Federal initiative. We 
are simply asking that they have in place a very clear set of 
expectations for what its students should know and be able to 
do that needs to be and must be stated at the State and local 
level. Forty-eight of our States have reached that level, and 
we fully expect the other two States to move along at a rapid 
pace.

                       Safe and Drug-Free Schools

    Mrs. Lowey. I thank you. And as you know, I have been a 
strong advocate for the Safe and Drug-Free Schools Program and 
a strong advocate of education in bias prevention efforts, 
especially for our Nation's young people. I can remember as a 
youngster growing up with ``South Pacific'', with the song 
``You Have to Be Taught to Hate'', and I really believe that.
    A few questions in that regard. First of all, do you share 
my view that the Federal Government and the Department of 
Education have a special responsibility to promote and fund 
education and outreach initiatives designed to address hate and 
bias for students across the country? You will probably say 
yes.
    Ms. Johnson. Well, let me go on with that. I think that is 
a collaborative effort. I think it can't happen just at the 
Federal level. I think there needs to be a commitment, and 
every community in this country and every school district in 
this country and every State in our Nation needs to share that 
commitment if we are going to meet that goal.
    Mrs. Lowey. And I would also add, because I have worked 
with many nonprofit groups such as ADL and American Jewish 
Committee, and there are many out there that are working in 
partnership, and I think there is a role for the nonprofit 
sector. In fact, I was in part of a panel just this week, and 
we were having that discussion about the unique role in the 
United States of not-for-profit groups, and this is unheard of 
in many places of the world where they really don't have 
volunteers that get involved and focus on issues.
    But I still think that we cannot dismiss the key role of 
government. And I hear the bell going off, so let me thank you 
again, Assistant Secretary Judith Johnson and Ms. Pompa.
    I apologize; I have to leave for another hearing at this 
point, but I thank you, Mr. Chairman.
    Mr. Dickey. Thank you, Mrs. Lowey.

          Educating Students at Pre- and Post-Secondary Levels

    I have one question to ask, and then we are going to recess 
for a few minutes. And this--I think I know the answer, and you 
all don't jump on me with this one. Why can't we repeat the 
experience we have had in the postsecondary field in secondary 
and elementary levels? We are doing so well in postsecondary, 
yet we are challenged in the lower levels. Have you all ever 
answered that question before, and if so, what answer do you 
have?
    Ms. Johnson. That question has never been posed to me in 
just that way, but--I am going to attempt to give you some 
observations. I can't give you any research that will help you 
think about it in some statistical way, but all of our children 
enter America's schools every day in elementary and secondary 
education. They all are educated. We turn no one away. When you 
get to the postsecondary level, it becomes a lot more 
competitive. Not every child moves on to postsecondary schools, 
although it is a goal of ours across this country to assure 
that all children have at least 2 years of postsecondary 
education. The better we get at educating all of our children 
in the elementary and secondary grades as a result of a 
partnership with States and local school districts, we ought to 
begin to see success at the secondary level that will build 
upon the success you are talking about at the postsecondary 
level.
    Mr. Dickey.  I think you were kind to me.
    Do you have any comment, Ms. Pompa?
    Ms. Pompa. I would only add my experience tells me that we 
formed a pipeline going into college, so we actually do have 
research that shows minorities do not enter colleges at the 
same rate, and to echo Ms. Johnson's statement, the schools 
serve everybody, the public schools, and you have large numbers 
of minorities, as you know, in our public schools, increasing 
numbers. That has not been the case at the postsecondary level. 
You begin to see some of those differences.

                        Postsecondary Education

    Mr. Dickey. What is happening? Where are they feeding off 
into, if they are not getting into the postsecondary in the 
same numbers?
    Ms. Pompa. Unfortunately we are not educating all of our 
students to the same level. It is a challenge that still 
remains ahead of us and why we come to you with our budget 
requests to increase funds to train teachers, to provide 
appropriate services for all these students so that we can 
widen that pipeline and let more students into college.
    Ms. Johnson. But we can get back to you with some data on 
what happens to students as they graduate from school. There 
are the armed services. There is employment. There are the 
vocational schools. And there are students who are not so 
successful once they leave secondary school. So we can find 
some data that will give you some objective to look at.
    [The information follows:]

        POSTSECONDARY ACTIVITIES OF THE HIGH SCHOOL CLASS OF 1992
                            [In spring 1994]
------------------------------------------------------------------------
                                                            Percent of
                                            Percent of      high school
 Primary activity, two years after high     high school    dropouts and
                 school                     diploma and        other
                                          GED recipients   noncompleters
------------------------------------------------------------------------
Student only............................            22.0             3.4
Student and working.....................            32.8             4.4
Working only............................            34.0            61.4
Homemaker only..........................             2.6            14.1
Homemaker and worker or student.........             3.4             7.0
Military................................             3.2             0.2
Other...................................             2.0             9.5
------------------------------------------------------------------------
Source: ``Youth Indicators 1996: Trends in the Well-Being of American
  Youth.'' U.S. Department of Education, National Center for Education
  Statistics. Data are from the ``National Education Longitudinal
  Study,'' Third Followup Survey.

    Mr. Dickey. One last thing. Let me just tell you all this. 
Pine Bluff is where I am from, Pine Bluff, Arkansas, and all 
four of my children graduated from Pine Bluff High School. One, 
my third child, graduated and was on probation going into 
college. He got turned down in several different schools 
because his grades weren't good enough. He was distracted by 
other activities and by the confusion and things like that, and 
we knew he was an underachiever. He went to college at the 
University of Arkansas, which was not his first choice, and 
something struck, and he was Phi Beta Kappa. He had a difficult 
time his freshman year because he was in the transition of 
where he started caring, you see, and he wasn't mature enough 
not to be distracted. That is what bothers me.
    Well, with that, I can't explain all this, but I am going 
to have to say we are adjourned for a few minutes. Five after 
2. Resuming at 12 after 2.
    [Recess.]
    Mr. Porter [presiding]. The subcommittee will come to 
order. Let me apologize to Acting Assistant Secretary Judith 
Johnson and Assistant Secretary Delia Pompa. I am sorry I was 
not able to be here at the beginning of the hearing, and I 
welcome both of you, and I understand that you have already 
given your testimony and there have been questions asked. So we 
will simply proceed with additional questions.

                           impact aid budget

    Ms. Johnson, your budget once again proposes a cut to the 
Impact Aid programs. As you know, school districts that are 
impacted by a Federal presence rely on these payments as their 
bread and butter. I have one such district within my 
congressional district. Can you tell the subcommittee how many 
schools would not receive payments under your proposal and what 
do you believe the educational impact of your proposal would be 
on those districts?
    Ms. Johnson. I am not sure I can tell you at this point how 
many schools will not receive funding. We will look that up.
    [The information follows:]

          Number of Schools That Would Not Receive Impact Aid

    The Department of Education distributes Impact Aid to 
school districts. Since school districts use Impact Aid as 
general aid, we do not know how many schools within these 
school districts receive Impact Aid funds. We estimate that 489 
of the 1,450 school districts that we believe will receive 
Impact Aid Basic Support Payments in 1999 would not receive 
these payments under the Administration's proposal in 2000.

    Ms. Johnson. The impact on the school district budget, is 
that the second question?
    Mr. Porter. Yes.
    Ms. Johnson. That is hard to predict, but we know that 
Impact Aid is general aid and that systems absorb that money 
and use it for a variety of purposes. So it would be a little 
difficult for me to give you an explicit listing of what might 
not occur or take place as a result of loss of the Impact Aid.
    Where we have made some decisions to reduce the amount of 
funding, we have determined that those places are best able to 
pick up the shortage.
    Do we know the number of districts that will not receive 
funding as a result?
    Mr. Corwin. Our estimate is that for 1999, we will fund 
about 1,450 school districts, and that would go down to about 
961 in 2000. In some past years we have done some estimates of 
the average loss. If that would be okay, we can put that in the 
record.
    [The information follows:]

                    Average Loss of Impact Aid Funds

    Among the school districts that the Department of Education 
believes (1) will receive a Basic Support Payment in 1999 and 
(2) would not receive a Basic Support Payment under the 
Administration's proposal for 2000, the average loss would be 
approximately $23,000.

    Mr. Porter. Were you here this morning when the Secretary 
testified? Mr. Cunningham raised issues about Impact Aid, and 
in particular how districts might cope with it or might not, 
and this is a matter of great concern to us.

                       timely impact aid payments

    Let me talk about some problems that I understand the 
Department had in making timely Impact Aid payments this year. 
My understanding is that only 40 percent of Impact Aid-eligible 
schools had received payments as of the end of January this 
year compared with 90 percent of payments made by the end of 
December in previous years. Can you explain why this occurred?
    Ms. Johnson. Yes. We do apologize for that delay, and as of 
mid-February, we had reached almost 90 percent of our 
districts. We moved to a new technology system, and in working 
out the intricacies of the budget and aligning the budget with 
the technology system, we hit upon some unanticipated glitches 
in the system, and that delayed the mailing of payments. But 
that has been corrected, and we now feel we are back on track.
    Mr. Porter. So this would not happen again?
    Ms. Johnson. This would not. This was a brand new system. 
You couldn't anticipate ahead of time what bugs you would 
encounter.

                       impact aid payment system

    Mr. Porter. Was this only an Impact Aid-assistance problem, 
or was this affecting other elementary and secondary programs 
as well?
    Ms. Johnson. To my knowledge, the only program directly 
affected was Impact Aid.
    Mr. Corwin. This was the Impact Aid payment system specific 
for Impact Aid. We changed to a new computer system as part of 
a larger effort in the Department to make all of our systems 
year-2000-compliant. So this was the year to do it, and there 
were a few bugs in there. As Assistant Secretary Johnson said, 
we have about caught up now.
    Mr. Porter. That is good. You got that problem behind you. 
All right.

                       time in bilingual classes

    Ms. Pompa, as you know, members of this committee have been 
greatly concerned about the length of time some children are 
kept in bilingual education classes without becoming fluent in 
English. I understand that the Arizona State Department of 
Education recently reported that only 4 percent of their 
limited-English-proficient students had learned enough English 
to transfer into regular classrooms. Do you believe this study 
accurately represents the success rate of bilingual education 
programs to which the Federal Government contributes?
    Ms. Pompa. I do not. This year in our reauthorization 
proposal, we are looking to put a requirement for data on that 
issue in evaluation provisions. Then I can come back and answer 
your questions for all our projects. But what we have done is 
take a sample of our projects to find out how long students are 
staying in bilingual education programs. We talked to States 
like Texas, California, various large districts.
    What we are finding is students stay in the program an 
average of 3 to 4 years. That differs from what Arizona found. 
In the case of Arizona, what we feel is they didn't ask the 
question in a way that would give--yield--the denominator. I 
might say, it was the wrong denominator. What you need to look 
at when you look at whether students are exiting the program is 
the total population in school that year and how many were 
reclassified, rather than looking at the number as a proportion 
of all students in school, because that is not an accurate way 
to measure it.

                         performance indicator

    Mr. Porter. Would you consider setting a performance 
indicator that an increase in percentage of children in 
bilingual education programs become fluent in English within a 
certain period of time?
    Ms. Pompa. I would definitely consider an indicator that 
would talk about an increasing number of students becoming 
proficient in English. Within a certain period of time gives me 
some trouble. I can see a range of a period of time that we 
might be willing to look at, yes.

                   maximum time in bilingual classes

    Mr. Porter. But there is a maximum period of time that 
every child should, or most children should, I should say?
    Ms. Pompa. That question--I don't think there is a magic 
cutoff. I think we have some averages. I also think that after 
a certain period of time, we would begin to question whether 
the program is appropriate for a student or if there are other 
problems that the student is experiencing.
    It would be difficult for me as an experienced professional 
even to say this is the number for all children. Children come 
to us with so many different background circumstances. We are 
receiving more and more children who have never been schooled 
even in their own language in this country, and that is a 
complicating factor. You have got to take into account those 
situations.
    Mr. Porter. I guess I would sort of like to bottom-line 
this and say are we doing better in this area, moving young 
children into English language quicker overall, or are we doing 
worse?

      data on how quickly bilingual children are learning english

    Ms. Pompa. The only measure we have that would show 
relatively quicker would be the census, and what the census 
shows is that we have many more children who are at higher 
levels of English than we had in the past. In the case of our 
programs, we can't compare; we can't say quicker because we 
don't have a baseline to look at. We are beginning to collect 
that data, and we will be able to have that information in 
years to come.
    Mr. Porter. How soon?
    Ms. Pompa. Well, we have the first report from our 
evaluations this year. We are gathering another report this 
year. So we are beginning to build a database that would tell 
us--that would allow us to compare how quickly children are 
learning English and actually more specifically what 
achievement level they are reaching not only in English, but in 
other academic areas also.

                            proposition 227

    Mr. Porter. What happens with Federal bilingual education 
money that was going to California school districts now that 
California has adopted Proposition 227 eliminating bilingual 
education classes?
    Ms. Pompa. When the proposition passed, we gave every 
grantee in California, the ones who were current grantees, and 
since we were in a period of just awarding grants, also those 
who had been chosen for new grants, the opportunity to say to 
us whether they needed to adjust their grant to be in keeping 
with the law. Not a single one of them said they needed to 
change their grant. We worked along with the State education 
agency so they continued to receive their money and are 
receiving it now.
    Mr. Porter. What is the status of that proposition? It was 
challenged in court; was it not?
    Ms. Pompa. It was challenged in court. They don't have a 
decision at this point. In terms of implementation, it is being 
implemented in different ways. There are various school 
districts that have sought parental waivers so the students may 
continue in bilingual education. There are some schools that 
have chosen to go the charter school route so they can continue 
to do bilingual education. Some school districts are adjusting 
the amount of English. The State department is working closely 
with us to define what is happening throughout the State and to 
study it.
    Mr. Porter. Thank you.
    Ms. DeLauro.

                            school violence

    Ms. DeLauro. Thank you very much, Mr. Chairman, and I 
apologize for going back and forth, but the agriculture 
subcommittee is meeting at the same time.
    So, Ms. Johnson, if I might ask you, last year the Nation 
was really rocked by the outbreaks of violence in schools. I 
know that the Department has been working very closely with 
schools to help to prevent these kinds of tragedies. Can you 
just give us some idea of what has been going on in this area?
    Ms. Johnson. I would be happy to do that. As a matter of 
fact, I was just visited last week by the mayor and the 
superintendent of schools from Springfield, Oregon, and what is 
real interesting to note is while the school district is no 
longer in the headlines, the tragedy and the aftermath 
continues.
    We have seen a decline in violence in our school systems 
across the country. It is not something that we should feel 
satisfied with or smug about. We intend, as a matter of fact, 
to continue to focus our funds on educating teachers to create 
learning environments that reduce the potential for violence in 
schools. It remains a very high priority, and, as you know, 
when parents are queried as to what they view as the essential 
factor or two essential factors in choosing a school, it is one 
that is safe and free from violence and one that possesses 
quality teachers. So it remains a very high priority for us.

                           early intervention

    Ms. DeLauro. I want to just pose something. What I tried to 
do in the aftermath of the violence, I met with the 
superintendents of schools and the chiefs of police in my 
district as well as the folks from the Yale Child Study Center, 
one of the things that happens is that we hear about the 
violence, we are horrified by it, and we are guilty up here of 
knee-jerk responses in legislation. How do you quickly make a--
how do you quickly say something, you know, put police in every 
classroom, whatever we do, but it is more to deal with a quick 
response to the horror of it rather than trying to sift out 
what is happening. And there was the purpose of trying to deal 
with it.
    Yale Child Study has a program with the city of New Haven 
and the city and the police department that deals with violence 
and kids who are affected by violence and families, either 
personal victims or witnessed violence; long and short of it, a 
very, very successful effort which is being replicated 
nationwide through the Department of Justice. But one of the 
things that came out of this meeting from the educators, I 
found that in some of the communities there is no contact 
between the education system and the correction system, that 
they really don't interact with one another; and further, that 
there is no, early intervention that deals with a mental health 
component of anything here as well, so that if you are 
witnessing disturbing behavior of any kind early on, there is 
no way, to deal with intervention at a time when you might deal 
with prevention.
    I am sorry I am going on on this. I think it is just--it is 
more than fascinating. It is not fascinating, it is crucial. I 
think we need to try to take a look at how we can deal with 
early intervention. I have been with people who are in the 
corrections department who have said to me they can go into 
early grades, and you can pick out or you can find out, who is 
going to have difficulty in the future, due to psychology 
training and psychiatric training and the mental health portion 
of all of this.
    What I am trying to get at is how are we trying to foster 
the kinds of collaborations between boards of education and 
school systems and corrections and the independent entities 
like a Yale Child Study Center and so forth to have a dialogue 
as to how we get at this other than looking at another punitive 
measure or physically placing police in every school. It sounds 
good to us but it is a quick fix. It gets us where we want to 
be, and then we can move on to something else without getting 
into any of the kinds of causes that we are looking at here. 
Sorry to take so long in letting this out.

                       school violence prevention

    Ms. Johnson. Let me try to answer this in three ways. I am 
very familiar with the Yale Child Study Center and the 
tremendous work they are doing across the country and the value 
of that system, because what they do is they focus on ensuring 
that there is a community-based approach to early intervention 
and to prevention, which is just as important.
    You mentioned officers who can walk into a school and 
identify the students who are potentially violent students. So 
can I as a teacher and as a district administrator. But that is 
certainly stopping short. If we can identify the students, then 
we certainly need to have in place the resources to provide 
support for them so they don't become discipline problems later 
on in life.
    What the Yale Child Study Program does is look at a 
community-based, broad-based effort to bring community 
agencies, parents, and teachers together both for training, for 
awareness, and for knowledge. The Safe and Drug-Free Schools 
Program has published ``principles of effectiveness,'' that 
clearly define and really marry themselves very well with the 
work done at the Yale Child Study Center. We are working very 
hard to make sure all of our districts understand that that is 
how their money should be used in Safe and Drug-Free Schools.
    There was a national conference, a White House conference, 
this year on preventing school violence that our staff played a 
very significant role in helping to organize. The proceedings 
were certainly very useful to us. We continue to work with the 
chiefs of police around the country in our large urban centers, 
and we work very closely with the Justice Department and 
Attorney General's Office in coordinating programs, so the 
three agencies working collaboratively can go into school 
systems and help districts, staff, teachers and administrators, 
and parents better understand what it means to create a safe 
environment for their children.

                 long-term solutions to school violence

    Ms. DeLauro. Thank you very much.
    One of the things I would like to continue to do in this 
effort is--and again, I think if Members--I am going to take on 
a small area. I deal with the Third District of Connecticut, 
not with the entire State. We have proceeded very slowly in 
this effort because I don't view this as, if you will, a press 
opportunity.
    What I would like to try to do is to continue to meet with 
the education personnel and the corrections people and the Yale 
Child Study, and if we can move that out into dealing with 
parents, et cetera, to try to bring some understanding, you 
know, and not understanding of what the heck we are talking 
about here, rather than this being, as I say, a press 
opportunity where you get a headline of some sort which 
ultimately doesn't get back--the long and short of it, what I 
would love to be able to do is try and continue conversation 
with some of the folks to speak with Members of Congress so 
that we don't have the kinds of knee-jerk reactions that then 
talk about more hardware, but rather to try to get a focus and 
an understanding of how, in fact, we can, through early 
intervention and through a mental health kind of component 
here, be dealing with some of the problems which are very 
serious and which we can help to make truly a long-term 
commitment to. And I would love to work with all of you on that 
effort to try to translate some of what you know that is 
happening back up here to Members so that we can see a broader 
picture than just the violence in itself.
    Ms. Johnson. I would be happy to work with you on that.
    Ms. DeLauro. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Porter. Thank you, Ms. DeLauro.
    Mr. Jackson.

                          immigrant education

    Mr. Jackson. Thank you, Mr. Chairman.
    Just one question. Ms. Pompa, the suburban schools in my 
district, the Chicago Public Schools, educate a significant 
immigrant population. I am concerned with the large number of 
students with limited English proficiency in my district. The 
more--and that more money should possibly be put into this 
grant program. I am very interested in your comments on LEP.
    Ms. Pompa. We are always happy to see more money put into 
our programs. The immigrant program itself has tripled over the 
last 3 years. It is now at $150 million. I am not sure and I 
would be happy to talk to you about which districts are not 
getting money. The districts that apply and qualify are 
receiving a substantial amount of money. It may be perhaps that 
these districts do not have the target number to receive the 
funding. Districts have to have at least 3 percent or 500 
students. We are encouraging States, however, to run 
competitions for smaller districts and districts who don't have 
the target number. I would be happy to talk with you to see if 
your particular districts fall into this category.
    Mr. Jackson. Thank you, Ms. Pompa.
    Thank you, Mr. Chairman.

                    increase in immigrant education

    Mr. Porter. Thank you, Mr. Jackson.
    Let me follow up that question. Why do you believe that an 
increase in immigrant education is not needed when you have 
requested a new $70 million program in adult education to focus 
specifically on immigrants?
    Ms. Pompa. We have not asked for an increase in immigrant 
education. We are always happy to get extra money, but we are 
not requesting an increase this year for immigrant education. 
The money that you are describing is out of another program. It 
is from adult and vocational education, and it is for teaching 
English as a second language to adults.

                         performance indicator

    Mr. Porter. The only performance indicator you included in 
your budget justification for this program is that 90 percent 
of program funds will be used for direct services to students. 
Would you consider adding this indicator to other elementary 
and secondary education programs?
    Mr. Corwin. The indicator on immigrant ed reflects our 
belief that while it is very general assistance, it would be 
best used if it is used by school districts for the direct 
needs of the immigrant students. By and large, you are going to 
find Title I is used for the needs of the Title I students and 
IDEA for the disabled students. It is something we are already 
achieving, so we haven't set indicators in that area.

                         low-performing schools

    Mr. Porter. Ms. Johnson, your budget requests $200 million 
to turn around low-performing schools. The fact is States 
already have the authority under Title 1 statute to take 
corrective action to turn around low-performing schools, 
including taking over the schools. Why do you need more money 
in a Federal definition of low-performing schools to do what is 
already allowed under the existing Title I statute?
    Ms. Johnson. One, I think that States and local districts, 
particularly chief State school officers and superintendents, 
would agree that we absolutely must accelerate the pace of 
turning around low-performing schools. What we have learned 
since the 1994 reauthorization is that there is an unevenness 
across the country in the ability of the local school districts 
and, in many places the States, to provide the resources needed 
to turn around these low-performing schools.
    I think we would agree we do not want a child entering a 
school where that school is simply unable to educate the child 
well, so this $200 million is focused specifically on giving 
States additional resources that will be used specifically for 
their lowest-performing schools. The States will identify those 
school districts. They will establish the criteria. They will 
work in collaboration with the school districts to put a plan 
together. They must accelerate the pace. They must establish 
clear accountability measures, and they must help these 
districts determine what it is that they need to do in addition 
to the work currently under way to accelerate the pace of 
reform.
    It is true that in the current legislation, there are 
options available. What we have learned is that they are not 
being used well. So in our attempts to accelerate the pace and 
ensure that the resources are there, we are proposing the $200 
million to support the accountability measures in our Title I 
budget.

                      comprehensive school reform

    Mr. Porter. What about comprehensive school reform for 
those schools that are low performing? There are funds 
available for that.
    Ms. Johnson. That program has been one of the most 
promising initiatives that we have seen in recent years when it 
comes to helping schools, particularly as schools and their 
districts begin to answer the questions: What is it that we 
need to do? What do we know about what works?
    Those are competitive funds. States must compete the money 
out to districts. We are not sure that all of our lowest-
performing schools have the ability to compete successfully for 
those funds, but what the $200 million will do is give these 
lowest-performing schools the opportunity to participate in 
looking at the many demonstration programs that are funded 
under the comprehensive school reform effort to give them 
additional opportunities to bring in the resources they feel 
they need to be successful.
    Mr. Porter. Why not just put the $200 million into 
comprehensive school reform so that they have an opportunity to 
do that?
    Ms. Johnson. Comprehensive school reform is a valuable 
resource for all of our Title I schools across the country. We 
would not want to prevent other schools from participating in 
what has turned out to be a very successful reform initiative. 
We are asking for an increase, by the way, in our comprehensive 
school reform program. What the $200 million does, in addition, 
is say to America's lowest-performing schools there are 
specific efforts that you must make yourself and resources that 
you must yourself find. The State will work with you. We will 
get you some funds from both the State and Federal Government 
to turn your efforts around. You must be held accountable, and 
there are consequences at the end of the 2 years if you are 
unable to turn this around.
    We don't hold districts who are beginning comprehensive 
school reform efforts accountable for consequences. What we are 
doing is building on their successes. This is a slightly 
different motivation that we are working with.

                2000 request and low-performing schools

    Mr. Porter. Does this require an authorization?
    Ms. Johnson. The $200 million?
    Mr. Porter. Mm-hmm.
    Ms. Johnson. To my knowledge, no. We have the authorization 
within the existing statute to use these funds.
    Mr. Porter. And the States themselves will determine what 
low-performing schools are?
    Ms. Johnson. Absolutely. The criteria will be established 
at the State level. The number of schools designated low-
performing schools will be specific to the districts' 
determination, and low-performing districts, in turn, are 
chosen and selected and monitored at the State level. Our 
effort is to get the money out to the States to help them with 
these lowest-performing schools.
    Mr. Skelly. Mr. Porter, I think we would need to have some 
language that would allow us to spend the $200 million increase 
just on the accountability issue. The current law does have has 
some accountability provisions, but I think caps those expenses 
at one-half of 1 percent, and the $200 million increase would 
cause us to go over that.
    Mr. Porter. You are disagreeing with what Ms. Johnson said?
    Ms. Johnson. I wasn't sure.
    Mr. Skelly. Clarifying for the record.
    Mr. Porter. Clarifying, I am sorry; clarifying what Ms. 
Johnson just said. Isn't that provision up for reauthorization 
anyway?
    Mr. Skelly. Yes, it is.
    Mr. Porter. This year?
    Mr. Corwin. But our budget is under current law.
    Mr. Porter. I understand that you could take that up with 
the authorizing committee right now?
    Mr. Skelly. And the Secretary has testified.
    Mr. Porter. Or you will take it up with the authorizing 
committee right now.

                          class size reduction

    How will the Department ensure that new teachers hired 
under the Class Size Reduction Initiative have the training and 
skills necessary to provide high-quality education?
    Ms. Johnson. We will need to work very closely with the 
States. It is a State responsibility to ensure that teachers 
are certified and that they have access to high-quality 
professional development. What we will do is to ensure that the 
dollars that are allocated to States for reducing class size 
are focused on hiring qualified teachers. The dollars are 
available for professional development. Those are the 
activities that we are expecting States will use or select from 
in providing these monies to their school systems.
    We are asking that as they use these funds, they put in 
place a plan to ensure that they are putting only qualified 
teachers into the classroom. If they are hiring teachers who 
have not yet met certification requirements, they must have a 
plan for ensuring how they are going to prepare those teachers 
to meet certification requirements, but we are not dictating 
the components of that plan. We are simply laying out the 
outcomes or accountability for the use of that money. We assume 
that the States and the local school districts will come up 
with their own unique ways for ensuring that the teachers are 
certified and thereby qualified, and that the professional 
development programs will be aligned to the needs of the 
district and the State.

                flexibility in the class size initiative

    Mr. Porter. Ms. Johnson, I wish you could have been here 
this morning when Ms. Northup was here, because she raised with 
the Secretary some great concerns about the need for 
flexibility, that there is not across the country a uniform 
problem with class size, there is in some places, not in 
others; and that having no flexibility in this program really 
isn't very smart, frankly, in terms of the use of these funds, 
and that what we really ought to do is let those who have the 
problem use these funds and others use them for other purposes.
    Ms. Johnson. A couple of responses to that. There is great 
research that tells us that when you reduce class size, 
particularly in the primary grades, you increase immensely the 
chances for student success. So in those local districts where 
they may feel that their students are experiencing success, if 
they have larger classes, they don't yet know the advantages of 
improving success should the classes be reduced. So I am not 
quite sure we can talk specifically about whether or not class 
size reduction would be beneficial to them or not, because it 
might be. It might very well be.
    I have had some personal experience in my own school 
district where we fought very long to reduce class size. I come 
from a school district that educates both rich and poor 
children and is culturally diverse, and we moved rapidly to 
reduce class size, and this was a relatively high-performing 
district. We were amazed at the improvement in achievement for 
both our low-poverty as well as our high-poverty students.
    Mr. Porter. There is a lot of skepticism here on the 
committee as to whether we shouldn't or whether we should 
provide those funds without some flexibility for school 
districts to make those decisions themselves as to whether they 
need to put funds in that area. Ms. Pompa, you are requesting a 
50 percent increase for bilingual education professional 
development. That comes on top of 100 percent increase that was 
provided for the program last year. What evidence can you give 
the subcommittee that an increase in this program will result 
in more children learning English more quickly?

                   bilingual professional development

    Ms. Pompa. We can go back to the fact that without a 
teacher in the classroom, no child is going to learn English or 
math or anything else. We have a tremendous shortage of 
bilingual teachers across the country. As I pointed out in my 
testimony, in California alone there is a shortage of 21,000 
teachers.
    Going back to our efforts across the Department, we are 
committed to making sure that there is a qualified teacher in 
every classroom. We have asked for this money again even though 
we received a substantial increase last year because we are 
very far away from the goal of making sure that every limited-
English-proficient student has a qualified teacher in the 
classroom.
    Mr. Porter. I guess that really doesn't answer the 
question. You are telling me there is more need, but what 
evidence----
    Ms. Pompa. The evidence we have--if I can go back, I am 
sorry I didn't respond directly. Our studies show that the 
teachers we train through this project stay in the classroom 
and become bilingual teachers. Over 90 percent of them do--
according to the last study that we did, which was about 5 
years ago, I believe.
    The evidence that we have is that the universities graduate 
teachers when they have our money, and also provide 
certification to teachers at the postgraduate level in order to 
go into the classroom.
    Mr. Porter. But you are talking about getting teachers in 
the classroom, and I am saying how does that translate in 
getting more kids educated in English more quickly?
    Ms. Pompa. Without a qualified teacher who understands 
linguistics and who understands how you teach a second language 
to students, these students would not be able to reach the goal 
of learning English.
    Mr. Porter. Presumably, yeah.
    Ms. Pelosi.
    Ms. Pelosi. Thank you, Mr. Chairman. Thank you to our 
witnesses. I am sorry my other committee responsibilities kept 
me from hearing your original presentation, but I have read it. 
Forgive me if the questions I ask have been already asked.

                            title i request

    First I want to ask a question about Title I, Ms. Johnson. 
The Department has requested a $320 million increase for Title 
I funding and intends to target $200 million of this increase 
to ensure States hold low-performing schools accountable. Why 
is this $320 million increase needed, and how do the current 
demographic trends for Title I programs and populations affect 
budgetary needs?
    I have an additional concern about this; there are some who 
are saying we should withhold Title I funds from schools that 
are engaged in social promotion. And of course none of us likes 
social promotion, but we can't just hold kids back without 
giving them the opportunity to be prepared to move on. So I am 
asking all of my Title I questions, in that vein.

                            social promotion

    Our Senator from California says you might want to withhold 
Title I funding from those school districts that engage in 
social promotion. I don't know that a school district would say 
that they engage in it, but you know my point. I think that we 
have to understand our terms here, what is social promotion, 
what would be considered a failure in that area, and what can 
we do to prepare our children better so that they can move on.
    Ms. Johnson. Let me try. I am going to try to follow this 
flow, answer what is social promotion, give some comments on 
what can be done besides withholding Title I funds, and note 
some of the characteristics of a low-performing school, I think 
that is what you asked, and how we spend $200 million. Do I 
have it all?
    Ms. Pelosi. I will give you time for the answers.
    Ms. Johnson. Quickly, social promotion, you are absolutely 
right, is simply the absence of a set of standards in place 
that allow parents and students and teachers to determine 
whether or not a child has acquired the skills and knowledge 
needed to move forward. In too many of our low-performing 
schools, in far too many of our low-performing schools, those 
standards don't exist.
    We all have met or encountered a young person who has 
graduated from high school unable to read or write well enough 
to enter the labor market or enter a postsecondary institution. 
That is something that I call a denial of one's civil right: to 
be uneducated upon leaving school.
    So we need to attack social promotion from a very positive 
perspective, and that is, this is not about retaining students. 
It is about putting in place the resources necessary to ensure 
that all of our children are successfully educated.

                            title i request

    This happens more in low-performing schools than it happens 
any place else. The $200 million is intended to target those 
low-performing schools where far too many children move through 
the system unprepared to meet the challenges of the next grade. 
They may happen in high-poverty areas, whether those are rural 
or urban areas. We find too many of our low-performing schools 
in our high-poverty areas.
    So our sense is that most of the $200 million, if not all 
of it, will go to low-performing schools in both rural and 
urban areas who need to pay attention to and begin to develop 
standards, strategies, and an agenda that ensures that as our 
children move through the system they have access to all the 
interventions and resources they need to be successful.

                            social promotion

    Ms. Johnson. We will soon publish a social promotion guide 
which essentially says we do not support retention as the way 
of providing support to a child. You don't ask them to repeat 
the grade again. What you do in these low-performing schools is 
put in place extended learning opportunities, rich resources, 
access to technology, well-trained teachers. That is how we 
hope the $200 million will be used.
    Ms. Pelosi. Wonderful. I am very encouraged by what you 
say, and I look forward to seeing this guide, because I think 
that it will be very important, and I am particularly impressed 
by your answer. Thank you, Secretary Johnson.

                         title i hold harmless

    It is my impression that the Department is, in the view of 
some, misinterpreting the Title I hold harmless funding 
provision by extending it to non-Title I funding streams, 
including the Eisenhower Professional Development State Grant, 
Safe and Drug-Free Schools, and the Even Start Literacy 
Program. However excellent all of these programs are, and I 
support all of them, the Congressional Research Service 
estimates that the Department's decision has shortchanged 
California schools more than $3 million in fiscal year 1998 and 
1999, and we did not want to place our California 
schoolchildren at a disadvantage. With all due respect to all 
of the programs that are benefiting from the non-Title I 
funding, what is the policy on this issue.
    Ms. Johnson. I had the opportunity to meet with the 
California State Board of Education less than a month ago, and 
they clearly gave me their reading of the statute. I have as a 
result of that meeting discussed with legal counsel and with 
Tom Corwin and Tom Skelly how we are interpreting the law.
    It is our understanding that, as we interpret the statute, 
it requires us to put in place the hold harmless provision. 
That is how we are interpreting the statute. That is the best 
answer that I can give you. It does not put more money in the 
hands of California, but it does explain why we are using the 
hold harmless provision for all of the programs.
    Ms. Pelosi. So the determination made is that the Title I 
hold harmless clause and extending it to non-Title I funding 
streams is appropriate even at the expense of Title I programs 
in areas?
    Mr. Corwin. It is not that it is appropriate. As a policy 
we really agree with you. The problem began with adding the 100 
percent hold harmless to Title I in the last 2 or 3 years. But 
the way that the appropriation statute is worded, and we bumped 
it from one level of attorneys to the next, they all agree that 
it is a simple reading, and that is the only way that we can 
read the statute.
    Ms. Pelosi. Perhaps the Chairman can help me on that one at 
another occasion.
    Mr. Porter. Round 2, Ms. Pelosi.
    Ms. Pelosi. Thank you, Mr. Chairman. The Chairman is always 
most courteous.

                        need for bilingual funds

    Thank you, Director Pompa, for your testimony as well. My 
questions on bilingual and immigrant education funding will 
follow, but first I want to tell you how important this is to 
my area. I have the privilege of representing a minority 
majority district. We are blessed with families from all over 
the world for whom English is a second language or who need 
bilingual education. The budget request would increase 
bilingual and immigrant education funding about 10 percent to 
$410 million. Given the fact that the reported number of 
limited-English-proficiency students increased by 1.4 million 
between 1990 and 1991 and 1996 and 1997 to a total of 3.5 
million, these funds are critically needed in school districts 
like mine in San Francisco. How do your various programs work 
together to serve America's limited-English-proficiency 
students?

                  how bilingual programs work together

    Ms. Pompa. They work together in various ways, and your 
area has a number of our grants. They begin by complementing 
the three major pieces of our program. We have a subpart of the 
Bilingual Education Act which focuses on school districts and 
programs in our districts. We have a subpart that provides 
support to those districts through a clearinghouse and 
information dissemination; and the third piece is the 
professional development piece, which is crucial.
    We must have qualified teachers, and I believe you are all 
too aware of what happens when you have a shortage of teachers 
and you don't have a properly trained teacher to teach children 
who don't speak English in a classroom, and who don't know how 
to read, and who have to do all of these things and at the same 
time learn math and science and all of the other subjects.
    The way that they work together in the school districts is 
when districts apply to us for funding, they have great 
flexibility to tailor the programs to their own needs. I spoke 
in my testimony of the great flexibility we see when we see 
programs even within one school district or one region of a 
school district. We encourage schools to tailor the programs in 
a way that best suits their needs and using the language that 
is appropriate, using the instructional methodologies that are 
appropriate and incorporating the values of the community. 
Those grants are then supported by our Professional Development 
Projects, which train teachers for them, and by the research 
that we continue to turn out through our subpart 2.
    Ms. Pelosi. My next question would have concerned 
professional development funds, but our Chairman asked a 
similar question, and I heard your response to his question.
    I have no further questions, Mr. Chairman, except to say 
how pleased I am with the testimony of our witnesses, how 
magnificently represented the Clinton administration has been 
here this morning with Secretary Riley, Secretary Johnson and 
Director Pompa, and good luck to you, and I wish you much 
success in your work. Our children are counting on it. And I 
appreciate your specific answers to my questions.
    Thank you, Mr. Chairman.

                          i can learn program

    Mr. Porter. Thank you, Ms. Pelosi.
    Ms. Johnson, have you heard of a program called I Can 
Learn? It is a math teaching program based upon computers?
    Ms. Johnson. I am not familiar with it.
    Mr. Porter. The former Chairman of the Appropriations 
Committee brought in a group of students from New Orleans on a 
special hearing before our subcommittee, and these kids who 
came from the poorer section of that city were performing in 
mathematics at levels that were unbelievable, very frankly. 
Many had completed all of the high school programs and were now 
enrolled at Stanford University and taking calculus and 
differential equations, and these were kids who had not had a 
lot of success in school before.
    What experience do we have and what evaluations are being 
made of computer-based learning. And I am not talking about the 
Internet, I am talking about programs specifically to teach 
kids in the classroom a certain subject like mathematics.

                         educational technology

    Ms. Johnson. We are collecting data that will give us a 
very good picture of how the computer-based technology is 
working to improve the quality of instruction for our students. 
I want to distinguish the technology a bit because there are a 
variety of ways in which we can use the technology.
    What we are learning about computer-based instruction, 
based on how you described it, I can guess a number of things. 
One, the program is very challenging, and what we have learned 
is that children love to take on those challenges. Two, it 
focuses on real problem-solving and decisionmaking and children 
love that in math.
    I don't know whether this particular school district, since 
I am not familiar with it, receives technology funds from the 
Federal Government, but they must be getting technology support 
from either their local or State, in addition to anything that 
they might be getting from us.
    What we are learning is this. When technology is used in a 
classroom to challenge students' thinking, to raise the level 
of standards, to improve the quality of how they perform, that 
they in turn do very well not just in math, but in their other 
subjects. When the technology is used to simply have them 
repeat, drill and practice, and do over and over the same 
problems, we do not see that level of achievement. So I have to 
assume based on your description of the program that they are 
using their technology very well.

                          i can learn program

    Mr. Porter. I think the most impressive thing about the 
program was that it allowed the students to proceed at their 
own rate, and it tested them as to whether they were achieving 
as they went along, and that meant--we actually had one of the 
young ladies who was a sophomore in high school, and she had 
already completed the entire mathematics program and was 
enrolled at Stanford University. Obviously you need a teacher 
in the classroom to guide the students, but they can largely 
move at their own pace. And it seems to me the kind of thing 
that might work in many different subjects, not just 
mathematics but a lot of subjects where you need to learn 
content or learn process, and we were very impressed with it.
    Ms. Johnson. What it also portrays, I think, very 
dramatically is that the teacher set very high standards and 
expectations for these students, and the students responded.
    Mr. Porter. But the students also set high expectations for 
themselves, and it was kind of a combination of both. The 
technology itself, though, allowed their instruction to be 
individualized in a sense, and the teacher in the classroom 
further allowed that, and moving at their own pace they could 
achieve as much as they could or wanted to do. We found it 
very, very interesting.
    Ms. Johnson. I will need to learn more about that 
particular district.
    Mr. Porter. Maybe I can send them to you.
    Mr. Skelly. Mr. Chairman, that program is administered by 
the Office of Education Research and Improvement, and Assistant 
Secretary Kent McGuire will be up tomorrow, and you can ask him 
about that program.
    Mr. Porter. They are providing funding to that program?
    Mr. Skelly. It was, I believe, $7 million.
    Mr. Porter. That was not brought up in the hearing.
    Mr. Corwin. We provided funding for them in the bill a 
couple of years ago.
    Mr. Porter. That is right. That is an earmark Mr. 
Livingston put in the bill. The question is what can we do with 
it now. This is obviously very expensive, because you have to 
equip the classroom with as many computers as you have 
students, so it is not inexpensive by any means. I think I will 
ask the question tomorrow when we have the Office of Education 
Research and Improvement here.

                   zero funding request for title vi

    A minute ago Ms. Pompa was talking about flexibility. Ms. 
Johnson, let me ask you about flexibility. Title VI education 
block grant avoids the one-size-fits-all Washington-based 
approach to education and allows the State and local 
administrators to have a choice on how they spend these funds. 
Yet, again, you have zeroed out Title VI funding. In light of 
the fact that each State has different needs, why is it that 
the Department opposes this program which gives State and local 
administrators the flexibility on how to spend these education 
funds?
    Ms. Johnson. Since 1994, we have focused more and more on 
not just the flexibility, but accountability for outcomes, and 
we want to know a great deal more about how our Federal dollars 
are used to improve student achievement in the districts that 
receive these funds. We do not have solid evaluation data that 
can tell us that the Title VI funds as they are currently used 
indeed focus on improved student achievement.
    We are certainly supportive of flexibility. I wanted that 
flexibility at the local level, but what we are hoping to do as 
we come forward with the reauthorization proposal, which will 
come in the next 4 to 5 weeks to the House, is to say States 
and districts must demonstrate that they have put 
accountability measures in place. Our proposal will fold 
together Title VI, Goals 2000, and Title II funds in a quality 
teacher standards program.

                     evaluation of title vi program

    Mr. Porter. It seems to me no more difficult to put 
together an evaluation of Title VI funds than it would be to 
put together an evaluation of Title I funds.
    Ms. Johnson. Well, it is difficult. I asked that question 
also because there is such variance in the use of funds and 
because there is no agreement in the title itself on what the 
outcomes should be. It is difficult to measure something that 
has not been defined.
    Mr. Porter. The outcomes are greater student achievement. 
It seems to me that it ought to be fairly easy to evaluate. And 
it seems to me if schools are given flexibility and achieve 
greater student achievement, then it is a wise use of the 
funds.
    Ms. Johnson. In our reauthorization proposal we say just 
that.

                   recruitment of bilingual teachers

    Mr. Porter. Ms. Pompa, we funded a $75 million Teacher 
Quality Enhancement Grant Program last year, which is designed 
to help States improve the quality of their teaching force and 
recruit teachers for high-need schools. Can States use funds 
under the $1.2 billion Class Size Reduction Initiative to 
recruit and train bilingual teachers, and are the States doing 
this?
    Ms. Pompa. They can do it, but the program is not 
implemented yet so we don't know for certain, but we would hope 
that they are going to. I have every expectation that in 
districts where you have large numbers of limited-English-
proficient students and large shortages of bilingual and 
teachers, they will do exactly that.

                bilingual professional development funds

    Mr. Porter. So why would we need an extra $75 million for a 
specific program?
    Ms. Pompa. In recruiting and training teachers for 
bilingual education, you are looking for a teacher with a 
substantial amount of training who has gone through a State 
certification program. It is my expectation that districts who 
are using the funds you have just outlined are not going to 
have the amount of money necessary to take teachers through a 
4-year degree program or to take them through a 2-year 
certification program, which is usually required if the teacher 
does not have any of the requirements for being a bilingual or 
English as a Second Language teacher.
    It is a very specific area of focus in education. Teachers 
who are bilingual or English as a Second Language teachers have 
to have training in linguistics, training in how to teach 
reading in another language, how to teach reading to children 
in English who are learning it as a second language, and many, 
many other kinds of aspects of learning for these particular 
kids.

                            closing remarks

    Mr. Porter. Well, let me thank both of you for your 
appearance and testimony in answering our questions today. 
Obviously you deal in the most important area for the future of 
this country, and obviously we want to work together with you 
to try to maximize the effect of the Federal impact in respect 
to educating our children, and it is a very, very high priority 
for this subcommittee. So thank you both for appearing here 
today, and thank you for answering our questions.
    Ms. Johnson. Thank you very much.
    Mr. Porter. The subcommittee will stand in recess until 10 
a.m. until tomorrow.
    [The following questions were submitted to be answered for 
the record:]
    Offset Folios 261 to 289 insert here

<SKIP PAGES = 029>

                                         Wednesday, March 10, 1999.

                           HOWARD UNIVERSITY

                               WITNESSES

H. PATRICK SWYGERT, ESQUIRE, PRESIDENT, HOWARD UNIVERSITY
ANTOINE GARIBALDI, PROVOST, HOWARD UNIVERSITY
THOMAS ELZEY, EXECUTIVE VICE PRESIDENT AND CHIEF OPERATING OFFICER, 
    TREASURER, HOWARD UNIVERSITY
FLOYD MALVEAUX, VICE PRESIDENT FOR HEALTH AFFAIRS; DEAN, COLLEGE OF 
    MEDICINE, HOWARD UNIVERSITY
CLAUDIO PRIETO, DEPUTY ASSISTANT SECRETARY FOR HIGHER EDUCATION 
    PROGRAMS, DEPARTMENT OF EDUCATION
    Mr. Porter. The committee will come to order. We continue 
our hearings this afternoon with the appropriation for Howard 
University. We're very pleased to welcome H. Patrick Swygert, 
the President, and our colleague, Jack Kemp, a man for whom I 
have the highest respect and under whose leadership I worked in 
the Congress for many years. Jack, it's wonderful to see you. 
Thank you for being with us.
    Mr. Swygert, Mr. Prieto, nice to see you as well. Mr. 
Swygert, why don't you proceed with your statement and then 
we'll go to questions.

                       Introduction of Witnesses

    Mr. Swygert. Mr. Chairman, thank you very much. I'm 
delighted to be with you this afternoon and very much 
appreciate the opportunity to appear before you and the members 
of the committee.
    I am accompanied, as you've noted already, Mr. Chairman, by 
Mr. Jack Kemp, a member of the Howard University Board of 
Trustees, and also Dr. Claudio Prieto of the Department of 
Education. It is again an honor to be with you today to speak 
to the fiscal year 2000 budget request for Howard University.
    With me today as well are Dr. Antoine Garibaldi, the 
University Provost; Mr. Thomas Elzey, Executive Vice President; 
Mr. Raymond Archer, Interim Vice President for Student Affairs; 
and Dr. Floyd Malveaux, Interim Vice President for Health 
Affairs.

                           Opening Statement

    Mr. Chairman, I would like to begin my testimony with a 
brief overview of the University. Our first exhibit, FACTS 
1999, provides the Congress with a snapshot of the University 
in a number of important areas. The committee is well aware 
that Howard University is the only Carnegie Level I research 
university serving a predominantly African-American population.

                         facts 1999 publication

    The booklet, FACTS 1999, lists each full-time faculty 
member and their tenured degrees. It is worth noting that our 
faculty represent a broad cross-section of America. Seventy-
five percent of our faculty have earned advanced degrees from 
one of 88 Carnegie Level I research universities in the Nation.
    Mr. Chairman, within the heraldry of the emblem of Howard 
University is displayed the University motto, veritas et 
utilitas, truth and service. Dedication of the University to 
truth has been well established. The University's service to 
the Nation, especially its leadership during the civil rights 
era, is also legendary.

                        service 1999 publication

    Less well known is the service that Howard University 
provides the greater Washington metropolitan area on a daily 
basis. Exhibit 2, Service 1999, is a new publication that 
identifies just some of the University's current activities and 
programs dedicated to community and national service, one of 
four action areas of the Strategic Framework for Action.
    A brief glance at the index at the end of the book 
illustrates the incredible range of volunteer and service 
activities that Howard University faculty, students, staff, 
alumni and retirees are engaged in to benefit the overall 
community.

                 special reports for the u.s. congress

    Our third exhibit, Mr. Chairman, is Special Reports for the 
United States Congress. It contains three parts: a status 
report on the Strategic Framework for Action, which was adopted 
by the Board of Trustees, you might recall, Mr. Chairman, in 
September of 1996; the Fiscal Year 2000 Analytical Abstract; 
and the University's Fiscal Year 2000 Government Performance 
and Results Act report, a report that we take very, very 
seriously, Mr. Chairman.

                   the strategic framework for action

    As you will recall, the Strategic Framework for Action, the 
five-year strategic plan for the University, calls for 
measurable achievement in four critical areas: academic 
programs, excellence in teaching and research, private support, 
and national and community service. We did not, Mr. Chairman, 
quite reach our goal in private support. However, I am 
confident that recent actions that we have taken will put us 
back on schedule by the next reporting period. After 30 months, 
I am very pleased to report that we have successfully completed 
or have accelerated our schedule in the overwhelming majority 
of our measurable objectives in each of the four strategic 
areas.
    Congressman Jack Kemp, who is seated with me today, stated 
in his testimony before this Committee four years ago that, 
``Howard University was created by the Congress to be a 
national university serving a national need.'' One hundred 
thirty-two years later, we continue to maintain fidelity to 
that mission.

                          analytical abstract

    As the first two exhibits in the Analytical Abstract 
demonstrate, Howard students, like our faculty, come from all 
50 States in every region of the Nation. Howard University is, 
as well, fully accredited by the Middle States Association of 
Colleges and Schools. Exhibit 3 shows the 30 different 
additional agencies that have also accredited schools and 
colleges of the University.

                     national achievement scholars

    Exhibit 4 illustrates the performance of entering freshmen 
relative to all African-American students and to all test 
takers nationally. It shows that test scores for Howard 
University students are 165 points higher than the national 
average for African-American test takers, and higher than the 
national average for all test takers.
    As you may recall, Mr. Chairman, two years ago Howard 
University led the Nation in attracting National Achievement 
Scholars. The achievement program honors outstanding high 
school students who are African-American. These students 
typically have exceptional high school scholastic records, rank 
in the top 10 percent of their classes, earn high grades, take 
heavy course loads, and participate as well in volunteer and 
extracurricular activities.
    I am pleased to report, Mr. Chairman and members of the 
Committee, that the National Merit Scholarship Corporation has 
recently announced that Howard University enrolled 59 National 
Achievement Scholars in its freshman class this year, bringing 
the total number of National Achievement Scholars on campus to 
163.
    Only one university in the Nation enrolled more National 
Achievement Scholars this year than did Howard University, and 
that university is Harvard University.

                        advanced degrees awarded

    The University also continues to lead the Nation in 
producing African-American graduates at all degree levels. 
Exhibit 6 shows that the number of advanced degrees awarded by 
the University increased last year, Mr. Chairman, by nearly 7 
percent.

                         employee productivity

    At the same time, Exhibit 7 shows that the University 
continues to increase its employee productivity from a high in 
December 1, 1990, of 6,383 employees, to today's showing as of 
December 1, 1998, of 5,025 employees.

                         research productivity

    Exhibit 8 shows that research productivity has not fully 
recovered from last year's decline, although the rate of change 
is much more favorable. We continue to believe that 
Congressional support for the University's proposed 
Interdisciplinary Science and Engineering Center will provide 
us with the necessary infrastructure to reach our goals in this 
regard.
    I had hoped to present to the Committee today Dr. Georgia 
Dunston, a world class biologist who heads up the University's 
NIH-funded human genome project. Dr. Dunston was unable to be 
here today because of some transportation challenges that she 
confronted as a result of this weather over the last 24 hours.
    I am accompanied by Dr. Floyd Malveaux, the Dean of our 
College of Medicine and Interim Vice President of Health 
Affairs, who can speak to some of the exciting work that Dr. 
Dunston has undertaken with the human genome project. I'll be 
speaking to that a bit later as well.

                               endowment

    Exhibit 9 is a portrayal of changes in the endowment of the 
University since 1982. During that period, the endowment has 
grown from $17.8 million to $207.5 million. The curve reflects 
an increase of almost 18 percent within the last year.

                            number of alumni

    Exhibit 10, we believe, demonstrates conclusively that the 
University serves a national constituency whose alumni and 
alumnae reside in all the 50 States. Eighteen States have more 
than 500 Howard alumni, 13 have more than 1,000, and 5 have 
more than 2,000.

             government performance and results act (GPRA)

    The final report provides an encouraging glimpse of how 
well Howard University is complying with the Government 
Performance and Results Act of 1993. In all performance 
indicators except one, Mr. Chairman, the University is 
reporting a stop light status of green, indicating benchmarks 
have been clearly defined and outcomes are on target.
    [The prepared statement and biography of Patrick Swygert 
follows:]
    Offset Folios 298 to 309 Insert here

<SKIP PAGES = 012>

    Mr. Swygert. At this point, Mr. Chairman, I would like to 
turn to Congressman Jack Kemp, a Howard University trustee and 
consistent supporter of our efforts to increase opportunity.

                           trustee jack kemp

    Mr. Kemp. Thank you, Dr. Swygert. Let me say to the 
Chairman and to Congressman Hoyer and Congressman Jackson, all 
of whom are very good friends, there is nothing in my 
professional career of which I am more proud than to serve on 
the Board of Trustees of Howard University. I have served on 
the Board since 1993, and was privileged to testify before your 
Committee four years ago as our President pointed out.
    Let me just say on behalf of men and women throughout the 
country, particularly those of us who serve on the Board of 
Trustees, how much we appreciate the tremendous support and 
investment that this Committee has made in Howard University. I 
think you can be very, very proud, all of you, for the support 
that has enabled this University to provide the most 
comprehensive, high quality curriculum that makes it possible 
for students with ability, who often come from families of 
limited means, to become contributing, productive participants 
in the mainstream of American society. I think you can take a 
great deal of pride in your support of Howard.
    For, as President Swygert has pointed out, 132 years, Mr. 
Chairman, Howard has taken these students, 88,485, I think, to 
be specific, at last count, and produced successful men and 
women, prominent professional, tax-paying contributors to the 
American society and to the American dream; indeed, to the 
world economy.
    Mr. Chairman, I would like to take this rare opportunity to 
be before this prestigious Committee to put a human face on the 
support and investment that this Committee and the Congress has 
made on a bipartisan basis by introducing a young woman who has 
become a Rhodes Scholar for 1999 from Howard. Her name is Carla 
Joy Peterman. She is from South Orange, New Jersey. Her mother, 
I believe, graduated from Howard. I have not met a young 
person, and I've met many on the campus, including my own 
campus at Occidental, of whom I could be more proud of than 
Carla Joy.
    I would like for her to come up for a moment. She is in her 
junior year, and is a member of Phi Beta Kappa. She's going to 
Oxford to get her masters in philosophy and development 
studies. Listen to this--all of us who are underachievers, or 
perhaps overachievers, as the case may be--at Oxford she is 
going to be studying developmental studies with a combination 
of history, politics, economics and anthropology, as these 
subjects affect developing countries throughout the Caribbean 
and the continent of Africa.
    Having been in sub-Sahara Africa last summer with 
Congressman Jackson's papa, for whom I have high and fond 
regard, I just thought you would like to meet a young woman who 
is going to carry, I believe, the American dream to not only 
England and Oxford, but also to the continent of Africa and to 
our own Caribbean.
    Please meet Carla Joy Peterman.

                     carla peterman--rhodes scholar

    Ms. Peterman. Good afternoon, Chairman Porter, Congressman 
Hoyer and Congressman Jackson. It is a pleasure to be with you 
this afternoon.
    Mr. Porter. If you'll permit us, we kind of think of you as 
part of Dr. Swygert's success story. When he became President, 
it's been what, four years, four years ago, he had great plans 
for the University. I think in almost every case, you have 
reached the goals that you set. If you haven't, you're well on 
the way to reaching them. The progress has just been amazing. 
We've been very, very proud to watch Howard's development.
    You're kind of the product of that development. So we're 
delighted to have you here and wish you well. When does your 
year in England start?
    Ms. Peterman. September. The English school term runs from 
October until June. So actually all the Rhodes Scholars in the 
United States leave together from Dulles Airport. So I will 
still be in the area.
    Mr. Porter. Wonderful. That's really exciting, too.
    Ms. Peterman. I would like to say also that as Mr. Kemp 
mentioned, I'm interested in international development and 
environmental work. But I'm also interested in those issues on 
a local and national level, particularly urban environmental 
issues, which is one of the things I think Howard has 
definitely helped me with. By being in the city of Washington, 
D.C., my environmental education has expanded outside of 
Howard's walls into the city.
    Being involved in national environmental organizations 
here, along with grass roots organizations, has inspired me to 
want to work in the United States, looking at local 
environmental issues.
    Mr. Porter. That's wonderful. My wife is an anthropologist, 
so she's very interested in that part of your broad view of 
assistance in developing countries as well. Obviously, I am. I 
think that you've aimed yourself in the right direction. There 
is so much that can be done and needs to be done by people who 
care. It's exciting that you're pursuing that avenue of study.
    Ms. Peterman. Thank you.
    Mr. Hoyer. Thank you, Mr. Chairman.
    Carla, this Committee will appropriate billions of dollars, 
and Mr. Kemp, who of course is one of our outstanding leaders 
in this country said, talking about investments. A lot of times 
we sit here and we talk about investments and we think of 
bricks and mortar and we think of esoteric things. We don't 
think in terms of really what it means on the ground, so to 
speak, and in the lives of young people.
    Dr. Swygert came into my office yesterday and we had a long 
discussion. I've had a lot of discussions with him. He always 
talks about wanting more money. That's the function of a 
college president. [Laughter.]
    We talked about that, and we talked about what was going 
on.
    But we also got to the subject of you and your Rhodes 
Scholarship, the extraordinary honor you have brought to 
Howard, and the focus that you will bring to Howard as an 
investment that is paying off. Very frankly, you will be a 
representative of thousands of students, hundreds that now go 
to school, who have benefitted greatly. They may not be Rhodes 
scholars, few of us get to the heights that you have gotten to.
    Tom McMillan is somebody you may have heard of, who is a 
Rhodes Scholar and an All-American basketball player, he was 
the star of his year when he was selected, I think it was 
probably 1972 or 1973. Dr. Swygert tells me you are the star of 
this year. There are how many Rhodes Scholars in the country?
    Mr. Swygert. Thirty-two.
    Mr. Hoyer. But obviously we usually focus on fewer numbers. 
Because we want to grasp, what does this mean. I really wanted 
to come over here. I was on the Floor of the House with Mr. 
Gephardt, meeting with my Governor. Dr. Swygert said that he 
sent this postcard to the alumni of Howard. I think it's a neat 
picture. I said, ``Boy, she's a good looking lady.'' He said, 
``Yes, and she's smart too.''
    Actually, he didn't say that. But we both agreed that 
everybody who got this thought to themselves, ``boy, my degree 
is worth a lot more today than it was yesterday.'' We know, 
Congressman Kemp, Dr. Swygert, we know how good Howard is. But 
the world doesn't know how good Howard is, therefore they're 
not sure if it's worth it to invest.
    But in your person, in your accomplishment, in your life 
and the difference that you are going to make, they are going 
to understand, this investment was well worth it. I want to 
congratulate you and tell you, I share Dr. Swygert's and 
Congressman Kemp's excitement about your accomplishments. You 
are going to make a tremendous contribution.
    Ms. Peterman. Thank you. I think it's important in what you 
mentioned that I am a representative of many. Many of the 
students I go to school with are now applying to graduate 
programs at Columbia and Yale and Harvard, and have the 
opportunity to go anywhere.
    Mr. Hoyer. Probably Georgetown, too. They may not be able 
to get into Georgetown and have to go to Harvard or Yale. 
[Laughter.]
    Ms. Peterman. My brother is at Georgetown, so I have to 
give credit to Georgetown.
    I want to mention that while I was applying for the Rhodes 
Scholarship, I was also applying to graduate school. I wanted 
to go to graduate school for environmental studies. I wanted to 
go to Yale University.
    In November I went to visit. Many of the faculty there were 
not familiar with Howard's program. But by the time I left, I 
had a faculty who wanted to work with me, on my masters, on my 
Ph.D, the number one environmental studies university.
    So Howard prepared me in many regards, prepared me for the 
Rhodes Scholarship as well as for anything else I wanted to do. 
I came to Howard as a National Achievement Scholar, and had 
other options of colleges to go to. But Howard supported me, 
Howard said, ``we are here for you, we are family.'' And I 
don't know if I would have been a Rhodes Scholar at some of the 
other universities I considered.
    I think it is one of the best, if not the best choice I 
have made in my 20 years.
    Mr. Hoyer. Well, the President told me the story about your 
press conference, about how you were going to thank your mom 
and your dad and your teachers and this, that and the other. 
But you started with, ``First of all, I want to thank Dr. 
Swygert, because without him, this wouldn't have happened.'' He 
was very proud of that. [Laughter.]
    Congratulations to you.
    Ms. Peterman. Thank you.
    Mr. Hoyer. And let me say something as well. I know John 
agrees with this, and Jesse, you didn't have an opportunity to 
serve with him. But Congressman Kemp was a member of this 
Committee who worked in a bipartisan, nonpartisan fashion. We 
see too much of the fighting, on C-SPAN in particular, because 
they cover the controversial issues. It looks like we're always 
fighting with one another.
    Congressman Kemp was one of the most positive, productive 
members of this Committee and of this Congress. The fact that 
he has agreed to be on the Board, he could have been Vice 
President of the United States, a very well respected 
individual on both sides of the aisle. When he gives his time, 
that's very, very valuable time that he's giving. Because he 
believes in Howard, it is another testament to the fact of the 
worth of Howard University.
    So Jack, I want to thank you for that, and thank you for 
your leadership in the country.
    Ms. Peterman. We're proud to have him as part of the Howard 
family. I wouldn't expect any other comments or accolades.
    Mr. Hoyer. But now if you could talk to him a little bit 
about his politics, that would be helpful.
    Ms. Peterman. We only talk about football----
    Mr. Kemp. Since you asked----
    [Laughter.]
    Mr. Kemp. By the way, maybe I wish some more of our 
colleagues were here, Colonel Howard, soon to be General 
Howard, from whom Howard University gets its name, was the 
first Lincoln appointment to the Freedmen's Bureau. This 
University came out of the manifestation of the Lincoln 
Cabinet's belief that freed men and women were to have the 
ultimate affirmative effort, if you will, to get out of 
politics for just a minute, education at all levels. And I'm 
very proud that Colin Powell and I are honored to serve on the 
Board of Howard. I'm glad that this is one of the great 
bipartisan efforts being made by both parties to invest in 
young women like Carla Joy.
    Thank you for coming.
    Mr. Porter. Now, we'd like to forego all questions with 
that kind of introduction. But----
    [Laughter.]
    Mr. Kemp. I'm going to slip out and get back to my office 
and my duties.
    Mr. Porter. Jack, thank you for not only being with us 
today, but for your ongoing leadership in so many different 
ways. Your service on the Board of Trustees of Howard is just 
one example of the leadership you're providing.

                     fiscal year 2000 funding level

    Dr. Swygert, do you believe the President's request 
provides an adequate level of funding for the University in 
fiscal year 2000?
    Mr. Swygert. Mr. Chairman, I think it provides an adequate 
level for our operating budget. As you know, we have a number 
of requests that we would like to call to the Committee's 
attention, including our Interdisciplinary Science and 
Engineering Center request, which we have shared with members 
of your staff, and which we welcome the opportunity at some 
later time to discuss with you as well.

                      university's budget request

    Mr. Porter. What was your original request to the 
Department?
    Mr. Swygert. Our original request was, I'll have that 
dollar number for you in just a moment. It was $37 million 
more.
    Mr. Porter. Plus $37 million, all right. Are there any new 
initiatives you're considering undertaking this year that are 
not included in the Department's budget request?

         interdisciplinary science and engineering center (ise)

    Mr. Swygert. Yes, Mr. Chairman. The Interdisciplinary 
Science and Engineering Center is a major initiative on the 
part of Howard University. You might recall that two years ago, 
we first raised with you the possibilities found within the 
Interdisciplinary Science and Engineering Center. At that time 
we indicated, and we spoke as well in last year's testimony, to 
the critical and urgent need at Howard University for 
infrastructure enhancement, particularly in engineering, and 
particularly as well in computational science, biomedicine, and 
a new school of science and mathematics.

                     ise center co-location program

    We introduced, as well, two years ago to the Committee the 
notion of the concept of co-location. You might recall we 
talked about co-location as a possibility of a major Federal 
initiative being centered at Howard University. Not simply 
another grant or another program, as important as they are, but 
an actual Federal enterprise being located at Howard 
University.
    In order to receive such an enterprise, looked at 
holistically, the Interdisciplinary Science and Engineering 
Center, we believe, is required. We have gone beyond, Mr. 
Chairman, simply talking about this possibility. We believe we 
are on the cusp of an actual program, Federal program, being 
located at our University.
    You might recall last year Dr. Francis Collins, head of the 
National Institutes of Health's Human Genome Mapping Project, 
spoke to this issue in his testimony before the Committee, when 
he talked about the possibility of NIH engaging Howard 
University in a far more intimate relationship that would lead 
possibly to co-location. Co-location being my word, not Dr. 
Collins' word.
    Since those discussions, that first conversation, that 
first discussion with you, and since last year's testimony by 
Dr. Collins, we have continued to make critical investment in 
our infrastructure, both in terms of new hires. We have 
recruited Dr. George Bonnie, for instance, from the Foxchase 
Cancer Center in Philadelphia, who is a nationally known 
biostatistician. We have other major recruitment in place. Dr. 
Georgia Dunston is leading this effort.
    It's an effort of looking at human genome mapping 
possibilities as they relate to diseases that have a high 
incidence of occurrence in the African-American community, more 
specifically in this case, adult onset diabetes. Some very 
exciting things are happening.
    We believe that we have taken the University with our own 
resources pretty much as far as it can go. We believe to go 
further, and we believe that we should go further, the 
Interdisciplinary Science Center is absolutely required. 
Therefore, we have put before the Committee a request for 
multiple-year funding for this Center, which will support both 
our human genome effort and our many other efforts as well.

                       funding for the ise center

    Mr. Porter. What would be the cost in the fiscal year 2000 
budget, if that were included?
    Mr. Swygert. In the materials submitted to the Committee, 
the cost would be approximately $18.075 million, which would be 
our costs for year one, which would speak to a new school of 
engineering, computational science, and biomedicine; and a 
school of science and mathematics.
    Mr. Porter. What's the total cost?
    Mr. Swygert. The total cost would be $146.8 million over a 
three-year period.
    Let me be quick to add as well, Mr. Chairman, that we 
include and we contemplate a new school for science and 
technology here in the District of Columbia. One of the great 
needs locally is for such a school. No such school exists. We 
believe we can provide the situs for such a school.
    And when we speak of the numbers, which are quite 
substantial, Mr. Chairman, I should also be quick to add that 
these are not dollars that will be given over to site 
acquisition, side readiness, if you will, other than the usual 
kinds of engineering necessary. We own the ground. We actually 
own and control the ground and/or in one particular piece, it 
is owned by the District of Columbia. We have had some 
preliminary conversations with our new Mayor, Anthony Williams. 
I am very confident that site acquisition of that small piece 
will not be a great challenge to us.
    So these are not dollars, Mr. Chairman, that we're 
requiring that go into a real estate acquisition. These are 
dollars that go into programming and construction.
    Mr. Porter. Thank you, President Swygert. Mr. Jackson.
    Mr. Jackson. Thank you, Mr. Chairman.
    Let me begin by thanking President Swygert for being with 
us today.
    Mr. Swygert. Thank you, sir.
    Mr. Jackson. I'm having a real problem sitting here 
believing that Howard University actually tested higher than 
A&T. [Laughter.]
    I noticed when I was looking at the chart about the testing 
averages that, as I began to zone in closely on the data, I 
noticed they snatched it down before I could fully grasp what 
was coming across our committee hearing.
    A little question to Congressman Kemp, the era in our 
history he was talking about is known as reconstruction. 
Slightly five years after the Civil War, between 1870 and 1896, 
maybe as late as 1901, 132 historically black colleges were 
founded to educate the newly freed slaves, to bring them into 
the mainstream. In 1999, the remaining institutions, I believe 
112----
    Mr. Swygert. One hundred seventeen, including Howard.
    Mr. Jackson. They still educate more African-Americans than 
all of the historically white colleges combined.
    Mr. Swygert. And graduate more.
    Mr. Jackson. And graduate more across the entire country.
    Mr. Swygert. And send more on to graduate and professional 
school.
    Mr. Jackson. The role they plan is an enormous role. It is 
part of our Nation's reconstructive efforts to rehabilitate 
those Americans who had been left behind.
    I congratulate you, President Swygert, on an outstanding 
mission. I also want to congratulate Carla, who I think 
represents the very best that the historically black colleges 
and universities represent. Why she chose Howard over A&T, I'll 
never know.

                         ise center co-location

    But all jokes aside, President Swygert, for the past two 
years, Howard University has been seeking additional funding 
for an Interdisciplinary Science and Engineering Center. Can 
you tell our Committee a little bit more about it and what 
progress you're making on that subject?
    Mr. Swygert. We think we've made substantial progress. We 
have further refined what was at one point a concept, 
Congressman Jackson. We've further refined it to what we think 
is an understandable and rational document.
    Secondly, one of the critical elements of the science 
center is this notion of co-location. That is to say, side by 
side, Howard University enterprise with a major Federal 
initiative. We have certainly made progress there. And if I 
may, if I could add one other word regarding co-location. More 
specifically, Howard University is seeking designation as both 
a resource, in terms of actual materials, scientific materials, 
and a data gathering site for diabetes for the Nation in the 
human genome mapping initiative. We are assembling a team which 
we believe will make us competitive for that designation. So 
that's the second thing.
    Thirdly, of course, we have prepared our faculty and our 
community for a new day in terms of capital construction and a 
new day in terms of science and research at the University. So 
we think an enormous amount of progress has been made. The 
Chairman has been very encouraging by giving us encouragement 
to dream and to hope and to play and to think in terms of this 
possibility. Without the Chairman's encouragement, we would not 
be where we are today. I think the record should reflect that 
we have come quite some distance and we have some distance yet 
to go.

                     human genome research project

    Mr. Jackson. Thank you, Dr. Swygert. You mentioned in your 
remarks very briefly about some of the work that Dr. Dunston is 
undertaking with respect to the Genome Research Institute. 
Could you elaborate just a little bit?
    Mr. Swygert. Thank you very much. To assist me, Mr. 
Chairman, if I may, I'd like to ask Dr. Floyd Malveaux, who is 
Dean of our College of Medicine and Interim Vice President for 
Health Affairs, to speak briefly to that issue, or as long as 
the Congressman would like him to address it.
    Dr. Malveaux. Thank you very much.
    As you know, the mapping of the human genome is the most 
significant undertaking in biological sciences and medical 
sciences that we know of. In addition to not only gathering the 
information, Howard University is involved in establishing the 
sequences, the gene sequences, especially in diseases that 
disproportionately affect African-Americans.
    So for diseases such as diabetes, cardiovascular disease or 
hereditary prostate cancer, and so on, it's important that we 
understand the gene sequence. But it's also important that we 
understand this, because this is really going to direct our 
therapy as we go into genetic engineering and so on. It's 
really important that we understand that and that we are a part 
of that endeavor.
    As an example, for diabetes, we participate with five sites 
in West Africa. So we're looking at the gene sequences not only 
in African-Americans, but also in West Africa, so that we get a 
better understanding of how this disease is actually 
transmitted and also manifested in the African-American 
population.
    Mr. Swygert. This is an initiative, if I may, Congressman 
Jackson, that I first discussed with Chairman Porter now three 
years ago, when I indicated there was a possibility of Federal 
funding, NIH funding, for such an enterprise. That is to say, 
five remote sites outside the United States. As it happens, 
three were established in Nigeria, two were established in 
Ghana.
    The project is now in its second year, fully up in its 
second year. It's very, very exciting. Dr. Dunston is on point 
with this particular project. So again, it's part of an 
evolution of development and activity at the University. I just 
wanted to share that with you.
    Mr. Jackson. I will have an additional question in our 
second round. Thank you, Mr. Chairman.
    Mr. Porter. Mr. Hoyer.
    Mr. Hoyer. Thank you, Mr. Chairman.
    Doctor, I'm going to have to leave, as I told you, I'm on a 
very tight schedule. I've got some questions here relating to 
the Interdisciplinary Center. Because I want to be a supporter 
of that and see if we can get some extra money in this bill so 
we can get that project moving.

                           ise center funding

    Mr. Hoyer. You and I have discussed dollar figures that 
will be necessary to do that. I know $18 million is the 
optimum. If we can get close to that, it will be helpful. But 
I'm going to ask you some specific questions so we'll have that 
information at markup. I'll be talking to the Chairman about it 
and Mr. Jackson and others who will join us.
    I do want to thank you and congratulate you for your 
leadership. Howard was a troubled institution when you took 
over, it had problems, as every large institution does from 
time to time. You have done an extraordinary job of focusing 
Howard, its leadership, its faculty and its student body, 
focusing all of us as well, and re-establishing the confidence 
level, which is necessary for investment in that institution.
    Mr. Swygert. Thank you, sir.
    Mr. Hoyer. I congratulate you for that.
    And Carla, again I want to say to you how proud we are of 
you and what high expectations we have for you. You have done 
extraordinary things to date in your peer group. You're one of 
the best in the world, not just in this country. Our 
expectation is that you will continue to be in that league 
throughout the course of your life. We wish you the very best 
in that effort.
    We look forward to working with you at some point in time. 
We should live so long. [Laughter.]
    Mr. Swygert. Thank you, sir.
    Mr. Porter. Thank you, Mr. Hoyer.
    We've raised the question of the Interdisciplinary Science 
Center and you have in your opening statement. I wonder if you 
would provide for us for the record the three-year funding 
plan, including budget authority and outlays. I assume the 
outlay is for a longer period of time than that.
    Mr. Swygert. Yes, Mr. Chairman.
    Mr. Porter. We'll need to see that.
    [The information follows:]

            Funding for the Interdisciplinary Science Center

    The table below represents the three-year funding plan for 
the Interdisciplinary Science and Engineering (ISE) Center.

                                           SCHEDULE AND ANNUAL BUDGET
----------------------------------------------------------------------------------------------------------------
                          Total project                               Year 1          Year 2          Year 3
----------------------------------------------------------------------------------------------------------------
Engineering.....................................................      $5,850,000     $22,350,000     $20,400,000
Computational Science...........................................       7,125,000      26,325,000      23,950,000
Biomedicine.....................................................       4,275,000      15,775,000      14,350,000
School of Science of Mathematics................................         825,000       2,925,000       2,650,000
                                                                 -----------------------------------------------
      Annual total..............................................      18,075,000      67,375,000      61,350,000
----------------------------------------------------------------------------------------------------------------

                               endowment

    Mr. Porter. Let's talk for a moment about, you've answered 
this, the current market value of the University's endowment is 
$207 million?
    Mr. Swygert. Yes, $207 million, Mr. Chairman.
    Mr. Porter. There's been an endowment fund for about 16 
years or so. How much of the $207 million represents actual 
contribution and how much of it represents market appreciation?
    Mr. Swygert. I'm going to ask Mr. Thomas Elzey, our 
Executive Vice President and also Vice President of Business 
and Finance if he would respond to that.
    Mr. Elzey. Mr. Chairman, a significant portion of it 
represents market appreciation. As you understand, the stock 
market has done quite well.
    Mr. Porter. That's why I'm interested in the answer to this 
question.
    Mr. Elzey. We have had our portfolio structured in such a 
way to be able to take advantage of that.
    As you recall, also, a significant portion of it, 
approximately $50 million of it was placed in the endowment 
from appropriations that we received.
    Mr. Porter. From time to time.
    Mr. Elzey. So on balance, a large portion of it has been 
based upon market appreciation. We have had some significant 
gifts we have included in that overall endowment also over the 
years.
    Mr. Porter. More than the $50 million?
    Mr. Elzey. No, not more than the $50 million.
    Mr. Porter. Included in the $50 million, I mean?
    Mr. Elzey. The $50 million has been the Federal 
appropriations. In terms of private contributions, I would say 
roughly about $50 million over the period of time, then the 
rest of it is primarily market appreciation.
    Mr. Porter. So the market appreciation has been about equal 
to the amount of contribution?
    Mr. Elzey. I would say yes, roughly.
    Mr. Porter. Okay. If the subcommittee does not earmark 
funding for the endowment in this coming fiscal year, would you 
anticipate setting aside any of the fiscal year 2000 budget for 
that purpose, and if so, how much?
    Mr. Swygert. If there is no earmarking, we would be 
prepared to do so. As to the amount, I would respectfully 
request an opportunity to respond in writing at a later date 
after I have consulted with my colleagues at the University.
    Mr. Porter. Provide that answer for the record, and also 
provide what amounts you have set aside, if any, from the 
budget over the last five years.
    Mr. Swygert. Yes, Mr. Chairman.
    [The information follows:]

                             Endowment Fund

    The table below illustrates the amounts drawn down from 
Federal funds as matching funds became available each year, as 
well as the amounts transferred to the endowment during the 
years the University received a combined appropriation.

        Fiscal year                                                Total
1994....................................................      $2,983,881
1995....................................................       2,317,407
1996....................................................       3,401,904
1997....................................................         718,785
1998....................................................       3,500,000
1999....................................................   \1\ 3,500,000
                    --------------------------------------------------------
                    ____________________________________________________
      Grand total.......................................      16,421,977

\1\ Projected.
---------------------------------------------------------------------------

                     national achievement scholars

    Mr. Porter. In your opening remarks, you made reference to 
Howard's success in attracting National Achievement Scholars. 
We have discussed that here in reference to Carla, who was a 
National Achievement Scholar. Why is this effort important? 
What is the significance of it, beyond its obvious 
significance?
    Mr. Swygert. It's important, Mr. Chairman, I think in three 
critical ways. Howard University has always styled itself and 
indeed has been challenged by the Congress since its founding 
to be a leadership institution. I happen to think that our best 
efforts notwithstanding, there is a cadre of leadership that 
more likely than not will come from high achieving students. It 
seems to me that, consistent with what has been our history, we 
need to continue to recruit, and I don't want to use a phrase 
like the best and the brightest, because I think the challenge 
of higher education is to make each admittee the best and the 
brightest, but to recruit those students of outstanding 
potential.
    The second reason I think it's important is that the 
strongest faculty today, the Georgia Dunstons, Dr. George 
Bonnie, the human genome mapping project, faculty like a Dr. 
Jesse Nicholson, who was designated by the National Science 
Foundation as one of the Nation's top 10 faculty mentors 
nationally, faculty such as this and their younger counterparts 
are drawn to outstanding colleagues and they are drawn to 
outstanding students. They are drawn to students who can 
challenge them and to colleagues who can challenge them as 
well.
    Then I think thirdly, it's important that we recruit these 
youngsters, because indeed, they are emblematic in my view of a 
greater good that goes beyond themselves. I think we need more 
celebration of excellence. As you know, at Howard we make a big 
fuss over these students. We have a welcoming ceremony, we take 
a picture which we circulate, we work with the students 
throughout the year. I want to celebrate on my campus academic 
excellence.
    We are not anything but an institution devoted to academic 
excellence, if we are anything at all. Through that excellence, 
service and leadership. So it's terribly important for those 
three reasons.
    There's another reason, Mr. Chairman, that I would share 
with you. If you recall in my opening remarks, I mentioned that 
this year we were number two. Harvard University was number 
one. I don't celebrate being number two. It's not in my nature.
    However, it makes a statement when as President of my 
University I can share with you and the members of Congress who 
have been so supportive that indeed, we're doing something 
quite right at the University that we are able to recruit, in 
head-to-head competition, students of this caliber, of this 
potential, when we go head-to-head with ostensibly some of the 
most well known and ostensibly strongest universities in the 
Nation. We feel very good about that, mindful that it is a 
great, great challenge to sustain what we have started.
    Mr. Porter. Thank you, Dr. Swygert.
    Mr. Jackson.

                         minority health issues

    Mr. Jackson. Thank you, Mr. Chairman.
    I have two final questions, and I guess I should address 
these to President Swygert and/or Dr. Malveaux. During the NIH 
hearings, I asked Dr. Varmus if he felt that elevating the 
Office of Research on Minority Health Issues, ORMH, to a center 
status that would improve coordination for research on 
illnesses that disproportionately affect minorities. I'm 
interested in how you would feel about elevating ORMH, or is 
there another way at NIH to ensure that research is better 
coordinated from your perspective as a majority minority 
institution, to improve minority health?
    Mr. Swygert. I'd like to speak to the issue in two ways, 
not inconsistent with one another, but in two ways. One, we 
believe any further attention, however it's reflected, whether 
it's center status or some other status, that is consistent 
with NIH's mission, is a good thing and is a hoped-for result 
of sound public policy. We believe that however the formulation 
takes place, whether it's center status or otherwise, Howard 
University would certainly support it, and support it because 
of the further attention and further support it might bring to 
minority health issues.
    Secondly, Howard University welcomes more support for its 
campus-centered initiatives, which we think are equally 
profound; which are profound and which we have demonstrated 
over the last several years our discipline and our ability to 
focus our resources in a targeted way, not in trying to review 
and address the entire universe of issues, but to be very, very 
specific. I think that specificity and that discipline should 
also be encouraged.
    Dr. Malveaux, I don't know if there's anything further you 
might want to add.
    Dr. Malveaux. I would certainly want to echo, of course, 
what the President has said.
    Mr. Swygert. I'm happy to know that. [Laughter.]
    Dr. Malveaux. I'll get a ride back.
    But also, I think we really have to focus on those diseases 
that disproportionately affect African-Americans. I think that 
Dr. Satcher, the Surgeon General, has done this and is starting 
to focus on these as we look at our objectives in the next 
millennium. That is to really do away with that disparity, so 
that there is no disparity in terms of certain diseases as they 
affect populations within this country.
    So I think any effort obviously that addresses this issue 
is certainly a positive effort.
    Mr. Jackson. Thank you, Dr. Malveaux, and thank you, 
President Swygert.
    Mr. Chairman, my last question, if I might ask for a moment 
of personal privilege, is actually to Carla.
    Ms. Peterman. Thank you.

                      trade policy--carla peterman

    Mr. Jackson. Carla, the Congress of the United States is 
presently considering comprehensive and sweeping trade and 
foreign policy with respect to sub-Saharan Africa. I am very 
much interested in your studies in sub-Saharan Africa, about 
the subject matter generally and what you think some of its 
most pressing needs are at this hour.
    Ms. Peterman. I must say first that the postcard mentions 
that I'm interested in doing development in sub-Saharan Africa. 
Actually, I'm interested in doing development in South America 
and the Caribbean. So my expertise on the area you mentioned is 
not as broad as you might think it to be.
    My study of Africa as an historian has been primarily prior 
to 1800. So if you could maybe focus your question more, I can 
give you my personal opinion as a scholar. But I am not a 
scholar in the particular area you've mentioned.
    Mr. Jackson. The Congress is also considering comprehensive 
trading relationships with the Caribbean. It's called the 
Caribbean Basin Initiative. Just for your own edification, the 
Congress is considering an African Growth and Opportunity Act, 
and a Human Rights Opportunity Partnership and Empowerment Act 
for Africa.
    Let me pose it this way. How important from your 
perspective, particularly being a student, is history in 
drafting legislation, in trying to overcome some of the 
problems that have historically existed in these areas?
    Mr. Peterman. I think when you consider historically how 
long Africa, the Caribbean, many South American countries, were 
under colonization, you have a better understanding of how long 
it will take to address these problems. I am personally 
interested in doing development work. I mentioned Africa in 
connection to England, because I'm going to study in England.
    And as you know, there is truth to the statement that the 
sun never set on the British Empire. England was very much 
involved in colonization of Africa and South America. Many of 
the countries you're thinking about working with in sub-Sahara 
Africa and the Caribbean, the colonization did not end until 
this century.
    So when you consider that many of these countries have been 
colonized for 300, sometimes 350 years, and now we say, you're 
supposed to be able to be self-sufficient, you should have 
stable development, and many of them have only been free 
countries for the past 50 years, I don't think that's a very 
reasonable request.
    So I think first understanding the history of colonization, 
and then seeing, you have to think, maybe it will take that 
many years in order to address those issues and rectify those 
issues.
    Mr. Jackson. Is it safe to say, then, that any trade policy 
that would ignore the history of colonization and the long 
lasting legacy and effects of colonization and widespread human 
misery would be a trade policy that looks at the world from a 
non-historical point of view?
    Ms. Peterman. I agree. I think when you think about issues 
of trade, it's not just economics. You can't think about just 
economics. Economics, if you break it down to its origin, like 
the Greek words, it's economics, management of the household, 
the household, which constitutes people, there is a human 
component, issues of patrimony, there's an historical 
component, anthropological issues, as well as economic issues.
    So when you think about trade, it's not just an economic 
issue. At Howard, I'm studying history, biology and 
environmental science, the interdisciplinary effects of all 
those activities. So when we think about trade, we need to 
think about what synergistic effects did racism, colonization, 
have on the economics, current economics of these countries, 
and consider these when you think about what type of trade to 
do.
    Mr. Jackson. Mr. Chairman, I have no further questions. I 
also would like to apologize, Mr. Chairman, I couldn't resist 
taking the opportunity to take advantage of someone who knows 
more about this than I do. [Laughter.]
    Ms. Peterman. I would look forward to engaging in further 
dialogue with you about the subject in order to inform myself 
about it more. Find me next year, after I've been in England 
for a year. I might have more facts and opinions to lend on the 
subject.
    Mr. Jackson. Thank you very much, Carla. Congratulations, 
also.
    Ms. Peterman. Thank you.
    Mr. Porter. Thank you, Mr. Jackson.

                           student retention

    Dr. Swygert, can we talk about student retention for a 
moment?
    Mr. Swygert. Yes, sir.
    Mr. Porter. First of all, do I assume correctly that 
National Achievement Scholars' records would tend to reflect 
that they make it at Howard generally?
    Mr. Swygert. I think that's a fair assumption, indeed. One 
of the studies we're doing is a kind of mini-longitudinal study 
of our recent history, the academic experience of honors 
admittees, just how well do they do, and whether there is some 
differentiation between their first year, second and third year 
experience versus their larger peer community. But I think the 
assumption is well founded that they tend to do better and do 
better longer, and do graduate with a higher degree in four 
years, as opposed to five or six.
    Mr. Porter. How are we doing with student retention?
    Mr. Swygert. I think we have made some substantial 
progress. I'm going to ask our Provost, Dr. Antoine Garibaldi, 
who has spent considerable time and good quality time on this 
issue to speak just a moment to it, if you don't mind, Mr. 
Chairman.
    Mr. Garibaldi. Mr. Chairman, at Howard we are doing very 
well with respect to retention. We are particularly pleased at 
the increase in our first-year retention rates over the last 
couple of years.
    This year, we posted an 84 percent retention rate of the 
first year class from the fall of 1997. The previous year, it 
was 82 percent, so that's an increase of about 2 percent.
    Nationally, as some of the studies have occurred over the 
last few years, the national retention rate after the first 
year is only 74 percent. The retention rate also in the case of 
African-Americans is much lower than what the national average 
has been.
    So we have instituted a number of programs. President 
Swygert spoke about our orientation programs as well as a 
number of things during the year in terms of providing 
information to students, so that they will be better students, 
and also that they will adjust much better to college life as 
well.
    Mr. Porter. You've been using a six-year rate, have you 
not?
    Mr. Garibaldi. Yes.
    Mr. Porter. Because people have economic problems or other 
things that draw them away, then they come back and finish. How 
is that progressing, or have you been talking in terms of that?
    Mr. Garibaldi. We have been talking in six-year rates. We 
use the six-year rate because that is the rate that's also used 
by the Department of Education, along with the NCAA standards 
as that was initially prepared. We have been focusing primarily 
on our four-year retention rates, as well as five-year 
retention rates. Nationally only about 25 to 30 percent of 
students graduate within four years. We certainly have been 
looking at that, because we know we can increase that rate. I 
think our record shows we are at approximately 26 percent for 
the last cohort of students that we have studied.
    Also, we focused in on the five-year rates, because 
sometimes students will decide to take a semester and go abroad 
or do something else during that period of time. Those students 
might take a little extra time.
    But by and large, one of the reasons why students do take a 
longer time to graduate is because of economic reasons, as well 
as the fact that students may not take as much course work as 
did individuals 25 years ago, when yours truly was in school, 
as well as others. We're trying to address that problem as 
well.

                           student retention

    Mr. Swygert. Mr. Chairman, one of the things we're trying 
to do to address this issue, this five-, six-year issue, is to 
look very closely and with a clear eye at the way in which we 
schedule classes. Are we scheduling classes to accommodate 
students or are we scheduling classes in a sense to accommodate 
ourselves. It wasn't too long ago, Mr. Chairman, when Saturday 
was a full class day. That is to say, there were classes 
Tuesdays, Thursdays and Saturdays. We in higher education have 
gotten away from that. We now have Saturday institutes, 
Saturday programs, but we've gotten away from Saturday being a 
class day.
    I want to look very closely at how we schedule our courses 
to better meet the needs of our students, to give them a better 
chance at graduating in four and no more than five years. The 
fact of the matter is that many of our students, financial aid 
notwithstanding, many of our students work. That's today's 
reality, whether it's at Howard or elsewhere. They do work.
    Maybe we need to come up with more creative ways of 
offering courses that reflect that reality. Rather than 
assuming, as so many of us do, that every student is a student 
much like I was a student nearly 39 years ago, mainly, you were 
18 years of age, you lived in a dormitory on the campus, and 
you were in school full time, and you did little if any work, 
if you will, off campus, at least.
    Far too much of our thinking has been centered around a 
model that is not only dated, but clearly is not applicable. So 
we're going to try next year to present to you, one, stronger 
numbers, stronger statistics, and also hopefully we will have 
made more progress in terms of how we schedule these courses to 
better accommodate our students.
    Mr. Porter. You set your sights on a comparison with 
Georgetown, University of Virginia, Vanderbilt and Maryland.
    Mr. Swygert. Yes.
    Mr. Porter. How is that comparison today?
    Mr. Swygert. We think in terms of faculty salary 
adjustments as a result of the adjustment that we were able to 
make last April----
    Mr. Porter. Including student retention.
    Mr. Swygert. We've made good progress, Mr. Chairman, in 
terms of faculty salary adjustments. We are making some 
progress but we've got some significant way to go in terms of 
student retention. We're doing very well in terms of admission 
statistics. We have some way to go. University of Maryland 
College Park, if I recall correctly, the average SAT of the 
entering students in the university program is approximately 
1,100. We're 1,025, so we've got some considerable distance to 
go. But we're moving, and the trajectory is certainly going in 
the right direction.
    On retention, I think Georgetown in particular, their 
retention statistics are more like the national norm, if you 
will, and University of Virginia. We're probably closer to 
University of Maryland than not. Vanderbilt is perhaps the 
highest, Vanderbilt and Georgetown.
    So there continues to be a significant gap there.
    In terms of retention class to class, from the first year 
to the second year, we're doing very well, as Dr. Garibaldi 
just reported. This year, we can demonstrate a 2-percent 
increase, which as these things go is a fairly substantial jump 
in a relatively short period of time.
    What one needs to keep an eye on is, if you are improving 
first year retention between the first and sophomore years, the 
challenge becomes retention between sophomore and junior year. 
That's where students tend to begin to find the burden of 
school, the responsibility in terms of finance, other kinds of 
issues, it becomes a little easier for students to take, rather 
than the 16 hours, to take the 12 hours, rather than the 15 
hours, to take the 11 hours.
    That's where our challenge at Howard tends to be. We've got 
to do more in that regard.

                            advanced degrees

    Mr. Porter. I think it was probably four years ago when you 
and I and Dr. Minor sat down and talked. At that time, I 
recall, I believe it was Dr. Minor who said that the graduation 
rates for African-Americans for advanced degrees, not the rate, 
the absolute number, was going down rather than up. Is that 
correct?
    Mr. Swygert. In a number of disciplines, in engineering in 
particular. We're down.
    Mr. Porter. Advanced degrees were not increasing?
    Mr. Swygert. They were actually going down, in absolute 
numbers.
    Mr. Porter. Has that been turned around?
    Mr. Swygert. Unfortunately, no. Indeed, most recently, the 
Dean of our School of Engineering met with a number of deans, 
including the dean of engineering at North Carolina A&T, which 
is a tremendous school of engineering, outstanding school of 
engineering, to talk about this phenomenon.
    Mr. Chairman, I recently was invited to be a keynote 
speaker at a conference in New York of both public and private 
school admissions officers. In preparing for my remarks, I did 
a little research and discovered much to my horror, Mr. 
Chairman, that of the accredited schools of engineering in this 
country, there were far too many, and I can get the numbers for 
you, where the schools, and this is self-reporting, mind you, 
not reporting of the Department of Education or State 
departments of education, but self-reporting from the campuses, 
a number of schools reported no minority enrollment. I did not 
think that was possible in 1998, when I gave the talk.
    But that's going on. We're looking at why this is. Is it 
that the high school student of talent, the high school student 
who is scoring 1,000 or more on his or her SAT exam, they're 
foregoing engineering to go into other disciplines, perhaps 
some of the science-based disciplines? Is it because of a lack 
of initiative in terms of recruitment? Is it the cost of 
college?
    We don't know. But the numbers are very, very distressing.
    Mr. Porter. But Howard's numbers continue to go up.
    Mr. Swygert. We're doing well. But we're one school. You're 
looking at a national phenomenon.
    Mr. Porter. Which is very worrisome, I might add.
    Mr. Swygert. When you have a school of engineering, and I 
don't want to give names, because I want to be absolutely 
accurate, but schools that you would be familiar with, Mr. 
Chairman, that self-report not one African-American student, in 
this day and age, Mr. Chairman, that's really distressing.
    Mr. Porter. I think so also.

                         construction projects

    Are there any construction projects that are ongoing right 
now at Howard?
    Mr. Swygert. Yes, we have two very exciting projects that 
are well underway. On March 15th, next week, we actually 
literally break the ground that will begin the construction of 
the new school of law library. We are very excited about that. 
It's been a long time in coming, and it will go a long way to 
securing the future of the law school.
    On the health sciences center campus, I'm very pleased to 
report that in April, we're scheduled to actually break the 
ground, to begin the construction of the Louis Stokes Health 
Sciences Center Library. We're very excited. I know Dr. 
Malveaux, if I call him up again, he would share his excitement 
with you.
    It really is going a long way to secure our medical school 
and the health sciences campus. So those are two projects, 
they're on time, Mr. Chairman, they're under budget, and we're 
very, very excited about them. We were able to get guaranteed 
construction prices under the budget mark that we had set for 
both projects.

                     renovations of residence halls

    Mr. Porter. What's the situation on on-campus housing for 
students? You had at one time a problem there.
    Mr. Swygert. We still have a challenge, but because of 
resources the Committee has made available, I'm very pleased to 
report that we are still, with both fingers crossed, Mr. 
Chairman, we are confident we will be able to have back on line 
the two residence halls, you might recall, Mr. Chairman, that 
we had to take off line because of their condition.
    We still have a severe housing challenge on campus. Our 
housing for this spring semester, typically in the spring 
semester, the housing crunch eases up, because you have some 
senior students and some upper classmen who move off campus, 
they find accommodations in the spring that they perhaps were 
not able to find as easily in the fall.
    In the fall, our housing was up in the 90s in terms of 
occupancy, which is very high. We're not too far from that 
today, which means that in practical terms, there's no room at 
the inn. We have two women's residence halls, Truth Hall and 
Crandall Hall, that we have begun the physical rehabilitation, 
which the first part is asbestos abatement. We have started 
that.
    We have the budget in place for the rehabilitation. Those 
two halls accommodate approximately 150 female students each. 
That will bring on line 300 additional beds.
    We accommodate each evening in residence halls either we 
own or otherwise control, close to 4,000 students. So it's a 
major issue for us. I'm happy to report that there has been 
progress.
    I am confident that this time next year, I will be able to 
report to the Committee that those two residence halls are back 
on line. They have been off line for two and a half years now.

                           distance learning

    Mr. Porter. Thank you. Let me close with a question on 
distance learning. Last year you mentioned but did not have a 
chance to explain in detail some of the initiatives Howard 
University is undertaking in the area of distance learning. Can 
you tell us about that now?
    Mr. Swygert. Yes, very exciting developments since last we 
addressed this issue. If I may just take a moment, first, we 
had an excellent meeting with Secretary of Education Riley to 
talk about some of our vision for distance learning at Howard 
University. What we discussed with the Secretary more 
specifically was Howard as a center of distance learning where 
we could broadcast in real time programs and activities to 
perhaps, and it's still in the talking stage, but to perhaps 
initially develop a network comprised of some of the 
historically black schools and colleges.
    We believe that some of the historically black schools and 
colleges, and we believe Howard is one of them, and there are 
certainly others as well, could in fact, through distance 
learning technology, replicate their programs elsewhere, and 
therefore avoid the cost and expense that some of the schools 
and colleges might incur in terms of putting certain 
laboratories and other facilities together.
    We have a good amount of experience now with distance 
learning at Howard, and we're very excited about it.
    But the most exciting development in this regard is a real 
development, it's not what we hope might evolve over time, but 
something that's really happening. About six months ago, as a 
result of some conversations that we had had, and as word had 
begun to go forth in terms of some capacity at Howard, about 
six months ago we were approached by a not for profit center in 
Detroit, Michigan. This is a center that has been engaged by a 
number of industries in Detroit as it relates to providing 
school to work and then work to work opportunities for 
otherwise underemployed residents of Detroit.
    This particular not for profit has acquired space in an old 
warehouse facility near downtown Detroit. They have asked 
Howard to come into this enterprise to provide in a distance 
learning setting educational opportunity to a number of Detroit 
area residents who fall within certain categories.
    More specifically, there are several industries that have 
been propelling this kind of effort. Some of those industries, 
in fact, part of the gaming industry that are expanding 
substantially, not expanding, establishing themselves in 
Detroit, were very excited about this possibility, because it 
will be real time, real life distance learning on our part.

                     distance learning initiatives

    This is coupled with another initiative that is currently 
underway, again, it's not in the talking stage, it's in the 
doing stage, using our School of Divinity as a broadcast 
center, if you will. As a result of support we receive from the 
Ford Foundation and Microsoft Corporation, Howard University's 
School of Divinity is currently, as we sit here today, 
broadcasting in real time course work to eight distance 
learning sites and churches around the Nation. We are very 
excited about that.
    We have registered the first five students who are in a 
regular degree granting program in our School of Divinity. 
Every classroom in the School of Divinity is wired for real 
time transmittal. We have access to our own satellite, if you 
will. It's very, very exciting. We think we're on the cusp of 
something very important.
    In my view, as I said last year, leadership in higher 
education in the 21st century is not going to be leadership 
defined by who has the most in the way of physical facilities 
and who has the most in the way of campus facilities per se, 
even though we clearly need our science center. Leadership is 
going to be ultimately defined by who has the ability to move 
modules of knowledge and measure those modules and responses to 
those modules across distances.
    The technology is certainly there. When you read of what's 
happening, whether it's the Western Governors States Virtual 
University, other kinds of initiatives, that's really a 
critical part of the future. We think Howard has an essential 
role to play. We have begun a discussion with the Secretary of 
Education. We have two projects now underway. We have our 
Detroit initiative.
    By the way, we were solicited, we didn't seek to displace 
Michigan State University, Wayne State University, Central 
Michigan. We were asked to come in, we were invited to come in. 
We have that initiative, and we have the School of Divinity.
    So much is happening and it's happening so fast that one 
has to run to catch up. I am fortunate in that my chief of 
staff, Mr. Lewis Long, who is with us today, Howard 
undergraduate school, Harvard MBA, has been very helpful, is 
very knowledgeable, is of another generation, Mr. Chairman, who 
understands all these things and is comfortable with all these 
things, and is pushing and moving these initiatives for us.
    Thank you so much for giving me the opportunity to respond.
    Mr. Porter. Thank you, President Swygert.
    Mr. Jackson.
    Mr. Jackson. Mr. Chairman, I just have one follow-up 
question to a question that you raised.

                      decline in advanced degrees

    Mr. President, can you give our committee a recommendation 
on how we might be able to combat the trend of African-
Americans not pursuing graduate degrees?
    Mr. Swygert. I am glad you asked that question, it's such 
an important question. I think there two things that need to 
happen. One, we need, with real resources, to rededicate 
ourselves to providing talented youngsters who want to pursue 
graduate and professional education with the resources 
necessary to do it. It's a very expensive proposition.
    So we've got to come up with more scholarship dollars to 
make graduate education a full time proposition, not a part 
time proposition. Full time so you get your masters in one 
year, so you get your Ph.D in four years. It's going to take 
some dollars.
    Mr. Jackson. I assume you mean scholarship dollars targeted 
at the populations that are being left behind?
    Mr. Swygert. Particularly in those disciplines where 
African-Americans would appear to be disappearing, not just 
status quo, but disappearing altogether.
    The second thing I think we need to do, and I think here 
the Congress, elected leadership, appointed leadership, needs 
to really stand firm upon the bully pulpit and really speak to 
this issue of graduate and professional education that indeed 
it is important, that indeed it is worthwhile, that the effort 
is worthwhile, and that indeed there is another life at the end 
of this exercise.
    It may seem obvious, but it's not so obvious to the 
youngster who leaves Howard or leaves some other institution 
with $10,000, $15,000, $20,000 in debt, and then not to 
challenge that youngster to go froward. The youngster needs to 
be challenged to continue, but needs to be given the resources 
in order to continue. So I think it's both encouragement and 
it's encouragement that can be measured and quantified, i.e., 
scholarship support.
    Mr. Jackson. How can monies be targeted to a specific 
population that's disappearing?
    Mr. Swygert. I think there are any number of ways that the 
courts have approved. Clearly, the first way is need, based 
upon need, based upon demonstrated need. Secondly, the courts 
have consistently said that the Congress can make and State 
legislatures and city councils can make legislative findings of 
a need and of the propriety of directing and focusing and 
targeting resources.
    It seems to me that in critical areas of engineering, 
whether it's chemical, whether it's electrical, mechanical, 
engineering, where if indeed one observes that a significant 
community within these United States is disappearing, it seems 
to me that an appropriate investigation and appropriate inquiry 
can be made, and appropriate findings to support targeted 
programs. Not to the exclusion of any others, because I think 
that is not appropriate. But to encourage. It's the encouraging 
part that I think is important, certainly not the exclusionary 
part.
    Mr. Jackson. Thank you, Mr. President.
    Thank you, Mr. Chairman.
    Mr. Porter. Thank you, Mr. Jackson.

                            Closing Remarks

    President Swygert, you are doing a wonderful job at Howard. 
Obviously we've made great progress in your four years. It is 
very encouraging for us to hear what is happening at Howard, 
very exciting. Obviously, as I said earlier, Carla is a product 
of your leadership, and we congratulate Howard and Carla 
personally on her achievements and wish you well in your year 
in England in the Rhodes Scholarship program.
    There is a lot exciting going on that people ought to know 
about. We appreciate the imposition on your time. We've gone 
considerably over, but we're very anxious to know all about it, 
and appreciate your providing us with all the information.
    Mr. Swygert. Mr. Chairman, if I may, I'd like to state this 
both for the record and for the benefit of Carla Peterman, who 
may not be quite as familiar with this as she needs to be, four 
years ago, when I first had the privilege of meeting with you, 
I indicated to you if you gave me just a little running room, 
we'd try to make a difference. I think it's important that the 
record reflect that the Chairman has given us that running room 
and we're trying to make a difference. Thank you.
    Mr. Porter. We'll try and give you more.
    Mr. Swygert. Thank you, sir.
    Mr. Porter. Thank you.
    The subcommittee stands in recess until 10:00 a.m. 
tomorrow.
    [The following questions were submitted to be answered for 
the record:]
    Offset folios 359 to 366/500 insert here

<SKIP PAGES = 008>

                                          Thursday, March 11, 1999.

                        DEPARTMENT OF EDUCATION

                               WITNESSES

JUDITH E. HEUMANN, ASSISTANT SECRETARY, SPECIAL EDUCATION AND 
    REHABILITATIVE SERVICES
TUCK TINSLEY III, PRESIDENT, AMERICAN PRINTING HOUSE FOR THE BLIND
ROBERT R. DAVILA, VICE PRESIDENT, NATIONAL TECHNICAL INSTITUTE FOR THE 
    DEAF, ROCHESTER INSTITUTE OF TECHNOLOGY
WENDELL S. THOMPSON, DIRECTOR, GOVERNMENT AND ADMINISTRATIVE AFFAIRS, 
    THE NATIONAL TECHNICAL INSTITUTE FOR THE DEAF
HON. LOUISE M. SLAUGHTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF NEW YORK
CAROL A. CICHOWSKI, OFFICE OF BUDGET, DEPARTMENT OF EDUCATION
RAMON F. RODRIGUEZ, LIAISON OFFICER, OFFICE OF SPECIAL EDUCATION AND 
    REHABILITATIVE SERVICES

                    Remarks By Hon. Anne M. Northup

    Mrs. Northup [presiding]. Good morning I think we are going 
to get the hearing going. I am Representative Anne Northup, and 
I am going to chair this until Mr. Porter is able to get here.
    Before we start and before, Ms. Heumann, we have you make 
your statement, I want to introduce one of my constituents and 
somebody that I have worked closely with who is here with us 
today, Tuck Tinsley. Tuck is the president of the American 
Printing House for the Blind. It is an institution that is 
located in Louisville, Kentucky, and makes a difference for 
blind people all across this country. But it is certainly one 
of the institutions in Louisville that we are so proud of, and 
Tuck has made an enormous difference and really rallied the 
entire community's interest in what the American Printing House 
for the Blind does. And I want to thank you for making the 
effort and being here with us today.
    I do have Secretary Cuomo at the HUD hearing, and I am not 
going to be able to stay for the entire hearing, but I wanted 
to begin by introducing you and welcoming you to Washington.
    Dr. Tinsley. Thank you very much, Mrs. Northup.
    Mrs. Northup. And I think that Ms. Slaughter is here with 
us today, Representative Slaughter, and you wanted to make an 
introduction also.

                  Remarks By Hon. Louise M. Slaughter

    Ms. Slaughter. If I may, Madam Chairwoman and my fellow 
Kentuckian.
    I appreciate the opportunity to be here. I am delighted to 
be here this morning. I am from Somerset. How about you?
    Dr. Tinsley. Wonderful. Letcher County.
    Ms. Slaughter. I would like to introduce two of my 
constituents from Rochester who represent the National 
Institute for the Deaf, and I want to express my profound 
thanks to the people on this committee for their past support 
of NTID.
    These gentlemen represent an institution that I know is 
very special, the National Institute for the Deaf in Rochester. 
Dr. Robert Davila is their vice president, and Mr. Wendell 
Thompson is the associate director, and they have been visiting 
this committee as members of this delegation for many years.
    I am especially pleased to be introducing Dr. Robert Davila 
in his third year. Many of you remember seeing Dr. Davila 
testify before the committee as Assistant Secretary for the 
Office of Special Education and Rehabilitative Services from 
1989 to 1993, or earlier in the 1980s as the vice president of 
Gallaudet University.
    NTID is fortunate to have Dr. Davila at its helm because 
his 40 years in education as a high school math teacher and 
assistant principal, a K-12 superintendent, a college 
professor, a college administrator, and a university vice 
president prepared him well for his current responsibilities 
and role, not to mention the 4 years as Assistant Secretary.
    NTID has used its Federal money extremely well. It has 
achieved tremendous success in preparing deaf people to enter 
society and the workplace, to compete on par with their hearing 
peers. Collaborative research between NTID and the Social 
Security Administration shows that in comparison to students 
who do not complete a degree, NTID graduates over their 
lifetimes are employed at a much higher rate, earn 
substantially more, pay significantly more in taxes, and 
participate at a much lower rate in Federal transfer programs 
such as SSI and SSDI.
    Even when SSI and SSDI payments and the time value of money 
are taken into consideration, NTID students more than pay back 
the cost of their education. And, furthermore, their employment 
rates are extremely high, with 95 percent becoming employed 
shortly after graduation.
    We wanted to tell you that we take good stewardship of the 
money that you allocate to us. We appreciate your past support 
of NTID and certainly look forward to your support this year.
    Thank you very much for allowing me the time.
    Mrs. Northup. Thank you.
    Now, Ms. Heumann, we will proceed with the hearing, and you 
can go about it in any way that you wish and call on your 
fellow panel members.
    Ms. Heumann. Thank you.
    Mrs. Northup. I do want to just take the prerogative of 
saying I notice that the president of Gallaudet, Dr. Jordan, 
isn't here. But I think everybody in this room might be 
interested in knowing that I saw on the news where his women's 
basketball team is going to the NCAA tournament, and it is a 
first for Gallaudet, and it was fascinating to see how fabulous 
they performed on the basketball court. So if you didn't know 
that, you might be interested in that.

                  Opening Statement--Judith E. Heumann

    Ms. Heumann. Thank you very much. I had the opportunity to 
visit NTID about a year ago and have been down to visit Tuck's 
program a number of years ago. We are very proud to be funding 
these programs because I think they really do very good work, 
and I think our dollars are being very well spent.
    If I could please introduce the people who are on the 
panel: Mr. Ramon Rodriguez, who is the liaison officer to the 
Special Institututions in my office, the Office of Special 
Education and Rehabilitative Services; Dr. Robert Davila, who 
is, as you heard, the vice president for the National Technical 
Institute for the Deaf; Mr. Wendell Thompson, also with the 
National Technical Institute for the Deaf; and Dr. Tuck 
Tinsley, president of the American Printing House for the 
Blind. To my right is Ms. Carol Cichowski, who is with our 
Office of the Under Secretary, Budget Service, at the 
Department of Education.
    It is my pleasure to appear before you on behalf of the 
Special Institutions for Persons with Disabilities, which 
include the American Printing House for the Blind, National 
Technical Institute for the Deaf, and as you already said, we 
will be up here next week with Gallaudet University.
    I am pleased to present the Department's testimony on 
behalf of the President's fiscal year 2000 budget for these 
institutions. I would like to take a few minutes to summarize 
the budget request and to comment on several key issues, and 
then representatives of the Printing House and NTID will give 
specific testimony in support of their respective budget 
requests.

                    fiscal year 2000 budget request

    The total budget request for the special institutions is 
$142,020,000. Within this amount, our request includes 
$8,973,000 for the American Printing House for the Blind and 
$47,925,000 for the National Technical Institute for the Deaf. 
The Department is pleased to be able to provide support for 
these important programs and for the children and adults with 
disabilities who will benefit from their services.
    The Department's request of $8,973,000 for the American 
Printing House for the Blind is an increase of $312,000 above 
the fiscal year 1999 appropriation level. The fiscal year 2000 
request also would retain $140,000 that was included in the 
fiscal year 1999 appropriation for non-recurring initiatives. 
The combination of the proposed increase and the funds retained 
from 1999 will be used to provide $155,000 to help offset the 
effect of inflation in program operations and increased funding 
for a number of special programs.
    Our request of $47,925,000 for NTID is an increase of 
$2,425,000 over the fiscal year 1999 appropriation. The 2000 
request also would retain $1,359,000 that was included in the 
fiscal year 1999 appropriation for a number of one-time 
projects. The combination of the increase in funding above the 
1999 level and the $1,359,000 retained from 1999 would be used 
to provide an increase of $883,000 for operations to help 
offset the effect of inflation, an additional $250,000 for the 
Endowment Grant program, and $2,651,000 for the first phase of 
a major project to renovate the NTID dormitories.

                        endowment grant program

    The Department has included a separate request of $250,000 
for the Endowment Grant program for the National Technical 
Institute for the Deaf in order to expand the NTID fundraising 
program and provide a further inducement to donors to support 
its programs. As we have in previous years, our request 
provides NTID the flexibility to use current-year program funds 
for its endowment grant program. This provides the institute 
with the discretion to determine whether and how much of the 
appropriation to use for matching purposes. The Department 
believes that these funds help promote the financial 
independence of NTID and provide a permanent and increasing 
source of funds for special programs.

                           construction funds

    The Department has included a separate request of 
$2,651,000 for the first phase of a major dormitory renovation 
program. The NTID dormitories were built over 25 years ago and 
are now in need of extensive updating and renovating. In 
addition to overall improvements, the renovations would satisfy 
code and life safety requirements. At this time, the total 
remaining cost for the project is $12 million. NTID has 
requested these funds in two increments: $3,119,000 for fiscal 
year 2000 and $8,881,000 for fiscal year 2001. After careful 
review and analysis, the Department has concluded that it would 
be reasonable to require that the NTID raise a minimal match of 
15 percent of the cost of the project from private sources. 
NTID has demonstrated excellent fundraising ability in recent 
years, raising over $10,000,000 in its first capital campaign, 
and matching $2,000,000 toward the Federal Endowment Grant 
program over the past 2 years, a great credit to Bob Davila. 
The fiscal year 2000 budget request, therefore, includes 
$2,651,000, or 85 percent, of the amount requested for the 
first phase of this construction project.

                          performance measures

    The Department continues to work closely with the special 
institutions to monitor and update their annual program 
performance plans to comply with the requirements of the 
Government Performance and Results Act of 1993--GPRA. The plans 
that have been submitted to Congress for the institutions 
include the key performance measures the Department believes 
are appropriate for inclusion in the GPRA plans. In addition, 
for each institution, there are other measures that are not 
included in the annual performance plans submitted to Congress 
that will be used by the institutions to oversee internal 
operations and by the Department for monitoring purposes.
    We are pleased with the efforts the institutions have made 
in working with the Department to develop and track these 
measures which we believe are vitally important to the missions 
of their respective programs.
    Another major activity that occurred this year is the 
reauthorization of the Education of the Deaf Act through the 
Higher Education Act amendments of 1998. There were a number of 
amendments to the EDA with which the Department is generally 
pleased.
    In fiscal year 2000, the Department plans to continue to 
work closely with the Special Institutions for Persons with 
Disabilities to ensure that Federal funds are being used 
efficiently and effectively to expand educational opportunities 
for individuals who are deaf or hard of hearing and individuals 
who are blind.
    My colleagues and I will be very happy to answer questions 
after we have all completed our testimony.
    [The statement of Judith Heumann follows:]
    Offset Folios 511 to 515 Insert here

<SKIP PAGES = 005>

    Ms. Heumann. Tuck, would you like to go first?

                  Opening Statement--Tuck Tinsley III

    Mr. Tinsley. I would love to. Thank you, Ms. Heumann, and 
thank you, Mr. Chairman. I have submitted an opening statement 
for the record, and I would like to briefly summarize, if I 
may.
    The Act to Promote the Education of the Blind, passed by 
Congress in 1879, designates a board of Ex Officio Trustees, 
currently 156 professionals, who provide ongoing State and 
local input into the identification of the needs of students 
who are blind. The total request for the Act for fiscal year 
2000 is $8,973,000, an increase of 3.6 percent over the fiscal 
year 1999 appropriation.
    The funding is broken into three categories: educational 
materials, advisory services, and educational and technical 
research.
    The request for the year 2000 includes $7,691,000 to supply 
special educational materials to an estimated 58,205 legally 
blind students, an increase of 2 percent over fiscal year 1999 
funding for educational materials.

                     advisory services initiatives

    The 2000 request includes $179,000 for advisory services, a 
2.2 percent increase over the fiscal year 1999 funding level. 
The request for advisory services also includes $170,000 for 
the continuation of the expert database initiative, $145,000 
for continuation of an initiative to create an electronic file 
repository, $84,000 for continuation of a student-use 
initiative for the Louis database, and $100,000 for a new 
initiative to update the Louis database and APH Web site.
    The $170,000 requested for the continuation of the expert 
database service, which was begun in 1998, involves the 
development of an on-line database of facts, references, and 
resources and will provide a user-friendly, accessible means of 
providing technical assistance. It will provide a services 
directory and location center, and a repository of information 
that is vital to those who are visually impaired and to the 
administrators of their programs.
    The $145,000 for continuation of the initiative to create 
an electronic file repository supports the current national 
effort to expedite the provision of publishers' files of 
alternative media.
    The request of $84,000 to continue the student-use 
initiative for the Louis database that was begun in 1998 will 
allow students who are the ultimate consumers of the materials 
to access the database.
    The 2000 request also includes $100,000 for updating the 
Louis database and the APH Web site. As the Web site services 
have expanded, the demands on the current server have greatly 
increased. By the year 2000, the server will be 3 years old and 
no longer robust enough to meet the consumers' demands. In 
addition, the Web server and software currently in place are 
not year 2000 compliant, necessitating an upgrade.

                        aph research initiatives

    The request for educational and technical research is 
$500,000. This request includes three new initiatives: $44,000 
for the development of protocols for the assessment of visual 
functioning, $4,000 for the development of primary grade 
storybooks to introduce tactile graphics, and $56,000 for the 
development of optical aids training kits.
    The protocols for assessment of visual functioning will 
provide a definitive protocol for assessing a student's visual 
functioning. Currently, there are instruments available; 
however, none provide all aspects needed and none are simple to 
use for the administrator and easy for the student to take. The 
results this protocol provide will be easily understood by the 
practitioner, the parents, and others.
    The initiative for primary grade storybooks introducing 
tactile graphics will develop and adapt storybooks for 
kindergarten and primary level students which will feature text 
accompanied by simple braille tactile symbols. This initiative 
will focus on two major current obstacles: the lack of exposure 
to tactile graphics for young blind students; and, the lack of 
a sequence of instruction in preparing students to use tactile 
graphics.
    The initiative for the optical aids training kits will 
address children with low vision who need more than large type 
to benefit from their educational programs. This initiative 
will provide kits of optical aids and accompanying curricula 
for students learning to use aids for both near and distance 
vision activities.
    The Act to the Promote the Education of the Blind is a 
program that works. The key is continuous input from direct 
service providers at the State and local levels with all the 
obvious benefits.
    I would be happy to answer any questions you may have.
    [The statement of Tuck Tinsley follows:]
    Offset Folios 520 to 526 Insert here

<SKIP PAGES = 007>

    Ms. Heumann. Dr. Davila.

                  Opening Statement--Robert R. Davila

    Dr. Davila. Good morning, Mr. Chairman. I am pleased to 
testify on behalf of the President's fiscal year 2000 budget 
request of $47,925,000 for NTID, which includes $45,024,000 for 
operations, $250,000 for the endowment program, and $2,651,000 
for the construction program, the first phase of the dormitory 
renovation program.
    I am very pleased that the administration is supporting the 
$13,500,000 dormitory renovation program. This program is 
vitally needed if we are to properly house students who are 
deaf at NTID. As you know, RIT is going through the process of 
renovating its entire dormitory complex, including NTID 
dormitories that were built and constructed by the Federal 
Government.

                       strategic planning process

    As you know, NTID under previous leadership went through a 
comprehensive strategic planning process in 1992. While that 
document is still certainly relevant, we recently completed a 
review of that strategic plan and have recommitted ourselves to 
four primary objectives for the next few years. They are:
    First, NTID will establish and vigorously market an 
enhanced national identity that promotes our comparative 
advantages;
    Second, NTID will continue to develop cutting-edge career 
education curricula and viable new technical programs. Seven 
technical programs have been phased out and four new ones 
added. We plan to identify new program areas for the future and 
streamline the curriculum approval process so we can remain 
responsive to changes in the workplace;
    Third, NTID will expand its efforts to ensure full access 
for deaf and hard-of-hearing students on the campus of RIT to 
assure that NTID students maximize their educational and 
personal and social potential. We have expanded our interpreter 
training program and added realtime transcription as an option 
for classroom interpretation. In addition, we have added four 
hotline interpreters and a librarian, who is familiar with the 
communication needs of deaf students. All of these are being 
paid for by RIT itself. We will continue to do more to create 
full access in every aspect of college careers in RIT;
    Fourth, NTID will implement innovative strategies and 
support systems to assure that we retain and graduate students 
who are fully prepared to succeed in the highly technical 
workplace of today. We plan to increase our employer training 
efforts and measure student and alumni satisfaction.

                            accomplishments

    I would like to share with you a few highlights of this 
most recent year. First, I am proud to tell you that NTID has 
added its first deaf dean in its 32-year history. Dr. Alan 
Hurwitz, who is an electrical engineer by training, began his 
duties almost one year ago and is doing an outstanding job as 
academic leader for the institute.

                       admissions and enrollment

    The entering class last September of 459 students was the 
largest since 1987. Our student body has grown to 1,278 
students, the highest it has been in 10 years. Twenty-two 
percent of the student body at NTID are from minority 
backgrounds, which is almost thrice the number we had as 
recently as 10 years ago.

                              fundraising

    We just successfully completed a $10 million fundraising 
campaign. We raised $635,841 in endowment funds last year, 
which is nearly three times the amount we have been able to 
raise in the last 3 years.
    The market value of our endowment as of this past December 
31 is over $19,000,000. This is an exceptional outcome, 
considering that we have had an endowment fundraising program 
for only 10 years.

                         performance indicators

    I want to tell you, sir, that we are using the performance 
indicators as a management tool. We have fully trained all of 
our administrators and have communicated throughout the 
Institute the need for the Institute to come together in 
pursuit of the goals we have established in using the 
measurement outcomes that we have in place now. Although we 
have 37 indicators, and we are moving to use them all, I would 
like to inform you that we are currently emphasizing five with 
a higher priority.
    The first relates to retention. Although our persistence 
rate from first to second year is 71 percent, we feel that we 
can continue our efforts to improve that.
    Second, our graduation rate for sub-baccalaureate degrees 
is 48 percent and for baccalaureate degrees is 63 percent. The 
baccalaureate rate is exactly the same level as for hearing 
students at RIT. However, we will continue our efforts to 
gradually improve on these rates.
    Third and fourth relate to student and alumni satisfaction. 
We need to measure the extent to which we are providing student 
and alumni with the kind of experiences they need in 
preparation for the world of work. We are in the process of 
completing development of instruments, and we will be reporting 
on this in the year 2000.
    Fifth, although we are proud to say that we have made good 
efforts in improving diversity among our student body, we will 
continue to gradually improve on the number.

                     academic program enhancements

    There are also some new things in the academic program 
development area. We have added new courses, for example, 
computer-aided drafting, applied computer technology, 
laboratory science technology, optical finishing technology; 
and in the interpreter education program, we are preparing to 
upgrade the program to include not only an associates degree, 
but also a baccalaureate degree.
    RIT, which, of course, includes NTID, was recently 
identified as one of the most ``wired'' universities in this 
country by Yahoo Internet Magazine, and we would like to thank 
this Committee for the support it gave us that allowed us to 
extend the Internet system to all of the NTID facilities. We 
thank you for that.
    Earlier, at the start of this session, Mrs. Northup 
mentioned Gallaudet's team and how they are now in the NCAA 
tournament. I am pleased to tell you that one of NTID's deaf 
students who wrestles for RIT recently became one of the few 
ever to win three straight NCAA wrestling championships in 
three different weight classes. So we have our own share of 
activity in NCAA competition.
    Recently, four deaf students competed with 15 other RIT 
teams to represent RIT in the National College Bowl 
championships, and they won. They went on to regional 
competition at Cornell University, but unfortunately, they 
lost. However, we are proud of their accomplishments.
    Mr. Chairman, that concludes my presentation. Last night, 
my boss, Dr. Albert Simone, the president of RIT, informed me 
that you are considering the possibility of coming to visit 
Rochester. If so, I surely hope your schedule will permit you 
to visit NTID as well. You will always be welcome.
    Thank you.
    [The statement of Robert Davila follows:]
    Offset Folios 532 to 537 Insert Here

<SKIP PAGES = 006>

    Mr. Porter. Well, thank you.
    Ms. Heumann. Excuse me. Dr. Tinsley asked if he could add 
something; he left one thing out.
    Mr. Porter. Yes, but we have a vote on, and I am going to 
have to interrupt. Thank you, Secretary Heumann, thank you, Dr. 
Tinsley and Dr. Davila, for your statements.
    Here is our problem. We are going to have a vote. Then we 
are going to have 10 minutes of debate, then five more votes. I 
have to ask the gentle lady, she has not voted yet, has she? 
No.
    Well, what we are going to have to do is to recess now. 
There is about 6 minutes left in this vote. We will go down to 
the floor. There is really no chance of coming back, although 
if the gentle lady wants to do that, given her schedule, she 
could come back and resume the hearing and ask questions. But 
then there is going to be this series of votes. So, unless she 
is going to do that, I am going to have to recess the 
subcommittee until the votes are over. They will take over an 
hour.
    We are canceling the second half, the postsecondary 
education part of the morning hearing, because we will have no 
chance of getting to it today.
    The full committee scheduled a full committee markup of the 
supplemental at 1 o'clock today, and that is supposed to last 
for 3 or 4 hours. So our day has been shattered by all these 
changes.
    What we will do here, though, is to recess, then we will 
come back and complete this hopefully before noon, and get a 
chance to ask questions and get your answers, and that is all 
we will probably be able to accomplish for the morning session. 
So I apologize to all of you.
    I first want to apologize that our hearing schedule is so 
compacted to begin with. I have said this to most of the people 
who have testified before the subcommittee, and let me also say 
it to you. Last year, our hearings went into early June. This 
year we must complete them by the third week in April. So 
everything has been pushed together very tightly. I apologize 
for that, but there is nothing I can do. I also apologize for 
the fact that we are so broken up this morning.
    I thank each of you for your statements. I know that the 
gentle lady from Kentucky welcomed you earlier. We are going to 
recess now and resume as soon as these votes are over.
    The subcommittee now stands in recess for votes.
    [Recess.]
    Mr. Porter. The subcommittee will come to order. Again, I 
apologize for the delay.
    Let me ask an initial question. I also ought to tell you 
that we have to conclude this by 12:00. It is one of those 
scheduling problems that are unavoidable.
    Let me start with a question, first, for Dr. Tinsley, and 
then the same question for Dr. Davila.

               adequacy of the president's budget request

    Dr. Tinsley, do you believe the President's budget request 
provides a sufficient level of resources to enable you to 
achieve your performance goals in the next fiscal year?
    Dr. Tinsley. Yes, sir, I certainly do.
    Mr. Porter. What was your original request to the 
Department?
    Dr. Tinsley. The original request was $10,137,000.
    Mr. Porter. Dr. Davila, do you believe your request is 
sufficient to enable you to achieve your performance goals?
    Dr. Davila. I believe that the Department has done what it 
can to assist us. However, I need to point one thing out about 
the 2 percent figure used by the Department for inflation. 
However, RIT presently is going through a process of doing 
market studies for all employees on the campus to ensure they 
remain competitive in the labor market. They will be making 
adjustments to salary ranges and providing increases that 
should average between 4.0 and 4.5 percent for fiscal year 
2000. So the inflation increase for NTID probably would not be 
sufficient to meet that requirement. However, we will see what 
we can do to find the resources necessary to handle this 
situation. That is the only area where we have a concern. Other 
than that, though, I think it is fine.
    Mr. Porter. What was your request to the Department, Dr. 
Davila?
    Dr. Davila. Originally, we had asked for $59,778,000. That 
included, of course, the entire construction budget, as the 
Department has explained. I testified earlier that the period 
has been spread over 2 years. We got $2,651,000 for the first 
year. Additionally, our initial operations request was for 
$47,100,00, but it was adjusted downward to $46,391,000 because 
we had received some additional funding for fiscal year 1999. 
So that is what we submitted. However, the Department has 
requested $45,274,000 for our operations.

                          dormitory renovation

    Mr. Porter. Dr. Davila, what is the total estimated cost of 
the dormitory renovation project you propose to begin this 
year, and what would the cost be per year?
    Mr. Davila. Well, $13,568,000 is the estimate.
    Mr. Porter. That is the total.
    Dr. Davila. Yes. Of that amount, NTID has already expended 
from operations a little over a million dollars. We extended 
the ethernet system to the dormitories, and we repaired roofs 
using operating funds.
    Mr. Porter. How much per year?
    Dr. Davila. It is spread over a 2-year period. If we got 
$2,651,000 now, we would need $9,349,000 next year.

                         dormitory cost sharing

    Mr. Porter. So 2 years, all right.
    The Department's budget justification indicates that the 
administration believes NTID should be able to contribute 15 
percent of the cost for renovating the Ellison Hall Dormitory.
    I take it, you believe this is feasible. Do you, or do you 
not?
    Dr. Davila. Well, if I may comment on that, in my 
professional opinion, I think it would be very difficult for us 
to do that.
    Mr. Porter. It would be difficult?
    Dr. Davila. Yes, the priorities for our development program 
are first, scholarships for our students, and second, equipment 
and new technology for the classrooms. We would like to ensure 
that NTID will always be able to provide an affordable 
education to young people who qualify and are deserving of an 
education at NTID. We have a very small development staff. I 
spend a lot of my own personal time raising funds. So I think 
that if we devoted our attention to raising money for 
dormitories, which were Government-built, there is not that 
much interest, on the part of donors in my opinion, in 
supporting buildings that are owned by the U.S. Government.
    [The information follows:]

             NTID Construction Funds--Matching Requirement

    Ms. Heumann. Mr. Chairman, for the record, we would like to 
respond to Dr. Davila's remarks. The Department believes that 
it is reasonable to require an institution of NTID's size and 
stature to provide a portion of the funds needed for capital 
projects, and that a 15 percent match represents a minimal 
commitment on the part of the Institute. It is also consistent 
with the Department of NTID's goal to increase the financial 
self-sufficiency of the Institute.
    We do not believe that NTID's status as a federally 
supported program should impinge upon its ability to raise 
construction dollars. For example, Gallaudet University has 
been very successful in this arena. The last time the 
Department provided construction funds for Gallaudet was for 
the Hall Memorial Building, a $15 million renovation project. 
The Department provided only 50 percent of the funds, requiring 
Gallaudet to raise the difference. Gallaudet not only raised 
the private sector match of $7.5 million, but also raised 
private funds to cover the cost of additional design 
modifications that were added after the project began. 
Gallaudet has demonstrated a high commitment to raising private 
funds. The last construction project undertaken by the 
University was the Kellogg Conference Center, which cost $15 
million and was constructed entirely with private funds.
    NTID has the capacity to raise these funds. It has 
demonstrated excellent fundraising ability in recent years, 
raising over $10 million in its first capital campaign and 
matching $2 million toward the Federal Endowment Grant program 
over the past two years. Components of construction projects, 
such as lounges or study halls that can be attributed to 
individual donors or as a family memorial, are very popular 
with potential donors. In addition, the projects proposed by 
NTID include a number of significant upgrades and additions to 
the facilities. Rather than enter into a debate over the 
necessity for particular improvements or have the Department 
micromanage the design of the projects, we decided to approve 
the plan as proposed by the Institute, but to require NTID to 
raise some of the funds to cover such amenities.
    The Department recognizes that each institution has unique 
circumstances and that each project differs, which is why we 
are asking NTID to only raise 15 percent of the cost, rather 
than the 50 percent Gallaudet raised for the Hall Memorial 
building project. NTID does not have as much fundraising 
experience as Gallaudet, and the project does not have as many 
components that would be attractive to donors. This 
individualized approach also accounts for why we are not asking 
Gallaudet to raise matching funds for the Model Secondary 
School for the Deaf (MSSD) project. MSSD and the Kendall 
Demonstration Elementary School are unique in that they are 
essentially public elementary and secondary schools that are 
operated by Gallaudet on behalf of the Federal Government. The 
schools do not charge their students tuition or fees. In 
addition, the operating costs of the schools are 100 percent 
federally funded, and they have no history of fundraising. We 
do not expect public elementary and secondary education 
programs to raise private funds for construction. However, it 
is common practice for public postsecondary education 
institutions to raise private funds for construction projects 
or to supplement public funding for these projects. In 
addition, the MSSD construction project does not involve any 
facility improvements. The project would demolish an unsafe 
building, correct safety hazards, and fund an engineering 
study, whereas the NTID project involves substantial 
improvements and additions to the facility. In addition, as 
with Gallaudet, the Department also did not ask NTID to raise 
any matching funds for the $650,000 requested last year for 
engineering and architectural studies.

    Mr. Porter. All right.
    Dr. Tinsley, in your statement, you indicated that you are 
requesting $20,000 less for educational and technical research 
than you received in fiscal year 1999. Can you tell us why you 
are requesting a decrease in funding for this activity?
    Dr. Tinsley. Yes, sir, I can. We are requesting just 
$500,000 this year, compared to $520,000, for last year. That 
is for the general operations of the educational and technical 
research department.
    We requested an additional $104,000 for special initiatives 
and will have endowment support from the McFerran Trust that we 
are going to be using to support our research activities.
    We plan to work on approximately 70 research projects this 
coming year, and we will use private money to support some of 
that.
    Mr. Porter. I see.
    Dr. Tinsley. We have to use it, because it was endowed for 
that purpose.
    Mr. Porter. Your testimony mentions that the web server 
software you are currently using is not Year 2000-compliant.
    Dr. Tinsley. Yes, sir, that is correct.
    Mr. Porter. What are your plans and time frame for 
achieving Y2K compliance, and will the $100,000 requested for 
the database update be sufficient to achieve that compliance 
this year?
    Dr. Tinsley. Yes, sir. We feel it will, and we would expect 
by November 1999 to have that hardware and software Y2K-
compliant.

                      NTID ENDOWMENT GRANT PROGRAM

    Mr. Porter. All right.
    Dr. Davila, did NTID dedicate any portion of its fiscal 
year 1998 appropriation to endowment, and what proportion or 
what portion of its fiscal year 1999 and fiscal year 2000 
request does NTID intend to dedicate to endowment?
    Dr. Davila. I will ask my associate, Mr. Thompson, to 
respond to that question.
    Mr. Porter. Okay.
    Mr. Thompson. Well, we matched $1,000,000 in 1998 for the 
endowment program. In 1999, the jury is still out as to what we 
can allocate because we have to find it in our operating 
budget. However, we would probably expect to match somewhere 
between $200,000 and $400,000. Then, as the administration has 
said, they have added an additional $250,000 for that purpose 
in the fiscal year 2000 request which we could add to, if 
indeed we have additional funds available for matching.

                      APH EXPERT DATABASE SERVICE

    Mr. Porter. All right, thank you.
    Dr. Tinsley, how many people do you estimate will be served 
through your proposed expansion of the Expert Database Service?
    Dr. Tinsley. When we initiated our Website in 1997, we had 
approximately 2000 hits per month, and we are now getting 
22,000. We know there are 58,000 legally blind children in the 
country today, but with this web site, we are going to have 
international input and international involvement. I am sorry; 
I really do not have a definite answer on the number, but we do 
see a major, major increase in the people served.
    Mr. Porter. Thank you, Dr. Tinsley.
    Mrs. Northup.

                           FORMATTING ISSUES

    Mrs. Northup. Thank you, Mr. Chairman.
    Mr. Chairman, first of all, I would like to ask Tuck 
Tinsley a couple of questions because I am so interested in the 
efforts and the progress that American Printing House is 
making.
    I understand that you all struggle with being able to 
transfer new material because of the copyright laws and because 
of the format, the way they are formatted. Is that correct?
    Dr. Tinsley. Yes, ma'am.
    Mrs. Northup. Can you tell me if there is some way to 
streamline this transfer, what effect that would have on the 
electronic repository?
    Dr. Tinsley. We are going to make, and are committed to 
making, great strides in providing accessible textbooks. With 
computers becoming more and more visual today with graphics and 
the use of the mouse and icons and the point-and-click, 
textbooks have also become more and more visual with the belief 
that the attractiveness of the visual aspect holds the 
attention of students. We have seen teachers take textbooks and 
do almost a flip test. They take three books and ask, ``Which 
one do you want?'' They flip through one, flip through the 
second, flip through the third, and say, ``This one because 
it's more visually attractive.'' That is okay for sighted 
students, but the use of these textbooks is very, very 
difficult for those without vision.
    Just a touch of history: in the 1950s, 90 percent of the 
visually impaired students were in 48 residential schools. So, 
for those students, we could select an eighth-grade math book, 
and every single student would use the same book. Now, today, 
90 percent of those students are in the local schools, as they 
should be, and the site-based decision-making includes textbook 
selections. So, the number of titles needed approaches the 
number published. New technology will help and has helped. The 
copyright amendments, which we support, also will help in 
getting permissions. However, the visual aspect of textbooks 
almost wipes out the advances we get through technology.
    Let me give you an example of the editing required. If 
there are pictures, you have to describe the picture. If there 
are graphs and charts, they may need to be presented in 
different ways. There must be actual editing and changing of 
words. You have to actually read the content to see 
pedagogically what the intent is. The text may ask, ``Which has 
greater volume, the green box or the blue box? In braille, 
there is no green or blue. So you have to change the text. You 
have to read the workbooks especially carefully. It may ask the 
student to draw one line under the subject and two lines under 
the predicate. Well, is the intent to see if a blind child can 
draw one line and then two lines, or is the intent to see 
whether he knows the difference between a subject and a verb?
    So, even with the copyright changes, there still is much 
manual tooling for graphics and editing because textbooks are 
so visually based.
    The Louis database helps coordinate efforts of more than 
200 volunteer organizations providing materials. We also have 
just committed $1 million from our endowment to go after 
anything and everything that is available to help us provide 
textbooks on demand.
    There are 63,000 books a year that come out, including 
trade books. We are talking now with a research scientist from 
Xerox in Toronto who is doing some work with graphics. We are 
also investigating the work of Braillecom in Japan. Our intent 
with the million dollars from our endowment is to hire 
additional editors and set up a process to really push 
textbooks out.
    Our old way of producing textbooks was as we completed 
books, we provided them. The new way is going to be: ``I need 
this for Joe Johnson,'' and we are going to say, ``Okay, we are 
going to get you Chapter 1 tomorrow.'' It may be that we would 
have four people work on the book and funnel it to us through 
our web site, and then we do the translation.
    Mrs. Northup. Do I understand that because of the way 
publishers code books and because they are different by each 
publisher that it is difficult for you to break all these codes 
and there needs to be some sort of----
    Dr. Tinsley. Yes, ma'am?
    Mrs. Northup [continuing]. Coordination?
    Dr. Tinsley. We need some sort of uniform code. We had a 
meeting in Washington last week on that. The National Library 
Services is working with NISO to develop a standard. A book may 
have the table of contents done by a typesetter in one code, 
each picture with a copyright and subtitle in a different code, 
footnotes that are in a different code, and glossaries that are 
different.
    We have had a book that has had as many as 12 typesetters' 
codes in it. So it is very difficult, and the codes are 
proprietary processes that the publishers take pride in. 
However, Texas, California, and some of the other States are 
demanding that when a textbook is presented for the sighted 
population, the publishers must also provide a disk copy of the 
textbook.
    Mrs. Northup. So that you can transfer it?
    Dr. Tinsley. So that we can transfer it, exactly.
    Mrs. Northup. Right, okay.
    Dr. Tinsley. Exactly.
    Mrs. Northup. Do you think that the library is going to be 
able to have some sort of resolution to make this transfer of 
information more available and less human-based, individual-
based, but automatic?
    Dr. Tinsley. We certainly hope so. There is a draft 
amendment that would require the publishers, when they present 
two of their best copies of the books to the Copyright Office 
to also provide a marked-up disk in this not-yet-developed 
standardized format and in a new hypertext XML that the 
publishers seem to like.
    When met last week, Harcourt Brace technicians were there 
and seemed in line for the changes since they are looking at 
Internet access for their books. They are working to get their 
editors to use the codes for the Internet. So it looks like it 
is coming together. It really does.
    Mrs. Northup. I brought this up because, Mr. Chairman, I 
hoped that we would encourage the publishing association. I 
have forgotten the exact name, but to help these negotiations 
so that the formats will be the same and this transfer can 
occur electronically so much easier.
    Ms. Heumann. Could I just add that, in the testimony that 
we gave yesterday for NIDRR in the area of appropriate 
technology, we noted that there is funding in that account 
focused on addressing issues like this. It is not specific to 
persons who are visually impaired, but the kinds of technology 
issues that are coming up here are similar. We need to advance 
technology and bring industry and others together. This is the 
type of issue that we would be looking at.
    Mrs. Northup. I also wanted to ask you about your work in 
literacy.
    Last year, we focused on literacy, and we talked about how 
many steps children who are trying to learn that are vision-
impaired have in going through learning to read well. I think 
you indicated that the Department's request for educational and 
technical research is less than last year in this year's 
budget. Is that correct?
    Dr. Tinsley. It is less for general appropriations, 
$500,000 rather than $520,000, but we are asking for another 
$104,000 for special initiatives.
    Mrs. Northup. Does that include the literacy program for 
older blind students and adults?
    Dr. Tinsley. It is included in the $500,000 for general 
operations, yes, ma'am.
    Mrs. Northup. And that is for technical assistance?
    Dr. Tinsley. It will provide materials that focus on those 
people who have learned to read, yet have not learned to read 
Braille. The important thing is to get age-appropriate 
information that also recognizes their beginning braille skill. 
Those materials are not generally available.
    Mrs. Northup. I had the opportunity recently to visit a 
site where people were retraining. There was one woman who was 
an executive secretary, outstanding executive secretary, but 
she was going blind very quickly. Braille was going to be 
essential. I did not realize how difficult it was then to 
transfer because the materials are not available.
    Dr. Tinsley. That is exactly the problem.
    Mrs. Northup. So I thought I would bring that to the 
attention.
    Thank you, Mr. Chairman.

               recruitment and retention of staff at ntid

    Mr. Porter. Thank you, Mrs. Northup.
    Dr. Davila, the Department's budget justification states 
that the administration does not believe you have difficulty in 
recruiting or retaining staff. What evidence do you have to 
demonstrate that this is a problem for you?
    Dr. Davila. Presently, at NTID, we are discussing the fact 
that the NTID was established 30 years ago and many of the 
staff needed at that time are still here. Over the next few 
years, they will start retiring in large numbers. We are now 
considering how we can develop a plan to replace those who 
leave. We have had a heavy investment over many years in the 
development of individuals who have brought technical knowledge 
to their work, but needed to develop knowledge and expertise in 
teaching deaf students, as well as good sign language skills. I 
believe that we will have a difficult time now. However, we are 
moving in small ways. For example, we have recently established 
a fellowship program with the intention of ``growing our own.'' 
We are hoping for applications from among our brightest 
undergraduate students, and we are encouraging them to accept a 
fellowship where they will come to RIT and study for advanced 
degrees, especially fields and areas important to NTID. 
Hopefully, that will lead to some of them considering teaching 
in the future, or if they do not teach, they will go on to do 
good things in the workplace, but we are concerned about that. 
That is an issue we will be focusing on in the near future.

             ntid's contribution to rit's new oracle system

    Mr. Porter. Thank you.
    I understand that you requested $100,000 for a special 
contribution towards Rochester Institute of Technology's new 
Oracle Financial and Human Resources System. The Department, 
however, did not include this funding in the President's budget 
request.
    Do you believe an additional $100,000 for the Oracle 
Financial and Human Resources System is warranted? Has a 
special contribution like this been made in the past with 
respect to other system upgrades undertaken by RIT?
    Mr. Thompson. What happens is that any upgrade to systems 
or services at RIT end up in what we call overhead, and it 
becomes our responsibility to pick up our fair share of 
enhancements to the university. This is an enhancement that 
will benefit NTID. It is not a significant portion of the total 
cost. The total cost is something on the order of $5,000,000 
that RIT is investing.
    Mr. Porter. So you are going to have to pay this, anyway, 
whether it is in the President's budget or not?
    Mr. Thompson. That is correct.
    [The information follows:]

              Oracle Financial and Human Resources System

    Ms. Heumann: Mr. Chairman, for the record, we would like to 
respond to Mr. Thompson's remarks. The Agreement between the 
Department of Education and the Rochester Institute for 
Technology governing the operation of the National Technical 
Institute for the Deaf specifies that indirect cost rates are 
to be established by RIT governing reimbursement for each of 
the services it provides. These services include recordkeeping 
and financial services and are approved by the Division of Cost 
Allocation of the United States Department of Health and Human 
Services. For example, NTID made payments of approximately 
$16.6 million to RIT for these services and to cover tuition 
charges for NTID students taking courses from RIT. These 
charges are calculated to cover RIT's costs. This mechanism was 
established precisely to ensure that the Federal Government and 
NTID pay for administrative costs such as the new Oracle 
Financial and Human Resources system. It has been used to cover 
NTID's share of RIT's administration and other overhead costs 
since the Institute was founded. No reason has been presented 
as to why the Oracle costs cannot be accommodated through the 
existing mechanism, and we do not believe it would be good 
policy to circumvent the system after all these years. In fact, 
the last Indirect Cost Report submitted by RIT and approved by 
HHS noted that RIT was planning to install a new financial and 
human resources system in the near future. RIT is constantly 
upgrading its facilities and systems. The cost allocation 
system described above was established to address these 
circumstances.

    Mr. Porter. All right.

                            ntid enrollment

    Dr. Davila, one of your performance indicators is to 
maintain enrollment. The Department's budget documents indicate 
that your 1998 baseline was 1,135 undergraduate students. Yet, 
your goal in 2000 and the following years are to maintain an 
enrollment of 1,080 students. Why are you seeking a goal of 
less deaf undergraduate students than the current baseline, and 
is enrolment declining, and why?
    Dr. Davila. Well, actually, those were our earlier goals. 
Through our more recent efforts, we have recruited more 
students than we anticipated. I made that point in my opening 
remarks, and we are pleased with that. So we may be 
readdressing our goals based on the success of our initiatives 
and recruitment efforts.
    Mr. Porter. All right. I am afraid the appointed hour has 
arrived. Madam Secretary and everyone who has testified, let me 
thank all of you for your patience and understanding of our 
scheduling predicament. We thank you for your testimony and for 
your answering our questions, and we will do our best to 
provide resources that we know are very needed and well spent.
    Thank you all very much.
    The subcommittee will stand in recess until 10:00 a.m., 
Tuesday.
    Dr. Davila. Thank you, sir.
    [The following questions were submitted to be answered for 
the record.]
    Offset Folios 560 to 582 Insert here

<SKIP PAGES = 023>

                                          Thursday, March 18, 1999.

                          GALLAUDET UNIVERSITY

                               WITNESSES

I. KING JORDAN, PRESIDENT, GALLAUDET UNIVERSITY
RAMON F. RODRIGUEZ, LIAISON OFFICER, OFFICE OF SPECIAL INSTITUTIONS, 
    OFFICE OF SPECIAL EDUCATION AND REHABILITATIVE SERVICES, U.S. 
    DEPARTMENT OF EDUCATION
CAROL A. CICHOWSKI, DIRECTOR, DIVISION OF SPECIAL EDUCATION, 
    REHABILITATION, AND RESEARCH ANALYSIS, OFFICE OF THE UNDER 
    SECRETARY/BUDGET SERVICE, U.S. DEPARTMENT OF EDUCATION
    Mr. Porter [presiding]. The subcommittee will come to 
order.
    We continue our hearings this morning on Special 
Institutions for the Disabled and are pleased to welcome Dr. 
King Jordan, the president of Gallaudet University. And, Mr. 
Rodriguez, we welcome you as well. And, Carol, nice to see you.
    Dr. Jordan, why don't you proceed with your opening 
statement and then we'll have some questions?

                   Opening Statement--I. King Jordan

    Dr. Jordan. Good morning, Mr. Chairman. Thank you very 
much. I'm very pleased to come before you this morning, once 
again, to testify on behalf of the budget request for Gallaudet 
University for fiscal year 2000.
    Congress has played a vital role in higher education for 
deaf people in the United States through 135 years of 
continuous support for Gallaudet University.
    I need to begin my testimony this morning by telling you 
how pleased I am that, thanks to the amendments to the 
Education of the Deaf Act of 1998, Congress has further 
recognized the critical role that Gallaudet plays in the world 
deaf community by increasing the number of international 
students who can attend the University.
    The fact that Gallaudet can now admit more international 
students was on everyone's mind at the recent World Winter 
Games for the Deaf, the Deaf Olympics, in Davos, Switzerland. I 
am very grateful to the subcommittee and to the Department for 
the scheduling flexibility that allowed me to testify today 
instead of last week, so I was able to go to the winter 
Olympics, represent Gallaudet University there and at the 75th 
anniversary celebration of the CISS, the International 
Committee on Sports for the Deaf. I am happy to report that the 
United States team won more medals than any other country.
    I also understand that, last week, Congresswoman Northup 
complimented the Gallaudet women's basketball team. I would 
like to thank her for the compliment and report to you that I'm 
very proud that the women reached the round of sixteen in the 
NCAA tournament. They lost a very difficult game to Salem State 
University, which has gone on now to the final four and in the 
past has won many national championships. So, we're not ashamed 
we lost, but next year we'll have an even better team.

             Government Performance and Results Act (GPRA)

    Gallaudet has made a lot of progress on working with the 
Department on our GPRA goals. At the same time, we have made 
achieving those goals an integral part of the Gallaudet 
University budgeting process. We've made significant progress 
in achieving all three of our strategic objectives. They focus 
on: student academic and career achievement; setting the 
standard for the best educational practices for deaf and hard 
of hearing people; and establishing a sustainable resource 
base.

                           Student Retention

    We have been making major efforts to increase the 
proportion of deaf undergraduates who complete bachelor's 
degree programs at Gallaudet. Through targeted, intensive 
recruitment efforts, we have increased the percentage of 
entering students with high academic skills. We have also 
initiated an intensive First Year Program and a number of other 
activities aimed especially at first year students, since it's 
during the first year that most students leave the University.
    In order to improve the quality of all Gallaudet programs, 
we are working hard to promote literacy in both English and 
sign communication.
    The University is particularly motivated to increase the 
graduation rate of our students because of the excellent 
prospects that people who graduate from Gallaudet enjoy. Data 
from our alumni show that students have a high success rate in 
obtaining productive employment and in earning advanced 
degrees.

                        Technology Improvements

    Gallaudet is also committed to ensuring that technology 
continues to remove accessibility barriers for deaf and hard of 
hearing people. We have continued to upgrade our technological 
infrastructure and to infuse the most advanced technology into 
all of our programs of instruction and research. Perhaps most 
importantly, we're providing training to faculty, teachers, 
staff, and students so they are ready to utilize these new 
technologies.
    During this year, Gallaudet will commit about $4 million to 
technology, including $2.4 million specifically provided by 
Congress for that purpose. As a result of this investment, the 
University will ensure that our new integrated information 
system is Y2K compatible; will facilitate the transition to our 
new e-mail and Internet service providing system; and will 
further integrate our learning technology and research systems.

                 Pre-College National Mission Programs

    The Pre-College National Mission Programs are playing a 
vital role in serving the extended deaf community by continuing 
to implement three priorities for research, development, and 
dissemination. Those are: literacy; family involvement; and the 
transition to work or higher education. Pre-College is mandated 
to serve the Nation's deaf students and has greatly expanded 
its work with a variety of educational programs throughout the 
United States. We are currently cooperating with more than 40 
different programs in more than 30 States around the country.

                           Endowment Programs

    The EDA amendments of 1998 made significant changes to the 
already highly successful endowment matching grant program that 
was first authorized in 1986 and first funded in 1988. Since 
the beginning of this program, the University has matched more 
than $11 million in appropriated Federal funds and the total 
market value of that fund is now more than $36 million.
    I am also proud to tell you that the total value of the 
complete Gallaudet University endowment is more than $100 
million. In Fiscal Year 2000, I am very confident that the 
University will match an additional $1 million in Federal 
endowment funds.

                          Construction Request

    The University is requesting $2.5 million to renovate 
dormitories at the Model Secondary School for the Deaf (MSSD) 
and to plan for renovations for the main classroom building of 
MSSD. At the end of this year, we will have renovated four of 
the six MSSD dormitories using existing funding. We are 
requesting the assistance of the Federal Government in 
addressing structural and health concerns associated with the 
remaining two buildings.
    The total budget request for Gallaudet University for 
Fiscal Year 2000 is $85,120,000, an increase of $1,640,000 over 
the amount that was appropriated in Fiscal Year 1999. The 
University plans to use these additional funds to offset 
inflationary increases related to operations and to support the 
renovations of the Model Secondary School for the Deaf.
    Thank you for the opportunity to address you this morning. 
I will be very happy to respond to any questions you have.
    [The information follows:]
    Offset Folios 589 to 595 Insert here

<SKIP PAGES = 007>

    Mr. Porter. Thank you, Dr. Jordan. Thank you for your 
excellent statement.
    My first question is do you believe the President's budget 
request provides a sufficient level of resources to enable you 
to achieve your performance goals in Fiscal Year 2000?

                    Fiscal Year 2000 Budget Request

    Dr. Jordan. The short answer is, yes, it will allow us to 
meet our goals and is sufficient to maintain our programs and 
operate the University. The longer answer would be that I do 
have concerns about technology and construction issues. 
Deferred maintenance and construction will be an ongoing issue. 
I was just having a conversation with Ramon Rodriguez about 
technology. It seems there is never enough money to do all the 
things we know we need to do. But the 2 percent increase is 
adequate, yes, sir.
    Mr. Porter. What was your original request to the 
Department for total funding?
    Dr. Jordan. Our request was for a 3 percent increase and 
for the construction money. So, a 2 percent increase is very 
close to our original request, $85,980,000. I believe that was 
our original request.

                           Construction Funds

    Mr. Porter. All right. I guess you have described the 
capital improvements, those are upgrading and structural 
attention to two dormitories? That's all of the capital 
improvements in the budget?
    Dr. Jordan. Actually, the special request for $2.5 million 
is to fix the HVAC and structural issues related to two 
dormitories, plus do a study on the HVAC system in the main 
classroom building. We have come to suspect that the same 
issues that were in the dormitories, which were identified by 
an outside firm as a significant health risk, may be present in 
the classroom building. So, we also intend to commission a 
study of the classroom building with these funds.
    Mr. Porter. All right. If the $2.5 million is put into the 
appropriation for Gallaudet, what would your timetable be for 
completing the work on the dormitories and for conducting the 
study?
    Dr. Jordan. We would do as much as we could with the 
dormitories immediately. We realize that Fiscal Year 2000 
doesn't start until October 1, but the dormitories need to be 
renovated. So we will begin ASAP and be finished before the end 
of Fiscal Year 2000.
    Mr. Porter. All right. The Department's budget 
justification indicates that one of the residence halls needs 
to be demolished because of severe structural damage. Does the 
$2.5 million include demolition and would you propose 
rebuilding this hall? And, if so, what would be the estimated 
cost and time frame for this project?
    Dr. Jordan. First, the $2.5 million does include the cost 
for demolition of that dormitory. Second, we don't have any 
plans currently to replace the building. In the amendments to 
the Education of the Deaf Act in 1992, the priority for Pre-
College Programs was shifted from direct educational services 
to national mission activities. Over the last several years, 
we've been shifting resources from school operations to the 
national mission. Currently, about half, nearly half, of the 
appropriation that is directed to the Pre-College national 
mission Programs is spent on the National Mission Program 
instead of on the schools. We expect that enrollment will 
stabilize at about 225 students at MSSD. With that enrollment, 
we don't need that dormitory.

                           Enrollment Targets

    Mr. Porter. All right. That leads me into my question on 
enrollment. One of your performance indicators is to maintain 
enrollment. The Department's budget documents indicate that 
your 1998 baseline was 1,339 undergraduate students. Yet, your 
goal in 2000 and the following years is to maintain an 
enrollment of 1,250 students. This pattern is repeated in 
nearly all categories of students. Why have you set enrollment 
goals that are less than current baselines?
    Dr. Jordan. Enrollment, obviously, is one of the most 
important priorities at the University, both in the Pre-College 
National Mission Programs and for the university-level program. 
The graduate enrollment experienced a little dip last year, 
primarily because of some issues related to extension graduate 
students at the regional centers. We're very confident that we 
will achieve the target enrollment of 700 for the graduate 
students next year and in subsequent years.
    We had a very, very successful recruitment year with 
undergraduate enrollment. So, we estimate that the 2000 
enrollment figure for the university programs is a very good 
number, and I'll be very satisfied if we can continue to 
achieve that.
    One of my comments during my opening remarks was that we 
have a very successful targeted recruitment program that is 
bringing in better and brighter students. We have more students 
without developmental English conditions than we have ever had 
at Gallaudet. We have more strong students than we have ever 
had. So, we feel good about university enrollment.
    Pre-college enrollment was a little bit under our targets. 
However, we're also confident that next year we can enroll 140 
Kendall students and 225 Model Secondary School for the Deaf 
students.

                        Endowment Grant Program

    Mr. Porter. All right. I was pleased to hear that the value 
of your endowment is over $100 million and that you anticipate 
matching the $1 million in Federal funds in Fiscal Years 1999 
and 2000. Your testimony also mentions some changes that the 
Education for the Deaf Act amendments made which may result in 
Gallaudet matching endowment funds later in the fiscal year. 
What impact, if any, do you believe this will have on your 
ability to match funds and on the value of the endowment?
    Dr. Jordan. The change you're referring to, I believe, is 
one where we used to be required, when matching beyond $1 
million, to provide $2 of university money for every $1 of 
Federal match money. That condition was eliminated in the 
recent amendments to the Education of the Deaf Act. Now, any 
money we raise more than $1 million would be matched on a 1 to 
1 basis. I checked and, as of this morning, we're $9,000 short 
of matching the $1 million in 1999. In less than six months, 
we've raised basically $1 million. I'm confident that we'll 
raise more. In the remaining six months, if we can match $2 
million, it would be a wonderful thing for the University.

                         technological upgrades

    Mr. Porter. All right. In your latest report on the 
University's achievements, you outlined a number of 
technological upgrades you've recently undertaken with funds we 
have provided. Can you give us a little more detail for these 
initiatives and talk about the benefits that your students are 
receiving as a result of these upgrades?
    Dr. Jordan. I'm happy that you asked the last part of the 
question about the benefits that the students will receive 
because everything we do related to the information technology 
upgrades begins with the word ``students.'' Some of the most 
important issues relate to the Internet. I'm very proud to 
report to you, for example, that Gallaudet University is a 
member of I-2, that's Internet-2, the new super university 
Internet. The last time I checked, there were about 130 
members. Gallaudet is the only small liberal arts university 
that's a member. The other members are all large research-1 
universities. But the I-2 community recognizes that Gallaudet 
has something very special to offer, and that the visual 
communication and visual learning experience that we have can 
help other colleges and universities as they address that in 
the future.
    We're making a transition that is almost complete from an 
all text-based e-mail system to a new graphics-based e-mail 
system. That is something that virtually all of the students 
use. When they first arrive at Gallaudet, they're assigned a 
password and a user name, and they begin to access that e-mail 
system. E-mail is not just for sending messages to each other, 
but it's also used for classes and for instruction. We have 
many of our classes that are web-based, and the new e-mail 
system permits access directly into a web-based system.
    We have a university-wide, integrated information 
management system that used to be separate databases, but are 
now one integrated database. I maybe should correct my tense: 
will be one integrated database. We're moving slowly. We've 
moved payroll. We've moved Human Resources. We've moved the 
whole financial management system. We're in the process of 
moving the enrollment information to that new integrated 
information system.
    One of the most important things we've completed is the 
first phase of the infrastructure upgrade. All of what I've 
just described wouldn't be possible without a very 
sophisticated fiber optic system that connects all of the 
buildings, all of the classrooms, and all of the dormitory 
rooms at the University. We had fiber optics before, but it was 
narrow. We've since replaced it with a wide band width fiber 
optic capability that will enable us to do broadcast TV quality 
communication. And that's very important for instruction that 
happens in sign language.

                        performance by graduates

    Mr. Porter. Dr. Jordan, obviously, one of the missions of 
the University is to enhance the opportunities that the deaf 
have to obtain employment, meaningful employment. First, I 
wonder how far along do you track your graduates to see what 
their employment has become? And I also wonder whether you can 
tell me, or have any idea, how many are in research type jobs?
    Dr. Jordan. The first part of the question is very easy for 
me to answer. The University does a survey every year, about 
one year after graduation, of the last year's graduates. We 
also do surveys that survey all graduates of Gallaudet 
periodically. We tie these surveys to the accreditation review 
cycle. Universities are reviewed for accreditation every 10 
years, plus there's what they call a mid-term review every five 
years. So right now, we're ready to send out an instrument that 
will survey the graduates, all graduates, of the University.
    The most recent one-year survey showed that virtually all 
of our students are either at work or in graduate school. I've 
reported to the subcommittee before that more than half of our 
graduates earn advanced degrees, that the employment they 
obtain is professional, executive, or managerial, and that the 
incomes they receive are basically the same as incomes that 
other university graduates receive. We're very, very happy with 
that.
    Specifically, related to research jobs, I can't answer but 
would be happy to get that information for the record for you.

                          student internships

    Mr. Porter. I realize that Gallaudet itself, undergraduate, 
is a liberal arts college. But I also think that there are a 
lot of opportunities for young people to perhaps be interns. We 
have within the region some very prominent research 
institutions like NIH and NSF. Do you have arrangements with 
those institutions for internships where you get people 
interested in research positions in the future?
    Dr. Jordan. Yes, sir, we have had students interning with 
NIH, with NSF, with Duke University, with the University of 
Michigan, and with the Lawrence Livermore Labs in California. 
Nearly every junior and senior participates in some kind of an 
internship experience. So we believe we're very, very 
successful with that kind of thing.

               government performance results act (gpra)

    Mr. Porter. That is wonderful to hear. I think the 
opportunities are great there.
    What role did you play in developing the performance 
indicators the Department has included for your programs? And 
do you believe that the indicators the Department is tracking 
are the right ones?
    Dr. Jordan. We've had a very good working relationship with 
the Department. We began a strategic planning effort just 
before the GPRA indicators and goals were required that 
dovetailed very well with GPRA. So it has been fairly 
straightforward and easy for us. We submitted to the Department 
our draft goals. They gave back to us their suggested 
revisions. I think we've had a very good working relationship 
with them. And, yes, I think that the goals are good and will 
help us improve what we do.

                       percent of federal support

    Mr. Porter. Last year, we discussed the percentage of 
Gallaudet University's total revenues that are represented by 
Federal contributions. What is the percentage currently?
    Dr. Jordan. The word total revenues means revenues in 
addition to the appropriations. The Federal budget 
justification talks about monies like Vocational Rehabilitation 
support for students, competitive grant money, Pell grants, and 
student guaranteed loans. If you add up all of those things, 
then it's substantially more than just the appropriation. I can 
provide the exact numbers for the record. However, when I read 
the justification, I want to be sure that I have the 
opportunity to say that it's important to recognize that things 
like VR support, while Federal money and Federal support, is 
portable money. The students who receive those funds could 
spend it at any college or university they choose to spend it 
at. The grants that we receive from the Department, from NIH, 
or NSF are competitive grants. And I'm proud that we receive 
them. I don't want the record to suggest that there's too much 
Federal support.
    Mr. Porter. I don't want this question to become larger 
than it was intended. Really, what I'm asking is the 
appropriated funds as to the total budget of the University?
    Dr. Jordan. Okay. Appropriated funds, then that's much 
easier----
    Mr. Porter. Much easier.
    Dr. Jordan. The appropriated funds represent about 69 
percent of the total University budget.

                            graduation rates

    Mr. Porter. Okay. One of your performance indicators is 
that undergraduate graduation rates will increase to 42 percent 
with a current baseline graduation rate of 41 percent. How does 
this graduation rate compare to that of other specialized 
institutions?
    Dr. Jordan. I can say how it compares to other open 
admission colleges and universities, and it's almost exactly 
the same. If you looked at universities around the United 
States in general, about 50 percent of their students graduate. 
Having said that, I'm not satisfied. I'm not at all happy with 
a 40 percent graduation rate and that's why we've developed the 
programs that we have that will help improve retention of 
students.
    Mr. Porter. Is this a four year or six year graduation 
rate?
    Dr. Jordan. Forty percent is the graduation rate for our 
four-year bachelor's program.
    Mr. Porter. Four year graduation rate. Have you done it on 
a six year basis?
    Dr. Jordan. Yes.
    Mr. Porter. What would the difference be?
    Dr. Jordan. We've just started to track cohorts of 
students. What we did before was more of a snapshot kind of 
review. Now, we just have our first data from a period of seven 
years that shows 39 percent of the students have graduated and 
8 percent are still enrolled. So that means that the graduation 
rate of the cohort beyond that period of time may go as high as 
47 percent eventually.
    Mr. Porter. We know that many of your students face great 
challenges in obtaining their degrees. Can you explain some of 
the primary reasons that your students fail to graduate and are 
those different than other institutions?
    Dr. Jordan. Yes, sir, I think the primary reason is English 
literacy. The highest attrition rate for Gallaudet students is 
during the freshmen year, and the number one reason for 
attrition during the freshmen year and the sophomore year is 
lack of literacy in the English language. I could speak at 
length about the difficulties and challenges that deaf 
individuals face in acquiring English. That's clearly the 
number one issue.
    Mr. Porter. Dr. Jordan, you have answered all of my 
questions. You're doing a wonderful job at Gallaudet. You also 
make an excellent witness and answered the questions in an 
efficient way, so efficiently that I've run out of questions 
before I've run out of time. We appreciate the fine job that 
you're doing there and, obviously, we want to provide as much 
as we can in the way of our share of resources to ensure your 
success.
    Thank you for coming to appear today.
    Dr. Jordan. Thank you, Mr. Chairman. I'm very happy to be 
able to give you a small gift of time, thank you.
    Mr. Porter. Thank you. The subcommittee will stand in 
recess until 2:00 p.m.
                                         Wednesday, March 10, 1999.

 SPECIAL EDUCATION AND REHABILITATION SERVICES AND DISABILITY RESEARCH

                               WITNESSES

JUDITH E. HEUMANN, ASSISTANT SECRETARY FOR SPECIAL EDUCATION AND 
    REHABILITATIVE SERVICES
THOMAS F. HEHIR, DIRECTOR, OFFICE OF SPECIAL EDUCATION PROGRAMS
KATHERINE D. SEELMAN, DIRECTOR, NATIONAL INSTITUTE ON DISABILITY AND 
    REHABILITATION RESEARCH
FREDRIC K. SCHROEDER, COMMISSIONER, REHABILITATION SERVICES 
    ADMINISTRATION
THOMAS P. SKELLY, DIRECTOR, BUDGET SERVICE
CAROL A. CICHOWSKI, DIRECTOR, DIVISION OF SPECIAL EDUCATION, 
    REHABILITATION AND RESEARCH ANALYSIS, BUDGET SERVICE

                       Introduction of Witnesses

    Mr. Porter. Now we are pleased to welcome Assistant 
Secretary Judith Heumann, the Office of Special Education and 
Rehabilitative Services. Ms. Heumann, it is nice to see you. 
You have a big team with you. Why don't you introduce them and 
then proceed with your statement.
    Ms. Heumann. To my far left is Commissioner Fred Schroeder, 
head of the Rehabilitation Services Administration; Dr. Kate 
Seelman, who is the Director of National Institute on 
Disability and Rehabilitation Research; and Dr. Tom Hehir, who 
is the Director of the Office of Special Education Programs; 
and I think you know Carol Cichowski from the Budget Service, 
and certainly you know Tom Skelly.

                           Opening Statement

    It is very nice to be here again, and I appreciate the 
opportunity to meet with you to discuss the fiscal year 2000 
budget request for the Office of Special Education and 
Rehabilitative Services. Mr. Chairman, as expressed during 
previous appearances before the subcommittee, my vision for the 
Office of Special Education and Rehabilitative Services is that 
all people with disabilities obtain the knowledge and skills 
necessary to achieve their self-determined goals for 
independent living, employment, and integration within our 
communities. Our vision has not changed, but has been 
strengthened. The fiscal year 2000 budget request is a 
coordinated, targeted approach toward accomplishing this 
vision.
    The OSERS budget request for fiscal year 2000 represents an 
$8.2 billion commitment by the Federal Government to partner 
with State and local public and private organizations to help 
students and adults with disabilities achieve high levels of 
education and employment. Our request targets resources in key 
areas such as early childhood, helping parents, fostering 
independent living, and increasing access to technology for 
adults with disabilities.
    We believe that it is extremely important for children to 
obtain solid learning skills during the early years if they are 
to attain future success in school. However, it is often harder 
for children with disabilities to acquire and maintain these 
skills. Problems encountered during preschool and early 
childhood school years serve as a harbinger of more serious 
problems that may occur in the future. The Department has 
placed a priority on programs that provide assistance to 
children during early childhood. We believe that addressing 
these problems early on will help ensure the academic success 
of these children and reduce the number and severity of 
problems encountered later on.
    People with disabilities, and their families, should have 
access to all available tools that will help them meet their 
goals in the areas of education, employment, and independent 
living. Our request targets increases to programs that provide 
individuals with these tools.
    Our request also recognizes that individuals with 
disabilities benefit from other Federal strategies and 
initiatives to improve the larger service systems. For example, 
the reauthorization of the Individuals with Disabilities 
Education Act (IDEA) in 1997 emphasized that children with 
disabilities should have access to the general curriculum. 
Today, approximately 75 percent of children with disabilities 
spend at least 40 percent of their day alongside their non-
disabled peers in regular classrooms. Students with 
disabilities will benefit from increases in the President's 
budget for Class Size Reduction, Title I of the Elementary and 
Secondary Education Act (ESEA), and 21st Century Community 
Learning Centers.
    Similarly, the Workforce Investment Act of 1998 established 
a coordinated employment and training system to increase the 
employment and earnings of workforce program participants 
through statewide and local partnerships. The Vocational 
Rehabilitation State Grants program and the Client Assistance 
program are required partners in the operation of this system. 
We are working with our Federal partners to ensure that the 
one-stop system enhances access to employment and training 
services for all individuals with disabilities.

                    special education budget request

    I would like to describe our budget more specifically. 
Under the area of Special Education, the Administration's 
fiscal year 2000 request for Special Education is $5.4 billion, 
an increase of $116 million over the fiscal year 1999 level. 
The request would maintain funding at roughly the 1999 level 
for the Grants to States program, which has grown by almost $2 
billion, over 85 percent, since 1996. The Grants to States 
request is $4.3 billion and represents a Federal contribution 
of about 10 percent of the excess costs of educating children 
with disabilities. These funds play an important role in 
meeting the needs of the projected 6.25 million children with 
disabilities in this country who will be served in fiscal year 
2000.
    We are requesting targeted increases for Special Education 
programs serving young children with disabilities. In an effort 
to focus on early intervention for children who are most in 
need of help, we are requesting $50 million for the new Primary 
Education Intervention program. This is a new initiative to 
help school districts meet the needs of children with 
developmental delays aged five through nine who have marked 
problems learning to read or who have behavioral problems. This 
initiative will help schools develop and implement research-
based strategies to identify and address reading problems in 
the early grades in order to reach children sooner and give 
them the extra help that they need to become good readers.
    We are also proposing targeted increases of 7.6 percent and 
5.4 percent, respectively, for Preschool Grants and Grants for 
Infants and Families. The Preschool Grants program request 
provides an increase of over $28 million to help State and 
local educational agencies identify and serve children with 
disabilities early in life when interventions can be most 
effective. This request would increase the Federal share per 
child by approximately 6 percent, while serving an estimated 
10,500 additional children.
    The budget request includes a $20 million increase for the 
Grants for Infants and Families program that will help States 
expand child-find activities, increase the focus on providing 
services in natural environments, and improve transition 
services for children with disabilities and their families. The 
increase in funding will help States to provide interventions 
critical to increasing cognitive functioning during early 
childhood.
    Two other key investments reflected in this budget are 
increases for the State Improvement grant program and the 
Parent Information Centers. The Administration requests that 
funds for State Improvement grants be increased to $45.2 
million, or a 28.4 percent increase over the fiscal year 1999 
appropriation. The need for professional development is 
particularly acute as States, school districts, and schools 
provide for participation of students with disabilities in 
curricula aligned with State standards and the placement of 
more students in regular education classrooms. The State 
Improvement grants provide flexible support to State agencies 
so that they may carry out their plans for initiating and 
directing reform.
    Another important area, as I am sure you know, is Parent 
Information Centers. This budget requests that funds for this 
program be increased to $22.5 million, or a 21.6 percent 
increase over the 1999 level. These centers promote grass-roots 
efforts among parents so they can help one another improve 
educational experiences and outcomes for their children with 
disabilities.

     rehabilitation services and disability research budget request

    Under the rehabilitation services and disability research 
account area, the $2.7 billion requested for the Rehabilitation 
Services and Disability Research account is an increase of 
$64.5 million over the 1999 level. This will increase 
employment for individuals with disabilities as well as 
maximize their opportunities for integration and independent 
living.
    For the Vocational Rehabilitation State Grants program, the 
Administration is requesting $2.3 billion to help State 
vocational rehabilitation (VR) agencies reduce the high 
unemployment rate of people with disabilities. The increase of 
$34.6 million, or 1.5 percent, is the amount needed to meet the 
statutory requirement to increase funding by the percentage 
change in the Consumer Price Index. In addition, a $2 million 
increase is requested for the training program to assist States 
in carrying out their Comprehensive Systems of Personnel 
Development and in raising the academic credentials of State VR 
agency personnel.
    The Administration requests $85 million for the independent 
living programs, $5 million more than the 1999 level. The 
request would provide $50.9 million, a 10.4 percent increase, 
for the Centers for Independent Living program. This increase 
would help expand independent living activities such as skills 
training, peer counseling, and individual and systems advocacy. 
For the Services for Older Individuals Who are Blind program, a 
2 percent increase is requested to help address the rising 
costs associated with serving this population.
    In the area of technology and research, the Administration 
is requesting $91 million for the National Institute on 
Disability and Rehabilitation Research, a 12.3 percent 
increase, or $10 million, over the 1999 appropriation. These 
funds would continue support for important research through 
NIDRR's research centers, research projects, and other existing 
research, training, dissemination, and utilization programs. 
Three new initiatives would be launched with these funds, 
including a project to enhance technology transfer, consortia 
to work with information technology industries, and a 
demonstration center that would allow persons with 
disabilities, researchers, and industry representatives to 
learn about cutting-edge technology and information 
innovations.
    The request for Assistive Technology includes a 50 percent, 
or $15 million, increase over the 1999 level. These funds will 
be used for grants to States to establish and maintain 
assistive technology alternative loan programs. Loan programs 
offer individuals with disabilities the ability to borrow funds 
for the purchase of needed assistive technology devices and 
services.
    Mr. Chairman and members of the committee, the 
Administration's fiscal year 2000 budget request for the Office 
of Special Education and Rehabilitative Services will further 
the Department's mission for increasing excellence and access 
for all citizens and leverage the change necessary for reaching 
our goals.
    I look forward to answering your questions.
    [The information follows:]
    Offset Folios 618 to 622 Insert here

<SKIP PAGES = 005>

                            health services

    Mr. Porter. Thank you, Ms. Heumann. The Supreme Court ruled 
just last week that school districts must provide all-day 
nursing services to disabled students, determining that such 
costs fall under the Individuals With Disabilities Act's 
definition of related services rather than medical treatment. 
As we have discussed many times, special education is one of 
the largest expenses facing local school districts. One 
organization has estimated that the new Supreme Court decision 
will cost school districts an additional $500 million 
nationwide.
    What impact do you believe the Supreme Court decision will 
have on local school budgets? And would you explain to the 
subcommittee why the Administration has chosen to level fund 
the State grant program under IDEA again this year.
    Ms. Heumann. As far as the Garrett case is concerned, we 
believe that the Court's decision last week basically 
reaffirmed the statutory requirements that the Department has 
been living under since 1975. It was really the second time the 
Court reaffirmed this position, because there was a similar 
case, not exactly the same, but a similar case in 1984.
    Yesterday, I talked personally to the State Director of 
Special Education in California, who said that she believes 
this is going to have very little, if any, effect in the State. 
I think the potential problem is in school districts that were 
not enforcing this particular provision appropriately. So, 
there could be an issue for these school districts. However, I 
would also like to point out that children like Garrett 
represent a very small number of children in the United States. 
The Office of Technology Assessment estimated that there are 
between 600 and 2,000 individuals between zero and 21 who are 
respirator users, which is in fact what Garrett was.
    It is also important to let you know that some States' 
costs differ. In a State like Iowa, they require that a nurse 
be the provider of services. You have States like California, 
where they do not require that a nurse be a provider of the 
service, but rather that a nurse be a supervisor. The nurses 
ensure appropriate training of the individual providing the 
service and monitor the services as they are being provided by 
a non-nurse. So, I think that even in those States where there 
may be some additional costs, those costs will vary based on 
State decisions.
    In addition, we have been focusing on a change in the 
statute. It is not really a change as much as a strengthening 
in the statute in 1997 which focused on the issue of 
coordinated services. One thing that we have been very aware of 
is that there are other programs that have responsibility to 
provide eligible children with services in school and that has 
not always been happening, for many reasons. We strengthened 
the language in the 1997 Individuals with Disabilities 
Education Act reauthorization to have governors play a larger 
role in ensuring that coordination was occurring. We also gave 
the States and local authorities the ability to use some of 
their IDEA money to help ensure that they could do a better job 
with coordinated services. States are allowed to use up to 1 
percent of their funds, and locals are allowed to use 
approximately 5 percent of the money that they get under IDEA 
in order to help develop effective coordinated service plans.
    My office also met last week with Health Care Financing 
Administration (HCFA) staff on the Medicaid issue because we 
estimate that approximately 50 percent of students who are 
receiving services under the IDEA are Medicaid eligible. For 
those students who are eligible, there are services that 
Medicaid should, in some cases, be paying for. We want to make 
sure that the State and local school districts understand what 
the Medicaid requirements are so that they are not 
inappropriately billing for services, but are appropriately 
working with Medicaid. My office is going to send out a joint 
letter with HCFA over the next couple of weeks to State and 
local communities in order to give them a better understanding 
of the requirements and also to let them know about technical 
assistance which is available to them.

                    special education budget request

    As it pertains to the second part of your question on why 
the Administration's request under Part B is level funded, I 
think there are a number of reasons for that which we feel are 
appropriate. First of all, there has been a significant 
increase in IDEA Part B funding, approximately 85 percent over 
the last three years. Our focused increase of $116 million, as 
I've said in my testimony, is targeted on issues in the area of 
early intervention and parental involvement. We believe that 
the $50 million that we have requested for the Primary 
Education Intervention program, focusing on best practices and 
projects of national significance in the areas of reading and 
behavior, will go very far to help provide effective services 
in the classroom and technical assistance to deal with two of 
the most critical issues. We believe, in many cases, when kids 
are not appropriately served early on, we are either increasing 
the number of children in special education or increasing the 
degree of services that these children need later on because 
they haven't had appropriate services. We are adding $20 
million, as you know, into the Infant and Families program, and 
$28 million into the Preschool program to address this issue. 
We also will be maintaining the 10 percent of excess cost for 
the Grants to States program.
    We believe that a number of the other programs that the 
Administration is supporting, such as Class Size Reduction and 
School Construction and the 21st Century Schools, do, in fact, 
very directly benefit disabled children. We believe that, if 
you look at the budget in total, that disabled children will be 
benefitting in a way that we think, given the caps that we 
have, meets an appropriate obligation.
    Mr. Porter. Ms. Heumann, this doesn't justify to you but it 
is fascinating to us that the President's budget invariably low 
funds programs that are a high priority with Congress, almost 
every time, and this is of course another example of that.

                         disability categories

    It seems to me that you are reading the case very, very 
narrowly if you say the only concern is with students having 
exactly this type of disability. It is probable that any other 
student that requires these types of services from a different 
disability would also easily win in the Supreme Court given 
this decision. And the impact, it seems to me, therefore might 
be a great deal broader.
    Do we keep data on the types of disabilities that students 
have who are enrolled in special education?
    Ms. Heumann. There are 12 categories that are articulated.
    Mr. Porter. Can you provide that for the record by number 
and percentage? That would be helpful to us.
    Ms. Heumann. Yes, we can.
    [The information follows:]

                         Disability Categories

    The Department collects data on the number of children 
served under the Individuals with Disabilities Education Act 
for 12 categories of disability. Following is a table showing 
the 12 categories, the number of children in each, and 
percentage each comprises of the total. The Department does not 
collect information by disability category for children aged 
birth through 5. The figures shown below are for children aged 
6 through 21 served under the Grants to States program. The 
breakout is for school year 1996-97, the most recent year for 
which data are available.

------------------------------------------------------------------------
                                                Number of
                  Disability                     children    Percentage
------------------------------------------------------------------------
Specific Learning Disabilities...............    2,676,299          51.1
Speech or Language Impairments...............    1,050,975          20.1
Mental Retardation...........................      594,025          11.3
Emotional Disturbance........................      447,426           8.5
Multiple Disabilities........................       99,638           1.9
Hearing Impairments..........................       68,766           1.3
Orthopedic Impairments.......................       66,400           1.3
Other Health Impairments.....................      160,824           3.1
Visual Impairments...........................       25,834           0.5
Autism.......................................       34,101           0.7
Deaf-Blindness...............................        1,286           0.0
Traumatic Brain Injury.......................       10,378           0.2
                                              --------------------------
      Total..................................    5,235,952         100
------------------------------------------------------------------------

    Mr. Porter. Mr. Jackson.
    Mr. Jackson. Mr. Chairman, I have no questions at the 
moment.
    Mr. Porter. Ms. Pelosi.
    Ms. Pelosi. Thank you very much, Mr. Chairman. It is with 
great pride, Mr. Chairman, that I join you in welcoming Judith 
Heumann to the committee. She is the source of great pride to 
California. And while we miss her there, we are very pleased 
with her service here in Washington, D.C.
    Thank you for your fine statement and for your excellent 
leadership, Judith.
    Ms. Heumann. Thank you.
    Ms. Pelosi. My daughter is a special education teacher in 
Texas, and my son-in-law married to a different daughter is a 
special education teacher in Arizona. So when we have our 
family reunions we talk about this topic and we are impressed 
by the patience and the love of teachers and families and all 
that our children bring to this, as well as the very technical 
knowledge that teachers have and how they are impacted by 
public policy. They certainly would be pleased to hear our 
Chairman say that special education is a priority of the 
Congress. That may be why the President has level funding, 
knowing that we will do more.
    Mr. Porter. Yes. That's the problem.

                        early childhood programs

    Ms. Pelosi. Secretary Heumann, I understand that Grants for 
Infants and Families is the only Federal program targeted 
solely to children with disabilities younger than three years 
old. My question is could you make a distinction between what 
the funds are used for in that program for infants and children 
and the preschool initiative? I know both of them have a 
component of identification in it, but where do we go from 
there?
    Ms. Heumann. Well, if you look at the early childhood 
program, the birth to three program, this is a very critical 
program because it is identifying children who have clearly 
defined disabilities. In addition, some States are also 
identifying children who are at risk of disability. It is 
allowing families early on to get a better understanding of the 
nature of the child's disability and to get a better 
understanding of the kinds of services that the child might 
need in order to make appropriate progress during that period 
of time. We define the money sometimes as ``glue'' money, money 
which is there to help ensure coordination of a whole variety 
of services which might vary within a State. You might have a 
child with Down Syndrome, you might have a child who is deaf, 
you might have a child who has a cognitive disability, and they 
may very well be using different types of services. You also 
might have a child who is low birth weight and who again might 
be using different services.
    What we see the early childhood dollars as doing is, as 
families develop an individualized family service plan (IFSP), 
that plan begins to help articulate what the needs of the child 
are and how to best serve those needs. I think it really allows 
the parent to get connected into a system which is supposed to 
be supportive and help that child develop. We encourage States 
to provide these services in what we call a natural 
environment, so some of the services may be in the home, some 
of the services may be outside of the home.
    When you transition from three into the preschool program, 
then the services mix changes again. Some kids continue to use 
their IFSP, some get an individualized educational program 
(IEP). In addition, the services that the child is getting are 
also going to be moving more into academic areas.
    Ms. Pelosi. So it is for older children as well as 
different services?
    Ms. Heumann. Right. If you kind of think of it naturally, 
the kinds of services that a child would get from birth to 
three would be different than the kinds of services even a non-
disabled child would be getting from age three to five. So if 
you think about Head Start, for example, a disabled child in 
the three to five age group may very well be going to a Head 
Start program. That would be identified in their IEP. You would 
be looking at trying to provide appropriate services and 
accommodations for that child so he or she could be successful 
in the Head Start program. You would also be looking, again, at 
services like physical therapy or speech therapy or 
occupational therapy, if the child would need it.
    As the child is getting older, we know, for example, with 
children who have behavioral problems, that when they are four 
and five years old, this is a critical time when you can start 
identifying more of these children's needs, begin to provide 
more aggressive interventions for the child, and work with the 
family in a more aggressive way to help the family understand 
what appropriate roles they should be playing at home and in 
school. Likewise, in the reading area, where we have large 
numbers of kids who wind up with learning disabilities (about 
50 percent of our population are children with learning 
disabilities), being able to look at developmental delays that 
these kids might be encountering before the age of five is also 
very critical.
    We just recently had a conference last week where we had 
many of the researchers, parents, and coordinators of what we 
call the State Interagency Coordinating Councils. These 
programs are really bringing a whole new area of hope to kids 
and families. They are helping families to have a much better 
understanding of the fact that disability is a natural part of 
life. What is important is to really have a better 
understanding of what the needs of those children are, to help 
provide appropriate early interventions and to link children up 
to other programs such as the Children's Health Insurance 
Program (CHIP). Linking children with disabilities up who would 
be eligible for Medicaid and other services early on helps to 
ensure that their disability doesn't progress unnecessarily.

                       parent information centers

    Ms. Pelosi. Could you say more about the Parent Information 
Centers, how effective you think they are and how many parents 
do they serve?
    Ms. Heumann. The Parent Information Centers, like the 
Independent Living Centers, are two very critical programs that 
we operate out of OSERS. The parent training programs exist in 
every State. They have the responsibility to reach out to all 
families. However, given the number of dollars they currently 
have, $18 million, it is clear that they can't do that job as 
effectively as they should. What they really are doing with the 
new focus that we have in the IDEA around teaching, learning, 
and results, and the child participating in the curricula, I 
think is helping parents meet other parents who have children 
with similar disabilities. I think the mentoring aspect is very 
important here.
    The Parent Information Centers are also helping parents who 
might stay more distant from what is going on in school to 
understand that it is really important for them to understand 
the changes that are going on in curricula, what are some of 
the issues going on in the State where State assessments are 
now required, what kinds of accommodations their child might 
need, and to help them be more articulate around that and get 
them more involved in the process.
    I have visited numbers of the parent training programs 
around the United States. They represent a diversified group of 
parents, which I think has been critically helpful. We have 
seen a significant change in the years since we have been here. 
The centers are serving a population more reflective of the 
diversity in this country, which we think will help assist with 
issues like drop-out rates. Our drop-out rates are still too 
high, and it helps to have parents be partners in education, 
which I think everyone in Congress agrees needs to happen more. 
The additional $4 million would go towards the establishment of 
some new centers and also help to increase the dollars of some 
of the centers that are very under-funded.
    Ms. Pelosi. I thank you for that.
    Mr. Chairman, I know my time has expired, but in closing, I 
just wanted to again thank Secretary Heumann for her leadership 
and her hard work on this subject. Because of her work, many, 
many, many children and then adults will not be judged for what 
they cannot do, but respected for what they do. I thank you, 
Secretary Heumann, for being such a strong leader in this area.
    Thank you, Mr. Chairman.
    Mr. Porter. Thank you, Ms. Pelosi.
    Mr. Dickey.

          school construction versus special education funding

    Mr. Dickey. Thank you, Mr. Chairman. I have one question 
and then I am going to have to leave.
    But I want to welcome you, Secretary Heumann, to the 
committee. Priorities are what we deal with all the time. I 
would like to ask you if you had to choose between school 
construction and funding this program, which would you choose?
    Ms. Heumann. Actually, I have to give you a personal story. 
When I had polio, a long time ago in 1949, I wasn't able to go 
to my neighborhood school, which was in walking distance to my 
house, where my mother had fully intended to take me without 
any additional expenditure to the Government, because the 
school was not accessible. So, instead of my being able to go 
to the neighborhood school, the city of New York had to spend 
significant amounts of money to transport me every day to and 
from school.
    Quite frankly, I think that the issue of school 
construction is critically important because we would be able 
to make schools accessible, which would allow a reasonable 
percentage of our kids to more appropriately go to their 
neighborhood schools. I felt in the end that it was really a 
problem for me not to go to school with the kids in my 
neighborhood. It caused all kinds of other adjustment problems 
later on because I never did get to go to any of my 
neighborhood schools, including high school, because they were 
not accessible.
    We see that one of the largest expenditures in special 
education is in the area of transportation. So, there would be 
a shift of dollars by making schools accessible that then could 
actually be utilized for in-class instruction, funding of 
special education teachers and related service personnel. I 
feel that the budget that we have submitted, articulating the 
importance of school construction, is something that I 
personally believe in very strongly.
    Mr. Dickey. What do you think the teachers, who are the 
central players in this whole scene, what do you think the 
teachers would say, more money for special education or more 
money for school construction?
    Ms. Heumann. When I talk to teachers, and I do all the time 
because I visit them all over the United States, what I think 
teachers want, which is also a direction we went in our budget, 
is more technical assistance and better training at the 
university level. What teachers are telling me when they are 
leaving the university is that they are not necessarily getting 
the training that they need in the universities to deal with 
the diverse classrooms of today. If you notice the way our 
budget is focused, we are placing larger amounts of money in 
discretionary areas such as the reading and behavioral area. I 
have heard from teachers and from parents, and we know from the 
data that we are collecting, that these are two of the most 
critical areas of need both for the children and for the 
teachers.
    Mr. Dickey. Thank you.
    Mr. Porter. Thank you, Mr. Dickey.
    Mr. Jackson.
    Mr. Jackson. Secretary Heumann, I just have one question. 
If we didn't have caps and you didn't have to choose between 
the two programs, would you fund them both?
    Ms. Heumann. The Secretary testified yesterday that, if the 
caps were increased, we would have a very significant area of 
focus on increasing the basic formula grant for IDEA.
    Mr. Jackson. Thank you very much, Mr. Chairman.
    Mr. Porter. Thank you, Mr. Jackson.
    I might say that although the original focus was on this 
subcommittee for school construction, the entire issue is in 
Ways and Means because what the President is suggesting is 
basically a subsidy for interest costs so that local school 
districts can build additional schools. So the question Mr. 
Dickey asked really doesn't come before us at least in this 
budget. I thought your answer was a very good one, I might add, 
since, as you probably know, my father also had polio.
    Ms. Heumann. Oh, I didn't know that.
    Mr. Porter. You didn't know that?
    Ms. Heumann. No.
    Mr. Porter. Yes, he had polio at 18 months of age and wore 
a brace on his leg all of his life and probably had a lot of 
the same problems that you experienced later on.
    Ms. Heumann. Was he in Chicago?

                study of special education expenditures

    Mr. Porter. In Chicago, right.
    Related to my first question, in the fiscal year 1998 
report of our subcommittee, we requested a study of the total 
Federal funding for special education from all sources and an 
analysis of whether local agencies were offsetting increases in 
Federal funds. Our report, the subcommittee's report was issued 
in July of 1997. In last year's budget justification, you 
indicated that the award would be issued later in fiscal year 
1998 for the study. Why it took over a year to issue the award 
is unclear. Now your justification indicates that the award 
will be made in February of 1999, or was made, a year and a 
half after the original request. Why did you wait so long to 
issue the award and what is the justification for the 
additional delay? When will we actually have the data on total 
Federal funding and the degree of offset occurring at the local 
level?
    Ms. Heumann. I am sorry that it has taken us so long. We 
have been very involved in the IDEA reauthorization and have 
large numbers of discretionary grants that we have been working 
on. It certainly wasn't intended to deviate from what the 
intention of the Committee was.
    We have awarded the grant, and I believe that we are 
expecting findings in August 2000. We start data collection 
this fall, and it will be approximately August of 2000 that we 
will have the report.

                         per pupil expenditures

    Mr. Porter. Thank you, Ms. Heumann.
    What do you estimate the increase in the population of 
children served by this Special Education State Grants program 
will be in fiscal year 2000, that will be academic year 2000 to 
2001?
    Ms. Heumann. Approximately 123,000.
    Mr. Porter. So 123,000 net additional students?
    Ms. Heumann. Exactly.
    Mr. Porter. What would be the resulting cut in services 
proposed by your budget when you factor in this population 
increase and inflation, and how will this reduction impact the 
services disabled children receive?
    Ms. Heumann. The reduction in the per pupil share will go 
from $702 to $688.
    Mr. Porter. Per pupil across the whole spectrum?
    Ms. Heumann. That is correct.
    Mr. Porter. And then that does not factor in inflation, 
however, which there is some.
    Ms. Heumann. Right.

                 funding for vocational rehabilitation

    Mr. Porter. All right. Thank you.
    The Vocational Rehabilitation Services State Grants program 
requires an annual increase based on changes in the Consumer 
Price Index. Can you tell us how much, if any, your request is 
above the statutorily mandated CPI increase?
    Ms. Heumann. It is not above.
    Mr. Porter. One of your indicators for this program is 
``the percentage of persons served under the Vocational 
Rehabilitation Services State Grants program who obtain 
employment will be maintained at 61 percent''. This increases 
by only one-tenth of one percent in the next two outyears. I 
understand that this population faces difficulties in finding 
and maintaining employment. Can you discuss some of the 
challenges faced by this population and what could be done to 
improve the situation? Do you believe that a one-tenth of one 
percent increase annually is the best we can do in this 
program?
    Ms. Heumann. Well, I think in answering the second part of 
your question first, our data is beginning to show that we are 
actually doing better than we were projecting, which of course 
is going to enable us to go back and relook at our figures to 
see if we shouldn't be increasing them. We will be looking at 
let's say the five best States in the country--using our 
standard of what ``best States'' would be, in other words, 
making sure that individuals with significant disabilities are 
actually served. We have been doing very well in getting the 
percentage of individuals with significant disabilities 
increased and the kinds of jobs that individuals are being 
placed in are not low wage jobs but are rather jobs which have 
reasonable wages and allow the adult to continue to progress in 
the world of work.
    I am sorry, could you repeat that other part of the 
question?
    Mr. Porter. Well, the other part is do you believe the one-
tenth of one percent is the best we can do. Even if you did see 
it beginning to get better, it probably wouldn't be more than 
two-tenths of one percent, one assumes.
    Ms. Heumann. I think there are a number of changes that 
potentially are going to allow that to get better, both through 
the work that we have been doing through Fred Schroeder's 
leadership and working with the States, and other initiatives 
before the Congress right now. The Jeffords-Kennedy bill, for 
example, we believe will help more disabled individuals move 
into the world of work, because we know that a percentage of 
individuals have difficulty moving into the world of work or 
moving into the world of work working the maximum number of 
hours they could because of the risk of losing health care 
benefits. So we see initiatives like the Jeffords-Kennedy bill 
as really affording individuals an opportunity to move with 
less risk into the world of work.
    Mr. Porter. Maybe you could tell us what your request to 
the OMB was originally for this program.
    Ms. Heumann. It was $125 million.
    Mr. Skelly. Above the level that would be required for the 
CPI.
    Ms. Heumann. Right. It was $125 million above the CPI.
    Mr. Porter. That was $125 million above the CPI. That is 
what I would have guessed.

       vocational rehabilitation and the workforce investment act

    Ms. Heumann. I would also like to say, Mr. Chairman, that 
we have been doing a lot of work, and Mr. Jackson has talked 
about the welfare-to-work issues, and I just wanted to bring 
him up to date on some of this also. Under the Workforce 
Investment Act, the entity caring out the Vocational 
Rehabilitation program is specifically written in as a one-stop 
partner. We have really been trying to make this more of a true 
joint venture because we believe that partnership with the 
workforce programs, the one-stops and others, is very important 
for disabled individuals.
    The population of people that we serve through the 
Vocational Rehabilitation program is supposed to be individuals 
who have more significant disabilities. But as you look at the 
population that is coming through Temporary Assistance to Needy 
Families (TANF), we are seeing somewhere between 20 and 40 
percent of that population have some form of a disability. So 
our hope is, to work closely with the Department of Labor and 
to have our State programs working with their counterparts at 
the State and local level, to help give them better information 
about how to identify adults who may, for example, have 
learning disabilities and who may have dropped out of school. 
Our data shows that we have a disproportionate number of 
individuals with learning disabilities and kids with emotional 
disabilities who drop out of school. They well may be the 
population that is then going onto welfare programs because the 
work programs now are not adequately able to address their 
needs. So our ability to work jointly with them is something 
that is very important.
    Also, we feel that the opportunity for the Rehabilitation 
Services Administration to work more effectively with the 
Department of Labor will have more pay-off for the population 
that Vocational Rehabilitation has particular responsibility 
for by opening up greater opportunities for us to be able to 
work with employers, by being able to get better data on what 
the labor force looks like in the State or particular region of 
the State. Trish McNeil, who spoke before me, and I have been 
working with Ray Bramucci over at the Department of Labor, who 
is the Assistant Secretary for Employment and Training 
Services, on a regular basis. Our staffs have been meeting a 
lot. We have been having a number of very specific focused 
trainings for our regional people, our Federal people, and the 
workforce staff through the Department of Labor.
    So, we are hoping that if we look three to five years down 
the road we really will be able to see an increase in our 
ability to serve people more effectively. Also I think in the 
past this invisible population of people went on to welfare 
because they had not benefitted from school appropriately and 
because people didn't know the appropriate interventions to 
provide for them when they were in their twenties or thirties. 
This cooperation and partnership I think will have a much 
bigger pay-off. So, in answer to your question, I think maybe 
we have been too conservative on this number and we will be 
relooking at it.
    Mr. Porter. Thank you, Ms. Heumann.
    Ms. Pelosi.

                    class size and special education

    Ms. Pelosi. Thank you, Mr. Chairman.
    I have a follow-up to Mr. Dickey's question about what you 
would do given a tough choice and I appreciated the response of 
Secretary Heumann about accessibility and technology. In an 
earlier response, you mentioned that class size was important 
to teachers of special education. Could you address the school 
construction question in terms of class size a bit?
    Ms. Heumann. Class size is another area that we feel is 
very important. When you are looking at children in the earlier 
grades, first, second, and third grade, you probably know by 
talking to your family, that is where we can catch children 
early on who are having difficulties, provide effective, 
aggressive services, and at least in some cases, prevent some 
of these children from actually needing to receive special 
education and related services. I am a former elementary school 
teacher, and I taught in New York City. One year I had 36 kids 
in my class. It was very difficult for me to provide the degree 
of attention that I knew some of the kids required because they 
kind of screamed out to you in the classroom that they had 
additional needs. So, we believe that class size reduction, 
along with well-trained teachers, is something that would be 
very beneficial.
    The discretionary grant program that we have in our budget, 
which is a $50 million proposal that is looking at reading and 
behavior, also links into the class size issue. As I said, it 
is not just the reduction of the number of children in the 
class, it is the ability to have well-trained teachers. What we 
envision for this program is that local school districts would 
be applying to the Federal Government for money. Their money 
would be targeted towards working with children who have marked 
reading difficulties, kids who have an individualized education 
program, who have a learning disability, or a pretty 
significant problem that would not have been identified. The 
program would provide them with aggressive services to help 
them be able to learn how to read, but also to begin to help 
them not feel like failures. These kids begin to feel like 
failures in the second, third, and fourth grade; they start 
dropping out, if they don't have appropriate services, in the 
fifth, sixth, and seventh grade; and many of these kids are 
winding up in juvenile justice facilities.
    Therefore, services in the classroom with well-trained 
teachers can also benefit the general education teachers in the 
school by looking at research-based training because the work 
in the classroom would be based on dollars that we have been 
using in the area of research to show us effective ways of 
teaching reading to children who have disabilities. Likewise, 
in the case of children who have emotional disabilities, we 
know there that, as I said earlier, you can really begin to 
identify many of these kids when they are three and four years 
old, children who have behavioral problems. We know that, if 
you can provide them with aggressive services, for numbers of 
these kids, you can help stop problems that can get out of 
control after the kids are nine years old. That is why we have 
targeted this group.
    We see all of this as a package. School construction, class 
size, professional development, assuring that we are training 
teachers, and bringing research to practice into the classroom 
and into the world of work. We do research across OSERS, and we 
see that as an area that we have been trying to strengthen over 
the last six years. We have good research that has been going 
on for many years, but we haven't applied it appropriately 
enough. So, we have a very strong focus in NIDRR and RSA and 
OSEP to really do that.

                          drug exposed infants

    Ms. Pelosi. Thank you. A number of years ago, I am sure 
this happened to you, Mr. Chairman, many of us became much more 
aware of babies exposed to crack and cocaine and we in the San 
Francisco General Hospital had these little tiny little infants 
that we would hold in our hands--with this warning that down 
the road we were going to have all these behavioral problems in 
school because of these crack babies and low birth weight 
babies, as you mentioned earlier. Are you seeing any of that in 
your statistics now, or would you have any measure of that?
    Ms. Heumann. We don't specifically collect that data. But 
we have seen, and we are pleased to see, significant increases 
in the numbers of children served in our infant and toddler 
program, as well as our preschool program. One of the things 
the research shows very clearly about kids who have been 
exposed to cocaine or crack prenatally is that early 
intervention is critically important to prevent bad results. 
The same is true, frankly, for alcohol exposure, which is even 
a bigger problem in relation to the general population.
    We have seen a pretty significant increase in our infant 
program. We are asking for more money for that program because 
we feel strongly that some States are doing a good job with 
that program, but some States still aren't doing a great job at 
identifying these kids. The important point is this program 
needs to start as soon as it is evident that a child is at high 
risk. When a baby is born addicted to drugs, this program 
should kick in right then. In some States it does, but in other 
States we are working with them to try to get their systems 
going.
    Ms. Pelosi. It seemed clear to us that every day of a 
pregnancy that a woman went off drugs or every day, as you 
mentioned, that she abstained from alcohol could make a drastic 
difference.
    Dr. Hehir. One of the other things we encourage these 
programs to do, and this is important and goes back a little 
bit to your previous question about the differences between 
this program and the preschool program, is that we view this as 
a family-centered program. I have a cousin who works in this 
area. I come from a large Irish-Catholic family in 
Massachusetts and I have cousins who do everything, but I have 
a cousin who works in this program in Worcester, Massachusetts, 
my hometown. She is a social worker, and one of the things that 
she does when she has a child who is drug or alcohol exposed at 
birth is immediate intervention with the family. If the parent 
needs to get into a program, getting the parent into a program 
is necessary to prevent that happening again for another 
infant.
    I happen to think this program is one of the most important 
programs that we do. It is one that we need to be doing better. 
When States have good systems in place, where they are 
identifying these babies right away, and intervening with these 
babies and their families, and I think that is an important 
point here, we find that the kids do far better ultimately in 
school.
    Ms. Pelosi. Also we have seen around the country there are 
groups of parents that are organizing around fetal alcohol 
syndrome children, specifically bringing those families 
together in order to be able to provide more support to each 
other and assure that their kids are getting appropriate 
services both in school and from the general system. There is a 
pretty active program in Washington State.
    Ms. Heumann. That's great.
    Ms. Pelosi. Thank you very much. My time has expired. Thank 
you again for your leadership and for your testimony.
    Thank you, Mr. Chairman.
    Mr. Porter. Thank you, Ms. Pelosi.
    Ms. Heumann, we have multiple questions for the record for 
you to answer.

           government performance and results act indicators

    Mr. Porter. I want to thank you for the excellent job you 
are doing there. You always give us a good education when you 
come here about what is happening, and that is very helpful. My 
staff tells me you could do a better job on GPRA standards, and 
we would like to see that, obviously.
    Ms. Heumann. I hope your staff also says we have done 
better since last year.
    Mr. Porter. Yes, but it is still rated as spotty. So we 
want you to do a little bit better on that.
    Ms. Heumann. If I could just say something on that. We know 
that we have holes in our data, and we really have been working 
on filling in the gaps. For example, in Special Education, when 
we submitted our report, we didn't have the National Assessment 
of Educational Progress (NAEP) data. It was under the 
leadership of Secretary Riley that we were finally able to get 
the NAEP to focus on disabled children. So, for the first time, 
we are able to use the NAEP data for disabled kids. We just got 
that data in February. That is going to be included in our GPRA 
plan for OSEP. NIDRR will be filling in its holes by the end of 
March. NIDRR has been working on its long-range plan and 
surveying its constituent groups. I think you will also see in 
the RSA area that we had probably the strongest work in the 
GPRA plans for the formula grant programs and with some of the 
more focused employment programs. But, in the discretionary 
grant area, we have a lot more work to do there. Everyone is on 
board with that, and we understand it is important to you.
    Mr. Porter. So next year I will be saying to you the same 
kinds of things I said to Ms. McNeil about the GPRA.
    Ms. Heumann. You will probably say you have done a better 
job than last year. [Laughter.]
    We had not had data in the past and so a lot of what we are 
having to do is to get that data. OSEP, the Office of Special 
Education Programs, for example, has been holding some very 
focused meetings with diverse populations of providers and 
parents, three to four hour training meetings on what we are 
doing on GPRA, to get their input so we can make appropriate 
revisions. We have had a number of those meetings, six or seven 
I think, at least, in the last six or seven months. NIDRR has 
also been holding focus meetings and so has RSA. So we are not 
being recalcitrant.
    Mr. Porter. No, it sounds like you are working on it and we 
appreciate that. And we appreciate the excellent work you are 
doing at the Department.
    Ms. Heumann. Thank you.
    Mr. Porter. Thank you very much.
    The subcommittee will stand in recess until 2:00 p.m.
    [The following questions were submitted to be answered for 
the record:]
    Offset Folios 654 to 675 Insert here changes

<SKIP PAGES = 021>


<SKIP PAGES = 022>

                                       toWednesday, March 10, 1999.

                VOCATIONAL AND ADULT EDUCATION PROGRAMS

                               WITNESSES

PATRICIA W. McNEIL, ASSISTANT SECRETARY FOR VOCATIONAL AND ADULT 
    EDUCATION
THOMAS P. SKELLY, DIRECTOR, BUDGET SERVICE
THOMAS CORWIN, DIRECTOR, ELEMENTARY, SECONDARY, AND VOCATIONAL ANALYSIS 
    DIVISION, BUDGET SERVICE
    Mr. Porter. The subcommittee will come to order.
    We continue our hearings this morning on the appropriations 
for the Department of Education and on the Office of Vocational 
and Adult Education. We are pleased to welcome Assistant 
Secretary Patricia McNeil. It's nice to see you again.
    Ms. McNeil. Thank you.
    Mr. Porter. I know the gentlemen who are with you so there 
are no introductions needed.
    Why don't you proceed with your opening statement and then 
we will go to questions.
    Ms. McNeil. Great. Thank you so much, Mr. Chairman. As 
usual, I am delighted to be here this morning. I thought 
yesterday that with the weather it was a little touch and go, 
but I am glad that we were able to do this.
    Mrs. Lowey, nice to see you this morning.
    Mrs. Lowey. Thank you.

                Opening Statement of Patricia W. McNeil

    Ms. McNeil. You have my statement for the record. What I 
would like to do this morning just very briefly is highlight 
three important features of the testimony: First, our efforts 
to ensure that your investments in our programs produce 
results; second, to highlight our request for an increase in 
adult education and community-based technology centers; and 
third, to focus on our efforts to improve high school, 
community college, and technical education.

              accountability provisions in new legislation

    To help close the growing skills gap in the Nation, 
Congress recently enacted new vocational and adult education 
legislation. And the path-breaking features of these laws are 
their strong accountability provisions, their focus on 
research-based program improvement strategies, and the increase 
in flexibility that they give to States and local communities.
    I think our implementation of these laws is also path-
breaking. First of all, we are not issuing any regulations. 
Instead, we are working collaboratively with States to provide 
guidance, to develop strong performance management systems, and 
to offer customized technical assistance and information. All 
of our implementation documents are up on the Web so that they 
are widely available to the public.
    Now the Government Performance and Results Act really laid 
the foundation for ensuring that Federal investments pay off. 
To support this goal, the new Perkins Vocational and Technical 
Education Act establishes four core performance goals that all 
programs at the secondary and post-secondary levels are 
designed to meet. These include the achievement of challenging 
academic standards, technical standards, the completion of 
secondary and post-secondary education, and entry into careers, 
not just entry level jobs.
    The Adult Education Act has three core standards, including 
achievement of basic skills and English proficiency, the 
completion of secondary education, and entry into and retention 
in post-secondary education as well as into employment.
    As a condition for receiving Federal funds, States must set 
challenging goals in all of these areas for improving student 
performance and program performance. We have revised our GPRA 
objectives to track as closely as possible with the new laws, 
and we have actively worked with States. We are working with 
the K through 12 and post-secondary education systems, and with 
the Department of Labor to ensure that we have compatibility 
and reliability of definitions and data across programs.
    I have to tell you that a number of States have really done 
some excellent work in setting up data and performance 
management systems. But there are still many States that have a 
long way to go to produce the kind of data on educational 
outcomes and employment outcomes that I think the committee is 
looking for in terms of program improvement. So that is going 
to be one of our key focuses in the coming years.
    You will see that our budget request supports national 
activities in both Adult and Vocational Education, designed 
primarily to enhance accountability for results.

                 requested increase for adult education

    Now I want to talk a little bit about our increase in Adult 
Education. We have asked for an increase of $190 million, and 
this would bring the total Federal investment in Adult 
Education to $575 million. There are 44 million adults in this 
country who cannot find work that will support a family, help 
their children with homework, move off welfare, or fully 
participate in America's civic life because they lack basic 
skills or English proficiency. Our request would provide $103 
million in new resources to Adult Education State Grants and 
make it possible for States to improve both the quality of 
their programs as well as increase the number of people served.
    The budget also requests $70 million for what we are 
calling ``Common Ground Partnerships.'' Now this initiative is 
designed to provide high quality English language and basic 
skills instruction and to help individuals acquire civic and 
other life skills needed to function effectively in our 
American communities. English language instruction is the 
fastest growing component of Adult Education; almost 50 percent 
of our enrollments are in basic English language proficiency 
instruction. And five States--California, Florida, Texas, New 
York, and Illinois--enroll 80 percent of adults with English 
language deficiencies. We think this new initiative is going to 
help us reach about 150,000 new learners. It is particularly 
targeted to those States and communities with large demands for 
ESL instruction.
    The future of adult education, I think, really lies in 
technology, both to increase access to programs and improve 
learner achievements. With 44 million adults, I don't think we 
will ever get the level of Federal appropriations needed to 
serve each one of those individually in a classroom, so we 
think technology can really provide us with a way to increase 
access and really to improve learner achievement. We have 
requested $23 million to support the development and 
implementation of technology-based materials specifically 
directed at adult education. We have made a lot of investments 
in technology for young people, but we believe that there is a 
need to develop new materials targeted specifically at adults, 
get those materials into the classroom, and make them available 
in people's homes, at schools, at work--wherever people need 
access to adult education services.

                   community-based technology centers

    And this whole idea about access and increasingly using 
technology is what is behind our $65 million request for 
Community-Based Technology Centers. There is a widening digital 
divide in this country between those who have access to 
computers and the Internet and those who don't. Unfortunately, 
the divide falls along economic, educational, racial, even 
household composition lines; families with two-parent 
households are much more likely to have computers than single-
parent households. So these centers are designed to provide 
much needed access to and training on computers and the 
Internet for residents in low-income communities.
    We really think that this whole package of investments--and 
it has to be seen, I think, as a package to get the full 
benefit of it, along with our request for the National 
Institute for Literacy and our request for Adult Education 
National Activities for technical assistance and evaluation 
research--will make an important contribution to increasing the 
skills of adult Americans most at risk of poverty, dependency, 
and unemployment.

                     vocational educational request

    I just want to say a brief word about our investments in 
vocational and technical education and school-to-work. Our 
budget includes $1.163 billion for Vocational Education--and it 
is important to carry all the numbers out because our increases 
have not been that great over the past few years--and an 
increase of $5 million for Tech-Prep Education, to expand 
efforts to build high-tech courses with strong academic 
standards and to create seamless transitions for students from 
secondary to post-secondary technical and professional degree 
programs and then into careers.
    We are also requesting $17.5 million for Vocational 
Education National Programs. We strategically use these 
national activity funds to promote our GPRA objectives. We are 
focused on five key areas. First of all, providing technical 
assistance and support to States to develop and improve data 
and accountability systems, which is absolutely key; second, 
strengthening teacher preparation and development; third, 
supporting business-education partnerships to create 
instructional materials for careers in high-tech industries, 
and we have number of those ongoing right now; fourth, 
conducting research and evaluation; and fifth identifying and 
supporting New American High Schools. And, by the way, I am 
pleased to say that we have a New American High School in your 
district, Mr. Porter, and also in your district, Ms. Lowey. And 
it is totally a coincidence because these schools are selected 
because they are striving for high academic standards for all 
of their students and to prepare all of their students for 
college and for careers. So Saunders Technical School, in your 
district, Ms. Lowey, and Adlai Stevenson High School, in your 
district, Mr. Porter, are part of our New American High School 
network. And we are happy about that.

                         school-to-work request

    And finally, the budget includes $110 million for the final 
year of School-to-Work grants, and that would be $55 million 
for the Department of Education, and $55 million for the 
Department of Labor. All States have received School-to-Work 
implementation grants. And I have to say that, despite some of 
the misunderstanding I think that exists around school-to-work, 
we have growing evidence that it has really resulted in 
innovations in education and, most importantly, in improvements 
in student achievement.
    And with that, I will be happy to respond to your 
questions. Thank you.
    [The prepared statement and biography of Patricia McNeil 
follow:]
    Offset Folios 685 to 691 Insert here

<SKIP PAGES = 007>

            focus on program performance and accountability

    Mr. Porter. Ms. McNeil, thank you for that excellent 
statement. As you were giving the statement, it occurred to me 
that here we are reading off the same page. You are talking 
about performance indicators and standards and meeting them and 
how effective GPRA can be. The fact is that the Administration 
and the Congress are doing the same thing to ensure that the 
public's money is going to get results. In my mind, the major 
media in this country have missed this important story. Tell me 
what you think, maybe you have seen more than I have, but I 
think they have missed the story right down the line. While 
they focus on things that are nonsensical they miss the good 
stories that are going on about how Government is performing 
better for the American people in getting the job done. You are 
doing it and I am really impressed with the focus that you have 
put on performance indicators and standards and setting goals 
and moving towards them and spending the money that you have 
very wisely. So I want to compliment you on that. We think you 
are doing a terrific job there.
    Ms. McNeil. Thank you.
    Mr. Porter. If only the American media would pick it up and 
tell the American people what is happening, they might raise 
their sights a little bit and we might be able to get things 
done even better.
    That, however, does not mean that my staff does not want to 
question what you are doing. [Laughter.]
    Ms. McNeil. That's right, let's quit while we are ahead.

                    characteristics of esl students

    Mr. Porter. I knew you knew that though. I have a question 
that came to mind, and this may not be a question you are 
prepared for, but can you give me a breakdown in the ESL 
programs that you have, what is the first language of the 
client base there?
    Ms. McNeil. Well, the two most common languages, 
particularly among new immigrants, are Spanish but also I 
think----
    Mr. Porter. And what else?
    Ms. McNeil. Russian.
    Mr. Porter. Russian would be number two?
    Ms. McNeil. Yes. I think Russian is number two. I would 
have to check that but we have had an incredible increase in 
Russian-speaking immigrants.
    Mr. Porter. Yes. Right. I thought that but I wanted to ask 
the question.

        performance indicators for adult education state grants

    I want to compliment you on your performance indicators for 
the Adult Education State Grants program. According to your 
budget documents, you are already making progress. Last year, 
you indicated that 32 percent of adults enrolled in the 
programs received their high school diploma or GED. This year 
your baseline is 38 percent and your goal is 40 percent. As you 
continue to show this kind of success, do you anticipate 
revising your goal to do even better?
    Ms. McNeil. Yes. And one of the interesting features about 
both the Adult Education Act and the Vocational and Technical 
Education Act is that States have to set challenging goals for 
each of these standards. And, as a condition of receiving 
Federal money, we have to work with them to make sure that 
those goals are challenging. And the second feature of the Acts 
is continuous improvement, that they need to be setting 
continuously better, stronger goals. So, yes, that is our whole 
idea here. Some of our programs right now are starting down 
here and need to get there, some of them are starting here and 
need to get even higher. So this whole idea about continuous 
improvement is one that we subscribe to.

           no increase for vocational education state grants

    Mr. Porter. All right. Your budget requests no increase for 
the Vocational Education State Grants program.
    Ms. McNeil. That's correct.
    Mr. Porter. You have not requested a significant increase 
in this program for several years. Now that the program has a 
new authorization and coupled with the fact that school-to-work 
is being phased out, why do you believe an increase in this 
program is not justified?
    Ms. McNeil. Of course, I have to say personally that I do 
think we could spend more money wisely. However, I think that 
what happened this year was that Congress did not actually 
complete work on the Vocational Education Act until October 31 
and we were very well into the budget process by that time. So 
I continue to hope that our progress on meeting GPRA indicators 
will merit increases in the future.
    I also think that, in general, we need to do a better job 
of helping people understand how vocational-technical education 
is really changing. I think that the new performance 
requirements in the new law will help us do that. I think 
people have an idea about vocational education which is out of 
our high school experiences of maybe the 1950s and 1960s, but 
it has changed dramatically at both the secondary and the post-
secondary levels. So I am hopeful that we get that story out.

      TRACKING TRANSITIONS TO CONTINUING EDUCATION AND EMPLOYMENT

    Mr. Porter. Why haven't you set goals for the performance 
indicator relating to vocational education students making 
successful transitions to continuing education or work? You 
have baseline data for most of these students I believe.
    Ms. McNeil. We have. I think our challenge here is that of 
going on from secondary to post-secondary. Some schools and 
some programs are doing a pretty good job of tracking entry 
into programs, but we have a key problem, a key challenge with 
tracking students' completion of programs. Traditionally, high 
schools don't track completion of post-secondary programs for 
vocational students. So this is one of the areas that we have 
to get good solid baseline data.
    Employment, too, is a very difficult area to track, 
particularly retention in employment. Some States, Illinois 
being one of them, have really done an outstanding job of 
trying to build a database and use their unemployment insurance 
wage records to track the progress of participants in workforce 
programs, adult education and vocational programs, but they are 
right now among the exceptions in the States. And so we have an 
awful lot of work to do to really create good solid baseline 
data so that we can actually track a couple of the indicators, 
and one of them is this completion of post-secondary programs, 
and another one is entry into and retention in employment.

            INCREASE FOR ADULT EDUCATION NATIONAL ACTIVITIES

    Mr. Porter. Your budget requests an $87 million increase 
for Adult Education National Activities. This is a 621 percent 
increase above last year. I have a number of questions about 
this initiative, first because of the increase involved, but 
also because I am not sure it is wise to increase what is 
supposed to be a research and demonstration account to a level 
that rivals some of the grant programs. And $70 million of the 
requested increase would be used for a new program to support 
English as a Second Language and civics initiative. Isn't this 
what you requested the additional $103 million in the State 
Grants program to do?

                          SERVING ESL STUDENTS

    Ms. McNeil. Well, there are two points I want to make here. 
The $103 million that goes into the basic grant as an addition 
will help us serve more individuals. But States have a choice 
about where they want to spend that money; do they want to 
spend it on English language students, do they want to spend it 
on basic skills development, or do they want to spend it on the 
completion of secondary education? So States have a choice 
about how they want to spend that money, which is good. Not all 
of them will choose to spend it on English as a Second 
Language, primarily because, as I mentioned earlier, the 
biggest concentration of students who need English language 
proficiency training are in five States----
    Mr. Porter. What are those States again?
    Ms. McNeil. They are California, New York, Texas, Illinois, 
and Florida. I can provide you for the record the list of the 
States and what their concentrations are.
    [The information follows:]

                       Enrollment in ESL Programs

    The ESL enrollment totals for the States with the highest 
concentrations ESL students are:
    California--1,096,016
    Florida--147,095
    Texas--105,522
    New York--73,176
    Illinois--57,087

    Ms. McNeil. So we really think it is important to have a 
targeted initiative around ESL.

               INCREASE FOR ADULT EDUCATION STATE GRANTS

    The second thing is that we really hope, and I think there 
is certainly evidence of this from States, that they will spend 
the money in the basic grant on improving program quality. That 
means increasing the hours of instruction that they provide to 
students. Massachusetts is a State that has been very 
successful in doing this; they set a goal to triple the hours 
of instruction for students. And that pays off in terms of 
student achievement.
    So in the basic grant we hope that the extra money will be 
used, not only to increase the number of people served, but 
also to hire more professional and full-time teachers, to 
introduce new technologies, to increase the amount of 
instruction that is being offered, and to provide more child 
care, which is, again, a barrier to participation.
    So I think there is really sound justification for putting 
increases into the basic grant, but also creating a special 
targeted program to really focus on those States and 
communities which have high demand for English as a Second 
Language. And I think we hope to learn a lot from that 
investment. You asked why this is in our national activities 
account, why is the money there. In addition to actually 
targeting services, I think it is going to provide us with an 
opportunity to learn a lot about how best to serve this 
population.
    Mr. Porter. What if we put that in a separate line item 
since it really isn't a research and demonstration dollar?
    Mr. Corwin. That would probably just be a matter of 
packaging.
    Ms. McNeil. Sure. I think that is all it was.
    Mr. Porter. Well, we can work that out.
    Ms. McNeil. Sure. Okay.
    Mr. Porter. Mrs. Lowey.
    Mrs. Lowey. Thank you, Mr. Chairman.
    I join my Chairman in all his praise and welcome you to the 
committee, Madam Assistant Secretary.
    Ms. McNeil. Thank you.

                  ADULT EDUCATION AND WELFARE-TO-WORK

    Mrs. Lowey. I would like to talk further about the $103 
million that you have in the budget for adult education, 
because I do believe that these programs play an essential role 
in preparing adults, particularly those moving from welfare, 
for work. As you know, I have been very concerned that 
insufficient literacy training and vocational education counts 
towards a State's work participation requirement under welfare 
reform and I have introduced legislation to correct that. I 
have worked very closely with several programs in my district, 
in particular, Westchester Community College has done a 
marvelous job, Mercy College with the Cloud program has another 
excellent program. But I hear over and over again that we have 
just got to let the individual have that education they need if 
they are moving to a job that needs a two year degree, for 
example.
    Can you tell us how far the increase requested by the 
President will go towards meeting unmet need among adults 
identified at risk? And if you can comment on the fact that 
right now I believe it is one year of education allowed under 
the work requirement and in many cases it is just insufficient. 
So if you could address both.
    Ms. McNeil. Sure. First of all, I think it is good to think 
about dealing with this issue of English as a Second Language 
separately because then the $103 million increase in the basic 
grant can be used to focus on welfare recipients and others. 
But secondly, we have really been tracking now, talking with 
States to see how they are dealing with this challenge of 
serving welfare recipients. We did observe a drop of about 12 
percent in the number of welfare recipients we were serving in 
adult education in 1997. Certainly, it has had an impact on the 
number of welfare recipients we are serving.
    Mrs. Lowey. You have seen a drop in the number of welfare 
recipients that are going into adult education?
    Ms. McNeil. Right.
    Mrs. Lowey. Is that because there are more people going off 
welfare or less interested in adult education?
    Ms. McNeil. Well, that's probably a good question. I think 
that basically, because it was such a large drop, that there 
are people leaving welfare and there are people that are going 
to work first and not coming into the adult education program. 
So how do you capture and how do you assist adults with low 
levels of English proficiency and low levels of basic skills 
who were on welfare or who are now in work programs to better 
their basic skills? And we have been tracking programs now that 
are doing this and have found in many States, you mentioned 
your own district, some very innovative programs which are 
combining basic skills, vocational education, and often 
workplace learning. We have actually seen an increase in the 
number of people going into workplace learning programs. You 
may know that the President has also proposed as part of his 
budget a 10 percent tax credit for employers who offer basic 
literacy training to their employees on the job.
    So, again, this is part of a package to try to creatively 
use work as the context for learning, work more closely with 
welfare agencies, vocational education and adult education, and 
workforce investment boards to try to develop programs that 
will be helpful to people who are on welfare. I think our new 
Community-Based Technology Center idea is a way for people to 
come in after work and have access to technology right there in 
their community. So the whole package includes not only the 
basic grant increase, but other investments we think are going 
to allow us to be able to improve services to welfare 
recipients as well as others in need of service.
    Mrs. Lowey. I would like to pursue this with you more in-
depth at another time. But what I see happening too often in my 
community, number one, too often the same recipients go on and 
off and on and off welfare and they get lost in the system.
    Ms. McNeil. Right.
    Mrs. Lowey. Number two, if you can give someone two years 
and you can train them to be a dental hygienist or a nurse 
assistant or another program that requires two years, then 
perhaps you have at least a good chance of getting them into a 
real job. What happens too often is that in many of these work 
programs they are make-work programs and don't offer the 
training to move people into a real job. And I have been one 
who feels very strongly that sometimes just the training of 
getting up in the morning, going to work, even if it is an 
entry level job, is really good.
    So I think what we have to do is figure out how we can get 
those people who need it into the first level job, but at the 
same time, as they work part-time or whatever, be flexible 
enough so we can get them into a degree program so they can get 
into a real job. A lot of these mayors and governors are saying 
isn't this great, people are going off welfare. And I think it 
is great. I voted for the welfare bill. But I think what we 
have to be sure of is that our laws are such that if someone 
needs a two year degree, they are not thrown out after one year 
and told to go off to work.
    I think my time is up and the bells are ringing. But I want 
to thank you. I hope we can have additional discussion in this 
area.
    Ms. McNeil. And let me send you some really good examples 
of programs where they have been able to accommodate just those 
concerns that you have.
    Mrs. Lowey. And I would like to have any information that 
you have nationally on tracking these people who are going to 
work and getting off welfare and make sure they are still 
working and just not afraid to go back on welfare. I think we 
really need to do a better job of that. Thank you, Ms. McNeil.
    Ms. McNeil. Okay.
    [The information follows:]
    Offset Folios 704 to 707 Insert here

<SKIP PAGES = 004>

    Mrs. Lowey. Thank you so much, Mr. Chairman.
    Mr. Porter. Thank you, Ms. Lowey.
    I would advise members there are two votes, fifteen minute 
votes, and we will find it necessary I think to recess briefly 
for that. And we are operating here under the six minute rule.
    Mrs. Northup.
    Mrs. Northup. Thank you, Mr. Chairman.

                  INVESTMENTS IN VOCATIONAL EDUCATION

    Welcome. I always appreciate you being here and the work 
that is done in vocational education. As we have talked before, 
I feel so strongly about elementary education, secondary, sort 
of making sure every child reads, every child learns to add, 
but also when it comes to where you go as you approach young 
adulthood and adulthood, recognizing that not every child 
should go to college. In fact, I think we create in this 
country far too much of a perception that if you are not headed 
to college, there really isn't an important place in this world 
for you. There are many, many people that need training that 
find very fulfilling, successful careers and that we just make 
a terrible mistake by not investing enough.
    So as I see all the new proposed spending that is being 
proposed, I am sorry there isn't more in the block grant for 
vocational education because in my opinion that is really very 
important that we do a better job there. That would be a much 
better expenditure of our resources.

               RESULTS OF RESEARCH ON WORKPLACE LEARNING

    I wanted to follow up Ms. Lowey's question because I 
thought I had seen some statistics that showed that actually in 
terms of long-term successful work experience that there is 
some evidence that workplace learning and workplace-stimulated 
learning, in other words, going back to learn a skill directly 
related to your job, has been much more successful than the 
study programs in the past that allowed you to go to the study 
programs and get a job, that the transitions weren't really 
there.
    Ms. McNeil. Well, it is interesting. The research that has 
been done by the Manpower Demonstration Research Corporation in 
New York City, which has done the bulk of the research on 
welfare reform, I think shows two things. Judith Gueron, who is 
president of MDRC, had a very interesting op-ed piece in the 
Washington Post this summer that laid out their findings that 
actually it is a combination of both. It does help people to 
get out of the house and into the workplace just to restore 
some of their confidence that they can do things. On the other 
hand, many of them have such low levels of basic skills that 
without a reinforcement and an upgrading of those skills they 
are greatly in jeopardy of losing the jobs that they get, and 
then not being able to advance, and certainly not being able to 
earn a wage that is going to help support a family and keep 
them off welfare.
    So the real trick is what combination of those two things 
can you have. And in some cases, people just are not ready to 
go into the workplace, they have to have some classroom 
activity. And we think doing contextualized learning in the 
classroom is one really good way of bringing those two things 
together. In adult education, particularly having more 
computers in the classroom has really brought learning alive 
for students. They realize they need to have computer training 
in order to get jobs. And so being able to have them work on 
computers in the classroom helps them get some marketable job 
skills plus improve their basic skills.
    So it is that combination; there is no doubt about it, they 
both help. But not everyone can follow exactly the same path. I 
think it really depends on where you are, what kind of 
assessment, what kind of things that you need, when you can 
head into the workforce and be successful and then continue 
your education.

         RESEARCH ON LITERACY PROGRAMS AND THEIR EFFECTIVENESS

    Mrs. Northup. We have talked before about literacy and the 
importance of literacy for everybody and certainly for those 
adults that somehow did slip between the cracks, and there are 
many of them, a high percentage unfortunately in this country. 
I just wonder if there is any coordination about how kids learn 
and what sort of literacy programs work best. What research has 
been done, and is there any coordination with the universities 
that train our teachers in this area so that it is not done on 
philosophy or personal beliefs but scientific evidence?
    Ms. McNeil. I think both in adult education and in 
elementary and secondary education there is quite a bit of 
evidence that suggests that many people learn better when they 
are learning in the context of something that they are 
interested in. For example, working on computers: You realize 
that you need it, they are fascinating, and we have research to 
show learning gains when people use computers in the classroom. 
Similarly, if someone is interested in going into the health 
professions or becoming an electronic technician or whatever, 
the opportunity to learn academic skills in the context of 
things that you are interested in and want to pursue really 
does enhance one's ability to learn, speeds up the learning 
process, and makes you a more successful learner. So there is 
good research that can support that kind of learning strategy 
both for youth and adults.
    Mrs. Northup. But besides skills, and I think skills are in 
some ways different than literacy, learning to read, although 
that is a skill, if somebody is an adult and hasn't learned to 
read, they obviously need special help. I wonder if there is 
research that identifies in a more scientific way what 
approaches to literacy work best for teaching people to read?
    Ms. McNeil. The National Institutes of Health has done a 
very highly respected study on learning styles, primarily 
focused on individuals under 18 years of age. But I have not 
seen anything that----

               improving teacher professional development

    Mrs. Northup. And I am familiar with that. What I am 
interested in is whether the results of that have been conveyed 
to the teacher colleges so that they are then using those 
methods? My experience is that they are not.
    Ms. McNeil. In our office now, we are using some of our 
national activities money from both school-to-work and 
vocational education to fund several very large teaching 
universities to incorporate contextual learning, project-based 
learning, the kinds of things that enhance people's ability to 
learn, into their teacher education programs. We have been 
working very closely with our teacher preparation and 
professional development group within the Department, 
particularly with the new Title II in the Higher Education Act, 
to make sure that these ideas are incorporated into teacher 
training programs. It is a small effort but I think it is a 
very good beginning.
    Mrs. Northup. Thank you.
    Mr. Porter. Thank you, Mrs. Northup.
    The subcommittee will stand in recess briefly.
    [Recess.]
    Mr. Porter. The subcommittee will come to order.

                 adult education technology initiative

    Ms. McNeil, you mentioned in your testimony about the $23 
million for technology. That is for new discretionary grants to 
help the States incorporate technology into their adult 
education programs. How does this proposed technology program 
differ from the existing Technology Application Grants and 
other technology activities? And do you have specific 
performance indicators for this program?
    Ms. McNeil. We don't have specific performance indicators 
yet but we are in the process of developing them, because I 
think it is important that we have them.
    Primarily, the big investments at the Department in 
technology have been at the K through 12 level. This is an 
attempt to both develop and then implement into adult education 
programs technology strategies that are particular to meeting 
the needs of adults. That means the software is different, and 
that means the applications are often different because adults 
want to use this in different ways than children do. So we are 
envisioning partnerships between the private sector, States, 
and research institutions to help us develop this.
    We already have made a small investment from our Adult 
Education National Activities funds in three different areas of 
technology for adult education, professional development, and 
developing materials for use in the classroom. But that is very 
small. We also have been putting money into video applications. 
I think I have mentioned before the Crossroads Cafe project 
that we did, which was a 26-episode series, sort of a Sesame 
Street for adults, that was focused on English as a second 
language. We are doing one now on family literacy that will be 
entertaining, interesting to watch, but also reinforce basic 
skills and literacy development.
    So we have done a little bit of work in this area. We think 
we are not going to be able to make a big difference unless we 
have a very targeted investment in technology.
    Mr. Porter. All right. I am going to ask one more question 
and, because of the time constraints and the time we lost for 
the votes, I am going to have to put the rest of the questions 
in the record.

                  federal phase-out of school-to-work

    Your budget this year reflects the phase-out of School-to-
Work grants from the Federal Government. Do you expect States 
to continue school-to-work activities even after Federal funds 
are discontinued?
    Ms. McNeil. Yes.
    Mr. Porter. A recent study on the School-to-Work program in 
Wisconsin found that the program had almost no demonstrable 
impact on the State's schools or economy. What experience have 
other States had with the program?
    Ms. McNeil. I was really surprised at the results of that 
study and I guess they are somewhat controversial. I haven't 
read the study myself, but very early on in the implementation 
of school-to-work, before I was Assistant Secretary, I had my 
own business and I did do work in the State of Wisconsin. I 
thought they were going about the implementation in a very 
thoughtful way. They were focused primarily on youth 
apprenticeship. So I really want to take a look at that study 
and analyze it for myself to see whether it actually reflects 
what we know about what is happening in Wisconsin.
    But I will tell you that there are at least three other 
very powerful studies about school-to-work; one done by the 
Boston Private Industry Council about impacts on student 
achievement from school-to-work experiences in Boston, one done 
by Philadelphia, and one done by the State of New York. The 
results are really quite remarkable. These three programs have 
had students involved long before the Federal legislation was 
passed. They found that more students, particularly minority 
students, were going on to post-secondary, they were staying in 
post-secondary, and when they had employment, they were staying 
in employment longer and they were earning higher wages. So 
there is some very good evidence that school-to-work has paid 
off. And I would be happy to make those reports available to 
the committee.
    [The information follows:]
    Offset Folios 717 to 718 Insert here

<SKIP PAGES = 002>

    Mr. Porter. Thank you, Ms. McNeil.
    Mr. Jackson.
    Mr. Jackson. Mr. Chairman, I want to thank Ms. McNeil for 
her testimony and for being here with us today given the 
weather conditions. I want to concentrate on one area of 
today's hearing that is important to many people throughout my 
district, and that is vocational and adult education.

                       continuing school-to-work

    Ms. McNeil, after the School-to-Work Opportunities Act 
sunsets, is there any incentive for States to continue the type 
of work that the School-to-Work Opportunity Act supports? And 
is there not a strong national interest, a strong Federal 
interest in this kind of work?
    Ms. McNeil. Yes, I think absolutely there is a strong 
national interest and strong State and local interest in 
continuing the school-to-work initiatives.
    The Federal law was designed to provide venture capital to 
States to start school-to-work systems. What has happened since 
1994 is that, with the passage of the new Carl Perkins 
Vocational Education legislation, the activities in that Act as 
well as the outcomes for students that are envisioned by that 
Act will provide States and local communities with resources to 
continue their school-to-work efforts. It is very important 
that the Elementary and Secondary Education Act funds that go 
to secondary schools be used as well to reinforce school-to-
work, because what school-to-work is trying to do is help all 
students achieve academically, be prepared for post-secondary 
education, and be able to make good transitions into the 
workforce.
    So I do think that the Vocational Education Act that was 
just passed will be a big boost to helping States continue 
those efforts.

               resources to serve welfare-to-work clients

    Mr. Jackson. I asked the Secretary about this yesterday so 
I know you have budget constraints to deal with, but with fewer 
people receiving Temporary Assistance to Needy Families, or the 
TANF funds, the few that will receive the TANF are for the most 
critical to train so they can enter the workforce. The budget 
increase that the President has sought in my opinion is 
somewhat modest. What other resources does the Department of 
Education have to help with what I perceive to be an oversight?
    Ms. McNeil. Well, there are several other areas, and I 
appreciate your support. But certainly for those welfare 
recipients who have a high school diploma, Pell Grants provide 
a big source of financial support for continuing their 
education. Our adult education program, which we are asking for 
a substantial increase in this year, is also another very 
important vehicle for providing assistance to welfare 
recipients to improve their basic skills and to do so in the 
context of work. The President also has proposed a 10 percent 
tax credit for employers who offer basic skills and English 
language proficiency instruction to their workers.
    So, although I must say I would like more money in the 
vocational education account, there are a number of other 
resources that we have available that can be used to support 
the transition of welfare recipients into the workforce and to 
self-sufficiency.
    Mr. Jackson. Mr. Chairman, I just have one final question.

                      increase for adult education

    Ms. McNeil, an area in your budget that I am pleased to see 
is the 50-percent increase in adult education and literacy 
programs. I think this is a very important foundation to build 
upon considering the growth in our economy. I hope your 
programs and the recent passage of the Adult Education and 
Family Literacy Act will ensure that everyone can share in the 
booming economy. Can you comment on this increase and what 
impact you believe it will have?
    Ms. McNeil. Yes. I think this is a very important first 
step in improving adult education and bringing it into the 21st 
century. And you have to look at the whole package of proposals 
that we have made. The increase in the Basic Grant we hope will 
strengthen the quality of programs throughout the country. The 
increase for English as a Second Language will target resources 
at those States and communities who need extra resources to 
help individuals with limited English proficiency. The 
technology investments we think will open up access to service 
as well as improve the quality of service within adult 
education programs. And finally, these new Community-Based 
Technology Centers, which I think are very exciting, will be 
targeted to low-income communities and provide access to adults 
as well as to children in those communities to technology that 
they don't have available at home, in school, or at their 
workplaces.
    Mr. Jackson. Thank you very much, Ms. McNeil.
    Thank you, Mr. Chairman.
    Mr. Porter. Thank you, Mr. Jackson.
    Ms. McNeil, you are doing a fine, fine job there. I hope 
you will go back to the Department and tell your fellow 
assistant secretaries that you are the model and we want to see 
each of them be----
    [Laughter.]
    Ms. McNeil. Now I won't be able to go back. No, they are a 
wonderful group I have to say.
    Mr. Porter. They have to meet the standard that you are 
setting, that is their performance goal.
    Ms. McNeil. Well, you have got a couple of them this 
morning that are meeting and surpassing that standard. We work 
very closely together. We have got a really good group there.
    Mr. Porter. We appreciate the job that you are doing. Keep 
doing it.
    Ms. McNeil. Thank you.
    Mr. Porter. Thank you.
    [The following questions were submitted to be answered for 
the record:]
    Offset Folios 725 to 747 Insert here

<SKIP PAGES = 023>

                                         Wednesday, March 10, 1999.

             OFFICE OF EDUCATIONAL RESEARCH AND IMPROVEMENT

                               WITNESSES

CYRIL KENT McGUIRE, ASSISTANT SECRETARY FOR EDUCATIONAL RESEARCH AND 
    IMPROVEMENT
PASCAL D. FORGIONE, COMMISSIONER, NATIONAL CENTER FOR EDUCATION 
    STATISTICS
THOMAS P. SKELLY, DIRECTOR, BUDGET SERVICE, OFFICE OF THE UNDER 
    SECRETARY
CAROL A. CICHOWSKI, DIRECTOR, DIVISION OF SPECIAL EDUCATION, 
    REHABILITATION AND RESEARCH ANALYSIS, BUDGET SERVICE, OFFICE OF THE 
    UNDER SECRETARY

                       Introduction of Witnesses

    Mr. Porter. The committee will come to order. We continue 
our hearing on the appropriations for the Department of 
Education, with the Office of Educational Research and 
Improvement. We're pleased to welcome the Assistant Secretary, 
Kent McGuire, for his first appearance before our subcommittee. 
It's good to see you.
    Why don't you welcome the individuals who are with you and 
then proceed with your statement.
    Dr. McGuire. Thank you, Mr. Chairman. I'm pleased to be 
here. I am joined by my colleague Pat Forgione, Commissioner of 
Education Statistics. I believe you know Carol Cichowski and 
Tom Skelly.

                           Opening Statement

    Mr. Chairman and members of the committee, I'm pleased to 
be here today to discuss the President's fiscal year 2000 
budget for the Office of Educational Research and Improvement 
(OERI). We are requesting a total of almost $1.5 billion, which 
is an increase of about $500 million.
    Mr. Chairman, of this total, $200 million would support the 
research, development and dissemination activities that are 
authorized under our underlying OERI statute. Another $120 
million would support the statistics and national assessment 
activities of the National Center for Education Statistics. 
This is a total of $320 million for what I like to think of as 
the core OERI functions. Current funding for these is just over 
$250 million.
    The balance of our request, almost $1.2 billion, would 
support a number of discretionary grant programs authorized by 
the Elementary and Secondary Education Act. These range from 
technical assistance programs such as the Regional Math and 
Science Consortia to service programs, such as the After-school 
Learning Centers program, and those that support local 
innovation, such as the Technology Challenge grants. There are 
a number of such service programs that we also administer.
    Mr. Chairman, we are seeking modest increases for all of 
the programs that comprise our core functions. For the ESEA 
programs, we're proposing both reductions and increases. Some 
programs we would hold at current levels.

                            research request

    All of these proposals are outlined in my written 
statement, and I would like now to concentrate on what to me 
are the important increases. For research, we are seeking a $45 
million increase. This proposal responds to the growing demand 
of teachers, administrators, policy makers and parents for 
specific, evidence-based guidance for improving education and 
student achievement. We are pursuing a number of reforms in the 
way we plan to design and manage our research program to ensure 
that the work we support is designed to help solve some of our 
most pressing problems. And we want to make sure that it meets 
fully the acceptable standards for scientific quality.

               interagency education research initiative

    More than half of the research increase would support what 
is being called the Interagency Education Research Initiative. 
This is a partnership between OERI, the National Science 
Foundation (NSF) and the National Institute of Child Health and 
Human Development (NICHD). Our goal here is to learn how to 
help all children come to school ready to learn reading and 
math, and then to acquire the foundations of these two very 
important subjects in the early grades.
    We also want to learn how to help teachers who teach 
reading, math and science have the content, knowledge and 
teaching skills that they will need to be effective, so a major 
focus in this research will be how to use innovative learning 
technologies to work with teacher education and with students 
and teachers.
    It's the largest joint research program ever attempted by a 
group of agencies in education. I'm pretty excited about it.
    We were able to announce the first competition just a few 
weeks ago, on the basis largely of NSF funding, with some 
modest support from OERI. And our participation in future years 
depends on receiving some funds as we've requested in fiscal 
2000.

                        other research projects

    The balance of our proposed research increase would be 
focused on finding solutions to a number of other problems that 
I believe we face. This idea of focusing on problems is 
important to me. We would expand the work that we are beginning 
this year to develop and test new designs and strategies for 
the reform of schools serving middle and high school students.
    We also are interested, in partnership with NICHD, in 
funding a research program designed to answer questions about 
how Spanish speaking children best learn to read in English. 
This is important research. English language learners are 
becoming a much larger proportion of our enrollment in this 
country. The sooner that we can learn how to do that better, 
the better off we'll all be.
    Mr. Chairman, as we work on this program with NICHD, it's 
important to say that we'll be working together with them on 
strategies for improving peer review. I read the report 
language last year that really encouraged us to do that.
    As a final example, we would fund research and development 
to expand our knowledge of effective assessment and instruction 
for helping adolescents and adults with low literacy skills. 
This notion of catch-up literacy is another problem, in my 
view, where if we really haven't helped kids early, we need to 
develop some tools and supports to help adolescents and young 
adults learn to read.
    Mr. Chairman, research has had significant and positive 
impact, in my view, on the day-to-day work of teachers and 
schools. Various types of research have generated new insights 
into teaching and learning. I think these discoveries, 
particularly in cognitive science, present opportunities, if we 
will seize them, to achieve even greater and more specific 
impacts for kids.
    But I think we really need to invest in some programs that 
are designed specifically to leverage the knowledge that we now 
have. The work we are proposing would include much more 
extensive use of research methods such as large-scale field 
studies. It will require a lot of partnership and coordination 
with different disciplines, as well as with the schools. It's 
important to think about this work as happening in real schools 
and school systems.
    It will take time to complete. We won't get answers 
overnight. And it will be expensive. But I think now is an 
excellent time to embark on some of this work.

                      dissemination and statistics

    In addition to requesting an increase for research, we are 
also seeking increases of almost $10 million for dissemination 
activities through the regional educational laboratories, the 
National Library of Education, our ERIC clearinghouses, and 
various other electronic dissemination efforts. We want to make 
sure we have given educators access to the best information 
currently available from research and development about how to 
improve schools.
    For the activities of the National Center for Education 
Statistics (NCES), we are seeking an increase of $14 million. 
The recent reauthorization of the Higher Education Act requires 
NCES to redesign its postsecondary education data system. There 
are a number of other activities that are related to the cost 
of higher education. And we're also seeking an increase to work 
on the redesign of NAEP, our National Assessment of Educational 
Progress.

                21st century community learning centers

    Let me move quickly to the ESEA programs that we 
administer. The largest increase in our budget request is for 
$400 million over the current funding level for the 21st 
Century Community Learning Centers. These funds, as you know, 
enable schools to stay open before and after hours to provide 
children, particularly in high need areas, extra learning 
activities, along with other enrichment experiences. Mr. 
Chairman, this is one of the Department's most competitive 
programs. The demand seems to be great. The funds we are 
requesting would support about 2,000 awards to create or expand 
more than 6,000 of these centers.
    These centers would serve as many as a million-and-a-half 
children. Priority for the receipt of funds would go to 
districts that have policies for ending social promotion in the 
right way, hopefully by implementing comprehensive strategies 
that include regular assessments and enhanced support services 
for students who are at risk of not meeting State and local 
standards.

                        professional development

    Finally, Mr. Chairman, we are requesting a variety of 
increases for ESEA programs that support professional 
development for teachers. One of these is a new initiative that 
would provide for a technology teacher leader in every middle 
school over the next few years. These teachers would in turn 
train other teachers. We believe this program, for which we are 
requesting $30 million in fiscal year 2000, could be a catalyst 
for ensuring that students acquire technological literacy 
before they enter high school.
    Thank you, Mr. Chairman. My colleagues and I will be happy 
to answer any questions that you or other members of the 
committee might have.
    [The information follows:]
    Offset Folios 757 to 763 Insert here

<SKIP PAGES = 007>

    Mr. Porter. Thank you, Dr. McGuire.
    I agree with the principles you've outlined in your budget 
justification with regard to education research, that it should 
be specific and evidence-based and meet the highest standards 
of scientific rigor and peer review, and that it focus on 
interagency cooperation. I look on your office much the same 
way as I look on the Agency for Health Care Policy and 
Research, which evaluates what we're doing in health care, 
another important area of our concern.
    How long have you been on the job?
    Dr. McGuire. I am seven months old.

              status of oeri in the educational community

    Mr. Porter. Seven months old already. I want you to divorce 
yourself from the last seven months and look at your office 
from the outside, because you did for a long time look at it 
from the outside, and tell me whether it has the standing 
within the educational community that you think it ought to 
have, or did have, before you got there?
    Dr. McGuire. I have had time, I had plenty of time to study 
before taking the job. My office certainly hasn't enjoyed the 
standing that I would want it to have in the research 
community.
    Mr. Porter. That's the reason why we really have to put 
this at a much higher level of priority and emphasize it. 
Because there's a lot going on in knowing what works and 
doesn't work, what gets kids moving forward in their 
educational achievement and preparing for a role in our society 
and a productive life is so important. You're right at the 
center of that. I think what you have to do is for that reason 
very important.

                        need for budget increase

    Now, why does it take a 70 percent increase in your budget 
to do that? This is the home run question if you want to hit it 
over the wall.
    Dr. McGuire. It seems to me that a big part of our problem 
is that we have been very good at studying in what you might 
think of as basic research a number of questions and issues 
that play out over a long period of time. They give rise to 
elegant hypotheses about what works. They give us some 
important insights about teaching and learning.
    Then what we tend to do, or have tended to do, in 
education, is rush to apply these ideas without having 
carefully examined or tested our assumptions about what works 
in real settings. I was for four or five years a program 
director at the Lilly Endowment. We spent the money from the 
pharmaceutical company. One thing you learned about that 
company is that while they spent money on research, say, to 
develop a new drug, they then took their time, two, three, four 
years, to really go out and understand clearly how that drug 
would work or not.
    These are time consuming and expensive studies. They are 
involved. We just haven't done very much of that kind of work 
in education. So, regarding that $45 million increase, I hope 
you'll think about this particular class of research programs 
as sort of middle range programs. Each of them is associated 
with a problem that we think we know enough to work on, that we 
know there is considerable demand for answers.
    Each of them is really concerned with this question of 
implementation and design. Each is a matter of trying to test a 
set of ideas in the field so that we won't just be able to 
issue hypotheses about what we think works, we'll have a lot 
more to say about how things work in a range of given and 
specific circumstances.
    That's really the logic behind this year's request. I hope 
that we have more time to describe it.

                             oeri authority

    Mr. Porter. I take it you believe you can't do all this 
within the existing OERI framework, and that you need to simply 
look at everything freshly and restructure the whole office? Is 
that correct?
    Dr. McGuire. Well, I am concerned about the Department's 
ability to go after problems in very specific ways, ways that 
are designed to solve them with authorizing language that is 
sometimes very specific about how you would allocate resources. 
So that does concern me.
    I'm concerned about our having the internal capacity to 
really manage that work well. Sure, if I had my druthers, I 
would probably look for greater flexibility in our authorizing 
legislation. But I believe these programs can be accomplished 
within the authority that we have.
    Mr. Porter. Thank you.
    Mr. Jackson.
    Mr. Jackson. Thank you, Mr. Chairman.

                21st century community learning centers

    I thank you very much for your testimony, Dr. McGuire. My 
question centers around the 21st century community learning 
centers, and the request for triple funding. I'm hoping you 
could explain to the committee today, one, the justification 
for the request, and a little bit about the program.
    Dr. McGuire. Thank you. We had nearly 2,000 applications 
last year, a very strong demand for this program. I think it is 
clear to many people, when you look at the research we have 
about crime, substance abuse and things of that sort, that 
between the hours of 2:00 in the afternoon to 8:00 in the 
evening, that's when kids are most at risk, get into the most 
trouble. The field seems to be really clear about that.
    So there is a real crying out for more of these programs, 
and in some sense, we are just trying to be sure we request 
enough to try to meet more of that demand.
    Mr. Jackson. I have a school in my district that I talked 
to the Secretary about just yesterday, called Bloom Township 
High School, in my district. This is the high school that David 
Broder graduated from, noted columnist and regular talk show 
participant. Classes begin at Bloom Township High School at 
8:00 o'clock in the morning and they end about 1:00 o'clock in 
the afternoon. The 3,500 students at Bloom Township High 
School, in part because of the aging population there, are not 
capable of passing a local referendum to pay teachers more 
money.
    At this particular high school, which is a wonderful 
facility, art deco, very expensive to reproduce if they had to, 
we're now seeing higher incidence of drug abuse, of teen 
pregnancy, in part because the funding formula for that high 
school is caught in local politics. Should we raise taxes by a 
quarter or should we not. It's been that way for almost six 
elections, including special referenda, to try and overcome 
this funding problem.
    Would a high school like Bloom Township High School be able 
to apply for a community learning center grant, in terms of, at 
least how you interpret the program?
    Dr. McGuire. The program is intended to be targeted on 
urban and rural areas. But we have fairly broad definitions of 
that. It would be important to know where this school is, to 
really know if it would be eligible or not.
    Mr. Jackson. I thank you very much for your testimony 
today.
    Thank you, Mr. Chairman.

                        new research initiatives

    Mr. Porter. Thank you, Mr. Jackson.
    Dr. McGuire, I count over 10 new initiatives in your 
request. Five of these initiatives fall within the research 
institutes, and you're seeking a waiver in the authorizing law 
to fund these projects.
    Is the Department of Education giving up on having research 
institutes? Why can't these initiatives be addressed within the 
current research structure?
    For example, you propose an initiative called Technology 
Tools for the Classroom. Why can't the North Central Regional 
Laboratory in Chicago that has a technology specialty area 
coordinate this program?
    Dr. McGuire. If it's a research activity, it can be done in 
the context of our research institutes. These are internal 
structures at OERI, and they represent broad themes or areas of 
national interest. And they have important jobs with respect to 
the management, monitoring, and oversight of research 
activities. These new research requests, therefore, are not in 
my mind seen as outside the reach of the institutes, per se.
    That said, it's also the case that one could imagine, 
people bidding on some of these new research activities, in 
fact, it would be desirable from my point of view if we saw new 
partnerships formed that might include labs and existing 
research centers, that might include strong partnerships with 
individual districts or groups of districts. And inasmuch as 
these programs are designed to really worry about the testing 
and implementation of ideas in real schools, these partnerships 
are a desirable aspect of the work we propose.
    Mr. Porter. Well, it seems to me that what you're basically 
doing is simply going around the research institutes, and maybe 
there is justification in some cases. But it seems like a great 
deal.

                21st century community learning centers

    On the other hand, you maintain under your jurisdiction the 
21st Century Community Learning Centers that Mr. Jackson just 
referred to. That was once a demonstration project and now is 
full blown at huge dollars. Does that properly belong in your 
jurisdiction or shouldn't that be in elementary and secondary 
education?
    Dr. McGuire. Mr. Chairman, my own view is that OERI might 
properly have many of these service programs when they are 
small, when there are real opportunities to embed important 
knowledge in their design and so forth. I have actually asked 
that the program, should it continue to grow, be transferred to 
the Office of Elementary and Secondary Education because I 
think it's more properly situated there.
    And I don't want to obscure the core mission of OERI. I 
don't want people to be confused about the fundamental role my 
agency plays.
    Mr. Porter. You certainly can continue to study the effects 
of, and the progress made through this approach without being 
responsible for the administration of it.
    Dr. McGuire. That's correct.
    Mr. Porter. The funding for 21st Century Community Learning 
Centers is increased by 225 percent over the past three years. 
You're now requesting another 200 percent in this program. That 
would represent an 800 percent increase in the program since 
fiscal year 1996. One of the priorities of any good after-
school program should be to support what students are learning 
during regular classroom hours. How does your proposal 
emphasize educational activities?
    Dr. McGuire. Mr. Chairman, this has been very important to 
me, that these programs do enrich learning opportunities for 
young people. And we have gone out of our way to put more 
guidance in the program announcement, really help people see 
what we're talking about in that regard and try to show people 
examples of these kinds of things.
    We work hard with our panels to make sure they are looking 
for these things in the application. I am persuaded as I look 
at some of the projects that we have recently funded that there 
is a clear recognition of the need to do that. I've got a list 
of programs I'd be happy to submit for the record that give you 
an idea of what is going on there.
    Mr. Porter. I guess that would answer what are some of the 
activities that schools are currently carrying out using these 
funds. But if it doesn't, would you add that thought to what 
you provide for the record as well?
    Dr. McGuire. Sure.
    [The information follows:]

                     Examples of Project Activities

    Denver, CO, Public Schools Middle School Initiative 
provides after-school, weekend and summer programming for 
students, families and community members at three northwest 
Denver middle schools that serve largely Latino students and 
community members.
    Memphis, TN, City Schools has established eight community 
learning centers serving approximately 1,326 urban students to 
promote authentic problem solving, cooperative learning, and 
social development. Activities are offered from 2:30 until 6:00 
p.m. daily.
    Camp SUCCESS (Community Agencies, Mentors, Parents, and 
Students Using Consortium Centers to Enjoy School Success), in 
Alabama, is an after-school and summer enrichment program 
designed to provide services for families living in the 
Lakewood, Perry Heights, West Huntsville, Lincoln and Davis 
Hills school zones.
    Project Sano y Salvo (Safe and Sound), in Tucson, AZ, 
serves approximately 1000 students in grades 6-8 who 
participate in (1) integrated drug and violence prevention 
activities; (2) academic tutoring; (3) enrichment programs in 
math, science, reading, writing and technology; (4) 
recreational activities; (5) summer school; (6) club 
activities; and (7) homework assistance.
    The Watauga County LEADERS program in Boone, NC, offers 
experiential entrepreneurial leadership development daily after 
school to meet the needs of 130 rural low-income Appalachian 
sixth-eighth graders who are at risk for academic failure.
    Community School District Five in Harlem, New York, has 
established Literacy Plus Centers at Adam Clayton Powell, Jr. 
Academy and Henry Highland Garnet Intermediate School. The 
Centers are developing a joint project to study the Harlem 
neighborhood in the past, present, and future that will result 
in an artistic construction of Harlem and a film. The Center 
provides much needed support services for approximately 500 
African American and Latino students at-risk of educational 
failure. Students participate with their parents and teachers 
in: literacy and technology-based programs; integrated health, 
social services, and cultural programs; service learning and 
leadership development; parenting services and parent 
education.
    Connections for Youth: A 21st Century Community Learning 
Centers Program provides after-school and Saturday programs for 
650 students in grades 4-8 who reside in the St. Louis, MO, 
Enterprise Community, the most impoverished region in the 
metropolitan area. The after-school programs offer academic 
acceleration, enrichment and recreation activities; the 
Saturday academy focuses on science, math, and technology.
    La Familiar Community Learning Center is an after-school 
program designed to meet the academic, developmental, cultural 
and recreational needs of students of the Oakland Charter 
Academy in the heart of the San Antonio-Fruitvale neighborhoods 
of East Oakland, California. The Center, which serves 200 
primarily Latino students, operates each weekday from 2:45 
through 5:45 p.m. throughout the school year and offers two 
six-week programs in the summer.
    The Lighthouse Project is located in Bayfield, WI, a remote 
district with a geographic area of 250 square miles which 
encompass the Red Cliff Indian Reservation. A high percentage 
of the students have experienced low academic skills, 
absenteeism, conduct infractions, cultural and personal 
isolation, and alcohol/drug use; many are members of single 
parent families. One objective of the program is to connect 
skill competencies developed through education to vocations and 
the world of productive work.

                            social promotion

    Mr. Porter. Will States and locals have to adopt the 
Department's definition of what social promotion is, of what 
constitutes ``strong discipline policies,'' in order to receive 
Federal funds? Or will that be left up to them, which is 
currently the case? What role is the Department going to play 
in these kinds of initiatives?
    Dr. McGuire. We're still working out the details, Mr. 
Chairman, as to exactly how this particular program will 
support the Administration's view that social promotion should 
be ending. Ideas that are on the table right now include things 
like giving extra points or greater priority for proposals that 
reveal that a district or school has such policies. Another way 
of working on that might be to set resources aside, to help 
particularly with those issues.
    We're still working on the details for precisely how we 
will carry that out.

                         program effectiveness

    Mr. Porter. I think the support in Congress initially was 
built upon the concept that there needed to be some 
neighborhood place where young people could go when the parents 
are not home, when they might otherwise get into trouble, and 
everybody I think sees the value of having that physical place 
available to young people.
    Then, however, if you're going to get them there and keep 
their interest, obviously you've got to design something that 
attracts them to it and stimulates them and gives them some 
intellectual challenge and the like. That's why I think it's 
very important that we track and provide for them in a way that 
makes them successful and not just places. I don't think it 
will work with that alone.
    If the goal of research and dissemination programs is to 
ultimately improve teaching and learning, it seems you should 
have some measure to determine whether or not your research and 
dissemination efforts are having any effect upon teaching and 
learning. I realize this is very difficult to do in programs 
such as these. But if we are being asked to provide increased 
funding toward the goal of enhanced achievement, I think we 
need some indication of how well the money is being used and to 
what end.
    Would you consider adding more outcome oriented indicators 
to your programs such as that the academic achievement of 
students who participate in programs you have identified as 
promising or exemplary would increase above those who did not 
participate?
    Dr. McGuire. Mr. Chairman, let me answer that in a couple 
of ways. I want you to know that I take the GPRA work pretty 
seriously. We've gone to great pains since I arrived to revise 
our performance plan so that we would have more information. 
We've recently tried to reinforce the indicators, particularly 
in the area of research, where in my view they went too far to 
describe access, though that's important to me, and not far 
enough to give us any indications whether the quality of the 
work we are doing is actually improving and is of national 
significance.
    And we're going to do a better job of trying to pull this 
information together so that we're able to talk in clearer ways 
about what the returns of the research investment are.
    With respect to our efforts to identify promising or 
exemplary programs, this year our commissioned panel of 
mathematics experts set very high standards, giving exemplary 
status only to those programs which could show some achievement 
data. So we're interested in bringing achievement into the 
picture.
    Mr. Porter. Fine. I'd like you to substitute the word very 
for pretty, very serious about GPRA standards is where we would 
like to see you be. I guess you weren't here this morning, when 
I talked about this subject. It is a subject that is I think 
something on which the Administration and the Congress are on 
the same wave length. We want the money spent for real results 
for young people in our country. We all ought to be heavily 
focused on seeing that we're getting what we are paying for.

                       america counts initiative

    You requested $6.7 million for the America Counts 
initiative. Is this a new program, and is any authorizing 
legislation necessary for this initiative to be carried out?
    Dr. McGuire. It doesn't require, Mr. Chairman, any new 
authorizing legislation. It's really part of the Eisenhower 
Professional Development program that we currently administer. 
It does include a number of new activities.
    Mr. Porter. Have any funds been expended to date for this 
initiative?
    Dr. McGuire. I don't believe so, no.
    Mr. Porter. If it is not different from the Eisenhower 
Professional Development State grants program, why are we 
talking about it as a new initiative?
    Dr. McGuire. Well, we've asked for an increase in the 
Eisenhower program. And we really think particularly in view of 
the Third International Mathematics and Science Study (TIMSS) 
data that we need to try to do a few new things to really press 
on improving math and science achievement, particularly in the 
middle years, where the information we have about student 
performance suggests that we do least well.
    Mr. Porter. But this $6.7 million is on top of what you're 
asking for for the Eisenhower program, right?
    Mr. Skelly. It's an increase in the program.

                        voluntary national tests

    Mr. Porter. All right, that's fine. I noticed that you have 
again proposed funding for national tests. As you know, the 
Omnibus Appropriation law made a permanent change last year 
which prohibited such testing without specific authority. How 
much money do you estimate NAGB will expend in fiscal year 1999 
for testing activities, and how much of your fiscal year 2000 
request for the National Assessment Governing Board would be 
used for development of voluntary national tests?
    Dr. McGuire. I believe we've requested $2 million. We used 
about $2 million in 1999. We've requested $16 million for 
fiscal year 2000.
    Mr. Skelly. The $2 million in 1999 is for the evaluation by 
the National Academy of Sciences. NAGB, which you asked about, 
would have zero money in 1999, but $14 million in the year 2000 
budget.

                    congressional report directives

    Mr. Porter. Okay. Congress included $16 million within the 
Fund for Improvement of Education Program (FIE) in fiscal year 
1999 for a special competition. When is the closing deadline 
for applications with regard to this $16 million provided in 
fiscal year 1999 for applications, and what are the priority 
areas around which these competitions will be based?
    Dr. McGuire. Mr. Chairman, there is no special competition. 
The $16 million we've set aside I believe is to address 
earmarks that are in the report language.
    Mr. Porter. Without competition, you're saying?
    Dr. McGuire. No new special competition associated with the 
$16 million, that's right.
    Mr. Porter. I think the final language did require 
competition for that $16 million.
    Mr. Skelly. In effect, Mr. Porter, there will be a 
competition. But in FIE, we have what's called unsolicited 
grant authority. Institutions send in proposals, not based on 
priorities which we've established in a grant announcement, but 
for the kinds of things that were identified in the report that 
they would like to do work on.
    We review all those with peer review, assess them and 
determine which ones are the best projects and then fund those.
    It's tantamount to a competition. There is competition, 
it's just not what's normally called a grant competition with a 
specific grant.
    Mr. Porter. We're interested in the competition part of it.
    Mr. Skelly. We will do that, as consistent with the report 
language.
    Mr. Porter. Thank you.
    Mrs. Northup.
    Mrs. Northup. Thank you, Mr. Chairman. I'm sorry I was 
late. We had the HUD Secretary over at my other subcommittee. 
Between Education and Housing, it's hard to be both places.

             interagency coordination of education research

    I'm interested, first of all and most importantly, in 
teacher training and how your research helps and how we get the 
information into our teacher colleges to make sure that our 
teachers are well prepared. I know that you are coordinating 
much more closely with NICHD, and this is very exciting to me.
    Has that helped raise the level of understanding in your 
department what the whole global amount of research is? I know 
you are very familiar with the research that specifically came 
from OERI. But now that you are working in collaboration with 
NICHD, does that increase significantly the total amount of 
information we're looking at?
    Dr. McGuire. Mrs. Northup, I really hold out great hope for 
the partnerships in which we are embarking on the research 
side. So I think as we have opportunities to work with NICHD 
over the coming years, that it will allow us to reach out 
across a broader range of disciplines and expertise and that 
will be helpful. I think particularly it will be helpful with 
respect to the way we think about peer review.
    But I hold the same expectation for the work we do with the 
National Science Foundation. Because I think it will pay the 
same dividends. I think there are real opportunities for OERI 
to contribute in a meaningful way in the context of those 
partnerships, particularly in accessing the field, helping that 
knowledge get to classroom teachers and increasing the odds 
that we use that knowledge thoughtfully in the preparation of 
new teachers.
    Mrs. Northup. I have to tell you, I didn't always have that 
hope. But I have the feeling that since you've been there that 
you have a real commitment to research, to not being afraid of 
what the answer is, and to the highest levels of review.
    I worry, as departments go through change, people that did 
things differently in the past can become uncomfortable or feel 
like they're losing control of their individual department. It 
doesn't always work out easily. And I won't ask you whether 
it's worked out easily, since OERI has gone through changes. 
But I do believe the evidence is that you are very eager to 
have the highest level of research all put on the table and for 
us to seek answers through that.
    Once we look at that information exactly, it's not just 
medical information, it includes what it look like when applied 
in the classroom. And classrooms aren't always ideal. They're 
filled with humans that have different levels of talents, 
different ways and approaches of teaching children. So what 
might look great in the test tube might not, in applied 
science, always be the same thing.

                            teacher training

    But once you begin to derive pictures, what is your 
relationship with the teaching colleges and universities where 
we train teachers? What relationship have you built up so that 
you can disseminate that information?
    Dr. McGuire. You're very perceptive, Mrs. Northup. We're 
trying to build some of those relationships. In our interagency 
research initiative, a big part of the focus is on teacher 
education, particularly in the areas of reading, math, and 
science.
    I'm also optimistic that as the Department has launched, 
for the first time really, one or two new initiatives in 
teacher education, that it creates some efficient opportunities 
for OERI to connect to those initiatives, try to bring some 
information to bear on their design, but certainly take 
advantage of those initiatives as we think about our research. 
So it is a way among ways for OERI to make more strategic and 
timely connections to the rest of the Department's work, which 
is also something I think we need to do more of.
    Mrs. Northup. From my experience as being a State 
legislator, we adopted school reform, and put into place a 
whole new system and it's been fairly successful. But the one 
thing that was never contained in that bill was anything that 
addressed our universities and how teachers would teach 
children.
    So we had all these university professors that had their 
own individual philosophies about how you teach children. There 
were many times within the same school very diverse 
philosophies. And they went right on training teachers just 
like they had trained them every year they were there.
    Actually trying to get change out of those schools of 
education was really, they were implacable. So I've wondered 
about the advisability, about funding research to a whole 
school of education that would buy into teaching teachers the 
way that reflects the latest research. I'm talking about the 
whole picture of whole school reform and so forth, rather than 
just disseminating it to one professor that uses it. And I just 
wondered if you all had thought about soliciting a school of 
education that would be willing to do that, or doing research 
with one that might exist.
    Dr. McGuire. I'll welcome any thoughts you have about it. I 
think you're absolutely right, change in teacher education is 
not a simple matter. I do not mean to understate how simple it 
might in fact be. There are, I believe, a number of interesting 
networks of schools of education out there who increasingly 
recognize that unless they become more serious players, much 
more helpful and constructive with respect to improving our 
schools, that they will be out of business.
    If there was ever a time, a moment when I think they could 
be engaged, and that we use some imagination, now might be that 
time.
    Mrs. Northup. Okay, thank you, Mr. Chairman.
    Mr. Porter. Ms. Northup, do you have additional questions? 
We can do a second round.
    I will forgo mine and we will simply yield for round two to 
you.

                           types of research

    Mrs. Northup. Okay, I'll try to do these quickly.
    Let me ask you specifically about the difference between 
use-inspired and basic research and applied research. I just 
wondered what the difference between use-inspired research and 
peer review is. I would follow up with asking you how 
accountable use-inspired research is.
    Dr. McGuire. I want to make sure I understand what you mean 
by use-inspired research. It's not a term that I'm really 
familiar with.
    Mrs. Northup. I'll tell you, it's not a term I was familiar 
with, either. There might be somebody in, it's part of the 
budget explanation, on page V29, I think.
    Dr. McGuire. If use-inspired means that it is inspired by a 
real sense of demand for solving a particular problem, then I 
would argue that there aren't necessarily big differences 
between this term, use-inspired, and applied.
    Mrs. Northup. We'll find the page number for the record.
    I think, Mr. Chairman, you asked the questions about NICHD 
and about the cooperation. I think the rest of these I'll just 
submit for the record.
    I do want to thank you. I am very optimistic. I have to 
admit, Mr. Chairman, that two years ago, I would have closed 
down this department and taken all the money and put it in 
NICHD. But I do think you make a good case for the uniqueness 
of what you provide your research, and I'm eager to know what 
your findings are and how we then put them into action.
    Dr. McGuire. I appreciate it.
    Mrs. Northup. Thank you.
    Mr. Porter. Thank you, Mrs. Northup. I know that you have 
another assignment nearby, and thank you for making time to 
drop in.

                   congressional report language--FIE

    Mr. Skelly, just so we are talking about the same thing, 
you referred to unsolicited grant proposals. Our staff thinks 
you may be looking at a different part of the report than what 
we were referring to. We will provide this language to you, so 
that we know we're talking about the same $16 million. But it 
says, provided further that $16 million of the funds made 
available for Title X Part A of the Elementary and Secondary 
Education Act shall be carried out consistent with the subject 
areas outlined in the House and Senate reports. So we're 
referring to those documents in this $16 million.
    And the statement of managers, and shall be administered in 
a manner consistent with current department practices and 
polices. Same money?
    Mr. Skelly. Same language. I think there were 19 references 
in those reports----
    Mr. Porter. No, what follows after that are 19 additional 
references that are in the statement accompanying the 
conference report. The $16 million we're referring to refers to 
both the Senate and the House reports when those bills were 
adopted. The money that is, it says provided further, and then 
there's a whole list of different unsolicited grant proposals. 
That's not what we're referring to. We're referring to those 
set forth in both the House and Senate bills, the reports 
accompanying the bills originally.
    Ms. Cichowski. Mr. Porter, if I could add to this. We are 
accepting unsolicited applications for projects that were also 
listed in House and Senate bills.
    Mr. Porter. What I'll do is go over this language after we 
break and the staff can show you what we're referring to, so we 
know we're talking about the same money.

                national center for education statistics

    Mr. Forgione. Mr. Porter, could I respond to the opening 
question you asked about looking at our operation from the 
outside? I've been commissioner for two-and-a-half years now at 
the National Center for Ed Statistics, which is like the 
National Center for Health Statistics, it operates within OERI 
as an independent statistical agency. We've taken very 
seriously the GPRA provision.
    I'm very pleased to report to you that we have a report 
from our clients, local school boards, teachers, policy makers 
at the State and local level, plus the Federal level, that in 
fact 7 of our 11 indicators in the GPRA provision about 
usefulness, about quality, about the comprehensiveness of our 
data base, our clients are feeling we are serving them.
    This is a challenge, obviously, because today people want 
more data. As I go out to school districts around America, 
people want more information and there is a terrific demand for 
it.
    But I think it's very important that we share with you the 
fact that your admonition last spring was taken seriously. We 
will be redoing the survey again this year to have a second 
chance to do that.
    The final comment is, I'm very pleased to say that the 
National School Boards Association has put a page in their 
monthly newsletter to school board members called Notes from 
NCES on the baby boom echo and school crime, on the reading 
report. So we really are trying to reach out.
    But as you said, we really have to have hard data from our 
client to direct our improvements. I will pass this on to you 
and the staff about our evidence here of trying to document our 
paths forward to serve you and the Nation in our data agenda.
    Mr. Porter. Thank you for that. It's very, very important.
    I meet with a group of school administrators in my district 
on a regular basis. They tell me that this is one of the most 
important areas for them, that they really do need the work 
that you do, and need it done well. So I want to emphasize that 
I think they're exactly right.
    Dr. McGuire, we appreciate your testimony. We appreciate 
that you are a graduate of the University of Michigan.
    Dr. McGuire. I noted that about you.
    Mr. Porter. You're lucky that Mrs. Lowey and Ms. Pelosi 
weren't here, they would have found some connection to 
California and New York, I'm sure.
    We wish you well, and obviously we want to do our best to 
provide you with the resources you need to do your work. We 
will do our best within the confines that our allocation leaves 
for us.
    Dr. McGuire. Mr. Chairman, thank you very much. We 
appreciate it.
    Mr. Porter. Thank you. The subcommittee will stand briefly 
in recess for these votes.
    [The following questions were submitted to be answered for 
the record:]
    Offset Folios 791 to 819 Insert here

<SKIP PAGES = 029>

                                           Tuesday, April 27, 1999.

                        POSTSECONDARY EDUCATION

                               WITNESSES

DAVID A. LONGANECKER, ASSISTANT SECRETARY FOR POSTSECONDARY EDUCATION
GREGORY R. WOODS, CHIEF OPERATING OFFICER FOR STUDENT FINANCIAL 
    ASSISTANCE
MAUREEN A. McLAUGHLIN, DEPUTY ASSISTANT SECRETARY FOR POLICY, PLANNING, 
    AND INNOVATION
CLAUDIO R. PRIETO, DEPUTY ASSISTANT SECRETARY FOR HIGHER EDUCATION 
    PROGRAMS
THOMAS P. SKELLY, DIRECTOR, BUDGET SERVICE
    Mr. Porter. The subcommittee will come to order. We 
complete our hearings on the budget for the Department of 
Education with postsecondary education, and we are pleased to 
welcome Assistant Secretary David Longanecker.
    It is good to see you again, Mr. Secretary. Why don't you 
introduce the people you have brought with you and then proceed 
with your statement.

                       Introduction of Witnesses

    Dr. Longanecker. On my far left, your right, is Claudio 
Prieto. Claudio is the Deputy Assistant Secretary for Higher 
Education Programs. Those are most of the programs in the 
Office of Postsecondary Education. Maureen McLaughlin is next 
to Claudio. Maureen is the Deputy Assistant Secretary for 
Policy, Planning, and Innovation in Postsecondary Education. To 
my right, your left, is Greg Woods, the new Chief Operating 
Officer of the new first performance-based organization of the 
Federal Government, the Office of Student Financial Assistance 
(OSFA). And next to Greg is the infamous Tom Skelly, the 
Department's Budget Director and Acting Chief Financial Aid 
Officer.
    Mr. Dickey. I will second that.
    Dr. Longanecker. Chief Financial Officer, not Financial Aid 
Officer. That would be you.
    Mr. Woods. Good start, David.

                           Opening Statement

    Dr. Longanecker. Mr. Chairman, Members of the Committee, 
good afternoon, and thank you for the opportunity to be before 
you again and to share with you the Administration's 
postsecondary budget proposals.
    This budget builds on our accomplishments of the past 6 
years with particular focus on some exceptional new programs 
included in last fall's reauthorization of the Higher Education 
Act.
    I would ask that the full text of my prepared remarks be 
entered in the record, and I will present a brief version of 
those remarks here this afternoon.
    I am joined this afternoon by the colleagues that I just 
introduced. Greg and I will share the testimony this afternoon 
and call on our colleagues for help in answering questions. I 
will address the program budget, including implications in that 
budget for Federal postsecondary education policy. Greg will 
discuss the administrative budget, including implications in 
the budget for operating the student financial aid programs.

                      student financial assistance

    The budget we presented to you today will provide more than 
$50 billion in student and institutional assistance to assist 
more than 8.7 million American students attending more than 
5,500 postsecondary institutions in this country and abroad.
    In addition, more than 12.7 million families are receiving 
$7.5 billion in benefits for the first time this year from the 
tax credits that were adopted in 1997 to encourage all young 
people to attend postsecondary education and all adults to 
consider continuing lifelong learning.
    Most of this proposed funding focuses on the principal 
Federal postsecondary role of assuring access and equity in 
higher education. The bulk of this is in the form of student 
financial assistance. We have proposed an increase in the 
maximum Pell Grant to $3,250, a 4 percent increase over last 
year. At this level, almost 4 million students will benefit 
from the program this year and next year.
    As you can imagine, we would have liked to have done more, 
but the budget discipline imposed by the budget caps precludes 
our doing all that we would like to do in this program, and, as 
you know, increasing the Pell Grant maximum is not easy. Every 
$100 increase in the maximum costs about $300 million in new 
Federal funding.
    The Secretary has indicated, however, that if additional 
funding becomes available, one of his highest priorities would 
be increased funding for the Pell Grant program, and that would 
be wonderful. However, some of the proposals being discussed, 
while well-intentioned, would not have their fully intended 
effects because the increase in Pell Grants would be offset by 
reduced tuition tax credit benefits, resulting in less benefit 
for the students than was intended by the increase in Pell. We 
designed those programs to dovetail so an increase in one to 
some extent has an offset in the other.
    So the only caveat we would have here is that if we are 
able to garner more resources for Pell, let's work together to 
make sure that they are wisely spent and achieve the purpose of 
providing additional benefits for students.
    We also proposed to provide $41.6 billion in loans to 6.2 
million students and parents. With respect to the loan 
programs, we have proposed a number of initiatives designed to 
accomplish three general objectives: reduce students' debt 
burden by extending until next year the lower interest rate for 
consolidation loans within the Direct Loan Program; adjust in a 
variety of ways how guarantee agencies operate and are financed 
to improve their efficiency and effectiveness; and reduce the 
yield for tax-exempt lenders, which today benefit from an 
unjustifiably high yield, particularly given the tax advantage 
that they receive.
    I know that these ideas appear not yet to have caught hold 
in Congress, and for the life of me, I can't figure out why. I 
ask you to take a close look at these ideas because they are 
very good public policy, and we would hope they might be 
adopted.

                       higher education programs

    We also work to expand access in equity through programs 
other than our financial aid programs, and this budget includes 
a number of particularly important initiatives in this regard. 
We propose a 5 percent increase in the highly regarded TRIO 
programs. That is quite a substantial increase considering that 
none of the TRIO programs are slated for competition under this 
budget.
    To complement these TRIO programs, we propose doubling 
funding for the very popular Gaining Early Awareness and 
Readiness for Undergraduate Programs (GEAR UP), which is 
building new partnerships between higher education and the 
Nation's most distressed middle schools to create a culture of 
achievement that will broaden successful participation in 
postsecondary education for the students in those schools.
    It currently appears that we will be able to fund only 
about 10 to 20 percent of the proposals that we are receiving 
for the GEAR UP program this year, which indicates why we 
believe additional funds are needed for this program as it 
ramps up.
    Related to this effort, we propose $15 million for efforts 
to improve information for prospective students and their 
families about postsecondary education's importance and 
possibilities, and we are also proposing a $35 million 
initiative called College Completion Challenge Grants to 
explore ways in which we can enhance persistence and completion 
within American higher education. This issue of finding ways to 
increase persistence and completion was perhaps, at least from 
my perspective, the most substantial policy thrust that we 
missed in reauthorization last year.

                  promoting improvement and innovation

    The Department has responsibilities in areas other than 
just promoting access and equity. We also manage and provide 
leadership in various efforts to encourage improvement and 
innovation in American higher education. We pursue this Federal 
interest both through established programs and innovative new 
programs created via last year's reauthorization.
    Our budget proposal includes funding to restore the 
competitive nature of the highly regarded FIPSE program, as 
well as for our graduate education programs, to enhance the 
developing institution's program, particularly those elements 
supporting minority-serving institutions, and to maintain our 
international education focus.
    And we propose expansions of two newly authorized programs. 
For the Teacher Quality Program we have proposed a substantial 
expansion of a specific component dealing with teacher 
recruitment, an area that is of particular interest to the 
Secretary. We are also proposing expanding the Learning Anytime 
Anywhere Partnership Program, the LAAP program, which we 
believe will help ensure that developments in asynchronous 
learning will be of the highest quality possible, and for which 
we will be able this year to fund only about 5 percent of the 
applicants.
    We received phenomenal response to this. We expect to make 
about 50 grants, and we have had about 650 applications arrive 
to date. We have accompanied these requests with our 
performance measures consistent with the spirit of the 
Government Performance and Results Act (GPRA). Your perusal of 
those measures will note that we have made substantial 
progress, that many of the measures are quite robust, but that 
some still need further development. This has proven to be very 
difficult work, but we are absolutely committed to it and 
committed to doing it well.
    As you can see, we have an integrated, modestly ambitious 
budget request for postsecondary education this year, one that 
focuses on two themes, access to success in postsecondary 
education and improvement through innovation in our 
institutions.
    With that summary of our program budget, let me please turn 
the testimony over to Greg Woods, who will speak on the 
administrative budget for the Office of Student Financial 
Assistance (OSFA), and I look forward to receiving your 
comments after Greg has completed his remarks.
    [The statement of Dr. Longanecker follows:]
    Offset Folios 828 to 832 Insert here

<SKIP PAGES = 005>

                           Opening Statement

    Mr. Woods. Mr. Chairman, Members of the Committee, thank 
you for the chance to tell you about how we are transforming 
the Office of Student Financial Assistance into the Federal 
Government's first performance-based organization. With your 
permission, I would submit my complete remarks for the record 
and make a brief summary here.
    As you may know, I spent most of my adult career in the 
private sector as a CEO. In 1993, I was running a technology 
company doing software development down in New Mexico, but I 
jumped at the chance to leave that and come join the 
Administration's reinventing government team. What drove me to 
that was the idea that what that meant was bringing 
businesslike practices, the focus on customers or focus on 
results, to Government and a chance to make a difference in 
that regard.

                     performance-based organization

    One of the very first things we latched onto in the 
National Partnership for Reinventing (NPR) Government was the 
idea of performance-based organizations. The Congress took that 
idea and together with the Department of Education turned it 
into a specific reality. Now, I have the unparalleled 
opportunity to prove what I thought was going to be true all 
along, that given the right chance, the right circumstances, 
Government could, in fact, perform in a manner that was equal 
to the best in business.
    This chart over here shows where we begin. There are copies 
of that on each and everyone's desk top.
    [The information follows:]
    Offset Folio 835 here

<SKIP PAGES = 001>

                          aid delivery system

    Mr. Woods. What the chart shows, and I note that it is 
labeled ``simplified view,'' are the business processes, the 
major computer systems and the interactions that we have at 
this point in time with our partners and customers. I think the 
chart looks like a large hair ball representing the 
interactions that have been built up over time, but our basic 
job is to keep that system running, operating well, delivering 
the services it now delivers. At the same time we have to 
reengineer the whole thing to introduce today's technologies 
and best commercial practices, applied in a way that will drive 
down the unit costs of our operation. We have to drive those 
costs down because the workload is climbing. Over the next 5 
years, we expect the workload in the Federal Family Education 
Loan (FFEL) program through increases in the loan portfolio to 
grow by about 30 percent. In the area of student aid 
applications, we expect at least a 10 percent increase in 
volume, and the largest increase of all in the Direct Loan 
program where we are looking at about a 30 percent increase in 
the direct loan portfolio that we service.
    We are off to a pretty good start in meeting these 
competing challenges. In January and February, we saw a huge 
demand for loan consolidation, much larger than, of course, we 
had ever seen in the past, and we had promised to turn that 
around in 90 days; that is, deliver a response to a loan 
application in 90 days. We reengineered the process and 
actually managed to deliver in 60 days or less without a hitch.
    We also just finished reengineering the Free Application 
for Federal Student Aid (FAFSA) application, our application 
for student aid. Our peak period there is March. We 
reengineered that process as well, and we responded there 
faster than we had last year. We also avoided kicking in a 
backup contractor which had cost us money in years past.
    By the way, last month we also completed the Y2K conversion 
of all our major systems.
    Reengineering like these and others has helped us to pry 
loose the monies we need to make immediate investments in the 
PBO envisioned by the Congress. That would be a PBO that can 
handle the increasing workload with better service and the 
tools that we need to drive down our unit costs.

                            pbo investments

    Here are a few of the key things that we have invested in. 
We created a Customer Service Task Force. It is out there 
talking to our customers, our students, and to our partners, 
schools, banks, guarantors about what is broken and how to fix 
it. So far they have got a preliminary list of 300 
recommendations, and they will deliver us their final report 
for action in July.
    We are also creating a computer systems modernization 
blueprint that will show us how to invest in order to move from 
current cumbersome business processes and stovepipe systems to 
integrated systems that will serve our customers and satisfy 
our partners. We will have that blueprint this summer as well.
    We are also designing a financial management system that 
would equal the best in business. By investing in first-rate 
financial management tools, we can move from current largely 
manual processes to automated processes that will cut errors 
and drive down costs for the PBO and for our partners. That 
design will be done by September.
    The task force recommendations and the systems changes will 
shape our performance objectives that we will submit in final 
form to the Congress in September, according to the law. Right 
now we are operating under an interim set of measures that will 
get us to that September time frame.
    Finally there is one more thing we need by way of 
significant investment, and that is a better workplace for the 
FSA employees. Right now the workplace is overcrowded and 
literally unsafe. I would be delighted to host any member of 
the Committee who can make time to visit our buildings and see 
the situation under which people are trying to reinvent student 
financial aid.
    We began this fiscal year 1999 with investments in all 
these areas. I have talked about and have identified $74 
million that we would invest in these efforts in fiscal year 
2000. We have to move quickly because that workload keeps 
growing, but the budget doesn't. After fiscal year 2000, both 
the section 458 of appropriations and the President's budgets 
are flat. All this adds up to a wonderful challenge for us, a 
challenge that I am sure we can meet with your help, and I 
would be happy to answer any questions that you or members of 
the committee would have at this time.
    [The statement of Mr. Woods follows:]
    Offset Folios 840 to 844 Insert here

<SKIP PAGES = 005>

                         impact of student aid

    Mr. Porter. Mr. Longanecker and Mr. Woods, thank you for 
your statements. I have not heard either of you address a 
problem that we discussed last year that I think nobody is 
really addressing, and maybe they are and I don't know about 
it. But, Dr. Longanecker, you have a budget of $50 billion in 
round figures and headed toward $52 billion. How much of that 
either directly or indirectly ends up in the treasuries of our 
Nation's institutions of higher learning?
    Dr. Longanecker. Well, it depends on how you count, but 
just to give you a sense of that $50 plus billion, most of 
that, of the $52 billion, roughly $50 billion of that, will go 
in the form of student financial assistance. The direct grants 
and contracts with institutions of higher education are less 
than $2 billion. So most of that is going out in the form of 
student financial assistance. And the reason I say it depends 
on how you count is that the aid pays for the direct 
educational expenses, for the room and board, for the books and 
fees and other things. So it sort of depends. But virtually all 
of that aid will funnel through those institutions of higher 
education, and a large share of that will go toward paying the 
direct educational expenses that are incurred as a cost of 
doing business.
    Mr. Porter. And this is a tremendously high priority for 
our country. This is, except for the private sector and some 
financial assistance provided by other governments, the primary 
place where students get an opportunity to attend an 
institution of higher learning and prepare themselves to take 
their place in society as productive citizens and raise all of 
our standards and move the country forward.

                       higher education inflation

    My difficulty is that as we commit more resources here, 
they aren't doing one thing that I think is a primary goal, and 
that is providing greater access, because the institutions of 
higher learning keep raising their costs on us. Now, can you 
and Mr. Woods give us some idea--I believe I am correct in 
saying that higher education inflation is running double what 
other inflation is running in society, and every time we put 
more money in these programs, they jack up tuitions or costs 
even higher, and we lose one of the things we are trying to 
buy, and that is greater access and more students with more 
resources to attend. So can you, Mr. Woods, give me some 
comments on that subject and what you think we can do about it, 
if anything?
    Mr. Longanecker. I think actually there are some very good 
things that happened in the reauthorization of the Higher 
Education Act last year and also coming out of the Cost 
Commission, the congressionally-mandated Cost Commission, which 
I think has done some very fine work in laying out the issues 
and the underlying causes.
    Like almost every other business, as inflation affects the 
price of goods that are purchased by institutions of higher 
education in order to provide labor and material--to provide 
the service that they provide--they will pass that cost on. 
Now, the question is and the difficulty is that they have been 
charging substantially more than the Consumer Price Index 
increases every year, and you are right, right now that is 
running at about double the rate of inflation. Generally the 
rule has been it generally tends to run between 2 and 3 
percentage points higher than the Consumer Price Index (CPI), 
and because the CPI is now between 2 and 3 percent, it ends up 
being around double.
    There are a couple of legitimate reasons for that, and then 
there are some other reasons that people question that suggest 
maybe they are not legitimate. The legitimate pieces are that 
this is a very labor-intensive industry, and actually wages 
have been increasing more rapidly than CPI. In order to remain 
competitive in attracting strong people to the professoriat and 
other jobs in universities, they have to keep reasonably 
competitive wages, and that accounts for some of the cost 
escalation.
    They are also, one can argue, often times on the cutting 
edge of activity. So to increase the productivity of society 
or, so goes the arguments, they sometimes have to be on the 
front end of that.
    Mr. Porter. If you are a young person that has limited 
resources, and you get a Pell Grant that goes up $125, but your 
expenses go up $500, you are that much less able to make ends 
meet and get the education that we are trying to get for that 
young person.
    Dr. Longanecker. I think it is also true that the higher 
education industry has not focused as much on trying to 
increase productivity as they might have. That is why you find 
many State legislators expressing the same kind of concerns we 
have been talking about at the Federal level the last few 
years.

                federal response to rising college costs

    There are some things we are trying to do. One of the 
things we have done is we have financed a competition in the 
FIPSE program to provide grants to institutions that are 
working on innovative ways to reduce the costs of postsecondary 
education, and we were able to do a competition in that last 
year. We weren't able to do that this year. We had intended to, 
but the nature of FIPSE funding this year precluded our being 
able to conduct that competition. We believe that we have some 
very fine ideas that we were able to fund through the first 
competition in that area that will be very helpful in helping 
institutions understand how they might better achieve that.
    With respect to student financial assistance, we did not 
increase the loan limits last year, and, in fact, I think that 
was a good idea. Some people had recommended that we do that, 
but, in fact, the only area where the research shows that there 
might well be a direct effect on higher education prices, is 
not with grants. But there does seem to be some evidence that 
increases in loan limits--there is some controversy over this, 
but I believe the data is fairly clear--that increases in loan 
limits have contributed to increases in price. And so I think 
holding the line on loan limits eliminates the incentive to 
pass that cost on to the consumer.
    So there are some things we have been trying to do. The 
Higher Education Act also required that we collect information 
on costs and develop, if you will, a price and cost index with 
I think the Department of Commerce, Bureau of Labor Statistics 
(BLS). I think it is BLS that we are working with to develop 
these indices so we have a much better way of tracking this, 
and understanding the factors that are contributing to this so 
that we can be more sophisticated in our ways of managing that 
in the future.
    Mr. Porter. Mr. Woods, while you are new on the job, do you 
want to comment on this as well?
    Mr. Woods. Well, the division of responsibility within the 
Department is such that the policy decisions are made within 
the Secretary's office by David. But I would say that from my 
point of view, operating this system, you are absolutely right. 
The dependency on this program is tremendous. I can't go 
anywhere that I don't find a family that has some member that 
is involved in the student aid program trying to pay back a 
debt; tremendously grateful, but nonetheless faced with this 
increasing burden.

                        streamlining operations

    From my point of view, operating this system, I see the 
possibility to actually reduce costs to these school partners 
by streamlining that system that we are talking about over 
there, and in so doing I can cut into the administrative burden 
that is faced on campus. Now, what fraction that is of their 
total cost I don't know, but I am sure it is quite small. I can 
make a dent in it, but I don't think I can alter the basic 
equation, and of course I can't guarantee you what happens to 
the money after it is put back in that system, but we can sure 
make it a much more streamlined approach.

                           distance learning

    I would urge that maybe David will offer an opinion on one 
other thing. That would be the idea of distance learning. I see 
a strong competition coming among colleges and universities, 
and other schools for that matter, in this regard, and that 
kind of a competition should be a lower-cost delivery system. 
That may help us in the long term.

              preserving access to postsecondary education

    Mr. Porter. I realize it is a policy decision, and I 
suggest that if you save administrative costs, that will end up 
in higher what you describe as labor costs, but it is a very, 
very frustrating subject, and in a certain sense I feel like we 
are sitting here spinning our wheels and providing more and 
more money, and not getting more access, and in some cases 
substantially less access. That is not a very good result.
    I have actually sat here thinking to myself that I would 
offer an amendment in markup that would say that if you are a 
school whose rate of inflation has been twice as much as the 
average, you couldn't get any student to be able to expend his 
or her grants at your institution, but obviously that would be 
a mindless approach, but it might get somebody's attention, 
because I don't think we are getting anybody's attention, 
David.
    Mr. Longanecker. Mr. Chairman, I think both need our 
attention, and they will be very compelling issues for us. 
While I believe distance learning will help us on the one hand, 
on the other hand we are going to have such substantial 
increases in demand for higher education, both from the 
traditional age youth who are coming--we know they are coming 
because they are in high school today--and from the 
nontraditional students who are taking our lead and becoming 
more involved in lifelong learning.
    They are listening to that--with that increase in demand, 
the institutions still have a limited supply, and the normal 
laws of economics would suggest a further increase in price 
when supply is limited and demand is exceptional. So we are 
going to have to be really vigilant and thoughtful as we move 
along to try to find ways to assure that we continue toward our 
goal at the Federal level.
    Our principal reason is to keep access open to higher 
education, and that is going to take a great deal of attention 
over the next few years because some of the natural sources 
would mitigate against that.
    Mr. Porter. Otherwise all you are doing is just 
transferring the money from taxpayers to the institutions and 
not getting any real return.
    Dr. Longanecker. Right.
    Mr. Porter. Mr. Dickey.
    Mr. Dickey. Mr.--is it Dr.
    Dr. Longanecker. Sure.

                          trio versus gear up

    Mr. Dickey. I want to talk to you about TRIO. We have three 
attacks. I contend that if you leave a good program in 
government long enough, it is going to be ambushed, diluted, 
and eventually it will turn into pork used for political favors 
and hiring people and so forth. I am worried that TRIO may be 
going that way. The first step is happening. It is being 
ambushed by three different programs that you are promoting: 
GEAR UP, College Completion and Preparing for College.
    Now, I think I understand about TRIO, and I think you do, 
too, in that you said in your testimony that the Federal TRIO 
programs are among the most effective means of helping 
disadvantaged students prepare for and succeed in college. Now, 
we are starting to dilute its purpose and its effectiveness 
rather than adding money--more than $30 million--rather than 
adding money so that more disadvantaged students and regular 
students can, in fact, enjoy the benefits of these programs. We 
are now starting to siphon off the money into GEAR UP, College 
Completion and Preparing for College.
    Before I give you a chance to comment, and I like this idea 
that I talk all the time and you don't have any chance to talk, 
my information is if we took $150 million which you are asking 
in addition to GEAR UP and the other two programs initiated, 
TRIO could serve an additional 90,000 students, 68,000 of those 
being disadvantaged middle school students. Why would we not 
want to take the infrastructure that is so successful and be 
fit up rather than starting competing programs that compete 
maybe on the margins and at the core? You have 30 seconds.
    Dr. Longanecker. I think TRIO is a wonderful program, I 
think GEAR UP is a wonderful program, and they serve very 
different purposes. That is why we are proposing a substantial 
increase in TRIO, 5 percent increase in TRIO.

                         trio competition cycle

    One of the reasons we don't have a more ambitious request 
this year is that none of the TRIO programs--the existing seven 
TRIO programs is how we count in the Department sometimes--none 
of the major programs are up for competition this year. So they 
are in the cycle where next year, not this year but next year, 
they will be competing--I believe it is Upward Bound--no, 
Support Services and the following year Talent Search and the 
following year, Upward Bound or something like that. But, this 
is the one year, the layout year, where we don't have a major 
program up for competition. We make those grants on a multiyear 
basis, and there is always a lag year. So it was the logical 
year for ramping up GEAR UP, which is extremely popular. A 5 
percent increase will allow us to expand TRIO--the existing 
TRIO programs that are in there. So we didn't see that as 
unambitious. We certainly don't see it as siphoning off that 
program.
    Mr. Dickey. It is tokenism.
    Dr. Longanecker. Five percent is twice the rate of 
inflation.
    Mr. Dickey. I understand, but compared to GEAR UP, which is 
a 100 percent increase.
    Dr. Longanecker. But GEAR UP is a brand new program.
    Mr. Dickey. That is my point. It is a brand new program. It 
does not have any results.

                      programs similar to gear up

    Dr. Longanecker. Let me address that, because the research 
results on the approach in GEAR UP, which is very different 
than TRIO, are exceptionally strong. The I Have a Dream 
program. Talk to the I Have a Dream people in Arkansas who put 
those programs together. They can show you the demonstrated 
substantial results.
    Mr. Dickey. Dr. Longanecker, they don't even know where my 
office is. I never talked to--what is it? Dream Up program?
    Dr. Longanecker. I Have a Dream.
    Mr. Dickey. I Dream Up a Program?
    Dr. Longanecker. No, I Have a Dream program. I am sure they 
will be in to chat with you.
    Mr. Dickey. What I am saying we are not even geared up. 
TRIO is at my door every month. I am at their door every month.

                        TRIO PROGRAM DIFFERENCES

    Dr. Longanecker. Many of the TRIO program participants are 
looking at becoming partners in GEAR UP, but here is the 
fundamental difference between them. TRIO is a program, an out-
of-school program, that basically works with at-risk youth to 
help them. I believe it is a good program; a good, strong 
program. I do not believe that the Talent Search--if we were to 
put money into TRIO, Talent Search, which is the one that 
portends to reach out to middle school students, would not be 
the program, from my perspective, to put money into. If we are 
going to put money into TRIO, I would put it into Upward Bound 
or Support Service. Those are the programs that the research 
has shown are most effective.

                            TRIO APPLICANTS

    Mr. Dickey. Does your research show that there are more 
people asking to get into the program than we are able to 
accommodate?
    Dr. Longanecker. Not appreciably. That is the other point I 
would make. We are funding about 70 percent of the applicants 
for the TRIO programs, and from our perspective as the staff 
managing this program, we are funding today most of the strong 
programs that are coming forward.
    Mr. Dickey. So you don't think we could find 90,000 
additional students for middle school now. You don't think we 
could----
    Dr. Longanecker. Absolutely not.
    Mr. Dickey. We could not expand it.
    Dr. Longanecker. Not effectively.
    Mr. Dickey. Then why are we using GEAR UP to do it?
    Dr. Longanecker. Because GEAR UP is a different program.
    Mr. Dickey. You are aiming at the same age?
    Mr. Longanecker. Same age, but in school. We are working 
with those middle schools.
    Let me give you two statistics. In Talent Search, Upper 
Bound, Support Services, we are funding about 70 percent of the 
applicants. In GEAR UP this year, we will fund 10 to 20 percent 
of the applicants. We have very, very strong proposals in GEAR 
UP that we aren't going to be able to fund this year. We know 
that more than 10 to 20 percent of those applicants are going 
to be exceptionally able to serve those students.
    I feel very awkward because I am a strong proponent, and I 
really appreciate and value the TRIO programs. But we have a 
very good idea, this GEAR UP program, that we are trying to 
ramp up as a new program. You have to--if you are going to 
bring in a second cohort of students, we have to have 
additional funding, otherwise the funding will simply go to 
serve the existing programs that we fund this year. We won't 
have the chance to ramp up the people that are putting together 
ideas who want to come in the second year. That 80 percent that 
aren't able to be funded in the first year won't have an 
opportunity in another year. So from our perspective--there is 
another very fundamental difference.
    Mr. Dickey. Excuse me, Dr. Longanecker, I am going to have 
to--I don't have but 5 minutes. I need to move into something 
else, but I want to someday ask why we keep new programs going 
all the time, all the time new programs. We should settle on 
the ones that are working.
    Dr. Longanecker. I will come up and chat with you.
    Mr. Dickey. Please do and tell I Dream Up a Program to do 
so too.

          HISTORICALLY BLACK COLLEGES AND UNIVERSITIES (HBCUs)

    The HBCUs, we have asked for a 10.9 percent increase.
    Dr. Longanecker. That is correct.
    Mr. Dickey. Now, you have asked for 100 percent on GEAR UP. 
Why would there only be a 10 percent increase for HBCUs?
    Dr. Longanecker. Well, those are mature programs that have 
been established over a long period of time, so you basically 
have somewhat the same argument. We are providing a substantial 
amount there. That is, from our perspective, a very substantial 
increase in support to those institutions above the base, but 
we are really talking about established programs where we are 
looking at incremental change rather than the new programs 
where we are basically still in the process of implementing the 
basic core idea.
    Mr. Dickey. University of Arkansas at Pine Bluff is a 
member of that group. You have line item $5 million for Howard 
University. Could you also line item something for UAPB?
    Dr. Longanecker. Howard University is financed differently 
than any of the other institutions. Howard University is 
financed separately and has its own separate line item. It 
doesn't receive any funding through Title III of the Higher 
Education Act.
    Mr. Dickey. I was afraid you were going to say that.
    Thank you, Mr. Chairman.
    Mr. Porter. Next you are going to want a Federal charter 
for Pine Bluff.
    Mr. Dickey. I am so glad you brought that up.
    Mr. Porter. I don't want to give you ideas.
    Thank you, Mr. Dickey.
    Mr. Bonilla.

                          TRIO VERSUS GEAR UP

    Mr. Bonilla. Thank you, Mr. Chairman. I want to echo my 
colleague's concerns, Mr. Dickey, about TRIO versus--I hate to 
use the word ``versus,'' but we are looking at a program that 
is obviously being looked at to plus up quite a bit, one that 
has yet to prove its effectiveness. I understand and I wrote 
down some words you just used in describing the programs, some 
good ideas, some good proposals that are out there for the GEAR 
UP program, but I guess I have the same concern that Mr. Dickey 
has. You are looking at a very low increase for TRIO, which we 
all agree here is doing a great job. You know, I am a product 
of TRIO. I meet with the folks in the program regularly back 
home as well as from around the country. This has been 
successful no matter what part of the country you are in. And 
there is just great concern that GEAR UP has yet to prove its 
effectiveness. Give me some information that shows the 
Subcommittee that GEAR UP is worth giving this much money based 
on proof of performance.
    Dr. Longanecker. What I will do is put together a bevy of 
information for you. And keep in mind I really like TRIO. I 
want TRIO to increase. I want us to use the TRIO funds as 
effectively as possible. And we saw a 5 percent increase in 
TRIO, a mature program, as a substantial increase given that 
there is no competition this year. That would allow the 
existing programs to actually get larger and more intensive in 
their services, which is--intensity of service is what we found 
really makes a big difference in TRIO. So I am very supportive 
of the TRIO budget.
    GEAR UP, what we will do is put together the evidence on 
this general approach, and the big substantial difference here 
is that TRIO is going to combine the resources of our best part 
of our--what I think is the best part of our educational 
system, our higher education system, with one of our more 
troubled parts of our education system, the middle schools, and 
use those resources in a blended way to help reform middle 
school education, to change the culture of achievement, so that 
students who are in those troubled institutions can move 
forward. So it is working with the entire cohort of students 
rather than a select group, which is what TRIO works with. It 
is working with the teachers and the faculty within that school 
rather than as an out-of-school activity, and it is also a 
fundamental difference that TRIO basically pays for the whole 
program.
    Mr. Bonilla. I understand what the goal of GEAR UP may be, 
but my question was about the proof of performance that would 
justify such an increase----
    Dr. Longanecker. What we will do is provide you with the 
evaluations of what's been done with I Have a Dream programs, 
the Ford Foundation's Project Grad programs, other programs 
around the country that served as our model as we thought about 
how to put this together and formed it. And there is a 
substantial amount of research that shows that that general 
approach works.
    The other evidence we have is the concept and the 
popularity of the concept. Despite the requirement for a 50 
percent match, we have had--I guess 700 letters of intent from 
potential grantees, which means we will have more than that in 
final number of grantees, a tremendous interest in this program 
as we are moving along.
    [This information follows:]
    Offset Folios 863 to 869 Insert here

<SKIP PAGES = 007>

    Mr. Bonilla. We will be anxious to look at that proof of 
performance, because as this committee evaluates where those 
dollars should go, we want to make sure that programs like TRIO 
are plused up enough. I know there are a lot of people out 
there, and there is some history. I am not going to get into 
who's been touting GEAR UP, but some people like to stand up 
and say, boy, you ought to hear my great new idea. I am proud 
to say we have an old idea and very effective, and if something 
is working well, we don't need to change it. We just need to 
give it more fuel for its engine.
    Dr. Longanecker. We agree, and we will work over time to 
try to increase TRIO. TRIO has received substantial support in 
the last few years and deserves to, and we will continue that, 
but we have a different idea here which we think has tremendous 
potential for us to improve access to postsecondary education. 
The reason we focused on the middle school is we were losing so 
many people at that young age, and Upward Bound, which focused 
on high school, and Support Services, which worked on college 
students, did a fine job when they got them, but we had already 
lost a lot before that.

                     voluntary flexible agreements

    Mr. Bonilla. I want to move now, David, to the Voluntary 
Flexible Agreement (VFA). It is a different subject. I 
understand the Department has decided not to include VFAs as an 
item in the negotiated rulemaking process to implement the 
reauthorization of the Higher Education Act. I am concerned the 
Department has not chosen to include this discussion in a 
public forum such as a rulemaking process, so specifically my 
questions are why did the Department omit VFAs from the public 
rulemaking process, and will you reconsider the Department's 
position to allow public participation? That is the first 
question.
    The second one I have in this area is what impact do you 
anticipate VFAs will have on open and fair competition in the 
Federal Family Education Loan Program? So if you will address 
those two, I would appreciate that.
    Mr. Woods. We have begun sessions with interested lenders 
and guarantee agencies. I met with the group myself last week 
in getting their help in informing what would be our 
solicitation and review process to arrive at voluntary flexible 
agreements with the guarantors. We felt that we could, in fact, 
conduct a much more open set of discussions, get more input, 
involve more people, by doing it outside the negotiated 
rulemaking sessions. It didn't seem like we would sacrifice 
anything if we instead held a series of public meetings and 
discussions with interested parties. We will continue to do 
that, and--you know, we are making public announcements in the 
Federal Register and keeping people apprised of this process in 
the trade press. We also have notices that we are putting up on 
our Website.
    The discussions I had last week were very, very useful. We 
arrived at a timetable, tentative timetable, that we are 
sharing with the rest of the community for the different steps 
in our process that would have agreements in place by the fall 
of this year and would ensure a broad participation in the 
process.
    We believe that the agreements can, in fact, encourage 
competition by introducing innovative ideas. The people I sat 
with at that table, presidents of different guarantors, really 
had some interesting things that they were looking at in 
partnership with lenders and schools that would try to remake 
this system into something to be more efficient for all the 
parties.
    So, I was very encouraged by the kickoff, and I think that 
the guarantor participants in that process were similarly 
encouraged. That was the feedback I got from the National 
Council of Higher Education Loan Programs (NCHELP), who had 
helped us organize that. So we have mechanisms to do this, to 
get this kind of dialogue and to get this kind of encouragement 
without going through the formality of negotiated rulemaking, 
which seemed, in fact, in my informal discussions with many of 
the guarantors to stifle the kind of conversation that we were 
all hoping for. I think what they were afraid of, sir, is that 
if we didn't do it in negotiated rulemaking, we'd do it in the 
closet with the light off inside the Department, and I think I 
am showing them otherwise.
    Mr. Bonilla. So you think the impact VFAs will have on open 
and fair competition then would be good on the Federal Family 
Education Loan Program?
    Mr. Woods. I think it could be very, very important. I am 
looking at it as one of my primary tools to work in partnership 
with this lending and guarantor community to structure a 
different way to go about this business.
    Mr. Bonilla. I appreciate your time, and I have some 
questions for the record that I will be sending in. I would 
appreciate that you would all answer them appropriately.
    Mr. Porter. We will have a second round, if the gentleman 
from Texas wants.

                         administrative budget

    Dr. Longanecker, as I understand it from your budget 
justification, your administrative budget is $789.5 million. I 
also understand there is an additional $52 million for rent and 
other support services provided by other administrative 
accounts. On a comparable basis, what are the fiscal year 1999 
estimates and the fiscal year 1998 actuals for your 
administrative account, including both mandatory and 
discretionary appropriations?
    Mr. Longanecker. That is a real tough question, so I am 
going to let Tom answer it.
    Mr. Skelly. Mr. Porter, I have got the 1999 and 2000 
numbers. There is $789,000,000 [Clerk's note.--Later corrected 
to $789.5 million.] in the year 2000 for the Office of Student 
Financial Assistance. That compares to $672 million in 1999. 
For the other offices that also support the Office of 
Postsecondary Education, you cited a figure of $52 million for 
year 2000. That number would be $51.7 million for 1999. The 
numbers in 1998 for other offices for those--which include 
things beyond the Office of Student Financial Assistance, but 
within the Office of Postsecondary Education, would be similar. 
The amount for the Office of Student Financial Assistance in 
1998 was less than that. We have had growth in the 
administrative costs for the Office of Student Financial 
Assistance in 1999 and in the year 2000--particularly as the 
loan volume in the Direct Loan Program has grown. Both the new 
loans that we make and the loans that have gone into repayment 
that we have to service and collect upon have grown. It will 
continue to grow.

                    direct loan administrative costs

    Mr. Porter. Thank you, Mr. Skelly.
    Mr. Woods, it is my understanding that the spending for the 
administrative costs of the Direct Student Loan Program 
increased $117 million this year. That would be almost a 17 
percent increase for a total of $555 million. In 1996, the 
administration proposed an accelerated phase-in of the Direct 
Loans Program that would have had Direct Loans constituting 100 
percent of all new loans by the end of fiscal year 1999. At 
that time the underlying statutory amount for Direct Loans was 
also $555 million. In effect, in 1996, the administration told 
the committee it could administer 100 percent of all loans as 
Direct Loans for $555 million. Now you are asking for $555 
million to administer 35 percent of the loans.
    I know loan volume has gone up, but the increase was 
projected in 1996 and should have been included in your cost 
projections for that year. Why has the cost of administering 
the program increased so much?
    Mr. Woods. I will ask Tom to help me with a little bit of 
the history here on the math in prior conversations.
    One thing I would like to clear up at the outset, the $115 
million increase in the appropriated amount is not just for the 
Direct Loan Program, but rather for Direct Loan and FFEL. I 
think that Tom can clear up the history on that mathematic. The 
way we see it today, we have one-third of the loan volume in 
Direct Loans and two-thirds in FFEL. That is perfectly correct.

                      student aid servicing costs

    We are looking at an increase in the Direct Loan Program 
over these 2 years of about doubling in terms of the loan 
portfolio that we have to service, and about 80 percent of the 
budget increase that we have--excuse me--about two-thirds of 
the budget increase that we are looking at, that $115 million, 
is associated with that loan servicing all by itself. Beyond 
that, we have increases in FFEL and increases in student aid 
application and a number of other issues that are driving our 
costs forward. As I indicated in my opening remarks, I think we 
are already reengineering to eat into that and my question, the 
one that stares me in the face as I look to the future, is 
whether we will be able to keep up that pace.
    Tom, you want to talk about the history of that math.
    Mr. Skelly. I think you hit upon it. The section 458 of the 
Higher Education Act, which provides permanent mandatory 
authority for administration of the student loan programs, 
covers both the Direct Student Loan Program and the FFEL 
program. We have costs of running both at the Department of 
Education, and the account includes those.
    For example, students who apply for a loan have to apply 
for a Pell Grant also. They fill out the same student aid 
application that all students do. We have costs of collecting 
loans. We have costs of running systems to monitor loans.
    Mr. Porter. Tom, can you break that down between the two 
programs?
    Mr. Skelly. We can do that, and we have provided that in 
the past. We would be glad to do it again.
    [The information follows:]

                    SECTION 458 SPENDING BY ACTIVITY
                        [In millions of dollars]
------------------------------------------------------------------------
                                                  FY 2000     Percent of
                                                  spending      total
------------------------------------------------------------------------
FFEL Only \1\.................................         $180           24
Direct Loans Only \2\.........................         $279           38
Common Activities \3\.........................         $276           38
                                               -------------------------
      Total...................................          735          100
------------------------------------------------------------------------
\1\ Administrative payments to guaranty agencies.
\2\ Direct Loan origination and servicing contracts.
\3\ Student aid information and application processing, the National
  Student Loan Data System, loan fund and data exchange and accounting
  systems, and other activities that support both loan programs. Direct
  Loans accounts for roughly 35 percent of each year's new loan volume.

    Mr. Porter. Can you do it off the top of your head in 
general terms?

              administrative payments to guaranty agencies

    Mr. Skelly. One of the big costs we have in the FFEL 
program for its administration is the payments we make to 
guaranty agencies.
    Mr. Porter. But that is not an administrative expense, is 
it?
    Mr. Skelly. It is counted. And back in 1996, when we were 
posing these levels, we knew that even if we--at the time we 
made payments to guaranty agencies to administer loans, and we 
gave them a percentage of each loan.
    Mr. Porter. I guess what I would like to get at here is the 
Direct Loan program as low-cost in terms of administrative 
expenses as we expected it would be 3 years ago, let's say, or 
are costs going up more rapidly than we expected, and if so, 
why?

                    total direct loan program costs

    Mr. Skelly. We have to look at two things, both the 
administrative costs for the program and the total costs for 
the program. The administrative costs, I think, continue to be 
higher than we would like them to be. We would like them to 
come down, and that is why one of the purposes of having the 
performance-based organization is to over time bring down the 
unit costs. But it is a new program that is starting up, and we 
have some costs that are higher initially than we would like.
    On the other hand, if you look at the total picture, you 
will see that Direct Loans are, under our estimates, still 
cheaper than FFEL loans. If you include the cost of all the 
other subsidies that are provided for the loan using Federal 
capital, paying for the cost of subsidizing that capital, 
collecting on the loans from students, when you roll in all of 
those costs, our picture shows that when using the interest 
rate assumptions that we have for this year through the year 
2005, Direct Loans are still cheaper than FFEL loans.
    If you look at just the Federal administrative costs, that 
is not true. Federal administrative costs are higher for Direct 
Loans. We feel you have to look at the whole picture.

                              pbo staffing

    Mr. Porter. Mr. Woods, members of your staff have indicated 
that the transfer of the entire Office of Student Financial 
Assistance to the PBO was the easiest way to staff PBO. 
Although it may have been the easiest way to staff PBO, I would 
like to know why this wholesale transfer was the best way to 
staff the PBO in light of its focus on operational activities. 
How will the chief operating officer focus his efforts on 
operational improvements while being responsible for all the 
policy activities related to student aid? Approximately what 
portion of your staffing and budget are associated with these 
policy activities? Will you provide the subcommittee with a 
listing or chart, whichever seems most appropriate, of the 
offices or components of the Office of Student Financial Aid 
that you consider to be policy and those that you consider to 
be operational?
    And, Dr. Longanecker, can you comment on this problem as 
well?
    Mr. Woods. I am keenly aware of the issue of policy versus 
operation. We worked very hard within the PBO since I got there 
to make this division as clean as we can. If I would put it 
simply, the Secretary and the staff that supports the Secretary 
makes policy. In the PBO we try to inform those decisions, an 
operational impact for adding a question about drug background 
or whatever. Those kinds of things are the sort of things that 
the PBO ought to be able to say it will cost this much and have 
this kind of operational impact.
    We are reorganizing the PBO creating an analytical function 
that will provide us with a performance measurement system. It 
will provide us with that analytical capability that I talked 
about. We imagine that in the future the entire policymaking 
function is resident within the Secretary's offices and within 
Dr. Longanecker's shop. So I will not have a policymaking 
function.
    If you go through person by person with the PBO, as I 
began, you found a handful of people, 2 percent, perhaps, of 
the total, who had a policy-related job. When you looked at 
what they were actually doing, practically no one was making 
policy. Most of that already was going on in Dr. Longanecker's 
shop.
    If I could add one other point. In negotiated rulemaking 
(neg reg), we had people who would be involved in that, what we 
decided to do was just take those people and detail them in the 
Secretary's office for the duration so that my office wouldn't 
be the policymaking arm in those negotiations. So I think I am 
running operations. I don't think that I have an overlap. I am 
working hard to have an analytical capability that would let us 
make better judgments. That is where I think we stand today.
    Mr. Porter. So all of those people who thought they are 
policy people are now operational people, and if you could give 
me a chart, you wouldn't show any positions that were policy, 
they would all be operational?
    Mr. Woods. I could give you the chart from before and show 
you all of the people that were there in what we called the 
policy office. I would be happy to do that, and then we can 
talk about what they are doing.
    Mr. Porter. They are not policy people any longer?
    Mr. Woods. No, sir.
    Mr. Porter. Okay. Mr. Bonilla.
    Mr. Bonilla. Mr. Chairman, my questions are lengthy and 
detailed, so I am going to go ahead and submit them for the 
record. Thank you.

             learning anytime anywhere partnership program

    Mr. Porter. Dr. Longanecker, can you give us some examples 
of what the 30 grants made under the Learning Anytime Anywhere 
Partnership (LAAP) program is doing? What I would like to look 
at is how many students would be reached by these efforts who 
would not otherwise have access to higher education, and how 
many institutions of higher education are currently employing 
distance learning programs. What are some examples of 
innovative student support services that institutions are 
employing under this program? How many applicants did you have 
for the first competition in the first Learning Anytime 
Anywhere program, and do the existing grants focus on serving 
low-income populations, minority groups, or rural areas? Do 
most of these populations have adequate access to a personal 
computer or other technology such that they can take advantage 
of distance learning or other software opportunities? That is a 
lot of questions.
    Dr. Longanecker. Fortunately, I can't answer most of them 
because we haven't given the grants yet. We are not quite sure 
exactly, but I will give you some history on the program, and 
then I might have Maureen, whose shop manages the program, also 
fill in.
    We expect to give roughly 30 grants in this area, but we 
had about 650 applications. So we have had a phenomenal 
response. We will be making those grants in July, I believe it 
is. Our anticipation is that these grants will go to the most 
creative ideas that really accomplish two or three things. One 
is quality assurance. One of the real concerns with 
asynchronous learning is how do we know we are providing a good 
quality educational experience? So there is the heavy focus on 
quality, but an equally strong focus on making sure that we 
have access to all Americans; that it is not just something 
that is available to the haves, but that the have nots have a 
shot at it. Third is that some of these ideas need additional 
resources to bring to scale. They are a very small operation, 
but to be able to essentially take what has been a very strong 
idea and take it to scale needs some additional resources. 
Those are three of the things that we are trying to focus on as 
we look at the Learning Anytime Anywhere program proposals as 
they have gone in.
    Maureen, would you like to fill in on that?
    Ms. McLaughlin. What David said is correct in that we just 
received the proposals, and we sent them out to the reviewers. 
In a quick look, sort of scanning the proposals, we found a 
fair amount of variety, again looking very quickly. We had 
proposals from every part of the country. There were some 
people who were more concerned that it would be specifically in 
certain jurisdictions. When we looked at the lead applicants, 
we found that it was really throughout the country that we 
received applications.
    In the Learning Anytime Anywhere Partnership program, we 
have institutions of higher education, but we also have private 
sector participants. There will be a variety in the kinds of 
people who come in with proposals and the kinds of partnerships 
that we will be funding. In some cases there will probably be 
more private sector involvement than we have had in the past 
coupled with institutions of higher education. David really 
emphasized the issues that we are concerned about; the quality 
issues, how do you measure quality, how do you ensure quality, 
how do you ensure that appropriate students are in appropriate 
kinds of learning.
    What kinds of student support services do people need to be 
able to effectively use these new kinds of technology? Again, 
in looking quickly at a number of applications, and I only 
personally looked at a small number, many of them in the 
section on the front mentioned that they were concerned about 
disabled, that they were concerned about low income, that they 
were concerned about people who might not be able to take 
advantage of traditional offerings in terms of time and 
location. So what we see there is a great deal of interest and 
variety.
    We would be glad, after we finish this first round of 
applications, to come up and talk with you or your staff about 
what kinds of applications came in and who we invited back. We 
are running the Learning Anytime Anywhere Partnership program 
through the FIPSE program because in many ways it is a similar 
kind of orientation to FIPSE. It is innovation, it is 
experimenting with new ideas. We felt that they had a good 
strong background in how to run a competition like this. So we 
would be glad to come up and talk to you.
    Mr. Porter. Thank you.

                     New Higher Education Programs

    Dr. Longanecker, your fiscal year 2000 budget contained 
several new programs, Preparing for College, funded at $15 
million, and College Competition Challenge Grant, funded at $35 
million. However from the descriptions given so far, I fail to 
see how those programs significantly differ from activities 
which would be carried out under GEAR UP and TRIO. Can you give 
us what the differences are? Why are you requesting authority 
for newer higher education programs--this is exactly what Mr. 
Dickey and Mr. Bonilla said--just a few months after the 
reauthorization of the Higher Education Act was completed? Were 
these proposed new programs considered during that process, and 
why weren't they adopted in that piece of legislation? How 
specifically would the Preparing for College program result in 
more eighth-graders taking algebra? Exactly how many more 
eighth-graders will take algebra and successfully complete it, 
and how would you measure and track this?
    Dr. Longanecker. Let me deal with the two programs 
differently because they are somewhat different. Let me start 
where you came close to finishing, that is, why pursue the year 
after reauthorization. I think the reauthorization was a very 
strong reauthorization and will move us strongly toward being 
able to serve students better than we have in the past. Not 
every good idea was in there. Some other good ideas came along, 
and we want to pursue those.

                         Preparing for College

    Preparing for College is different than GEAR UP or other 
activities in early intervention in that it is intended to 
allow us to do sort of a national campaign to provide better 
information. It is not unlike what we provide in the area of 
drug education and drug prevention where we have been able to 
do so through effective use of Federal--not Federal dollars, 
but at a national level to provide better information to 
students. Some States and some institutions do a pretty good 
job in this regard. We also find, our research is showing, that 
an awful lot of families and young people and older adults 
simply don't have good information on which to act. This was an 
effort to put that together and have some resources at the 
Federal level to be able to devote to that. The American 
Council on Education and a number of the higher education 
organizations have begun a campaign in this regard, but we want 
to be able to complement those efforts and expand those. That 
is the Preparing for College piece. It comes out of an effort 
we have had called Think College Early.

                       College Completion Grants

    The second program is the College Completion Grants. This 
is really to address a concern, I indicated in my comments, 
that one area was overlooked in reauthorization. What American 
higher education does better than anyone else in the world is 
get people into college. What we do less well than some other 
countries in the world is get them through college. Our 
research shows that we are losing them in the first 2 years. If 
we can get a student past the freshman year and into the 
sophomore year, we have a much better chance that they will 
graduate. If we can get them past the sophomore year and into 
the junior year, we have a very high probability that we will 
be able to take them to completion.
    This was an effort to allow us to have some modest 
resources to focus on those institutions that were willing to 
accept the challenge to really try and change that cultural 
achievement in postsecondary education, to really up our 
college completion, and then be able to take those ideas that 
seem to work there and share them more broadly.
    Mr. Porter. Am I correct that neither one of these programs 
is authorized?
    Dr. Longanecker. That is correct.
    Mr. Porter. Because they could have been authorized and 
weren't as part of the higher education amendments?
    Dr. Longanecker. That is correct.

                          Role of Authorizers

    Mr. Porter. I tend to come down exactly where--although I 
think you have pointed out a very important need, it ought to 
be addressed by the authorizers, and apparently it hasn't, at 
least to your satisfaction, as completion. It seems to me we 
have a lot of very good programs that we know are working well 
that would get that much less money under the budget than would 
be the case if we funded these new programs. Perhaps--we 
started out 5 years ago focusing on how we could reduce the 
number of programs, look at every program and see which one is 
really doing well and getting results for people, and with an 
idea that we would consolidate rather than expand. Now we seem 
to be back in the mode of adding one new program after another.
    I much prefer having the authorizers look at this and 
respond to your concerns in the way they ought to, and my great 
worry is that we are going to come down to some negotiation on 
the bill at the end, and these things are going to be pushed in 
here and plus up the number of programs once again. I think 
somebody ought to take a much longer look at exactly what we 
ought to do than work through that kind of process.
    You have done a fine job. I understand that you are leaving 
in 6 weeks?

                     Departure of David Longnecker

    Dr. Longanecker. Yes. I am going out West.
    Mr. Porter. After 4 years with OMB and 6 years with the 
Department?
    Dr. Longanecker. Four years with CBO.
    Mr. Porter. I am sorry, I meant to say CBO. And 6 years as 
Assistant Secretary in the Department. And you don't like 
administering $50 billion anymore?
    Dr. Longanecker. Actually, I turned that over to Greg. 
There wasn't much left to do. No, that is not true. I had a 
wonderful time, but 6 years is plenty of time to be an 
Assistant Secretary.
    Mr. Porter. Where are you going?
    Dr. Longanecker. Western Inter-State Commission for Higher 
Education.
    Mr. Porter. Then you won't have to come and get badgered by 
all of these questions by Congress anymore?
    Dr. Longanecker. That is right. Although I will tell you 
that while we haven't always agreed, I certainly have 
appreciated your chairmanship and the style and the intellect 
and the approach that you bring to the chair. It has been a 
pleasure to work with you over the last 6 years.
    Mr. Porter. I am trying to compliment you. Thank you for 
those very generous remarks. You have done a wonderful job 
there. I think you have really made a great deal of progress. 
All of us have made a great deal of progress over this period 
of time, Congress and the Administration. I find that we are 
very much on the same wavelength; that is, trying to spend the 
dollars very wisely and get real results for young people 
attempting to help improve their education. I think you have 
advanced that cause a great deal, and we wish you very well in 
your new position.
    Dr. Longanecker. Thank you very much. I have enjoyed very 
much the opportunity to appear before you, and work with you, 
and I wish you the best. I agree--I think that we have 
accomplished a great deal in postsecondary policy. I have been 
really blessed as an Assistant Secretary. I happen to have one 
of those areas that for the last 6 years has received a lot of 
attention and had the opportunity to really make a difference, 
and I think a positive difference. If you look back over some 
of the things that have happened, it has been a pretty neat 
time. But I think it is time for both the agency and for me to 
move on. I wish you the best.
    Mr. Porter. Thank you very much. Good luck to you.
    Dr. Longanecker. You are welcome.
    Mr. Porter. The subcommittee will stand briefly in recess.
    [The following questions were submitted to be answered for 
the record:]
    Offset Folios 894 to 1794 Insert here

<SKIP PAGES = 901>

    Offset Folios 1795 to 2074 Insert here

<SKIP PAGES = 280>



                           W I T N E S S E S

                              ----------                              
                                                                   Page
Cichowski, C.A.......................................251, 311, 327, 423
Corwin, T.M....................................................131, 371
Davila, R.R......................................................   251
Elzey, Thomas....................................................   205
Forgione, P.D....................................................   423
Garibaldi, Antoine...............................................   205
Hehir, T.F.......................................................   327
Heumann, J.E...................................................251, 327
Johnson, Judith..................................................   131
Jordan, I.K......................................................   311
Longanecker, D.A.................................................   475
Malveaux, Floyd..................................................   205
McGuire, C.K.....................................................   423
McLaughlin, M.A..................................................   475
McNeil, P.W......................................................   371
Pompa, Delia.....................................................   131
Priesto, C.R...................................................205, 475
Riley, R.W.......................................................     1
Rodriguez, R.F.................................................251, 311
Schroeder, F.K...................................................   327
Seelman, K.D.....................................................   327
Skelly, T.P..................................1, 131, 327, 371, 423, 475
Slaughter, Hon. L.M..............................................   251
Swygert, H.P.....................................................   205
Thompson, W.S....................................................   251
Tinsley, Tuck, III...............................................   251
Woods, G.R.......................................................   475


                               I N D E X

                              ----------                              

                        DEPARTMENT OF EDUCATION
                         Secretary of Education

                                                                   Page
``The victory is in the classroom''..............................     5
21st century community learning centers......3, 7, 21, 57, 76, 106, 125
Accountability....................................3, 7, 31, 33, 43, 56,
Addressing the needs of children whose parents are deployed......   113
Administrative costs of department's programs....................    38
Adult education...............................................5, 10, 28
After-school programs (see also 21st century community learning 
  centers).......................................................21, 22
America Counts initiative........................................    10
America Reads initiative.........................................    10
American Indian teacher corps....................................  4, 9
AP exam subsidies for poor children..............................    34
Average class size by State--grades K-3.......................... 60-62
Average teacher hire increase per district and school............    63
Bilingual education............................................4, 9, 11
Biography of Richard W. Riley....................................    12
Bipartisan support for education..................1, 17, 24, 37, 38, 40
Budget spending caps (See also Discretionary funding)........25, 26, 42
California class-size reduction waiver...........................    27
California, class size and reading scores........................    44
Census and the student population................................    23
Chairman's closing remarks.......................................    48
Chairman's opening comments......................................    18
Charter schools............................................4, 8, 94, 99
Class size reduction initiative....4, 9, 43-45, 57, 59, 60, 63, 64, 118
College completion challenge grants program..................10, 50, 52
Comprehensive school reform initiative (see School reform)
Computer donation program........................................    34
Computer learning program--``I can learn''.......................    39
Computer program learning evaluation.............................    40
Computers, access to............................................. 3, 11
Computers, student to multimedia computer ratio..................    65
Department staffing, decline in..................................    15
Departmental strategic plan......................................54, 72
Departmental student aid management, responsibilities and costs..    80
Direct loan administrative costs.............................55, 74, 80
Direct loan portfolio, FYs 1995-2004.............................    81
Direct loan program......................................51, 55, 76, 79
Discipling disabled students.....................................    29
Discretionary funding....................................23, 24, 26, 31
Dissemination of hate crimes prevention materials................    86
Dissemination of research results to teachers....................   108
Diversity training...............................................    90
Dollars to the classroom.............................35, 37, 38, 73, 99
Early childhood research.......................................126, 127
Easter Seals early childhood development project.................   102
ED-FLEX..................................................4, 24, 43, 101
Education for the handicapped...............................25, 31, 117
Education funding, program consolidations and eliminations.......    18
Education funding, proposed cuts and restorations................    16
Education technology (See also technology)..............11, 32, 66, 112
Educational outcomes.............................................   126
Educational standards (See also goals 2000, national education 
  goals)...................................................5, 7, 18, 32
Eisenhower professional development state grants................. 9, 18
ESEA reauthorization.............................3, 4, 8, 9, 14, 31, 56
Evaluating federal education program effectiveness...............    97
 Even start......................................................    98
Federal direct student loans, loan statements....................    46
Federal programs erroneously tagged as education.................    17
Federal role in student lending..................................    79
FFEL--Federal family education loan program......................76, 78
Flexibility in use of federal funds at local level...............    45
Forward funding..................................................23, 24
Full-service community schools (See also 21st century community 
  learning centers)..............................................   124
FY 1995 education rescissions....................................    16
FY 2000 Department budget r1-11, 21, 25, 40, 42, 46, 55, 57, 58, 70, 72
Gear up initiative................................3, 10, 14, 28, 30, 52
Goals 2000........................2, 9, 18, 66, 68, 73, 75, 76, 99, 128
Governors' feedback on presidential proposals....................    58
Guarantee agency and public participation in voluntary flexible 
  agreements.....................................................    77
Hate crimes prevention........................................... 81-99
Hate crimes prevention materials..............................83-89, 91
Hate crimes prevention meetings.................................. 81-82
Hate crimes prevention partnerships..............................    90
Hate crimes prevention, a manual for schools and communities.....    88
Head Start.................................................34, 126, 127
Healing the hate, a national bias crime prevention curriculum for 
  middle schools.................................................    87
Health education assistance loans................................   129
Higher education access, preparedness and completion..........3, 10, 50
Higher Education Act........................................40, 50, 123
IDEA discipline provisions......................................103-104
IDEA regulations..........................15, 35, 36, 46, 112, 114, 118
IDEA--Individuals with Disabilities Education Act............25, 31, 51
Impact aid...................................................35, 36, 46
Internet access..............................................33, 47, 65
Internet filtering/cyber patrol systems..........................    47
Internet site for hate crimes prevention.........................    89
Internet, a parents' and teachers' guide.........................    48
Internet-based instruction and student achievement...............    67
Javits gifted and talented program...............................    75
Loan consolidations, ``truth-in-lending standards''..............    78
Magnet schools...................................................    13
Matching requirements, proposed FY 2000 appropriations language..    58
Mathematics...........................39, 52, 57, 70, 98, 101, 108, 125
Measures of academic achievement for Title I.....................    56
Mentoring, tutoring and counseling (See Gear up initiative)
Middle school teacher training in technology program.............    52
Misapplication of the Title I ``hold harmless''..................   119
National assessment governing board--national assessment target 
  reading level..................................................    93
National assessment of educational progress...............2, 37, 43, 92
National charter school finance study............................   100
National education goals.........................................71, 72
National programs--local needs................................... 2, 42
National programs--State needs and accountability................    43
National research council report on reading......................   109
National tests in reading, math and science......................    45
Native American children........................................36, 114
NCES report on teacher preparation and qualifications............   112
New program proposals............................................51, 53
NIH teacher preparation training in reading......................44, 45
Number of Department of Education programs...................17, 34, 35
Number of school districts and schools nationally................    63
Office of student financial assistance programs..................    55
Opening statement by Secretary Richard W. Riley..................   1-5
Operating plans..................................................    39
Pell grants......................................................10, 55
Performance indicators.......................................38, 67, 68
Performance management...........................................    54
Politics versus good policy......................................    38
Prepared statement of Secretary Richard W. Riley.................  6-11
Preparing for college initiative.................................51, 52
Primary education intervention grants........................51, 53, 59
Private school vouchers..........................................    13
Project SERV initiative (School emergency response to violence)..     9
Quality teachers and high standards in every classroom initiative     9
Reading..........2, 37, 44, 54, 57, 70, 71, 92-94, 98, 108-110, 125-127
Reading Excellence Act...........................................    26
Research and development budget request.....................70, 71, 102
Research on teaching reading.....................................   108
Safe and drug-free schools.......................................     4
School choice....................................................13, 14
School choice--course selection..................................    14
School construction and Davis-Bacon provisions...................    35
School construction and modernization tax incentive..............     4
School construction program and class size...........7, 19, 20, 26, 107
School health care.............................................116, 117
School modernization.............................................    20
School reform (see also Goals 2000)........................2, 8, 40, 69
School report card issue.........................................    13
School safety..................................................3, 9, 22
School vouchers..................................................    13
School-to-work.................................................127, 128
Science.........................52, 67, 70, 101, 108, 110, 112, 125-127
Senior officer performance agreements............................    54
Social promotion................................................. 7, 22
Special education (see also Education for the handicapped; and 
  IDEA)............................................36, 51, 53, 103, 105
Special education ``related services''.........................116, 117
Special education advance appropriation.........................21, 115
State administration of federal programs.........................   100
Student aid (See also Student loans, Pell grants, Wor50, 55, 76-81, 123
Student loan administration, budget request......................    76
Student loan administrative spending and responsibilities........    79
Student loans (See also Direct loan51, 55, 74, 76-81, 122-124, 129, 130
Study of educational resources and federal funding (SERFF).......    65
Supreme Court decision on coverage of school health care.........   116
Teacher hires, Fall 1999 estimated increase in...................    63
Teacher quality enhancement grants...............................   112
Teacher quality in Title I schools...............................   120
Teacher quality/recruitment......................................8, 128
Teacher training............................................4, 109, 111
Teacher training in technology......................32, 51, 52, 65, 111
Teacher training, standards and accountability...................    33
Teachers and teaching.........................................4, 8, 110
Technology innovation challenge grants program...................    65
Technology literacy challenge grants...............3, 7, 19, 32, 64, 67
Technology research and development..............................    71
Title I accountability (See also ESEA reauthorization)....3, 56, 57, 95
Title I and classroom aides and teachers........................56, 120
Title I funding..................................8, 21, 41, 94, 95, 121
Title I program effectiveness........................24, 41, 56, 96, 98
Title VI Innovative Education program strategies state grants.... 9, 18
TRIO programs........................................10, 14, 28, 30, 52
Troops to Teachers...............................................     4
Vocational education.............................................42, 59
Voluntary flexible agreements...............................77, 78, 122
White House Millennium Council...................................    74
Witnesses........................................................     1
Women and minorities, employment of..............................    28
Work-study.......................................................    10

    Elementary and Secondary Education and Bilingual and Immigrant 
                               Education

Accelerating improvement and increasing accountability...........   137
After school program.............................................   193
Bilingual education............................................152, 170
    Data on how quickly bilingual children are learning English..   159
    Demographic changes..........................................   146
    Distribution of funds........................................   147
    Effectiveness................................................   148
    Evaluations..................................................   149
    Exemplary projects...........................................   150
    Graduate fellowships.........................................   201
    Grants for new districts.....................................   147
    How programs work together...................................   170
    Instructional methods........................................   148
    Instructional services.......................................   200
    Performance indicator......................................159, 163
    Professional development...................................167, 173
    Shortage of trained teachers.................................   147
    Thirtieth anniversary of Title VII...........................   146
    Time in bilingual classes..................................158, 159
Biographical sketch of Judith Johnson............................   145
Biographical sketch of Delia Pompa...............................   131
Class size reduction......................................139, 166, 193
Community update newsletter......................................   194
Comprehensive school reform demonstration program..............164, 186
Congressional justifications:
    Bilingual and immigrant education............................   884
    Education for the disadvantaged..............................   626
    Education reform.............................................   540
    Impact aid...................................................   689
    Indian education.............................................   862
    Reading excellence...........................................   849
    School improvement programs..................................   743
Dalton, Georgia's Georgia report.................................   146
Duration of activities funded by the Eisenhower program..........   175
Early intervention...............................................   161
Educating students at pre- and post-secondary levels.............   155
Educational technology...........................................   171
Eisenhower professional development State grants.................   197
Enhancing public school choice...................................   143
Equity and excellence............................................   132
Evaluation of Title VI program...................................   173
Flexibility and accountability...................................   133
Flexibility in the class size reduction initiative...............   166
Foreign language assistance....................................153, 201
Funding request for the Reading Excellence Act...................   175
Helping every student master the basics..........................   139
I Can Learn program..............................................   171
Immigrant education.......................................153, 163, 202
Immigrant education performance indicator........................   163
Impact aid:
    Average loss of funds........................................   158
    Budget request...............................................   157
    Number of schools that would not receive funds...............   157
    Payment system...............................................   158
    Timely payments..............................................   158
Implementation of the comprehensive school reform demonstration 
  program........................................................   189
Indian education.................................................   182
Interagency collaboration to meet family needs...................   195
Limited English Proficient students............................147, 152
Local flexibility................................................   148
Low-performing schools.........................................164, 165
Migrant education................................................   183
Normal curve equivalents.........................................   149
Opening statement:
    Judith Johnson...............................................   137
    Delia Pompa................................................146, 151
Office of Elementary and Secondary Education's overall budget 
  request........................................................   138
Parent involvement...............................................   134
Postsecondary activities of the class of 1992....................   156
Postsecondary education..........................................   156
Professional development for school principals and guidance 
  counselors.....................................................   195
Proposition 227..................................................   160
Quality teaching for all students................................   142
Ready to Learn...................................................   191
Recruitment of bilingual teachers................................   173
Safe and drug free schools and communi143, 155, 160, 161, 162, 175, 197
    Coordinators.................................................   180
    Project SERV.................................................   179
Safe schools/healthy students initiative.........................   177
School construction..............................................   138
School violence........143, 155, 160, 161, 162, 175, 177, 179, 180, 197
School-based reform..............................................   134
Snacks for students in after-school programs.....................   197
Social promotion...............................................168, 169
Standards in the classroom.......................................   132
Star schools.....................................................   175
State and local reform and improvement...........................   141
State awarded comprehensive school reform demonstration program 
  funding as of March 1999.......................................   188
Students' progress toward State standards........................   154
Teacher preparation--math........................................   191
Teacher quality and class size...................................   133
Teacher training in technology...................................   133
Title I:
    New formula distribution.....................................   184
    Hold harmless................................................   169
    Low performing schools.....................................164, 165
    Budget request.............................................167, 168
Title VII effectiveness..........................................   148
Witnesses......................................................131, 136
Zero funding request for Title VI................................   172

                           Howard University

Accreditation....................................................   213
Advanced Degrees:
    Awarded....................................................207, 215
    Trend......................................................236, 240
Alumni...............................................208, 218, 242, 244
Analytical Abstract..............................................   207
Biological Sketch of Patrick Swygert.............................   219
Budget Request...................................................   225
Carla Peterman...................................................   222
Closing Remarks..................................................   241
Comparision of Average Composite SAT Scores......................   214
Congressional Justification......................................  1466
Construction Projects............................................   237
DC Resident Tuition Initiative...................................   245
Distance Learning..............................................238, 239
Employee Productivity..........................................207, 216
Endowment Fund............................................208, 229, 246
Enrollment.....................................................211, 212
Facts 1999 Publication...........................................   206
Federal Funding..................................................   245
GPRA Performance Indicators....................................208, 242
Human Genome Research Project....................................   227
Interdisciplinary Science and Engineering Center225, 226, 228, 246, 247
Introduction of Witnesses........................................   205
ISE Center Co-Location Program.................................225, 227
Minority Health Issues...........................................   231
National Achievement Scholars..................................207, 230
Opening Statement................................................   205
Percentage of University Revenue to Federal Appropriations.......   242
Prepared Statement by Patrick Swygert............................   209
Renovation of Residence Halls....................................   237
Research Productivity............................................   207
Service 1999 Publication.........................................   206
Special Reports for the U.S. Congress............................   206
Strategic Framework for Action...................................   206
Student Retention..............................................234, 235
Trade Policy--Carla Peterman.....................................   232
Trustee Jack Kemp................................................   221
Work with D.C. Schools...........................................   243
Y2K..............................................................   249

           Special Institutions for Persons With Disabilities

American Printing House for the Blind:
    Adequacy of the President's Budget Request...................   279
    Advisory Services Initiatives..............................261, 264
    Educational and Technical Research...........................   266
    Educational Materials........................................   264
    Expert Database Service......................................   282
    Formatting Issues............................................   283
    Number of Students Served....................................   294
    Optical Aids Training Kits...................................   290
    Other Income Table.........................................293, 295
    Protocols for Assessment of Visual Functioning...............   289
    Research Coordination........................................   288
    Research Initiatives.........................................   261
    Student Use Initiative.......................................   291
Biographical Sketches:
    Judith E. Heumann............................................   260
    Tuck Tinsley III.............................................   269
    Robert R. Davila.............................................   278
Budget Request.............................253, 256, 257, 317, 318, 321
Congressional Justifications:
    American Printing House for the Blind........................  1104
    Gallaudet University.........................................  1140
    National Technical Institute for the Deaf....................  1120
Education of the Deaf Act......................................259, 320
Endowment Grant Program..............................254, 257, 276, 313
Gallaudet University:
    Budget Request........................................317, 318, 321
    Construction Request.............................313, 317, 319, 321
    Employment Outcomes..........................................   323
    Endowment Grant Program....................................313, 322
    Enrollment Targets...........................................   322
    Fundraising..................................................   317
    Graduation Rates.............................................   325
    Leadership in Setting the Standard for Educational Practice..   316
    Operations and Initiatives...................................   318
    Percent of Federal Support...................................   325
    Pre-College National Mission Programs........................   312
    Student Academic and Career Advancement......................   314
    Student Internships..........................................   324
    Student Retention............................................   312
    Technology Improvements....................................312, 323
Inflation Calculation--Basis for Estimates.......................   310
National Technical Institute for the Deaf:
    Academic Program Enhancements................................   271
    Accomplishments..............................................   270
    Actual Enrollment Versus Acceptances.........................   299
    Admissions and Enrollment...................271, 275, 287, 299, 307
    Budget Request...............................................   273
    Career Development...........................................   275
    Carry-over...................................................   296
    Cost Savings.................................................   304
    Dormitory Construction...........................254, 257, 276, 280
    Dormitory Construction--Matching Requirement...............280, 281
    Endowment Grant Program...............................257, 276, 282
    First-Year Retention.........................................   304
    Fundraising................................................271, 296
    Graduation Rates.............................................   305
    Oracle Financial and Human Resources System--NTID 
      Contribution...............................................   286
    Outreach.....................................................   276
    Percentage of Federal Support................................   307
    Percent of Non-Federal Revenue...............................   303
    Placement Rate...............................................   306
    Recruitment and Retention of Staff at NTID...................   285
    Research.....................................................   276
    Resolution of GAO Issues.....................................   301
    Scholarships and Federal Support.............................   297
    Social Security Administration Research Findings.............   300
    Strategic Plan.............................................270, 274
    Student Accomplishments......................................   275
    Tuition, Room, and Board Revenue...........................305, 309
Opening Statement:
    Judith E. Heumann.....................................253, 256, 318
    I. King Jordan.............................................311, 314
    Robert R. Davila...........................................270, 273
    Tuck Tinsley III...........................................261, 263
Performance Measures and Indicators........254, 258, 271, 312, 319, 324
Remarks by Hon. Anne M. Northup..................................   251
Remarks by Hon. Louise M. Slaughter..............................   251
Witnesses......................................................251, 311
Biographical sketch of Judith E. Heumann.........................   335
Congressional justifications:
    Rehabilitation services and disability research..............  1001
    Special education............................................   916
Government Performance and Results Act indicators..............347, 353
Opening statement..............................................327, 331
Rehabilitation services and disability research:
    Budget Request.............................................329, 333
    Assitaive Technology.......................................334, 360
    Independent Living...........................................   334
    National Institute on Disability and Rehabilitation Researc334, 360
    Technology initiatives.......................................   360
    Vocational rehabilitation State grants and the Workforce 
      Investment Act.............................................   344
    Vocational rehabilitation State grants, funding............334, 343
    Vocational rehabilitation personnel..........................   370
Special education:
    Advance funding, impact......................................   368
    Budget request...................................328, 332, 337, 367
    Construction of schools......................................   341
    Class size.................................................345, 367
    Disability categories........................................   337
    Drug exposed infants.........................................   346
    Early childhood..............................................   339
    Early intervention...........................................   366
    Expenditures and expenditures per pupil....................342, 343
    Funding for special education................................   341
    Health services (Garret case)..............................336, 369
    Identification of children with disabilities.................   357
    Infants and Families Programs, performance targets...........   353
    Infants and Toddlers.........................................   353
    National Council on Disability, progress report..............   365
    Parent information centers............................340, 358, 363
    Personnel preparation and professional development.........353, 366
    Preschool grant program......................................   351
    Preschool children.........................................351, 352
    Primary Education Intervention initiative....................   349
    Research and innovation, coordination........................   362
    Technology and media services funding........................   363
Witnesses........................................................   327

           Vocational and Adult Education and School-to-Work

Accountability for results.......................................   376
Accountability provisions in new legislation.....................   371
Addressing the skills gap........................................   375
Adoption of NASH reform strategies...............................   412
Adult education:
    Basic skills and literacy....................................   377
    Education and welfare-to-work................................   385
    Immigration initiative.......................................   402
    Increase for national activities.............................   384
    Requested increase.........................................372, 399
    National activities--model EEL programs......................   405
    Technology initiative........................................   394
Adult education State grants:
    ESL services.................................................   400
    Expenditures on ESL..........................................   403
    Funding formula..............................................   401
    Increase.....................................................   384
    Percentage of adult education State grants used for ESL......   401
Adult literacy and learning disabilities.........................   420
Biographical sketch of Patricia W. McNeil........................   381
Common ground partnership initiative.............................   403
Community-based technology centers...............................   373
Congressional justifications:
    Education Reform.............................................   540
    Vocational and Adult Education...............................  1156
English-as-a-second language:
    Adult education State grant expenditures on ESL............401, 403
    Adults eligible for ESL services.............................   400
    Characteristics of ESL students..............................   382
    Enrollment in ESL programs...................................   384
    ESL initiative...............................................   419
    Services under adult education State grants..................   400
    Serving ESL students.........................................   384
Focus on program performance and accountability..................   382
High School reform...............................................   415
How adult education has played a role in welfare reform..........   388
Improving teacher professional development.......................   393
New American high schools--improved students outcomes............   408
New American high schools initiative.............................   406
Opening statement of Patricia W. McNeil........................371, 375
Percentage of immigrants who are limited-English proficient......   402
Performance indicators for adult education State grants..........   382
Perkins Act:
    Accountability provisions....................................   422
    Flexibility..................................................   421
Professional development.........................................   417
Proposed change in setasides in adult and vocational education...   413
Research on literacy programs and their effectiveness............   393
Resources to serve welfare-to-work clients.......................   398
Results of research on workplace learning........................   392
School-to-work:
    Continuing school-to-work....................................   398
    Federal phase-out of school to work..........................   394
    Request......................................................   374
    Summaries of studies of school-to-work programs in Boston, 
      Philadelphia, and New York State...........................   396
States with greatest concentration of immigrants.................   416
Technical skills and high-level academics needed for careers in 
  the 21st century...............................................   379
Tracking transitions to continuing education and employment......   383
Vocational education:
    Basic grants.................................................   416
    Funds requested............................................373, 421
    Investments in vocational education..........................   392
    National assessment..........................................   414
    No increase for vocational education State grants............   383
Witnesses........................................................   371

            Education Research, Statistics, and Improvement

21st Century community learning centers (after s425, 431, 435, 436, 473
    Effectiveness of program.....................................   438
    Examples of projects.........................................   437
    Social promotion.............................................   438
America counts...................................................   439
Biographical sketch of Cyril Kent McGuire........................   433
Budget request...................................................   423
    21st Century community learning centers....................425, 431
    Dissemination and Statistics.................................   425
    Need for increase............................................   434
    Professional development...................................426, 430
    Research..............................................424, 427, 470
    Statistics and assessment..................................425, 429
Civics education.................................................   461
Class size.....................................................471, 474
Comprehensive school reform......................................   462
Congressional directives.......................................440, 443
Congressional justifications:
    Education Reform.............................................   540
    Education, Research, Statistics, and Improvement.............  1503
Dissemination........................................425, 428, 446, 465
    Electronic...................................................   428
Effectiveness and performance of programs:
    21st Century community learning centers......................   438
    Research.....................................................   460
Fund for the Improvement of Education.....................448, 454, 457
    Livable communities..........................................   451
    National Constitution Center.................................   457
    Troops to Teachers...........................................   448
    Worksite schools.............................................   450
    Writing initiative...........................................   454
Interagency coordination........................424, 427, 441, 453, 468
International education exchange.................................   461
Large scale studies..............................................   463
Livable communities..............................................   451
National Board for Professional Teaching Standards...............   455
National Center for Education Statistics..................425, 429, 444
National Constitution Center.....................................   457
Office of Educational Research and Improvement:
    Authority..................................................435, 471
    Status in the community......................................   434
Opening statement..............................................423, 427
Professional development.......................................442, 461
    Budget request...............................................   426
    Mathematics..................................................   430
Promising and exemplary practices................................   428
Regional educational laboratories................................   456
Research:
    Budget Request........................................424, 427, 470
    Class size reduction, research on............................   471
    Dissemination of research.............................425, 428, 446
    Initiatives, new...........................................436, 458
    Interagency coordination....................424, 427, 441, 453, 468
    Other projects.............................................424, 432
    Performance................................................460, 465
    Research and development...................................427, 465
    Technology, research and.....................................   467
    Types of research..........................................443, 463
Social promotion.................................................   438
Teacher training.....................................426, 430, 442, 461
Troops to Teachers...............................................   448
Statistics and assessment.................................425, 429, 444
Technology, educational..........................................   467
    Budget request...............................................   431
Voluntary national tests.......................................440, 457
Witnesses........................................................   423
Worksite schools.................................................   450
Writing initiative...............................................   454

        Student Financial Assistance and Postsecondary Education

Access America and privacy concerns..............................   520
Aid delivery system..............................................   486
Administrative budget............................................   509
AP test fee subsidy program......................................   536
Authorizers' role................................................   515
Biographical sketch:
    David Longanecker............................................   483
    Gregory Woods................................................   492
Child care access means parents in school grants.................   521
College completion grants........................................   515
College work study...............................................   524
Congressional justifications:
    College Housing and Academic Facilities Loan Program.........  1481
    Federal Administration of Postsecondary Education Programs...  1303
    Federal Family Education Loan Program Account................  1333
    HBCU Capital Financing Program...............................  1491
    Higher Education.............................................  1343
    Student Financial Assistance.................................  1214
    Student Loans Overview.......................................  1271
DC resident student support program..............................   523
Departure of David Longanecker...................................   576
Direct loans:
    Administrative costs........................510, 511, 528, 529, 531
    Total program costs..........................................   511
Distance learning................................................   495
Federal response to rising college costs.........................   494
GEAR UP:
    Examples of successful early intervention programs...........   501
    Similar programs.............................................   497
    Versus TRIO................................................496, 499
Government Performance and Results Act (GPRA) line item..........   525
Graduate assistance in areas of national need....................   522
Guaranty Agencies:
    Administrative payments......................................   511
    Conflict of interest.........................................   533
    Lending......................................................   533
HBCU capital financing program...................................   526
HBCU's...........................................................   498
HEA Reauthorization..............................................   533
Higher education inflation.......................................   493
Higher education programs.................................477, 480, 514
Hispanic serving institutions....................................   519
Impact of Student Aid............................................   493
Learning anytime anywhere partnership program....................   513
Longanecker leaves department....................................   516
Marketing of direct consolidation loans..........................   528
Opening Statements:
    David Longanecker............................................   475
    Gregory Woods................................................   484
OSFA FY 2000 operating budget....................................   490
Pell Grants......................................................   534
Performance Based Organization (PBO).............................   484
    FY 2000 Operating Budget.....................................   490
    Interim performance plan.....................................   488
    Investments..................................................   486
    Staffing.....................................................   512
Preparing for college............................................   515
Preserving access to postsecondary education.....................   495
Promoting improvement and innovation...........................477, 481
Streamlining operations..........................................   495
Student aid servicing costs......................................   510
Student financial assistance...................................476, 479
Student loan policy proposals....................................   531
Student support services.........................................   531
Teacher training.................................................   520
Title III Federal funding........................................   518
Title III performance indicators.................................   518
Title V Federal funding..........................................   518
TRIO Program.....................................................   535
    Applicants...................................................   498
    Competition cycle............................................   497
    Program differences..........................................   497
    Versus GEAR UP.............................................496, 499
Voluntary Flexible Agreements (VFAs)......................508, 532, 536
    Impact on open and fair competition in FFEL..................   532
Web-based education commission...................................   525

</pre></body></html>
